<html>
<title> - WATER POLLUTION RISKS OF METHYL TERTIARY BUTYL ETHER (MTBE)</title>
<body><pre>[Senate Hearing 105-407]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-407


 
      WATER POLLUTION RISKS OF METHYL TERTIARY BUTYL ETHER (MTBE)

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   ON

  THE PRESENCE OF METHYL TERTIARY BUTYL ETHER (MTBE) IN THE NATION'S 
                              WATER SUPPLY

                               __________

                DECEMBER 9, 1997--SACRAMENTO, CALIFORNIA

                               __________

  Printed for the use of the Committee on Environment and Public Works


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 47-218 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED FIFTH CONGRESS

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    DECEMBER 9, 1997--SACRAMENTO, CA

                                                                   Page

                           OPENING STATEMENT

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
    Letters, exchange between Senator Boxer and EPA on MTBE in 
      California.................................................     4

                               WITNESSES

Balter, Nancy J., principal, Center for Environmental Health and 
  Human Toxicology, and former associate professor of 
  pharmacology, Georgetown University Medical Center, Washington, 
  DC.............................................................    37
    Article, Causality Assessment of the Acute Health Complaints 
      Reported in Association with Oxygenated Fuels..............    89
    Prepared statement...........................................    87
Brautbar, Nachman, professor of clinical medicine, University of 
  Southern California School of Medicine.........................    35
    Prepared statement...........................................    85
Dougherty, Cynthia, Director, Office of Groundwater and Drinking 
  Water, Environmental Protection Agency.........................    19
    Prepared statement...........................................    66
Hall, Stephen K., executive director, Association of California 
  Water Agencies.................................................    28
    Prepared statement...........................................    81
Hayden, Hon. Tom, California State Senator.......................     7
    Documents submittted for the record.......................... 49-63
    Prepared statement...........................................    47
Mountjoy, Hon. Richard, California State Senator.................    10
    Prepared statement...........................................    63
Patton, Gary, counsel, The Planning and Conservation League......    39
    Prepared statement...........................................   100
Perkins, Craig, Director of Environment and Public Works 
  Management, City of Santa Monica, CA...........................    12
    Prepared statement...........................................    65
Rooney, Peter M., Secretary, California State Environmental 
  Protection Agency..............................................    23
    Prepared statement...........................................    74
Spath, David, Chief, Drinking Water and Environmental Management 
  Division, California State Environmental Protection Agency.....    26
    Prepared statement...........................................    79
Zogorski, John, Chief of National Synthesis on Volatile Organic 
  Compounds and MTBE, U.S. Geological Survey.....................    21
    Prepared statement...........................................    71

                          ADDITIONAL MATERIAL

Articles:
    Causality Assessment of the Acute Health Complaints Reported 
      in Association with Oxygenated Fuels, Nancy Balter.........    89
    Health Hazards from Exposure to MTBE in Water, Myron A. 
      Mehlman....................................................   102
Letters:
    Abdo, Judy...................................................   112
    Anthony, Juliette............................................   179
    Biebesheimer, James E........................................   178
    Dorfman, Barry...............................................   191
    Eveland, Thomas L............................................   191
    Gross, Robert................................................   180
    Koontz, Dexter...............................................   178
    Russell, F.W.................................................   158
    Simpson, Kathy.............................................177, 193
    Waters, Jodi M., Oxybusters..................................   120
Memoranda, Drinking Water Advisories Issued by Enviromental 
  Protection Agency............................................116, 119
Reports:
    Change in Disease Rates in Philadelphia Following the 
      Introduction of Oxygenated Gasoline, Peter M. Joseph.......   162
    Cleaner Burning Gasoline: Assessment of Its Impact on Ozone 
      Air Quality in California..................................   140
    Health Effects of MTBE in Gasoline, Peter M. Joseph..........   128
    Impact of MTBE in Gasoline on Public Health in Philadelphia, 
      Peter M. Joseph............................................   159
    MTBE Compatibility with Underground Storage Tank Systems.....   145
    MTBE in Water, Michael Kavanaugh.............................   154
    Potential Health Effects of Oygenates in Gasoline, Health 
      Effects Institute..........................................    52
    RFG in FRP--Fueling the Future, Fiberglass Tank and Pipe 
      Institute..................................................   151
    Sources, Transport, and Persistence of MTBE in a Sierra 
      Nevada Multiple Use Lake, UC Davis Research Group..........   189
Resolutions:
    American Medical Association.................................    62
    American Public Health Association...........................    63
Statements:
    Froines, John R., California Senate Committee on Natural 
      Resources Environmental Quality............................    49
    Hydrick, Rick, Manager of Water Operations, San Bernardino, 
      CA.........................................................   115
    Joseph, Peter M., Reformulated Gasoline......................   122
    Mancillas, Jorge R., California Senate Committee on Natural 
      Resources Environmental Quality............................    57
    Metropolitan Water District of California....................   113
    Oxygenated Fuels Association.................................   135



      WATER POLLUTION RISKS OF METHYL TERTIARY BUTYL ETHER (MTBE)

                              ----------                              


                       TUESDAY, DECEMBER 9, 1997


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                            Sacramento, California.
    The committee met, pursuant to notice, at 9 a.m. in room 
4203, State Capitol Building, Sacramento, California, Hon. 
Barbara Boxer presiding.
    Present: Senator Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. I call to order a field hearing of the 
Environment and Public Works Committee of the U.S. Senate. I 
want to welcome our first panel, whom I'll be introducing 
shortly.
    I first want to thank my colleague, Senator John Chafee, 
who is chairman of the Environment and Public Works Committee 
of the Senate, for approving this field hearing and recognizing 
the importance of the issue before us today. He is very sorry 
that his schedule and the scheduling constraints of other 
committee members did not permit them to be here, but I will be 
reporting back to them in detail on the issues raised here 
today.
    With this committee hearing we are initiating what I expect 
will be a very comprehensive Federal review of the risks and 
benefits associated with the use of the chemical methyl 
tertiary butyl ether, commonly referred to as MTBE.
    MTBE is an oxygenate which is added to gasoline to make it 
burn more cleanly and efficiently. The blending of oxygenates 
in gasoline is required by the 1990 Clean Air Act and it is a 
key component in our nation's strategy to help meet Federal air 
quality standards for carbon monoxide and ozone because it 
results in cleaner tailpipe emissions.
    The potential risks of MTBE came to my attention in 
February 1996, when I met with Mayor Pam O'Connor of the city 
of Santa Monica, in my office in Washington. High levels of 
MTBE contamination had been discovered in the city of Santa 
Monica, in its drinking water wells. The suspected source of 
the contamination was nearby underground gasoline storage tanks 
and fuel pipelines. Santa Monica has now lost over 70 percent 
of its local drinking water supply. The city needed help from 
the Environmental Protection Agency in tracking down the source 
of the contamination and coordinating the cleanup of the 
contaminated wells.
    I immediately contacted EPA Administrator Carol Browner 
asking that she do the following things: One, work closely with 
Santa Monica to expedite site evaluation and cleanup; two, 
provide direction on the appropriate remediation and treatment 
technologies so that Santa Monica's problems can be corrected 
and their drinking water protected, and then we could apply 
those technologies as needed to protect the nation's water 
supply; and, three, consider establishing safe drinking water 
standards for MTBE.
    The city of Santa Monica is on the first panel today to 
give us an account of what they're going through and where 
cleanup efforts stand.
    The EPA has made significant progress on my call for 
research and the setting of health standards. In September 1997 
EPA announced a new research plan to further our knowledge of 
remediation and treatment technologies, and the potential 
health effects of exposure to MTBE.
    Yesterday, just yesterday, the EPA announced a revised 
drinking water health and consumer acceptability advisory for 
MTBE, which recommends a range of 20 to 40 parts per billion, 
down from the 1992 advisory range of 20 to 200 parts per 
billion. So EPA is saying now 20 to 40 parts per billion, not 
20 to 200 parts per billion. Now, an advisory is a 
nonenforceable recommended change of concentration levels of 
MTBE in drinking water based on current health effects research 
and odor and taste thresholds.
    In October 1997 EPA also announced it's considering setting 
a Federal standard for MTBE in drinking water--a standard as 
opposed to an advisory. A standard is an enforceable limit for 
a particular pollutant.
    Clearly, progress is being made, but we still need answers 
to basic questions, many of which we will explore during this 
hearing, questions like: How pervasive is MTBE contamination of 
our nation's drinking water and groundwater today? If the major 
source of MTBE contamination is leaking underground gas storage 
tanks and fuel pipelines how many of these are located near 
sources of drinking water? Are there immediate safety measures 
we can take to prevent MTBE contamination at these sites? Will 
we be safe from significant levels of MTBE contamination if all 
tanks are replaced and closely monitored, or can MTBE corrode 
through new tanks, a very important question that will be 
raised today. Once MTBE gets into the soil and water why is it 
so slow to biodegrade into a harmless substance? How can we 
clean it up cost effectively, given how quickly it leaks 
through the soil into the groundwater?
    In California MTBE has been found in about 8 percent of 
drinking water wells and groundwater tested so far, from Orange 
County at 38 parts per billion, to Los Angeles at 13 parts per 
billion, to Sacramento. It has been detected in over 13 lakes 
and reservoirs, including Donner Lake at 12 parts per billion, 
and Lake Tahoe, levels as high as 47 parts per billion. We have 
someone here from the South Lake Tahoe Public Utility District 
who will join us when we get to the question part.
    The U.S. Geological Survey's MTBE test program has revealed 
the presence of MTBE in groundwater in Colorado, Connecticut, 
Georgia, Massachusetts, New Jersey, New Mexico, Nevada, New 
York, Pennsylvania, Texas, Virginia, Vermont, Washington and 
Wisconsin. That's why my colleagues on the committee consider 
this very much a national issue.
    Part of what we need to learn today is how serious the 
problem is. If the risks to our drinking water are as serious 
as many believe, then we will need to consider taking several 
possible actions, and let me lay out what some of those are:
    One, asking the Administrator of EPA to use her emergency 
authority under the Clean Air Act to curb or stop the use of 
MTBE in order to protect the public health and welfare. I want 
to point out that that would take absolutely no legislation. It 
wouldn't have to reopen the Clean Air Act. She has the 
emergency powers to do that.
    We could also amend Federal laws to require nationwide 
monitoring of MTBE in air and water.
    Three, we can amend Federal laws, including the Clean Air 
Act, the Clean Water Act, and the Safe Drinking Water Act, to 
set controls on the amount of MTBE allowed in air and water.
    Four, look at ways to offer Federal help to communities, 
such as Santa Monica, that are facing contamination prevention 
and cleanup issues.
    During the last year California lawmakers have been 
intensely debating MTBE. This debate culminated in four bills 
being signed into law, authored by Senators Hayden and 
Mountjoy, and Assembly Members Kuehl and Cunneen. The bills 
appropriate funds for health effects research, require the 
State to develop drinking water standards for MTBE, and make a 
recommendation as to whether MTBE should be listed as a 
carcinogen under Prop 65, and authorize projects to map leaking 
underground storage tanks and pipeline locations, and study 
cost-effective alternatives to MTBE. The Cunneen bill prohibits 
the delivery of gasoline to any underground storage tank that 
does not meet the December 22, 1998, Federal and State upgrade 
or replace deadline.
    I want to thank so very much these legislators who are here 
before us today, and others. I know that Senator Mike Thompson 
has his staff here. He wanted to be on the panel but just could 
not fit it in today to his schedule. But I want to thank all of 
you for your leadership, and I believe we need to consider the 
appropriateness of similar measures at the Federal level. So 
you are really helping me, senators.
    Let me reassure you all here today that we are looking for 
answers to the challenges faced by California and other States 
due to MTBE use. It is estimated that California could be up to 
six million acre feet short of water each year by the year 2020 
unless additional water management strategies are adopted. 
Clearly, the State of California simply cannot afford to lose 
any of its limited water resources to MTBE contamination.
    Now, I'm going to be asking some very tough questions today 
of the EPA, to try to get to the bottom of this MTBE problem. 
Why aren't we testing inhalation health effects on animals of 
MTBE in gasoline? So far studies have only been done on 
exposure to pure MTBE. What about potential synergistic health 
effects? What do we know about how MTBE affects the central 
nervous system?
    I will be quoting from a recent Presidential report which 
says that because of the very limited research that's been done 
on MTBE the extent of MTBE occurrence in drinking water 
nationwide and the health effects of MTBE exposure are unknown. 
Doesn't this give us reason to act now to phaseout MTBE until 
we have answers to these critical questions?
    I will be also asking EPA: Are the Federal requirements 
regarding the quality of underground storage tanks sufficient 
to protect against concerns about the corrosive nature of MTBE? 
We must keep our air clean and protect our drinking water as 
well. We have to do both. That is the challenge we face with 
MTBE, and with the knowledge we gain today I trust that we'll 
have a road map to begin to meet that challenge.
    [An exchange of correspondence between Senator Boxer and 
EPA Administrator Browner follows:]
                                    United States Senate,  
                           Office of Senator Barbara Boxer,
                           Washington, DC 20510, February 25, 1997.

The Honorable Carol H. Browner, Administrator,
Environmental Protection Agency
Washington. DC 20460, February 25, 1997

Dear Administrator Browner: I am writing to you again about the 
drinking water contamination in the City of Santa Monica, California. 
The recent consent agreement between the California Regional Water 
Quality Board, Los Angeles Region and Mobil Oil Company presents 
additional factors that must be considered in addressing this issue.
    As you know, MTBE has contaminated Santa Monica's drinking water 
supply. The City has already been forced to close two of its wells and 
must now deal with clean-up and abatement. The City of Santa Monica has 
come to me and raised the following questions:
    1. Will U.S. EPA overfile the State Water Board's actions and take 
prompt enforcement and other appropriate actions?
    2. Will U.S. EPA use its authority under the federal CERCLA law to 
pursue an administrative order or consent order so that Santa Monica's 
water is restored as soon as possible and that a proper precedent is 
set for the region and the rest of the nation'?
    3. Will U.S. EPA provide direction on the appropriate remediation/
treatment technologies so that Santa Monica's water problem is 
corrected and the nation's water supply is protected
    4. Will U.S. EPA immediately order Mobil Oil Company to purchase 
replacement water from the Metropolitan Water District of Southern 
California to replace water lost as a result of the pollution to the 
Arcadia well?
    5. When will you meet with Mayor Pam O'Connor?
    The ultimate goal of city officials is the protection of public 
health and safety. They fear that the consent agreement may preclude 
the most efficient. cost-effective actions from occurring.
    I ask you to explore the full extent of the Environmental 
Protection Agency's authority to assist the City. Further, I urge you 
to consider actions which would ensure a prompt and effective clean-up 
and abatement to ensure the protection of public health and safety.
    In order to respond to these questions and any other concerns that 
the City may have. I urge you to meet with Pam O'Connor, Mayor of Santa 
Monica.
    Again, thank you for your attention to this matter.
            Sincerely,
                                             Barbara Boxer,
                                             United States Senator.
                                 ______
                                 
                                    United States Senate,  
                           Office of Senator Barbara Boxer,
                               Washington, DC 20510, April 3, 1997.

Carol M. Browner, Administrator,
Environmental Protection Agency
Washington, DC 20460

Dear Administrator Browner: I have corresponded with you in the past 
few months regarding methyl tert-butyl ether (MTBE) contamination in 
the drinking water for the City of Santa Monica. Recent reports 
indicate an increased frequency of MTBE detection in drinking water 
supplies throughout California and the nation.
    MTBE is reported to have been found in at least 12 drinking water 
reservoirs throughout California. The chemical is thought to be 
entering reservoirs from boat exhaust and possibly from windborne 
emissions, and is leaching into wells from leaking underground tanks. 
Water districts throughout the country are just now becoming aware of 
the problem and beginning to monitor water supplies.
    MTBE is classified as a probable human carcinogen. At high levels, 
the chemical is thought to cause serious health effects; at lower 
levels, water is not potable. This appears to be a potential major 
problem.
    The air benefits of MTBE appear clear. But the potential hazard to 
drinking water is less well understood and raises disturbing concerns. 
Clearly, we must do more than simply monitor increasing levels of 
contamination. I have been informed by Regional Administrator Felicia 
Marcus that U.S. EPA is revising its draft health advisory, originally 
issued in 1992.
    I would like to know what the EPA is doing to investigate this 
problem. How serious do you perceive the problem to be? What 
alternatives to MTBE are available that may provide clean air benefits 
without the water contamination problem? What is your timetable for 
further study and action?
    Thank you for your attention to this important matter.
            Sincerely,
                                             Barbara Boxer,
                                              United States Senate.

                                 ______
                                 
                    U.S. Environmental Protection Agency,  
                               Office of Air and Radiation,
                                Washington, DC 20450, May 22, 1997.

Honorable Barbara Boxer,
United States Senate,
Washington, DC 20510.

Dear Senator Boxer: Thank you for your letter of April 3, 1997 
regarding the gasoline additive methyl tertiary butyl either (MTBE). 
You stated that while the air quality benefits of MTBE-oxygenated 
gasoline are clear, you are concerned about the potential hazard of 
MTBE-contaminated drinking water. We take this issue seriously and want 
to address the issues you have raised.
    As you noted there have been some detections of MTBE in water in 
various locations around the country, including California. With the 
exception of sites that are known to have been contaminated with 
petroleum products. the detected levels are usually below the lower 
limit of Environmental Protection Agency's (EPA) 1992 draft drinking 
water lifetime health advisory of 20 to 200 <greek-m>g/L. EPA's Office 
of Water is currently preparing an Interim Health Advisory which is 
scheduled to be released in the summer or 1997. Health advisories are 
technical guidance documents to assist Federal, State, and local 
officials by providing information on health and aesthetic effects, and 
the concentrations of contaminants in drinking water at which adverse 
effects would not be anticipated. They are nonregulatory and not 
legally enforceable by EPA.
    MTBE occurrences in water at concentrations above the levels 
contained in the draft health advisory seem to result primarily from 
point sources such as leaking underground storage tanks or pipelines. 
EPA's ongoing efforts under the leaking underground storage tank 
program are expected to reduce groundwater contamination from fuels 
whether they contain MTBE or not. Existing tanks are required to be 
upgraded, replaced, or closed by December 1998 to meet the spill, 
overfill, and corrosion protection requirements and in California are 
also required to be lined or double-walled. EPA anticipates that 
accidental UST releases will be significantly reduced once UST upgrades 
have been completed. The Agency's Office of Underground Storage Tanks 
is working with states to assist them in addressing MTBE when petroleum 
leaks are remediated. The regulation of gasoline pipelines, another 
potential source of leaks, is under the jurisdiction of the U.S. 
Department of Transportation (DOT). The Agency is currently contacting 
DOT on its pipeline leak prevention program to ensure it addresses our 
concerns.
    You stated in the letter that MTBE is a probable human carcinogen. 
EPA has not classified MTBE as such. EPA has only classified MTBE as a 
``possible human carcinogen'' in its 1993/94 assessment documents, 
which used information available at that time including chronic 
inhalation studies developed pursuant to Toxic Substances Control Act 
(TSCA) during 1988-1999. EPA has actively pursued a program of research 
and assessment to ensure the classification reflects the state of the 
science. Since 1995, EPA has been participating with the White House 
Office of Science and Technology Policy (OSTP) in an interagency 
assessment effort that is addressing all available health data 
associated with MTBE and its use in oxygenated gasoline. As part of the 
interagency assessment, OSTP has been reviewing the available research 
with regard to MTBE's potential carcinogenicity via long-term ingestion 
in rodents, together with the results of long-term inhalation studies 
in rats and mice. OSTP's report will be completed this summer.
    The Agency is also ensuring that further studies on oxygenated fuel 
exposure and health effects are conducted to fill gaps in existing 
data. The key question is how the risks and benefits associated with 
oxygenated gasoline compare to those for conventional gasoline. Studies 
that are needed to provide an adequate basis for quantitative 
assessments have been discussed at greater length in ``Oxyfuels 
Information Needs'' (EPA Report 600/R-96/069). Among the areas of 
needed information identified in that document are restore data on 
health effects of emissions related to mixtures of gasoline and MTBE 
(as opposed to MTBE alone) and more data on personal exposure levels to 
combustion and evaporative emissions from the use of these fuels. EPA 
is in the process or developing extensive testing requirements for 
MTBE, other oxygenates, and conventional gasoline to be conducted by 
industry under section 211 of the Clean Air Act (CAA). Section 211 
includes a series of emissions-based information and testing 
requirements which fuel and additive manufacturers must satisfy to 
obtain or retain EPA registration for their products. Discussions about 
the scope of the testing requirements with industry include animal 
research as well as human exposure research. The Section 211 notice 
will be finalized soon and the research will be completed at varying 
intervals over the next five years.
    The Agency has also recently formed a cross-media research group, 
led by the Office of Research and Development (ORD), which has been 
actively assessing and prioritizing research and monitoring needs for 
MTBE in water. The identified research will help provide the necessary 
information to better understand the health effects of MTBE in water, 
and to further our knowledge on remediation techniques. Information 
needed to provide the basis for monitoring strategies Null also be 
considered. EPA anticipates having the research prioritized this summer 
succeeded by appropriate actions.
    You asked how serious EPA perceives the problem to be. Based upon 
the limited data available, EPA agrees with the National Academy of 
Sciences' conclusion in 1996 that drinking water does not appear to be 
a major MTBE exposure pathway for much of the population. However, the 
NAS and EPA recognize that there is a lack of monitoring data to 
accurately assess the exposure of humans to MTBE. EPA is thus committed 
to collecting data from states on MTBE occurrence in public water 
systems (PWS), and is currently exploring a mechanism for data 
reporting and storage. Another undertaking that EPA's Office of Water 
is pursuing is a project with the U.S. Geological Survey. It is a 
retrospective data analysis for MTBE and other volatile organic 
compounds (VOCs) in ground and drinking water in twelve New England and 
Mid-Atlantic states. The formal scope of work is still in development, 
but the plan is to focus primarily on ambient ground water in 
conjunction with PWS data available from state programs.
    You also asked what alternatives to MTBE are available that may 
provide clean air benefits without the water contamination problem.. 
MTBE is the predominant oxygenate used today, primarily for economic 
reasons and blending characteristics. It is used in 84 percent of the 
reformulated gasoline (RFG). Ethanol is used in 14 percent of the RFG 
Other oxygenates, such as tertiary amyl methyl ether (TAME), and ethyl 
tertiary butyl ether (ETBE) are starting to be used by some refiners. 
These two combined are used in about 2 percent of total RFG. Although 
significantly less research has been performed on these alternative 
oxygenates in comparison to MTBE, testing under section 211 along with 
the research identified by the Agency workgroup will provide more 
information on their characteristics and health effects.
    In reference to the contamination at Santa Monica drinking water 
wellfields, EPA's first priority is to ensure that public health and 
the environment are protected. As you know, we are undertaking a 
federal enforcement effort to address MTBE contamination at the 
Charnock wellfield, and monitoring the State's enforcement at the 
Arcadia wellfield.
    Again, thank you for contacting the agency with your concerns and 
questions. I hope this information is useful. If you have any further 
questions, please contact us.
            Sincerely yours,
                                           Mary L. Nichols,
                     Assistant Administrator for Air and Radiation.
      
    Our first panel of witnesses will focus on actions that 
have been taken in the State of California, some of which I 
glossed over. State Senator Hayden and State Senator Mountjoy 
have played a key role in this debate, and the city of Santa 
Monica is joining us. Mr. Perkins is here as well. I am very 
pleased to see you here.
    Now, I just--I know everyone knows about the timer rules. 
I'm trying to keep it, if we can, only because of the fact that 
we have three panels. So after the red light goes on I'll give 
you another minute.
    OK. It's not working. I always marvel at the fact we could 
put a person on the moon but we can never get these things to 
work.
    Senator Mountjoy. We'll use our good judgment.
    Senator Boxer. After 5 minutes we'll just give you a little 
nod and then try to conclude.
    But I am so very pleased that you are here, and I want you 
to know your written testimony and any other documents you wish 
to submit will be submitted on your behalf for the record. The 
proceedings of this hearing and any other written testimony 
which is submitted by members of the public who didn't have the 
opportunity to testify today will also be part of the official 
committee record. If there's any more materials you come up 
with after this--the deadline is December 23--get us those 
materials and we'll make sure that you're in the Congressional 
record of this hearing.
    Senator Hayden, welcome, and will you begin, and then we'll 
turn to Senator Mountjoy.

STATEMENT OF HON. TOM HAYDEN, A STATE SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Hayden. Thank you very much, Senator Boxer. I 
appreciate your holding the hearing and I appreciate your 
concern about the entire question of water supply and quality 
in California.
    Senator Mountjoy and I have offered legislation which has 
passed--Senate Bill 1189, which is mine, includes a $5 million 
cleanup fund for affected cities like Santa Monica, and it 
requires the establishment of standards for primary and 
secondary standards, that is, for health and for taste and 
odor, as well as a Prop 65 finding as to neurotoxicity in the 
next year. I'm simply going to submit that legislation to you 
and count on my friends from Santa Monica to amplify the plight 
that they are in, which was the origin of my involvement.
    The purpose of this hearing, as I understand it, is to 
submit testimony on the health impacts of MTBE in our drinking 
water, and I think that the scientific evidence points toward 
MTBE as both a carcinogen and a neurotoxin. I am submitting two 
papers to you that are extensive, done at my request, as to its 
cancer-causing impact.
    The one by Dr. Froines, who's the chairman of the UCLA 
Environmental--or, Health Sciences Department--concludes, after 
a very cautious analysis I think, that MTBE is a B2 probable 
carcinogen, which means it needs more study, but on the basis 
of what is known it's a probable carcinogen. You look at the 
structure activity of its components, the genotoxicity, the 
case studies, the epidemiology and the animal studies.
    He cites the Health Effects Institute, which is a very 
reliable body. The HEI conclusion--they did a report on 
oxygenates in gasoline, and in the cautious words of science 
their conclusion I think is noteworthy, and I'm quoting it: 
``In assessing the overall significance of the cumulative data 
produced by the studies investigating MTBE in rodents the most 
disconcerting aspect of the findings is that the two chemicals, 
MTBE and TBA, produce tumors at five different organ sites in 
two strains of two species. Considering the mechanisms of 
action of these and other nonmutagenic rodent carcinogens to be 
poorly understood, it would seem imprudent to dismiss these 
results as irrelevant to the human condition.''
    In other words, the findings of cancer in animal studies 
are relevant to humans.
    As to neurotoxicity, the effect on the central nervous 
system, I'm submitting testimony by Dr. Jorge Mancillas, who 
was formerly the UCLA researcher who's now with my staff. He 
notes that as far back as nearly a decade ago, 1988, the 
Interagency Testing Committee gave MTBE an A designation, which 
means that it had an unreasonable risk of neurotoxicity for 
which there is substantial human exposure. Animal inhalation 
studies have shown the neurotoxic effects which have to do with 
the depression of the central nervous system's activity.
    Dr. Mancillas also goes into some detail about the 
controversies between scientists that have flared up, and 
concludes that the original studies indicating the neurotoxic 
effects of MTBE have been misrepresented or ignored by public 
agencies, including the CAL-EPA.
    I'll simply submit the testimony. It's quite extensive and 
detailed, and I think very reliable.
    Senator Boxer. We will put it all on the record.
    Senator Hayden. I appreciate that.
    More research is going to happen. It's always helpful. But 
I think what should be condemned without reservation is the 
fact that without conclusive evidence that MTBE was safe, it 
was introduced in California and now our groundwater is at 
risk, and the public rightly should be concerned with having to 
play the experimental role of guinea pigs.
    The original point of our legislation, in fact, was to 
place the burden of proof on the other side, on the State and 
industry, to show by a time certain a reasonable deadline that 
MTBE was safe for public exposure or else that it be phased 
out. That legislative intent was weakened during the 
legislative struggle of the past year, but the final passage of 
these bills seems to have contributed to an atmosphere that has 
caused a basic rethinking by industry of the prudence of 
continuing to rely on MTBE.
    As you know, Chevron and Tosco have made business decisions 
to consider alternatives to MTBE even before waiting for 
further evidence or public outcry over its impact on 
groundwater. In the meantime, we have a lot of groundwater to 
clean up, not simply in Santa Monica but across the State, and 
apparently across the country.
    MTBE may not have a future at all. I believe it's a public 
health threat, but its future will depend on further study and 
decisions by the oil industry of the kind that we've seen in 
the past couple of weeks.
    What I would like to comment on is how the situation arose, 
because we are not scientists. We are public policymakers, 
trying to make judgments on the best evidence, and I think that 
there are issues of governance and politics here and not simply 
issues of science or faulty science.
    I have two comments: first, we and the legislature made a 
historic mistake in delegating this issue to the Air Resources 
Board when we delegated the question of whether and which 
oxygenates to use in gasoline. Now, this delegation was meant 
to take the politics out of the decisionmaking process, but, in 
fact, the politics simply went behind closed doors into the 
more dim-lit world of lobbyists, professional scientists who 
are paid for one side or the other--a mercenary atmosphere 
behind closed doors--a lobbyist atmosphere rather than a public 
one. I think what we've done this year is the beginning of 
reclaiming the issue for the political process in the 
legislature, and we need to make sure that the public has 
confidence in the process, and that's why these hearings are so 
important, because there's been such a closeted nature 
previously, through our own doing.
    Second, those of us in environmental organizations to some 
extent were blinded by a specialization in the environmental 
world between air and land experts that split off air quality 
considerations from groundwater ones. That's not an ecological 
principle. Ecology would say it's a seamless whole. But when 
you get into lobbying in Washington or Sacramento you have to 
have specialists, and the air quality specialists were 
obsessing on how to implement the Clean Air Act. So, they 
joined, more or less, in a coalition with the oil industry, to 
achieve the standards of the Clean Air Act, not realizing or 
looking enough at the adverse groundwater impacts, nor even 
becoming concerned very much that some in the oil industry had 
actually created a profitable subsidiary to produce and market 
MTBE in order to make money off of implementation of the Clean 
Air Act.
    I think it's time, therefore, to return to the origins of 
the debate and to look at it as a whole, and if MTBE can't meet 
the test of protecting our water, then its justification in the 
air is unacceptable. I think we're at that point how the 
industry can be compatible in its activities with protection of 
both air and water.
    I am concerned that we not step backward from our 
environmental goals, and I'll simply close by noting that your 
hearing is taking place here while the world is meeting in 
Kyoto to discuss what to do about global warming. This entire 
issue of oxygenates, MTBE, arose in a controversy about how to 
achieve our clean air standards, and from the point of view of 
the oil industry and automobile industry, without abandoning 
the traditional fuel technology.
    We are now back to square one, because it is projected that 
our nation's gasoline use is going to increase by 33 percent in 
the next 12 years. So, we have to look again at the issues of 
fuel efficiency and the alternatives that you know so well from 
your leadership many years ago in trying to promote 
conservation and renewable resources to keep our transportation 
system intact while protecting the air, the water, and all of 
our environment. In that context, reformulated gasoline may not 
be the answer at all but only a transitional fuel as we look 
for alternatives.
    Thank you very, very much.
    Senator Boxer. Thank you very much, Senator Hayden. I 
didn't assert the 5-minute rule nor will I on Senator Mountjoy. 
I have to say I thought your presentation was excellent because 
you not only put it into the immediate problem but the larger 
context, which is--we have to keep our eye on that at all 
times, and thank you.
    Senator Mountjoy?

 STATEMENT OF HON. RICHARD MOUNTJOY, A STATE SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Mountjoy. Thank you for the hearing, and it does 
give the people of California a voice directly to the U.S. 
Congress, and we appreciate that very much.
    I think Senator Hayden pretty much covered most of the 
aspects of what we were trying to do here in California. You 
know our original bill called for an outright ban of MTBE and 
then later, through the legislative process, 521 was watered 
down to a study, but a good study on MTBE. But even at the time 
that that went through we were saying that we believed, because 
of the public outcry and the poisoning of our water here in 
California, that MTBE would, in fact, be phased out prior to 
the completion of that study.
    I think both Senator Hayden and I have been involved in 
this issue to the extent that we pretty much knew what was 
coming down, regardless of what the political factors were here 
in the State Capitol.
    I have with me this morning a sample of some water, and 
this is from the city of Glenville. I'd like you to take a look 
at this and I would submit it to you, if you'd like to take 
that--
    [Sample of water is exhibited.]
    Senator Boxer. That is, seriously, drinking water?
    Senator Mountjoy. Yes. This is out of some wells in the 
city of Glenville. This well is contaminated to the levels of 
200,000 parts per billion. Most of the wells in that city have 
been contaminated to the levels of 20,000 parts per billion, 
hardly something--I wouldn't--well, you can smell it if you 
choose to, but not for too long.
    Senator Boxer. If I pass out get the emergency workers in 
here.
    Senator Hayden. It's part of an epidemiological study.
    Senator Boxer. It's really----
    Senator Mountjoy. Yes.
    Senator Boxer. It's vile.
    Senator Mountjoy. It has almost destroyed property values, 
and you have to remember that this little city is uphill from 
Bakersfield. Getting into the deep water aquifers and flowing 
downstream into Bakersfield could be very, very dangerous.
    We have found that MTBE is in Lake Tahoe. A lot of this, 
you know, is laid off on the boats. Well, we have the boats on 
the lakes and they're spewing fuel into the lakes. But you need 
to know that Lake Merced, in the Bay Area, is contaminated with 
MTBE and only has on it either boats that are rowed by hand or 
electric motors, so MTBE also gets in. I think you'll hear a 
little more about that from the geological survey folks and 
some of the other expert witnesses that you're going to have 
here today. MTBE is a threat.
    In the San Gabriel Valley we have spent considerable money 
and time over the last 20 years cleaning up our wells from 
other contaminates in that valley, and now they have the threat 
of MTBE invading that valley, a chemical that once in the water 
is soluble in the water and, therefore, flows through filters, 
no really good way to clean MTBE out of the water.
    Metropolitan Water told me that if they were to clean up 
MTBE--and they feel that they have to get it out of the water 
at the level of 5 parts per billion, and I know EPA is now 
saying 30 to 40 parts are safe, I believe zero is really safe.
    Senator Boxer. Well, you taste it at a very low level, 
don't----
    Senator Mountjoy. Yes. You taste MTBE at around 5 parts per 
billion. Metropolitan Water feels that they cannot sell water 
that you can taste, therefore, to clean MTBE out of the water 
their estimates are triple the water rates for the people of 
the Los Angeles area if they were to have to clean MTBE out of 
the water to the level of which you could not taste it. So, 
it's a very, very large threat to our water supply system in 
Southern California and across this State, and across the 
nation. We now know that it's in Texas. We've heard that high 
levels in, of course, Pennsylvania, and you've mentioned----
    Senator Boxer. Yes.
    Senator Mountjoy.----most all of those areas. So it is a 
national threat to our nation's water supply, which is very 
precious.
    There is also the point that many of the people involved in 
the oil industry have said it isn't doing that much for the 
air, that the benefits to the air quality are very, very minute 
compared to the threat of the contamination of the water 
supply. For that reason alone I believe that the EPA should be 
urged to take immediate steps to either, No. 1, ban would be 
my, of course, first choice, or to at least relieve California 
of the necessity, or relieve the nation of the necessity, of 
oxygenating fuel at all, and try to clean it up either with 
another oxygenate of their choice or clean it up without any 
oxygenate at all, to get to the levels that are necessary.
    Many of them believe they can achieve that goal, and I 
think they ought to be allowed to turn their experts loose to 
try to. Once in the water and once in the ground--you mentioned 
the fact, which is true--very, very, long biodegradation of 
MTBE. Benzene, generally speaking, 400 feet from a tank, is 
going to biodegrade. MTBE, not so. It will travel through the 
water aquifers just as it if were water.
    The fact of life is that in Glenville the contamination was 
caused by leaking tanks and spillage of--while filling the 
tanks, new tanks, by the way. So we know that MTBE--it's not a 
question, are the tanks going to leak, it's--the question is 
when they're going to leak and how much are they going to leak.
    We saw a pipeline over Donner Pass in which started a leak, 
they estimated sometime in October. It was not even detected 
until March, a pipeline that had some 900 pounds of pressure in 
it. So we don't know the extent of the leakage in the Donner 
Pass area of that pipeline. So pumping MTBE through those lines 
is a very, very dangerous situation, and one that we believe 
needs to be--steps taken immediately.
    I'm pleased to see companies like Tosco and Chevron are now 
willing to step forward and say we ought to have some 
alternative to MTBE because it is dangerous to our water 
supply.
    Now, we all want clean air, and I believe we need to say on 
the course of attaining as clean an air as we can attain, 
however, at the same time we cannot afford to contaminate our 
precious water supply here in the State of California.
    As you mentioned before, every drop of water in California 
is very, very precious to us and we need to do everything we 
can to protect our supply.
    Just let me end by saying thank you so much for the 
hearing. I hope that our message is heard by the Congress of 
the United States and by the EPA, and that immediate steps are 
taken to stop the health risk that is going on.
    Senator Hayden mentioned that there is a study ongoing, but 
the study involves 32 million Californians as guinea pigs, and 
that's something I don't believe we can afford.
    Thank you again for the hearings and my chance to 
participate. I do have some documents from different water 
companies that are not going to be able to participate today, 
but I would like to submit these documents to you for entrance 
into the official record, and they are the positions of several 
water companies in the State of California.
    Senator Boxer. It shall be done. I want to say to both 
senators again, thank you, from the bottom of my heart, for 
your leadership. If you can just stay while we hear from Mr. 
Perkins.
    Senator Mountjoy. Sure will.
    Senator Boxer. And then we're going to be joined just 
briefly, because I have one question for South Lake Tahoe. I 
have a couple questions for each of you. Can you stay a little 
bit?
    Senator Hayden. Absolutely.
    Senator Boxer. OK. Mr. Perkins. Thank you. Mr. Perkins, 
Craig Perkins, is the Director of Environment and Public Works 
Management of the city of Santa Monica. As Senator Hayden has 
testified and I have stated, this is why we got into this, 
because you came to us and we were rather stunned and shocked 
by your experience. If you would share a little bit of that, 
and try to keep it to 5 minutes, if you can.

STATEMENT OF CRAIG PERKINS, DIRECTOR OF ENVIRONMENT AND PUBLIC 
       WORKS MANAGEMENT, CITY OF SANTA MONICA, CALIFORNIA

    Mr. Perkins. Absolutely. Good morning. In my capacity as 
Director of Environmental Public Works Management I'm 
responsible for the management of the city's water production 
and distribution system.
    In Santa Monica, in late 1995 and early 1996, we first 
became aware that a new contaminant might be impacting our 
drinking water wells, and in early February 1996 we indeed 
confirmed that several of our wells had been contaminated with 
MTBE. Between February and October 1996 we shut down seven of 
the city's 11 drinking water wells at 2 separate well fields 
because of this contamination. These wells, as you had noted 
earlier, represented 71 percent of our local water well 
production and supplied about one half of Santa Monica's total 
daily water demand.
    Senator Boxer. Say how much?
    Mr. Perkins. About 50--about a half----
    Senator Boxer. OK.
    Mr. Perkins.----of the total daily water demand was 
represented by those wells.
    At the time one of the first wells was shut down the MTBE 
contamination had soared to 610 parts per billion, which is 
nearly 20 times the State action level. Clearly, the present 
situation represents an environmental crisis that has been a 
staggering blow to the city, both in financial terms and from 
the standpoint of an almost total loss in our local water 
reliability, which has been of critical importance during 
natural disasters such as the 1994 Northridge earthquake, where 
we were off of the MWD system for a full week.
    As a result of the MTBE contamination, in June 1996 the 
Santa Monica City Council approved a 25 percent emergency 
surcharge on every water customer to pay for the additional 
$3.25 million in annual costs for the purchase of outside water 
to replace the lost well production. These surcharge revenues 
have not, however, covered the city's legal and technical 
analysis costs.
    Santa Monica's major wellfield which is impacted, which is 
the Charnock wellfield, really presents a classic example of a 
multiple party groundwater contamination problem. The city and 
the State Regional Water Quality Control Board have identified 
26 priority sites in the vicinity of that wellfield, including 
two gasoline product pipelines, which all may be sources, to a 
certain extent, for the MTBE contamination.
    Considerable technical assessment and evaluation is 
required before actual cleanup can commence, and I might add 
that actual cleanup can also not commence until we determine 
the--an effective, cost-effective and reliable means of 
cleanup, which is a major research project in itself. The 
Arcadia wellfield is the other location which has been impacted 
by MTBE, and at this cite there is only one party, Mobil Oil, 
which has caused the contamination.
    What was particularly difficult to deal with during the 
early stages of this episode were the significant gaps in 
information about the potential public health and environmental 
impacts from MTBE as a water contaminate, and the distressing 
absence of technical and regulatory assistance from those State 
and Federal agencies, which are entrusted with oversight of 
water quality and groundwater protection issues.
    As local government officials we were forced to arrive at 
our own conclusions about whether MTBE contamination--
contaminated water should be delivered to our customers because 
no enforceable water quality standards for MTBE existed in 
early 1996, and still do not exist. In the face of this vacuum 
we made the decision to shut down the wells in order to err on 
the side of public health protection for our community.
    Following negotiations, which lasted many months, with oil 
companies, with the two oil companies who exercised a good 
corporate responsibility and stepped forward to discuss the 
problem with us, we entered into an interim agreement with 
Shell and Chevron in July 1997, which has reimbursed us for 75 
percent of the MTBE costs associated with the Charnock 
wellfield. This interim agreement enabled our City Council to 
reduce the emergency surcharge by one-half, which they did 
last--this July.
    The agreement expires in January 1998, unless these and the 
oil companies who may be responsible, renew the agreement at 
100 percent reimbursement rate. So it remains to be seen 
whether, in fact, this agreement will be able to continue past 
January.
    At Arcadia, ironically, where the culpability of Mobil Oil 
is clear, negotiations between the city and Mobil broke down 
approximately a year ago, resulting in a lawsuit filed by the 
city in February 1997, which is being pursued by the city in 
the face of continued recalcitrance on the part of Mobil to 
admit any responsibility for the problem.
    It's become clear to us in Santa Monica that MTBE is indeed 
a potent and pernicious threat to drinking water in California 
and other parts of the United States. Although MTBE has only 
been in widespread use since the early 1990's, and even though 
testing for MTBE has not been required until very recently, 
MTBE has now been found in almost 4 percent of California 
drinking water systems that have been sampled.
    We believe that these findings represent the tip of the 
iceberg in terms of the MTBE that may be on its way. It's 
important to note that benzene, which has been a constituent in 
gasoline for several decades, is rarely detected in wells, yet 
MTBE, in just a few short years, has already managed to knock 
out 71 percent of Santa Monica's wells alone.
    We will eventually overcome this crisis, but actions can be 
taken at the State and Federal level which could greatly 
facilitate our progress on the path toward restoration of our 
drinking water supply.
    I'd like to close by mentioning what we believe can be done 
at the Federal level: First, adoption of clear and enforceable 
drinking water standards for MTBE by the earliest possible 
date;
    Second, strengthening of installation monitoring and 
testing requirements for underground gasoline storage tanks and 
pipelines to respond to MTBE's more alarming fate in transport 
characteristics;
    Three, adoption of strict liability standards for those 
responsible for MTBE contamination to ensure that the polluter 
and not the victim pays for damages and cleanup costs;
    Fourth, implementation of testing requirements for MTBE at 
all leaking underground storage tanks and in all public 
drinking water supplies throughout the United States, so that 
we can know as soon as possible how big a problem we're really 
dealing with and can better prevent the replication of Santa 
Monica's problem throughout the rest of the nation;
    And, finally, evaluation of whether performance-based clean 
air standards for auto fuel would be more appropriate than the 
current mandate for the use of oxygenates.
    In closing, on behalf of the city of Santa Monica, I'd like 
to thank you, Senator Boxer, for the tremendous past support 
you've given to us, and I look forward to further collaboration 
with you and your staff so that we can truly achieve 
comprehensive solutions. Thank you.
    Senator Boxer. Thank you, Mr. Perkins, very much.
    I--you know, city of Santa Monica found itself in this 
leadership role quite accidentally and not wanting to do this. 
You had to work without any information, and I understand it 
that in some of your wells here there was 610 parts per billion 
found----
    Mr. Perkins. That's correct.
    Senator Boxer.----of MTBE. And we didn't know anything, and 
just now we have an advisory that says maximum 40 parts. You 
acted wisely, you protected the health of your people, and I 
just want to thank you for exercising that leadership, and tell 
the mayor and the entire council that--well, they know I feel 
this way, but tell them again.
    The other thing is, you point out 4 percent in California--
four percent of the California drinking water wells are 
contaminated with MTBE, those that--at least those that have 
tested--been tested for it. Nationwide it's 8 percent. So this 
is a national problem. You know, I would like to believe that 
because of all of our efforts, and others, the community, that 
we just sort of said time out and we got to stop it here and 
clean it up and not have it occur again, because it's a 
frightening issue staring us in the face.
    I wanted to ask Rick Hydrick from South Lake Tahoe to join 
us. I have just a question for you.
    In the meantime, Senator Hayden, let me lead off with a 
question for you and Senator Mountjoy and however--whoever 
wants to speak first. Do either of you think that stopping the 
leaking underground storage tanks and pipelines is the solution 
to the MTBE problem?
    Senator Hayden. Well, it certainly should be done, whether 
they're double-walled or whatever, and there are State and 
Federal laws which require the upgrade of those installed 
devices. There is some evidence, however, that MTBE is 
tenacious and can make its way through these walls. I'm not 
here to say that I've drawn a conclusion, but there's certainly 
evidence from Santa Monica, whose underground tanks were in 
good shape.
    There's also the fact that cannot be forgotten, that a 
certain percentage, small, but over time it accumulates, is 
emitted into the atmosphere. It's not emitted into a tank, it's 
emitted into the atmosphere and falls on the soil, or falls on 
lakes. It's also in the thousands, tens of thousands of boats 
that Dick Mountjoy uses to try to take us fishing, you know, 
it's like the motorists.
    It's not yet a chemical compound that seems to be 
controllable with a nice device, like an underground tank, not 
that we shouldn't move forward for other reasons to protect 
ourselves with the underground tanks.
    Senator Boxer. OK. Senator Mountjoy?
    Senator Mountjoy. I really believe that the underground 
tank improvement program is an essential program, because 
regardless of what is in the tank----
    Senator Hayden. Right.
    Senator Mountjoy.----however, MTBE is a different product, 
and MTBE seems to be able to escape from those tanks regardless 
of the viability of the tank, and, so--and there are other ways 
that MTBE gets into the water system, through--and you're going 
to hear more about that.
    But I really believe that just the rebuilding of the tank 
is not the solution to our problem with MTBE. I think our 
solution should be that we go to another product, or cleaner 
burning fuel without oxygenate, and let the scientific world 
work on cleaning the fuel without MTBE. I don't see any reason 
for a continued threat of MTBE. We have a problem, and as was 
noted, we have used benzene for a number of years and yet only 
in a very short period of time, where benzene has not really 
been contaminating our well, because of the biodegradation of 
it----
    Senator Boxer. Yes.
    Senator Mountjoy.----very rapidly. MTBE is different. I 
said that before. MTBE, once in the soil, continues to move. It 
does not biodegrade. Therein lies the problem, and I think our 
real solution is to just step back for a moment and really 
eliminate MTBE from the fuel, I think would be the safest and 
most prudent step that we would take. I know that's a little 
strong stand but I think it's a right stand to take. As you can 
see in the appearance of Senator Hayden and mine on this same 
subject, we're hardly on the same spectrum politically, but 
this is not a political question nor is it a partisan question. 
This is a question of health, and that's why you will see 
people from all spectrums be on the same side on this issue, 
because it is a question of health and not one of politics.
    Senator Boxer. Exactly.
    Mr. Hydrick, from South Lake Tahoe, could you comment? 
Because I had some conversations with you before and my concern 
has been alluded to by Senators Hayden and Mountjoy that MTBE 
can corrode through even a tank that's in good condition. Do 
you have any experience with that issue up there in Tahoe?
    Mr. Hydrick. We have five wells that are--two are 
contaminated already and three are imminently threatened with 
contamination.
    Senator Boxer. You have three wells currently contaminated 
with MTBE?
    Mr. Hydrick. No, two contaminated----
    Senator Boxer. Two.
    Mr. Hydrick.----and three imminently threatened----
    Senator Boxer. OK.
    Mr. Hydrick.----by pollutants of MTBE. The source of the 
MTBE appears in three of those cases to be from new tanks. Our 
Regional Board agrees with us on that.
    Senator Boxer. New tanks, meaning how old are these tanks?
    Mr. Hydrick. They've been put in in the last couple of 
years, few years, to meet the 1998 standards for dual wall 
tanks and pipe distribution systems.
    Senator Boxer. So I think it's really important that the 
EPA hears this, because in my original conversations with EPA, 
when this first came to my attention, the immediate response 
was it's not an MTBE problem, it's a tank problem.
    What I would like to say today, from the most credible 
sources, is that I think we've--that's not accurate, and we 
have a problem with MTBE. It appears to be--it appears to 
corrode through even new tanks.
    Mr. Hydrick. It appears to be escaping from new tanks.
    Senator Boxer. Right.
    Mr. Perkins, do you have anything to add on this question?
    Mr. Perkins. In terms of the tank issue, and, of course, 
the pipeline issue, which is a whole other realm of discussion 
which merits a lot of attention, but there is no such thing as 
a leakproof tank. It's sort of like trying to achieve cold 
fusion. It's just not going to occur. Right now the experience 
is in the United States 23 percent of all underground storage 
tanks have leaked at some point, and with the new systems maybe 
that's going to be reduced, but it certainly is not going to be 
eliminated. So it's a continued concern that fuel will escape 
from tanks.
    Senator Boxer. Now, this product that was given to me by 
Senator Mountjoy, is this similar to what the water looked like 
in Santa Monica at its worst or----
    Mr. Perkins. Well, the--one of the characteristics of MTBE 
is that it's colorless, so that--so the brown color is from 
other minerals and other--
    Senator Boxer. OK.
    Mr. Perkins.----things in the water. But the sample which 
we took at 600 parts per billion was--had the distinct 
turpentine odor.
    Senator Boxer. A similar odor to this.
    Mr. Perkins. Very similar, yes.
    Senator Boxer. So that, clearly, people smell it and taste 
it at very low levels. So what's going to happen is people--
even if, let's say, we found out the news tomorrow that MTBE 
made you smarter and stopped Alzheimer's, the fact is it tastes 
terrible and people aren't going to trust it. Pretty smart 
instinct we have there, when something tastes bad is to reject 
it.
    Senator Mountjoy. Believe me, it won't cure Alzheimer's, 
it'll give you Alzheimer's.
    Senator Boxer. Well, let's not have that be the headline 
to----
    Senator Mountjoy. Listening to some of the testimony of the 
truck drivers and people that deliver it, Senator, have said 
that--one person came in and said he couldn't remember the last 
station that he fueled, and sometimes had to pull his truck off 
to the side because of the fumes that he injected----
    Senator Boxer. The fumes.
    Senator Mountjoy.----while fueling at a gas station. So 
it's very----
    Senator Boxer. Well, actually, we got those reports from 
Alaska; is that right, Linda?
    [Nodding affirmatively.]
    Senator Boxer. That in Alaska that's how they first noticed 
it, was when people were pumping they smelled it and they 
ascertained it was the MTBE.
    Senator Mountjoy. And the reason for the discoloration is 
the fact that MTBE, as traveling through the ground, will drag 
with it other----
    Senator Boxer. Yes.
    Senator Mountjoy.----minerals that otherwise wouldn't have 
been in the water.
    Senator Boxer. And that's what you think----
    Senator Mountjoy. Right. Sure. Of course.
    Senator Boxer.----is responsible for the coloration here.
    Well, I just want to really thank you all again for your 
leadership, for hanging in there in California, and I want to 
be the best senator I can be, and that means working with you 
on this. So I really hope that you will let me know what more I 
can do and the way we can be a partner in this, because we're 
all in this together, and California's always on the cutting 
edge, I'm very proud to say, of many issues. We're really on 
the cutting edge of this one, and I will take this news back to 
my colleagues.
    Is there anything else you want to say before we go to 
panel No. 2?
    Senator Hayden. I would hope, Senator, that you understand 
how important your hearings are, because this is a wider issue 
than Santa Monica or the State.
    Senator Boxer. Right.
    Senator Hayden. Second, that you look at the neurotoxicity 
and not just the cancer-causing potential, because 
neurotoxicity causes invisible effects on the most intimate of 
organs, our nervous system, our brain.
    And, third, I hope that you will resume your longstanding 
interest in alternative fuels and fuel efficiency, as Mr. 
Perkins said. Thank you so much for doing this.
    Senator Boxer. I have introduced bills, one of which 
passed, to begin to do more purchasing of electric vehicles and 
alternative fuel vehicles, through Department of Defense and 
other ways, so that we can begin finally to get to the root 
cause of all this, but--Senator Mountjoy?
    Senator Mountjoy. Senator, if you need any help in a nudge 
for some of your colleagues in Washington, DC.----
    Senator Boxer. Yes.
    Senator Mountjoy.----or a kick in the pants, I'm sure 
Senator Hayden and I'd be willing to assist in that regard, 
so----
    Senator Boxer. Well, I will remember that.
    Senator Mountjoy. OK.
    Senator Boxer. I will so note that. I thank you on behalf 
of my chairman, John Chafee, and thank you very, very much.
    We will ask panel two to come up and join us. It's Cynthia 
Dougherty, Director, Office of Groundwater and Drinking Water, 
of the Environmental Protection Agency, accompanied by Julie 
Anderson of Region IX; and U.S. Geological Survey, John 
Zogorski, Chief of National Synthesis on Volatile Organic 
Compounds and MTBE, accompanied by Michael Shulters; and CAL-
EPA's Peter Rooney, who's the Secretary; and California 
Department of Health Services, Dr. David Spath, who is the 
Chief of Drinking Water and Environmental Management Division; 
and Stephen Hall, Executive Director of the Association of 
California Water Agencies.
    We have a large panel. I'm assuming the people who are 
accompanying our speakers will be there not to make an opening 
statement but to have background, and so we can move through. 
It's wonderful to see all of you here. Because of time 
constraints, although I think we're moving ahead, if you could 
keep your comments to 5 minutes and we'll try to move you 
along.
    I would ask that Cynthia Dougherty, Director, Office of 
Groundwater and Drinking Water, of the Environmental Protection 
Agency, to begin. I want to thank her for coming today. I am 
very pleased she's here. Obviously, she's going to play a very 
important role in reporting back to Secretary Carol Browner 
about our hearing today. I would like to make a special packet 
up for the Administrator so she gets all the up-to-date 
information.
    Won't you begin, Cynthia Dougherty, and thank you very much 
for being here.

STATEMENT OF CYNTHIA DOUGHERTY, DIRECTOR, OFFICE OF GROUNDWATER 
   AND DRINKING WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY; 
ACCOMPANIED BY: JULIE ANDERSON, REGION IX RCRA OFFICE, MANAGER 
                          OF MTBE TEAM

    Ms. Dougherty. Thank you, Senator Boxer, and I'll be happy 
to take anything back to Carol Browner that you'd like me to 
take.
    I am pleased to be here to talk about issues and activities 
that the EPA's undertaking regarding MTBE issues, chiefly, and 
MTBE in water. The panel before us talked a lot about what has 
been happening in California, and the issues in California have 
particularly raised concerns across the country regarding the 
occurrence of MTBE in drinking water supplies and have helped 
us to move ahead with some concerns that we've been trying to 
address.
    The Federal Government's addressed questions about MTBE on 
many fronts, including work to accurately understand and 
characterize the scientific and policy issues, of which there 
are many, that we don't have answers for yet.
    With respect to drinking water, this work will 
substantially improve our knowledge of the occurrence, the 
potential for human exposure, and the health effects of MTBE in 
drinking water sources across the country.
    This week--as you mentioned in your opening remarks--the 
EPA made available a drinking water advisory on MTBE to provide 
guidance and information to States and local communities as 
they make important water supply and management decisions if 
MTBE is detected in their drinking water supply, and, 
hopefully, also before it's detected in their drinking water 
supply.
    My written testimony covers the background on reformulated 
gasoline and the air program, and also talks about the Office 
of Science and Technology Policy Report that came out this past 
year. I want to briefly focus in my comments now on several 
activities underway which relate particularly to MTBE in water 
and what the Agency's doing.
    First, in terms of research, the Agency has underway--out 
for public comment now--some work related to Section 211 of the 
Clean Air Act, research that will be done by the industry 
that's going to be looking at neurotoxicity and carcinogenicity 
tests on animals for both conventional and MTBE gasoline. The 
comment period on that closes on January 9, and the key purpose 
of that research is to provide necessary data to conduct a 
comparative risk assessment between conventional and MTBE 
gasoline, which you had talked about in your opening remarks. 
We'll hope to be able to use that work on the air side to 
extrapolate that to look at effects in terms of drinking water.
    As a result of the White House Office of Science and 
Technology Policy Report the EPA's formed an agency-wide task 
force to develop a research strategy for oxygenates in the 
water. The strategy is going to identify ongoing research that 
we have, as well as research still to be started, in areas that 
include environmental occurrence, source characterizations, 
transport and transformation, exposure toxicity and 
remediation. That research will be coordinated with at least 
four different offices, and the EPA will be working with the 
U.S. Geological Survey on some of the work, particularly in the 
occurrence area, and hope to be able to build a stronger data 
base that we can use to really assess what's happening 
nationwide, and what the effects might be of oxygenates in 
water.
    In October, related to that research strategy, we convened 
a meeting of 50 experts from outside the Agency, other Federal 
agencies, academia, and to review the draft that we had, and 
hope to have that draft out for public comment in January. So 
we'll be moving ahead. A lot of that research--not a lot, but 
quite a bit of research is already underway and there will be 
more still to come that we'll be working on.
    Second, related to the Resource Conservation Recovery Act--
and I have Lester Carlton here, actually, from our San 
Francisco Regional Office, who's an expert in the underground 
storage tank program. EPA has ongoing efforts under the 
underground storage tank program under RCRA Title I to prevent 
further contamination of water supplies by petroleum, including 
petroleum with MTBE.
    The primary source of MTBE detections at high 
concentrations is leaking underground storage tanks and 
possibly transmission facilities, and that's what the 
underground storage tank is meant to deal with. There are about 
a million underground storage tanks in use in the United States 
that are subject to the underground storage tank program and 
regulations. Existing tanks, as was stated earlier, are 
required to be upgraded, replaced or closed by December 1998 to 
meet the spill overfill and corrosion requirements of Federal 
law, and in California they're also required to be lined or 
doublelined.
    Right now our estimate in terms of progress in doing that 
is that half the tanks have been upgraded or replaced and are 
now in compliance with the 1998 deadline. The EPA regional 
offices are working with each State to help develop State 
specific plans to ensure that we get compliance and that where 
there isn't compliance by that December 1998 date, that either 
the State or EPA is taking appropriate enforcement action to 
make sure that those tanks are upgraded.
    The third area that I wanted to talk about is what we're 
doing under the new authorities of the Safe Drinking Water Act, 
which you're quite familiar with since you and your committee 
were leaders in getting the Act reauthorized.
    There are a number of new authorities under the Safe 
Drinking Water Act that we're using to try and locate MTBE and 
decide what we should do. First, the amendments require EPA to 
publish a list of contaminants that may require regulation 
based on their known or anticipated occurrence in public water 
systems, and then require EPA to go through a risk and science-
based process defined in the law to consider them for potential 
regulation.
    As you stated in your opening remarks, MTBE is on the draft 
of that list that we put out in October, and we expect to 
finalize that list in February 1998, and that list will then be 
used by us to determine where to focus our research efforts, 
where to focus our data-gathering efforts, and where to move 
ahead to start developing regulations for contaminants that we 
haven't yet regulated.
    We are required under the law to make a determination as to 
whether or not to regulate five contaminants on that list by no 
later than 2001. So there's a long process that we go through 
in terms of working through what we have to do there. We do 
have authority to do interim regulations where there's an 
urgent health need to do that. That allows us to skip some 
steps and then go back and do those after we've regulated.
    Also under the Safe Drinking Water Act one of the 
particularly new parts of the Act is source water assessment 
requirements on the States, where States are required to do 
source water assessments to determine the vulnerability of the 
State's community water supplies to different threats of 
contamination, including----
    Senator Boxer. Can you wrap up at this point?
    Ms. Dougherty. OK. We think that that program along--done 
together with underground storage tanks should help a lot.
    The thing that I wanted to most talk about, but haven't 
gotten to, obviously, is the drinking water advisory that we 
put out. Let me just say really briefly----
    Senator Boxer. Go ahead.
    Ms. Dougherty.----that that advisory sets out a level of 20 
to 40 micrograms per liter that we believe, if MTBE is kept at 
that level to protect consumer acceptance based on the taste 
and odor responses that people have had, that that will also 
provide a large margin of safety from any potential health 
effects, and is actually 20,000 to 100,000 times lower than the 
range of exposure levels to which cancer and noncancer effects 
were observed in the rodent test, which is level of margin of 
safety that's consistent with what we normally apply in doing 
our national drinking water standards, if we should do a 
national standard.
    In conclusion, EPA's deeply involved in a range of 
different activities related to dealing with the MTBE in water 
issues. We take very seriously concerns that systems and States 
have in terms of MTBE contamination in drinking water and we 
intend to address it to try--but using, as Congress told us to 
do, making sure that we have good data and making sure that we 
have sound, peer-reviewed science as we make those decisions.
    Senator Boxer. Thank you. Thank you very much.
    Now we'll have the USGS, John Zogorski. Welcome.

  STATEMENT OF JOHN ZOGORSKI, CHIEF OF NATIONAL SYNTHESIS ON 
 VOLATILE ORGANIC COMPOUNDS AND MTBE, U.S. GEOLOGICAL SURVEY; 
ACCOMPANIED BY: MICHAEL SHULTERS, CHIEF, CALIFORNIA STATE WATER 
                       RESOURCES DISTRICT

    Mr. Zogorski. Thank you. Senator Boxer, I appreciate the 
opportunity to appear before you today to testify on methyl 
tertiary butyl ether. My name is John Zogorski and I'm a 
hydrologist with the U.S. Geological Survey.
    As you may know, the mission of the Geological Survey is to 
assess the quantity and quality of the earth's resources and to 
provide scientific information that will assist resource 
managers and policymakers. Assessment of water quality 
conditions and trends, it is an important part of our overall 
mission.
    I am currently working on our National Water Quality 
Assessment Program, often referred to as NWQA. More 
specifically, I'm responsible for a team of hydrologists who 
are synthesizing, interpreting, and reporting information on 
volatile organic compounds in the nation's groundwater and 
surface water.
    MTBE is one of about 60 volatile organic compounds that we 
are assessing. The main building blocks of our assessments are 
comprehensive water quality studies of more than 50 large river 
basins and aquifers across the nation. The San Joaquin, 
Sacramento, and Santa Ana river basins in California are three 
of the study areas we have or will assess.
    In 1995 the Geological Survey published a report discussing 
the occurrence of MTBE in shallow groundwater, based on our 
first NWQA results. Chloroform and MTBE were the two most 
frequently detected volatile organic compounds in about 700 
shallow wells. MTBE was detected in about 25 percent of the 
urban wells and about 1 percent of the agricultural wells.
    Senator Boxer. Could you say that again?
    Mr. Zogorski. Yes. MTBE was detected in about 25 percent of 
the urban wells and 1 percent of the agricultural wells.
    Senator Boxer. Thank you.
    Mr. Zogorski. It's important to note that 3 percent of the 
wells sampled in urban areas had concentrations of MTBE that 
exceeded the Federal drinking water health advisory. This 
initial sampling did not include urban areas in California. An 
urban groundwater study is a component of the Sacramento River 
Basin Study, and our data collection in Sacramento will be 
completed this year.
    Last year I co-chaired a Federal interagency panel to 
summarize what is known about fuel oxygenates in water quality. 
The results of our effort were published as a chapter in a 
report entitled ``Interagency Assessment of Oxygenated Fuels.'' 
The water quality chapter summarizes the scientific literature 
and agency data for groundwater and surface water.
    Further, we discussed the implications for drinking water 
quality and aquatic life, and we identified areas where the 
data are too limited to make definitive scientific statements. 
Recommendations were made that we believe would reduce 
uncertainties and allow a more thorough assessment of human 
exposure, health risk and benefits, and environmental effects.
    Because of the very limited data sets for MTBE in drinking 
water it was not possible for our panel to describe MTBE's 
occurrence in drinking water for the nation. Similarly, there 
was not sufficient data on MTBE to establish a Federal criteria 
to protect aquatic life.
    Our panel did conclude that drinking water supplied from 
groundwater is a potential route of human exposure to MTBE. 
Based on limited monitoring in five States, including New 
Jersey, Iowa, Illinois, Colorado and Texas, MTBE was detected 
in 51 public drinking water systems through 1996. However, when 
detected, the concentrations of MTBE were, for the most part, 
below the Federal health advisory. This indicates that the 
consumption of drinking water was not a major route of exposure 
for these few systems. In a few instances, high concentrations 
of MTBE in groundwater have caused the shutdown of drinking 
water production wells. The source of contamination in most 
cases is believed to be releases from gasoline storage tanks.
    Finally, I'd like to briefly summarize the three broad 
recommendation of our panel:
    First, completing a drinking water exposure assessment 
should be given high priority. Monitoring of MTBE in drinking 
water for this purpose should initially be targeted to high 
MTBE use areas, and to those environmental settings that are 
otherwise sought--thought--excuse me, to be more susceptible to 
contamination.
    Second, additional studies are needed to expand the current 
understanding of the sources, environmental behavior, and shade 
of MTBE so as to identify environmental settings and situations 
where MTBE will be of concern.
    Finally, studies of the aquatic toxicity of MTBE are needed 
to define the extent of any threat to aquatic life and to form 
the basis of a Federal water quality criteria if warranted.
    Again, the Geological Survey appreciates the opportunity to 
testify at this hearing, and I'd be happy to answer any 
questions that you have.
    Senator Boxer. Thank you very much. I have this, and I find 
it very important. Just quickly, this is done by the 
President's task force? Who actually put this together? This is 
interagency?
    Mr. Zogorski. This was coordinated by the Office of Science 
and Technology policy. There was a variety of organizations 
involved. In terms of the water quality chapter, there were 
representatives from EPA, USGS, Texaco, the American Petroleum 
Institute, Oakridge, and the academic community.
    Senator Boxer. It's very, very helpful. Thank you.
    Secretary Peter Rooney from CAL-EPA. We welcome you and we 
thank you for being here with us. Go right ahead.

        STATEMENT OF PETER M. ROONEY, SECRETARY, CAL-EPA

    Mr. Rooney. Thank you, Senator. As you say, I'm--I am 
serving----
    Senator Boxer. Would you come closer to the microphone? 
That's right.
    Mr. Rooney. Let's see. I'm probably using this one.
    Senator Boxer. That's terrific. Good.
    Mr. Rooney. Good morning, Senator. Thank you very much for 
convening these hearings and giving us an opportunity to speak 
with you about it.
    We feel it is impossible to talk about this issue without 
first discussing why it is being used as a gasoline additive. 
As you mentioned in your opening remarks, it is an oxygenate 
which is blended in our reformulated gasolines to help dilute 
volumes of benzene, sulphur, aromatics, olefins, and other 
undesirable compounds. During the winter months areas 
throughout the United States that are in violation of carbon 
monoxide standards use oxygenates to help reduce tailpipe 
carbon monoxide emissions.
    But it's interesting and it's important to note that no 
Federal law regulation and no State law or regulation mandates 
the use of MTBE. In fact, California's cleaner burning gasoline 
regulations provide the refining industry with the ultimate 
flexibility. As long as the performance standards are met and 
as long as the emission reductions are realized, California 
regulations allow cleaner burning gasoline to be made without 
any oxygenate at all.
    The Federal Clean Air Act specifically preempts that 
flexibility, however. That's why Governor Wilson's 
administration has been on record for 2 years in support of 
efforts by Representative Brian Bilbray that would remove the 
year-round oxygenate mandate from the Federal Clean Air Act, at 
least with respect to California. I'm also pleased to note that 
your colleague, Senator Feinstein, has recently announced that 
she will introduce a companion bill in the Senate this January.
    At the State level the State Water Board does administer 
the underground storage tank program, as well as the 
underground storage tank cleanup fund. The underground storage 
tank program includes both leak prevention and cleanup when 
leaks occur. California State law provided a 10-year compliance 
period for all regulated underground storage tanks to be 
removed, upgraded or replaced, in accordance with both State 
and Federal standards, and that target date is by December 22, 
1998.
    There are currently some 65,000 operating underground 
storage tanks in California located at 25,000 facilities. An 
estimated 43 percent still need to be removed, upgraded or 
replaced. The State Board and local implementing agencies have 
pursued aggressive efforts to ensure that the 1998 State and 
Federal upgrade deadline is met, including having met with each 
State agency that operates underground storage tanks to obtain 
a commitment from each of those agencies that the 1998 deadline 
will be met. We're hopeful that Federal agencies will match our 
commitment. At this point I have no information whether the 
Federal process is on track.
    To further ensure compliance with the underground storage 
deadline the administration proposed, and Governor Wilson 
signed, AB1491, which you had mentioned earlier, authored by 
Assembly Member Cunneen. This law will prohibit the delivery of 
fuel to underground storage tanks which do not comply with the 
upgrade standards after January 1, 1999. The bill underscores 
California's commitment to prevent future leaks from 
underground storage tanks.
    In the cleanup fund, which was established in 1991, to 
provide financial assistance for eligible cleanup costs and 
damages awarded to injured third parties, to date more than 
$500 million has been distributed under this program and the 
fund has collected some $700 million.
    In 1995 the Water Board ordered sampling after hearing of 
the results from the geologic survey, and it showed that most 
of the leaking sites had detectable levels of MTBE in shallow 
groundwater. These results were found about the same time as 
the finding of high levels of MTBE in the public drinking water 
wells in the city of Santa Monica.
    In the spring of 1996 the State Board requested all 
regulatory agencies involved in leaking underground cleanups to 
add MTBE to routine monitoring wells analysis. In addition, the 
State Board, with funding from the U.S. Department of Energy 
and the Western States Petroleum Association, contracted with 
Lawrence Livermore National Laboratory to conduct a study on 
the environmental fate of MTBE in groundwater. That study 
should be----
    Senator Boxer. Could you wrap up just this next minute or 
so?
    Mr. Rooney. I will. As was mentioned, the legislature 
passed four bills this year. The Governor signed all four. The 
Governor, in signing, also directed that the State Board 
determine and investigate the issue that was raised here this 
morning of whether or not the new converted tanks are also 
leaking tanks, and that study will be pushed forward with 
maximum speed to see if that is a new factor in this equation.
    Also, the Governor asked that the Energy Commission study 
the possible ramifications of various scenarios of changing the 
use of MTBE, and directed that the marina operations be 
examined.
    In conclusion, I think the choice should be left to 
refiners in what can be done. I would ask you for your support 
in the Bilbray/Feinstein legislation. That would bring back to 
California the flexibility to devise a fuel system that does 
not necessarily require any oxygenate and will solve our air 
problems but at the same time protect our water supply. So 
thank you very much for having these hearings today.
    Senator Boxer. Thank you so much, Secretary Rooney. My 
committee is looking at that bill, the Committee on Environment 
and Public Works. But my focus is MTBE and I don't really want 
to wait around, if we find it's really such a risk, for a bill 
to go through opening up the Clean Air Act. It takes a long 
time, as you know, for a bill to become a law. My view is that 
if we find the danger from MTBE outweighs the benefits, we 
don't want to wait around for a bill.
    I'm happy to look at a bill that deals with oxygenates and 
other mandates. That's not a problem. We do have ethanol, which 
is an oxygenate, but does not cause some of these problems. I'm 
going to ask you more about that, if there's any adverse 
impacts from ethanol. But, the issue today is MTBE and what 
steps we can take immediately. I'm studying this bill, as is my 
chairman, Chairman Chafee, and I can assure you that we're 
going to take swift action on this whole matter.
    I want to praise you and the Governor for signing these 
bills, and, particularly, I think this study on whether or not 
even the new tanks are at risk is key, because if people are 
going to invest all this money in new tanks only to find out 
that they're leaking again, I think it would be a disastrous 
decision, and we need to have this information. So how soon do 
you think you may have that information?
    Mr. Rooney. The Governor has asked the Water Board to 
convene the panel of experts immediately.
    Senator Boxer. Good.
    Mr. Rooney. We would hope in due course, and shortly in due 
course, that we would have the best judgment that we can come 
up with.
    Senator Boxer. Well, it would be extremely helpful to all 
of us if California can move forward on this. I know that you 
will, so thank you very much.
    Our next speaker is Dr. David Spath, Chief, Drinking Water 
and Environmental Management Division of California's 
Department of Health Services. We welcome you.

      STATEMENT OF DAVID SPATH, CHIEF, DRINKING WATER AND 
           ENVIRONMENTAL MANAGEMENT DIVISION, CAL-EPA

    Mr. Spath. Thank you, Senator Boxer. Appreciate the 
opportunity to come before you and describe the efforts of the 
Department to determine the extent of contamination of drinking 
water supplies, and also to describe our efforts in regulating 
MTBE under recently mandated State laws.
    As you've heard already, we have an action level of 35 
parts per billion of--for MTBE, and just briefly, that's an 
advisory level, as it is with EPA. We use it to advise water 
systems that if they exceed that level, that they should not 
serve that water to the public, as we advised the city of Santa 
Monica when they found excessive levels of MTBE.
    Senator Boxer. And what was your level that you picked?
    Mr. Spath. Thirty five parts per billion.
    Senator Boxer. OK.
    Mr. Spath. In 1996, based on scientific literature, USGS 
literature, and others, indicating that MTBE could be a 
groundwater contaminant, we alerted all public water systems of 
the necessity to evaluate their sources for potential 
contamination from MTBE, and also advised them that we would be 
regulating MTBE as what is called an unregulated contaminant.
    In February 13, 1997, we established an unregulated 
monitoring requirement for MTBE that would affect 4,400 water 
systems with approximately 11,000 sources. To date we've had 
results from 479 water systems, which represents more than 
2,400 sources. Within that group 17 systems have reported MTBE 
findings, which represents 27 sources. Fifteen of those are 
groundwater sources and 12 are surface water sources.
    Two water systems have reported levels above our action 
level. You've heard city of Santa Monica, also a system in 
Marysville, California. A water service company has also 
reported one well in excess of that level.
    With regard to setting drinking water standards for MTBE, 
Senator Hayden and Assemblywoman Kuehl both authored 
legislation last year that required the Department to establish 
a primary drinking water standard by July 1999, and a secondary 
drinking water standard of July 1998.
    We've already begun the work on the secondary standard and 
have drafted a rule for that standard. It is now going under 
administrative review. The studies to date on taste and odor 
show that concentrations as low as two to two and a half parts 
per billion will elicit taste and odors with regard to MTBE. So 
there are--there is a portion of the population that is quite 
sensitive to MTBE. It varies, obviously, but you can see that 
the concentrations could be quite low. Our draft regulation is 
at five parts per billion, and that's what we will be 
recommending to go forth with.
    With regard to the primary drinking water standard, the 
health advisory we have right now is based on noncarcinogenic 
effects. The chemical is demonstrated to be a carcinogen 
through inhalation. The chemical, however, is, to date, not 
demonstrated to be a carcinogen through ingestion, and studies 
are still going on to determine whether that is going to be an 
outcome of the chemical or not.
    Finally, I'd like to----
    Senator Boxer. So we don't know at this point if it causes 
cancer if it's ingested.
    Mr. Spath. That's right. There are studies. There was an 
Italian study. that has not been peer-reviewed, that suggests 
that to be the case, but it's still an open question.
    Senator Boxer. So, actually, no scientist who has read all 
the papers could say that it causes cancer or it does not. We--
--
    Mr. Spath. Through ingestion.
    Senator Boxer. Through ingestion.
    Mr. Spath. That's right.
    Senator Boxer. Which is what we're talking about here----
    Mr. Spath. Right.
    Senator Boxer.----the drinking water.
    Mr. Spath. That's correct.
    Finally, I'd like to reiterate Cynthia Dougherty's comments 
with regard to the Source Water Assessment and Protection 
Program, which has been envisioned of the Federal Safe Drinking 
Water Act, and is also part of the State law. The Department 
has already begun the process, in coordination with Federal, 
State and local agencies, to develop a plan that we will be 
submitting to the Environmental Protection Agency in mid 1998, 
which will describe our program for assessing and protecting 
public water supplies throughout the State. We're hoping that 
that'll be approved and over the next three or 4 years we will 
implement that program.
    And, finally, as the Federal and State laws envision, we're 
hoping that local agencies, through their voluntary program, 
and potentially through funding from the State revolving fund, 
which is part of the Federal Act, that local agencies will 
undertake these voluntary programs to protect their local 
sources. We think this is a very important aspect of the 
overall law and will bring the public close to the real need 
for protecting public water supplies, regardless of whether 
it's from MTBE contamination or other sources.
    In closing, I'd like to thank you for the opportunity to 
present this information. As I said, we will be going forth 
jointly with establishing standards within the next 2 years and 
we'll be regulating public water systems in concert with the 
Federal agency.
    Senator Boxer. Thank you, Doctor, for your very important 
statements.
    We're going to call on Mr. Stephen Hall, who it's my 
pleasure to work with on so many important issues, including 
the wonderful Cal Fed process which we're all trying to make a 
success.
    Before he speaks, I just want to tell everyone in the 
audience and the press what the plan is. I'm going to ask 
questions of this panel, then we're going to take a quick 10 
minute break. Then we're going to come back and hear our public 
health panelist, Dr. Brautbar, from the UC School of Medicine; 
Nancy Balter, Ph.D., former associate professor from Georgetown 
University. She's the principal at the Center for Environmental 
Health and Human Toxicology, and Mr. Gary Patton, Counsel for 
the Planning and Conservation League. That will complete our 
program.
    I'm very happy to call on Stephen Hall at this time.

 STATEMENT OF STEPHEN K. HALL, EXECUTIVE DIRECTOR, ASSOCIATION 
                  OF CALIFORNIA WATER AGENCIES

    Mr. Hall. Thank you, Senator. We do have extensive written 
testimony which I'd request be entered into the record.
    Senator Boxer. So ordered.
    Mr. Hall. And I would like to also request that testimony 
from Judy Abdo, on behalf of the Metropolitan Water District of 
Southern California, also be entered into the record.
    Senator Boxer. Without objection, so ordered.
    Mr. Hall. Thank you. Thank you for the opportunity to 
present oral testimony.
    I represent the folks who deliver water to the public. It's 
our job to deliver water which is safe and which the customer 
believes it's safe. That is not always easy, and with MTBE it 
just got a lot harder. We don't think customers should have to 
think twice about the safety of their drinking water, but, 
unfortunately, with a compound such as MTBE, they can detect it 
at such low levels through taste and odor that it will be 
virtually impossible to deliver water that the customer has 
confidence in, the public has confidence in, if we do not act 
soon to remediate contaminated water and to prevent further 
contamination.
    We don't know a lot about MTBE but what we know is bad 
news. You've heard ample evidence of that this morning. There 
is potential for widespread contamination. Gasoline is used 
virtually everywhere in California. There are literally 
thousands of pipelines carrying gasoline across the State. It 
is soluble in water. It moves faster than most of the compounds 
in gasoline. It doesn't biodegrade. It's no surprise, then, 
that it is already finding its way into surface water and well 
water. We've sampled a small fraction of the wells in 
California and we're finding it in lots of places, as you heard 
this morning.
    It's difficult to treat. There is no established treatment 
technology. It can probably be treated with existing 
technologies, but it will be very expensive. There are 
literally thousands of wells in California. Early estimates are 
one million to a million and a half per well to install the 
equipment, and at $100,000 per year to operate it. We simply 
cannot afford to treat for MTBE in every well in California.
    The greatest threat is to groundwater, but there is also 
threat to surface water. Now, in groundwater 40 percent, on an 
average basis, of our water comes from the ground. In dry years 
that goes up to 60 percent. More importantly, some communities 
have to rely exclusively on groundwater. They have no other 
source of supply. So if it becomes contaminated they and their 
customers literally have no option except to do without or to 
treat it at very high cost.
    We--our organization has begun conducting a survey, an 
occurrence survey, in the surface reservoirs that our members 
own and operate to determine how much MTBE is in their surface 
water and to what extent it is statewide.
    We know that customers can smell and taste it as low as 2.5 
parts per billion, as Dr. Spath indicated, so there is a 
potential for a real crisis of confidence in our public 
drinking water supplies. There are no more safe drinking water 
supplies anywhere in the world than in California, but if the 
public can taste and smell compounds in their drinking water it 
will be virtually impossible to convince them of that, 
regardless of the real public health risks, and we know that 
there are some potential public health risks. Our members are 
already getting concerned calls from their customers about 
MTBE. Even where it doesn't exist in the drinking water supply 
the public has read about it. They're worried about it.
    Senator to us this seems to be a classic case of the law of 
unintended consequences being applied. Anybody who lives in 
California not only breathes the air, they can often see the 
air. So the air quality problems are real and they're visible, 
however, this is a case where a product was rushed to the 
market without appropriate study to determine its unintended 
consequences, and as a result, in an effort to clean up the 
air, we have polluted the water. We now have a potentially huge 
environmental and potential public health problem. The cost of 
remediating that problem is incalculable, but huge.
    I want to emphasize, we're not here to simply point 
fingers. The water community is ready, willing and able to help 
solve the problem. In fact, we've already started. We're 
already working with the petroleum industry to work on 
treatment technologies.
    I mentioned the occurrence survey that we're doing to 
determine the extent of it in surface reservoirs. We supported 
the legislation last year on MTBE that was passed by the 
legislature and signed by the Governor. Now I need to ask for 
your help, Senator. We need help from the Federal Government, 
and having worked with you on Cal Fed I know how effective you 
can be in bringing Federal resources to bear on solving 
problems.
    We need funding for research on occurrence, treatment and 
health effects. We need source protection, leak detection, and 
cleanup. At the Federal level we need your help in encouraging 
EPA to change directions. We need more flexibility in the way 
the air quality laws are implemented then enforced, and we are 
looking very hard at the Bilbray legislation as a potential 
source for that flexibility.
    But I happen to agree with you, Senator, that we need to 
act sooner than any legislation can pass. That's why I was 
encouraged to hear you say that you are considering urging 
Secretary Browner to use her emergency powers. We're usually 
the ones standing up and saying let's not rush to a decision. 
In this case there is so much at stake I would hate to see 
delay that causes a loss of public confidence and millions, if 
not billions, of dollars being wasted.
    One area in particular where we think you can be helpful, 
Senator, is in assuring that appropriations are adequate to 
fund the State revolving funds for source water protection and 
cleanup. It's an area which we think has been overlooked and 
which we're very interested in, and we--I was heartened to hear 
Ms. Dougherty talk about source water protection. We think it's 
an important element in this puzzle.
    Let me close by saying that we in California have a lot of 
conflicts over water. We don't have any to waste, and if we 
lose valuable sources of supply the conflicts over water are 
going to grow that much greater. We need research to treat it 
and to assure public health, as well as research on occurrence 
and cleanup. Most important, we need measures to protect 
against compounds like MTBE getting into our groundwater and 
surface water. Knowing your commitment to water resources and 
to public health, we look forward to working with you, and we 
thank you for taking the lead on this problem.
    Senator Boxer. Thank you so much, Mr. Hall, and, as usual, 
you laid it out for us. You said very clearly, we have to 
deliver water and the water has to be safe, and the people have 
to believe it's safe, and MTBE is making it really hard. I 
think as this--as these panels move forward I'm becoming more 
and more convinced of the need to do something very quickly.
    Mr. Hall. Senator, I know time is short, I don't want to 
take undue time, but Senator Mountjoy brought you an extreme 
example of how contaminated water can become. Ours is not as 
extreme, but I think it points out it doesn't take much to show 
up in terms of taste and odor.
    Senator Boxer. Yes. Please share that with us.
    Mr. Hall. We have an odor-free sample, which I'll give to 
the sergeant. This is our baseline. We have some with 70 parts 
per billion, and then the level of contamination in Santa 
Monica is 600 parts per billion. What you'll find--what you 
should find in the odor-free sample is no odor. You'll probably 
smell a slight ether type or turpentine type odor in the 70 
parts per billion sample. I think it will be unmistakable at 
600 parts. It will not smell like something you want to drink. 
So I'll pass these on to you, Senator.
    Senator Boxer. Right.
    Mr. Hall. I invite you to smell them but not to drink them.
    Senator Boxer. I assure you I will follow your advice. I 
think we were given a sense of smell for a reason----
    Mr. Hall. That's right.
    Senator Boxer.----and we're finding it out here today, 
because no sensible person would drink water that smells that 
way. Senator Mountjoy, do you have a question for Dr. Spath?
    Senator Mountjoy. Yes.
    Dr. Spath, during the period in time in which my bill was 
going through the legislature the Italian study by Maltoni was 
brought up, and that testimony went to the fact that it was 
peer-reviewed, that, in fact, it did cause cancer in rats when 
ingested. It was peer-reviewed by nine reviewers. One was the 
OSHA Assistant Secretary; two scientists that were directors of 
the National Institute of Environmental Health and Science, 
part of the NIH; and two scientists from EPA, one was the 
assistant administrator for research and development of EPA, 
one was the assistant scientist for EPA; two scientists from 
NIH and two from the academia department heads. So, our 
information as the bill proceeded was that that study was peer-
reviewed by these folks, some nine different scientists, and 
the conclusion was, yes, ingestion did, in fact, cause cancer 
in rats.
    Mr. Spath. I was not aware of that and maybe I could turn 
to Cynthia Dougherty, because this, as you suggested, Senator, 
was done at the Federal level.
    Ms. Dougherty. The Italian study was in a peer-review 
journal, so there was a peer review of the article. What the 
Office of Science and Technology Policy Report suggested, and 
actually the National Academy of Science peer review of that, 
the draft of that report, suggested was that more data needed 
to be available to actually see what was behind the conclusions 
that the article had. NIH attempted to try to go see--I'm not a 
scientist, so, I mean, we're getting a little bit beyond my----
    Senator Mountjoy. Nor am I, but----
    Ms. Dougherty. But NIH attempted to go to Italy to see the 
data behind the article, and attempted to do that several times 
over the past year and a half, and were not able to 
successfully do that. So without being able to do that and to 
see the data that was behind it, and how that data was 
collected, we're able to say that that article exists and that 
the conclusions were peer-reviewed, but not able to really use 
it fully as you might with another kind of study. Our health--
our drinking water advisory that we just put out yesterday 
talks about why--you know, provides that information, but talks 
about why we think it's not as useful as it could be if we 
could see the rest of the data.
    Senator Boxer. Well, do we know why the NIH couldn't get 
out? Sounds like they couldn't get on a plane or something. I 
mean, what's the----
    Ms. Dougherty. No. It has more to do with the people in 
Italy----
    Senator Boxer. That they weren't interested in allowing our 
people to go over the data? Is that it?
    Ms. Dougherty. We'd have to talk to NIH about that. But I 
understand they wouldn't allow it.
    Senator Boxer. OK. Well, if we could--if you would help me 
do that, I'd like to make an inquiry to NIH. But the fact is 
the article was peer-reviewed; is that correct?
    Ms. Dougherty. The article itself was peer-reviewed but not 
the data behind it.
    Senator Boxer. OK. All right. Well, thank you so much, 
Senator Mountjoy.
    Senator Mountjoy. I appreciate that.
    Senator Boxer. A couple of questions. You know, a couple of 
times we've heard of a legislative attempt to try and go beyond 
MTBE to other--to the whole issue of oxygenates, and are all 
oxygenates in this category? I mean, is ethanol--do we have any 
of these problems with ethanol leaking at this point? Ethanol 
is an oxygenate that we use. Dr. Zogorski? Mr. Shulters?
    Mr. Zogorski. We don't have any Agency information on 
ethanol at underground storage tanks, nor are we monitoring for 
it in our national water quality assessment program.
    Senator Boxer. Has ethanol--has it shown up in these water 
supplies, drinking water supplies at this stage?
    Mr. Zogorski. I'm not aware that anyone has reported 
ethanol in drinking water.
    Senator Boxer. Well, that's my question.
    Mr. Zogorski. Right.
    Ms. Dougherty. It's also used at much lower percentages 
use-wise than----
    Senator Boxer. And why is that?
    Ms. Dougherty. Just because of the decisions that were made 
in terms of using MTBE as the oxygenate of choice.
    Senator Boxer. OK. Yes.
    Mr. Zogorski. Ethanol has less oxygen in the molecule than 
MTBE.
    Senator Boxer. I see. OK. Yes, Secretary?
    Mr. Rooney. And, Senator, there's other forms of ethanol. 
The ETBE ether form of it, I mean, would be another vector, 
potentially. TAME is another one of the possible products. We 
don't know as much, probably, about TAME and the others as we 
do about MTBE. I think that gets me back to why we were asking 
for your support in the Bilbray legislation in that if you 
could remove the oxygenate requirement, then we get away from 
the issue of just substituting one of these others, the TAME or 
something else, for MTBE. But if you still require the 
oxygenate element, then we're stuck with the choice of what 
other oxygenate.
    Senator Boxer. Certainly.
    Mr. Rooney. If we could move forward to getting beyond 
that----
    Senator Boxer. Yes. Yes.
    Mr. Rooney.----our bigger issues would be solved.
    Senator Boxer. I think it's a very important point here. To 
me, I don't think we should allow anything to be added to the 
water unless we know the answer first as to what it's going to 
do to humans. I mean, I just think clear across the board it 
seems like----
    [Applause.]
    Mr. Rooney. Well, certainly, and we would agree with you, 
Senator, the gasoline itself should not be added to water in 
whatever its form, in its older forms with the benzenes and 
whatnot. So to the extent that contamination occurs, that is 
poor public policy, and we do have to do whatever we can to 
prevent this cross-mixing of our----
    Senator Boxer. But, see, but I just think that whatever we 
do, let's say we do the Bilbray bill, the Bilbray/Feinstein 
bill, maybe that has some unintended consequences that because 
we say we do certain things people rush to another solution and 
that solution turns out not to be right.
    See, my concern is that we're beginning to get a lot of 
information on MTBE. I don't want to divert the conversation 
away from that to some other issue where the public is 
confused, we're opening the Clean Air Act, we're amending it in 
different ways.
    Let's handle the MTBE situation here, and then I think the 
maximum flexibility we can give any State, as long as they meet 
the air quality without harming the water quality, is--I don't 
have any philosophical problem with that whatsoever. But I 
don't want to get us off--I don't want to take my eye off the 
MTBE ball right here, which is what I'm afraid we're going to 
get at, because it's very easy for people to wiggle out of 
doing anything when the issue gets diffused, if you get my 
point.
    I've had so much experience in government and I think that 
Mr. Hall's testimony perhaps was, you know, the most direct. I 
care about what real people worry about, and what real people 
worry about is they're tasting the stuff in their water and 
then they call up their agency and say, Is this dangerous? And 
you know what the agency's going to tell them? Well, there's a 
peer-reviewed article but it wasn't really--the data wasn't 
peer-reviewed but the article was peer-reviewed, and that said 
you could get cancer, but we're really not sure and it's going 
to take us till 2002 unless there's an emergency, and then the 
Federal Government could--please. We wonder why people lose 
faith.
    I mean, I think we need to keep our eye on the ball here, 
and I'm happy to support bills for the long range. I'm happy to 
support research, but I also think we got to get back to the 
basic premise. If I can't look someone in the eye and tell him, 
you know, this stuff is in your water and it's OK, even though 
it tastes bad, I mean, if I can't do that I don't feel very 
good about what I'm doing, because I'm supposed to protect the 
health and safety of the people, as are so many of you around 
this table.
    I don't think we can really feel good if we can't answer 
that question, which takes me back to that major point, which 
is, we didn't know what we were doing when we did it in the 
early 1990's, or the late 1980's, or whenever it was that MTBE 
started to be added. So, you know, there's some point at which 
you cut your losses, you admit your human fallibility, you move 
forward, and it may be we're at that point and, you know, I'm 
thinking--I'm going to hear one more panel, but I'm getting to 
that point.
    I want to ask EPA this question about the type of health 
tests that we're doing where we're just isolating MTBE and 
exposing the animals to it, but we're not exposing the animals 
to the gasoline, which includes the MTBE, and, so, we're not 
getting the synergistic impact of it.
    Ms. Dougherty. I may have to correct this if I'm misstating 
it, but my understanding is that a lot of the studies that have 
been done to date have done that where they've just looked at 
MTBE in inhalation studies, but that the 211 testing under the 
Clean Air Act that I talk about in my testimony will look at 
that other issue, which is if you looked at conventional 
gasoline versus gasoline with MTBE what kind of effects would 
you get. So we'll be testing that. It'll be starting. That'll 
be paid for by the industry under Section 211 of the Clean Air 
Act----
    Senator Boxer. Well, that's good news, because we did not 
have the information. So they're going to now be testing it 
when it is, in fact, mixed into the gasoline.
    Ms. Dougherty. Yes.
    Senator Boxer. I'm not going to go into these issues that I 
have already commented on because I don't want to put you in a 
situation of answering the question, why did we put the cart 
before the horse, because you weren't there and you didn't make 
that decision. But let me just say, in the case of Santa 
Monica, which is just probably the tip of the iceberg, but the 
place that had this problem first and brought it to my 
attention, are you staying close to the city and working with 
them? Because, you know, again, we get to the point where we're 
saying this was a decision, the Federal law allowed the use of 
MTBE, no standard put into place, and now they are affected 
with 70 percent of their wells. So are we assisting them and 
helping them, and do we intend to stick with them on this 
problem?
    Ms. Dougherty. EPA is assisting the city and, actually, 
Julie Anderson is here from our regional office and----
    Senator Boxer. Julie, could you tell us what you're doing 
to work with the city?
    Ms. Anderson. Yes. We're working very aggressively right 
now to take action against the potential responsible parties to 
determine who might have actually contributed to the 
contamination of the underground fields. Right now we feel that 
it was very important for us to enter that case, although 
usually those kind of actions are undertaken by our State 
agencies.
    The city of Santa Monica did request that we get involved. 
Because of the nature of the contamination, of it having had 
such widespread effects, and the fact that it was a contaminate 
that we did not have a lot of experience with yet, in terms of 
developing cleanup standards or developing remediation 
techniques, the EPA felt it was very important that we step in 
and had a role to play, in conjunction with our State 
counterpart. So we are----
    Senator Boxer. OK. But I think there's more to it than 
this, because it seems to me the Federal and State government 
allowed this to be added, and, you know, the oil companies that 
stepped forward in--and I'm always--many times on opposite 
sides of the oil companies when it comes to pollution and 
offshore oil drilling, but in this case they came forward and 
they agreed to pay--how much of the costs--75 percent of the 
costs for a particular well cleanup. But don't you think that 
there's a responsibility of the Federal Government and the 
State government that allowed this chemical to be added, to be 
a party to the solution?
    [Applause.]
    Ms. Anderson. Again, I think we really do have to place 
responsibility with those who allowed the materials to leak as 
well. I think it's very important----
    Senator Boxer. Yes.
    Ms. Anderson.----that we look at the distribution and 
storage systems and make sure that we take all efforts to 
prevent those kind of leaks down the road, and then to be very 
aggressive in enforcing, then, when they appear.
    Senator Boxer. Yes. Well, I agree that if people had their 
tanks in bad condition. The situation with MTBE may be that 
even if they had the tanks in good condition the MTBE has such 
a corrosive effect, but we--you know, we don't know the answer, 
but South Lake Tahoe said it may be.
    I think before we assign the blame we need to see if, in 
fact, these are really old tanks. That's one thing, but if they 
weren't, that's another thing. So it raises a lot of questions. 
I'm going to be working through my chairman to see if we can 
get the Federal Government in a posture to take a little bit 
more responsibility, if you will, than we have up to this 
point. Because, you know, again, the buck stops at our door, 
and certainly at the State's door, you know, and I think we 
need to stand up to that responsibility.
    Well, I want to thank each and every one of you. This is a 
difficult matter and you've been just very forthright, and I do 
appreciate it and look forward to working with you.
    We're going to take a 10-minute quick break for getting a 
drink of water or something like that, clean water, and we'll 
be back in 10 minutes.
    [Recess.]
    Senator Boxer. We're ready to continue the hearing and 
complete the hearing, and I'm very happy to say that this panel 
is the panel on public health, which is very important to 
everything that I will be taking back to my chairman. We're 
going to ask if people could close that door, please, and take 
your seats.
    We're going to begin, if he's ready, with Dr. Nachman 
Brautbar, Professor of Clinical Medicine, University of 
Southern California, School of Medicine. Thank you so much for 
being here.

   STATEMENT OF DR. NACHMAN BRAUTBAR, PROFESSOR OF CLINICAL 
 MEDICINE, UNIVERSITY OF SOUTHERN CALIFORNIA SCHOOL OF MEDICINE

    Dr. Brautbar. Senator Boxer, members, ladies and gentlemen, 
I'm going to read my statement, in the interests of time. I've 
provided to the panel a dossier with a little journal.
    Senator Boxer. Yes. Thank you, Doctor. We have this book.
    Dr. Brautbar. My name is Dr. Brautbar, a medical doctor 
from Los Angeles, and a 23-year resident and citizen of 
California. I'm testifying today as a physician and scientist. 
I have no political agenda and have not received any 
compensation from either the opponent or proponent.
    I practice medicine, treat patients, and teach at the 
University of Southern California School of Medicine, and hold 
the title of Professor of Clinical Medicine, and former 
Associate Professor of Pharmacology. I am a member of the 
National Society of Toxicology, American College of Toxicology, 
and others, and have published over 160 scientific papers in 
medicine, toxicology and pharmacology. My resume is attached to 
your dossier as Exhibit A.
    In the last 5 years I have studied the health effects of 
MTBE in gasoline on patients, and personally examined over 350 
patients with MTBE health-related problems from drinking water 
contaminated with MTBE and gasoline. Those 350 patients did not 
know that they were exposed to MTBE and gasoline, developed 
skin rashes, sinus congestion, headaches, loss of memory, 
shortness of breath, asthma and diarrhea.
    These symptoms started sometime in 1992 and were verified 
by review of medical records, examination and laboratory 
testing. Before these patients were exposed none of them 
experienced any of these symptoms and findings. Removing these 
patients from MTBE and gasoline contaminated water resulted in 
improvement and, in some, complete reversal of these 
pathological and disabling findings.
    In addition to the objective studies documenting the 
validity of those complaints, I have conducted studies of the 
blood cells in these patients. These tests showed that the life 
span of the white blood cell of these patients was reduced 
significantly, indicating serious harmful effects of MTBE in 
gasoline, in line with the position of the leading physicians 
and scientists worldwide that MTBE in gasoline is harmful to 
humans, as summarized in Exhibit B. My studies have been 
published in scientific peer-reviewed journals, reprints of 
which are attached here as exhibits C and D.
    MTBE causes cancers in many organs in significant numbers 
of animals and are identical to doses described for other 
carcinogens, such as vinyl chloride and benzene at similar 
doses. My opinion is supported by the general agreement among 
experts in chemical carcinogens and in the--by the 
International Agency for Research on Cancer, namely, IARC, that 
in the absence of adequate data on humans it is biologically 
plausible and prudent to regard agents for which there is 
sufficient evidence of carcinogenicity in experimental animals 
as if they presented a carcinogenic risk to humans. See Exhibit 
E in my dossier.
    The substantial weight of evidence clearly indicates that 
MTBE is carcinogenic. This is reported by several studies where 
MTBE was shown to cause cancer in two different types of 
experimental animals.
    By the way, I must state that I personally spent 
approximately 2 months with Professor Maltoni in his institute 
in Bologna. There were scientists from Sweden, Belgium, France, 
Japan and other countries, and his question was: Where is the 
EPA? Where is the NIH? They wanted to come and visit. I 
personally have viewed those slides, by the way.
    The medical scientists have found it clear that pregnant 
women, young children, people on medications, and sensitive 
individuals are at even greater risk for developing cancers and 
diseases, thus the levels of exposure for these individuals may 
be extremely high. Cross-sensitivity of MTBE in gasoline is 
many times around 60 to 100 greater than MTBE alone, and causes 
a variety of illnesses, including neurological, allergic, and 
respiratory, and this indicates strong synergistic interaction 
with other chemicals, as in the case of, for instance, asbestos 
and smoking. It is this synergistic effect of MTBE in gasoline 
contaminating the drinking water and consumed by children, 
pregnant women, elderly patients and patients on medications, 
which is our concern. This synergistic effect is described and 
summarized for you in Exhibit F in my dossier.
    My office receives phone calls daily from patients who are 
sick and have been exposed to MTBE and are seeking medical 
help. This problem is not unique to the citizens of California. 
Patients in Alaska, Maine, New Jersey, North Carolina, and 
others, have been presenting with these same problems. Indeed, 
the State of Alaska has banned the use of MTBE in gasoline as a 
result. See Exhibit G in my dossier.
    Our great State of California, under the leadership of 
Honorable Senators Mountjoy and Hayden, is following the 
footsteps of Alaska. Most recently Chevron announced that the 
company is asking to make gasoline without MTBE, saying, 
quoting, that, ``MTBE and similar chemicals do little to reduce 
smog and is a threat to water supplies.''
    I believe that the scientific data and medical studies are 
clear, concise, and the public, as well as realistic 
manufacturers such as Chevron, are recognizing that exposing 
the public to MTBE in gasoline is dangerous. Thank you.
    Senator Boxer. Thank you very much. I want to make sure 
that our EPA people who were out at the break get a copy of 
your statement. We have heard a very shocking report and I just 
want you to have it. For a susceptible individual there may be 
100 times greater risk for contracting and dying from cancer.
    Next I would ask Dr. Balter, Ph.D., Principal, Center for 
Environmental Health and Human Toxicology, former Associate 
Professor Pharmacology at Georgetown, to address us. Welcome, 
Dr. Balter.

      STATEMENT OF NANCY J. BALTER, PRINCIPAL, CENTER FOR 
ENVIRONMENTAL HEALTH AND HUMAN TOXICOLOGY, AND FORMER ASSOCIATE 
PROFESSOR OF PHARMACOLOGY, GEORGETOWN UNIVERSITY MEDICAL CENTER

    Ms. Balter. Thank you, Senator Boxer. I appreciate the 
opportunity to testify before this committee. My curriculum 
vitae has been submitted with my statement. Briefly, I'm a 
pharmacologist and toxicologist who's spent most of my 
professional career on the full-time faculty at Georgetown 
University School of Medicine.
    In 1995 I retired from academics to move to Colorado, where 
I'm a principal with--new name, same company--International 
Center for Toxicology and Medicine. I work as a consultant on a 
variety of environmental and occupational health issues. As a 
consultant to the Oxygenated Fuels Association since 1993 I am 
very familiar with the health-related studies of oxygenated 
gasoline, in general, and MTBE specifically.
    I've served as a consultant and peer reviewer for the U.S. 
EPA, CDC and the National Academy of Science on this issue, and 
have written a paper on the acute health effects associated 
with exposure to oxygenated gasoline, which will be published 
this month in the journal, ``Risk Analysis.'' I have provided 
the committee with a copy of this manuscript.
    I also want to note that I am accompanied today by Mike 
Cavanaugh, who's in the audience. He has done a number of 
studies and can address questions you might have related to 
treatability and costs of remediation.
    My testimony deals with the health implications of the 
continued use of MTBE in gasoline. In addressing this issue I 
cannot stress enough that the consideration of the potential 
for toxicity of MTBE must be weighed against the benefits 
associated with its use in gasoline. The question we need to 
ask is: How do these risks compare with the health benefits 
that accrue because the presence of MTBE in gasoline reduces 
exposure to gasoline-related toxins, including carbon monoxide, 
ozone, and known human carcinogens such as benzene and 1,3-
butadiene?
    MTBE is an extensively studied chemical and we know a great 
about the exposure concentrations necessary to cause toxicity. 
This dose response, the idea that you have to have a particular 
exposure before you see an effect, is a principle of toxicology 
that everyone knows about.
    I certainly agree with Senator Hayden when he says that 
MTBE is a neurotoxin, but at very high levels of exposure, 
levels of exposure higher than individuals in the general 
public would ever experience. In fact, in the recently released 
EPA health advisory they give for water a threshold for 
neurotoxicity of 7,400,000 parts per billion in water. Although 
the concentration of MTBE in water contaminated as a result of 
a gasoline leak or spill can be high, humans are not likely to 
be exposed at these levels for long because of what we've all 
been talking about, the effects of MTBE on taste and smell 
characteristics of the water, making the exposure self-
limiting.
    In situations where there has been a significant gasoline 
leak or spill and MTBE concentrations are high, there might be 
short-term exposures that result in irritant effects. However, 
longer exposures at these levels are not likely to occur 
because of the taste and smell characteristics of the water. 
Although there are no animal studies involving long-term 
drinking water exposure, the threshold for toxicity can be 
extrapolated from studies involving other routes of exposure. 
Doing this, it is clear that humans will not be chronically 
exposed to MTBE in water at concentrations associated with 
chronic toxicity.
    MTBE causes several types of tumors in animals exposed to 
high concentrations of the chemical. While it is generally 
assumed that a chemical that causes cancer in experimental 
animals poses some risk of cancer in humans, which is the 
statement that Dr. Brautbar made, there are exceptions to this 
conservative assumption, depending upon how the chemical acts. 
MTBE could be one of these exceptions and an additional study 
is taking place to determine whether it is or not.
    For the purposes of this discussion, though, I'd like to 
assume that MTBE, based on what it does in animals, does pose a 
carcinogenic risk to humans. Now the question is: How does the 
potential increased cancer risk associated with MTBE exposure 
in air, plus in water, compare with the decreased cancer risk 
that accrues because of MTBE's effect in reducing exposure to 
known and potential human carcinogens in gasoline?
    I'm going to use numbers that were presented in the 
September 1997 CAL-EPA briefing paper on MTBE for the airborne 
part of the calculation. The calculated increase in risk 
associated with breathing MTBE as a result of its use in 
gasoline is one to two lifetime cancer cases per million people 
exposed. Balance against this is a decreased risk of about 60 
per million that occurs because the use of the reformulated 
gasoline reduces the opportunity for gasoline associated 
exposure to known human carcinogens, such as benzene and 1,3-
butadiene. I want to stress we're talking about things we know 
cause cancer versus MTBE, where we're going to assume that it 
causes cancer.
    Senator Boxer. Can you finish in 2 minutes, please?
    Ms. Balter. Absolutely. Now we have to deal with the 
exposure from water, and in doing these calculations I am using 
the data from Maltoni, in spite of the fact that EPA and many 
other people have suggested we not do that until it has been 
reviewed.
    Lifetime exposure to MTBE at the upper level of consumer 
acceptability increases cancer risk by five per million, so 
that the total MTBE associated risk from air plus water is six 
to seven per million compared to a decreased cancer risk of 
sixty per million. Lifetime exposure to MTBE in water would 
have to occur at a concentration in excess of 500 parts per 
billion before the net calculated benefit of MTBE is lost.
    The scientific and regulatory communities will continue to 
study MTBE and some questions do remain. While the toxicity of 
MTBE is well studied, as you have pointed out, we need to look 
at gasoline with and without MTBE in it and compare those. 
Those studies are planned, will be getting underway shortly, if 
they haven't already.
    Another question has to do with sensitive populations. 
Nothing in the toxicologic profile of MTBE would suggest that 
there are sensitive populations, but at least one study which 
does involve exposure to a gasoline type mixture with and 
without MTBE is currently underway.
    Another question, which I won't go into in detail, has to 
do with do we need to do animal studies where animals are 
exposed to MTBE in drinking water. There are actually 
techniques to model going from an inhalation exposure to a 
drinking water exposure. Two models have been developed. They 
are currently being validated. I think from my reading of the 
EPA's health advisory they're waiting for those models in order 
to have the confidence they want to have in developing a health 
standard, although, as you heard today----
    Senator Boxer. OK, we have to finish.
    Ms. Balter. Yes. As you heard today, the--what they have 
suggested will protect against health.
    Continued examination and confirmation of the benefits and 
risks associated with the use of MTBE in gasoline is 
appropriate, but there are adequate data at this point to 
support the safety and benefits of the continued use of MTBE 
containing reformulated gasoline, as these studies are being 
done. Thank you.
    Senator Boxer. Thank you.
    Gary Patton, it is just a pleasure to welcome you, and, of 
course, I followed your career from all levels of government 
and I'm just very happy to see you here today representing The 
Planning and Conservation League.

 STATEMENT OF GARY PATTON, ESQUIRE, COUNSEL, THE PLANNING AND 
                      CONSERVATION LEAGUE

    Mr. Patton. Well, Senator, thank you very much.
    My name is Gary Patton. I have submitted written testimony 
and I am very delighted to have been invited to testify before 
you, but more than being delighted to be here to testify, I am 
delighted that you are providing leadership on this issue in a 
situation in which, I think regrettably in this case, 
California is once again leading the nation.
    Air pollution's everywhere in the nation. California has 
more. Actually, MTBE in reformulated gas, I believe, is used 
almost throughout all of the States, but California has a new 
version in which, essentially, 11 percent of the volume of 
gasoline is MTBE, and we have some problems associated with 
that. It is critically important, as Senator Hayden said, and 
let me say it again, that you're taking the leadership position 
you're taking. So thank you.
    Now, as you look into this, remember that California, in 
leading the nation into MTBE, made the single most significant 
improvement in air quality since the catalytic converter by 
doing that. Fifteen percent, I think, is the number that we 
accept in terms of basic criteria pollutant reductions 
associated with the use of reformulated gas, the Phase 2 
cleaner burning fuel in California. I can't, on a panel that's 
talking about health, overemphasize that there are incredibly 
important health benefits associated with reducing air 
pollution, and that is critically important as we study this 
issue.
    However, Senator Hayden said again, and I think you have, 
in your questions, pointed this out, there was a mistake in 
governance in the way MTBE was introduced, and I think that, in 
fact, almost everybody will admit that. The mistake was it was 
just assumed, but never tested, that MTBE was going to be like 
any of the other constituents of gasoline, and it turns out in 
groundwater and in soil it reacts differently. It is a 
different animal, and wouldn't it have been wonderful if we'd 
have tested this and known what was going to happen ahead of 
time? We now are doing that in California, Senator Mountjoy's 
bill chaptered into law. The bills that both Senator Hayden and 
Assembly Member Kuehl carried are having California now 
investigate, I think in a fair way, what are the burdens and 
benefits, and the risks and benefits of MTBE. In about 14 or 15 
months the Governor of the State, whoever that person is at 
that time, is going to have to make a decision, based on a 
comprehensive health study, that on balance there is or there 
is not a significant risk to human health or the environment of 
using MTBE in this State. So we're going to decide this. Maybe 
in 15, 16 months something is going to be done.
    You're suggesting maybe we should be doing something 
sooner, and I would like to suggest some things that you, as a 
senator, could do and should be thinking of, some of which 
you've already alluded to. One of them, though, is going back 
to the air quality gains. Would you please try to work, in 
Washington, in the statutory measures that are before the 
Congress, and that may be put before the Congress, and in your 
work with the EPA, that whatever is done to cure the problems 
with MTBE contamination in groundwater we don't tradeoff the 
incredibly important air quality improvements that have been 
made because of the use of reformulated gas? We do need to both 
protect air quality and improve air quality, and protect our 
groundwater quality. So please maintain that commitment to air.
    Second, I think that we do need to begin trying to have 
other alternatives available, because if the Governor makes the 
statement in 18--in 16 months that there is a possible risk to 
the use of MTBE we're going to have to have some other 
alternatives. I think the alternative of ethanol, which has 
some possibly adverse impacts in certain parts of air 
emissions, does need to be studied thoughtfully. I think the 
EPA can help our State work on alternatives, and you can, just 
in a collegial way, make that happen, and I urge you to do 
that.
    I do think we need to strengthen and improve the systems of 
Federal and State law relating to underground tanks and 
underground pipelines, and pipelines in general. I would 
specifically urge you, however, not to assume that double-lined 
tanks, like the double-lined hulled tankers that for offshore 
oil don't work--I don't think it's the double-walled tanks that 
are failing. I think that what is failing is the piping systems 
which are under pressure, the seals and so forth, and I don't 
think that that's been examined, and I hope you will stimulate 
some examination of that.
    It may be we need to move, when we have underground tanks 
with MTBE or any other compounds, to systems very much like in 
landfills that collect leachate and do not let things escape to 
the groundwater, because as you so correctly pointed out, 
California doesn't have any water it can waste.
    And, finally, I want to--no, not finally. Cleanup 
assistance you have delivered for this State time and again, as 
others have said. Thank you for doing that. We're going to need 
your support on Federal resources on cleanup for the problem 
that has been created, partly with government acquiescence, but 
also, let's say, at the prodding of the oil companies. They're 
certainly not immune from this particular problem, having 
caused it.
    The larger perspective is what I'd like to end with. Again, 
it's come up before. We have solved many of our environmental 
economic problems in this country, as you know, because you've 
provided this leadership from the time we were both on boards 
as supervisors, by finding ways to be more efficient with the 
resources we use.
    Energy, we don't have to build lots of nuclear plants. We 
can do it efficiently. Water, water conservation is a way, and 
the Cal Fed process is going to produce something, we hope, 
that will be able to be a win-win for all involved, but using 
water efficiently. Let's use fuel efficiently. Let's use our 
transportation system efficiently. We have fuel efficiency 
standards at the Federal level that are much less than is what 
is clearly attainable with current technologies. Please 
continue to fight for those. We have air quality standards for 
cars which are very, very good, but not for light duty trucks 
and not for heavy duty trucks. Let's get everybody under the 
program and eliminate the need for some of these other 
techniques.
    And, finally, let's remember that we--you know, the oil 
companies right now, and the ARB, are publishing advertisements 
bragging about how we've been able to clean air, or make 
progress on cleaning the air, even while we're escalating the 
number of vehicles and the miles we're driving. Well, that's 
true, we are making a little progress, but wouldn't we be 
making wonderful progress--in fact, we'd have solved the 
problem if we could find ways to make our transportation use 
more efficient, transit, rail, and sharing rides.
    When you go to the Los Angeles Airport and get out you get 
in a little shuttle system. It goes wherever you want to go. 
Why can't that be a computer system for everybody so that most 
in trips in urban areas are really carried in the kind of 
shuttle systems that work in Asian and European nations? We can 
do it in California, even having built our infrastructure for 
the automobile. We need to do it.
    It's an investment the Federal Government can stimulate, as 
you've already indicated in your questions and your comments, 
and we need to make that investment, because, in fact, it isn't 
a question of how much we're going to have to spend, it's how 
much we're going to have to save, because we actually save 
money when we do things more efficiently.
    That is my testimony. I again want to thank you for your 
leadership on the issue, because somebody asked me at the 
break: Is something significant going on here? They had just 
come in. I said, I think something significant is going on 
here. We, as a body politic, are making a decision about how to 
deal with a problem that we caused because we didn't, in the 
first place, look at a multimedia approach. You can work with 
the EPA to make certain that never happens again. Any time 
anything is being introduced into our environment where it can 
go in the air, in the water, and the land, we need to know it's 
safety first.
    Senator Boxer. Absolutely.
    Mr. Patton. Thank you so much.
    Senator Boxer. Absolutely. Thank you, Gary Patton. I mean, 
that is clearly something we have to learn from this, because 
there's going to people come to the table and say, Well, don't 
worry about it, you know, it's really--like Dr. Balter, who's 
giving us her opinion. She works for the Oxygenated Fuels 
Association, since 1993, and they have a point of view and she 
shares it, and she feels, you know, from her testimony, that, 
you know, status quo is fine, and----
    Ms. Balter. I don't think that was exactly what I said.
    Senator Boxer. Well, let me just say I heard you say that 
you could ingest MTBE up to 500 parts per billion even under 
the worst circumstances and have no ill effects. Is that 
correct?
    Ms. Balter. No. No. Oh, no, no, no, no, no. I was dealing 
with----
    Senator Boxer. I wrote that down. That's what you said.
    Ms. Balter. I was----
    Senator Boxer. And you said even using the Italian doctor's 
work.
    Ms. Balter. And I was talking about cancer risk----
    Senator Boxer. Yes.
    Ms. Balter.----and I was talking about the equation. If you 
add the cancer risk from drinking water, from inhaling it in 
air, and balance that against the decreased cancer risk, that 
only after you exceeded 500 parts per billion over the course 
of a lifetime would you lose the net benefit in terms of cancer 
risks.
    Senator Boxer. No, I understand, but the----
    Ms. Balter. That's what I was talking about.
    Senator Boxer.----result of that statement, Doctor, is 
that, don't worry about it because--let me finish my point. 
That's the result of the statement, because who's going to get 
500 parts per billion over a lifetime? They're not going to 
allow it to happen because they can taste it at five parts per 
billion, your point exactly. So what I'm saying is your opinion 
is it's OK, and I think that's the fair analysis of your 
statement. You're not recommending that we phase it out. You're 
not recommending that we move to another oxygenate. You're not 
recommending any specific steps be taken.
    Now we have Dr. Brautbar, on the other hand, who comes to 
us, who is telling us that this is a dangerous substance, and 
then we have Gary Patton, who was making some very intelligent 
statements about the larger picture, and also saying, Keep in 
mind the benefits and the risks, Barbara, as you go into this. 
I think that's an important cautionary word.
    But, you know, when you have two health experts come to you 
and they have such different views I think it's kind of 
interesting to let them talk to each other a little bit. So in 
the next five or 6 minutes I'm going to do something really 
different, which is lose control of this for five or 6 minutes. 
I'm going to ask Dr. Brautbar to ask Dr. Balter a question, and 
if they can move it along, and ask Dr.--because the thing is, 
you are coming from two different places and the public could 
get confused.
    Dr. Brautbar, you have heard Dr. Balter say that--you know, 
exactly what she said, and she takes a very opposite view. You 
have told us that MTBE present in the drinking water is an 
absolute problem, it will cause cancer, is a danger. Could you 
ask her a question of why she believes what she believes?
    Dr. Brautbar. OK. You are aware that the regulatory level 
of benzene in the drinking water is 1 ppb in the State of 
California, .7 to 1 ppb?
    Ms. Balter. It varies from----
    Dr. Brautbar. Well, let's accept it as a fact.
    Ms. Balter. Fine. OK.
    Dr. Brautbar. OK? And benzene is a carcinogen. Right?
    Ms. Balter. Benzene is a known human carcinogen.
    Dr. Brautbar. That's right. So you're talking about a 
carcinogen which is taken down to as low as .7. Realistically, 
I would like to see zero, but practically, you're talking about 
.7 ppb. Now, you're suggesting that MTBE, which is by 
definition of the International Agency of Research on Cancer, 
is a carcinogen, not known, but possible or probable, depends 
on who you read, and you suggest that it's OK to let it go up 
to more than 1 ppb?
    Ms. Balter. First of all, you can't equate MTBE and 
benzene.
    Dr. Brautbar. Why? It's a carcinogen.
    Ms. Balter. Benzene is a known----
    Dr. Brautbar. Carcinogen.
    Ms. Balter. Did you ask me a question and did you want to 
hear the answer?
    Dr. Brautbar. That's fine.
    Senator Boxer. Well, wait a minute, I'll--I'm going to 
interfere.
    Dr. Brautbar. That's fine.
    Senator Boxer. Let her answer the question.
    Dr. Brautbar. Right.
    Senator Boxer. You can't compare the two because?
    Ms. Balter. Because benzene we know--not we think or we 
assume--we know causes cancer in human beings. There are 
epidemiologic studies that establish that. We don't have the 
benefit of epidemiologic studies for many, many, many 
chemicals, including MTBE. Therefore, we use animal studies, 
and we will conservatively--it used to be, when I began doing 
toxicology, if something causes cancer in animals it was 
assumed to cause cancer in humans, period, the end. We still 
treated it differently than something like benzene, where we 
knew it caused cancer in humans, but we made that assumption. 
Things have changed over the last 10 years as we know more 
about how chemicals cause cancer, and this assumption is not 
automatic. I----
    Senator Boxer. OK. All right. I'm going to cut you off on 
your answer because I get what you're saying.
    Ms. Balter. OK. But----
    Senator Boxer. But I guess I have a followup, which is 
this: Would you admit that we don't know--we don't know for 
MTBE what level causes cancer, if it causes cancer? Would you 
admit to that?
    Ms. Balter. Well, I would----
    Senator Boxer. Yes or no? Do we know? Can you look someone 
in the eye----
    Ms. Balter. You asked me two----
    Senator Boxer. Well, why don't you answer it yes or no? Do 
we know at this point if MTBE, when ingested in the water at a 
specific level, causes cancer? Do we know that?
    Ms. Balter. We don't know for sure. I'm willing to assume 
that it does and that's what I did in my statement. It is not 
unreasonable to assume that it does. There's a debate----
    Senator Boxer. OK. So, therefore, why would you----
    Ms. Balter.----but it's not----
    Senator Boxer. Why would you not then support Dr. 
Brautbar's contention that if we said one part per billion for 
benzene we should do that until we know for sure for MTBE? Just 
sort of a common sense approach to it.
    Ms. Balter. Well, it is not an approach that has been 
taken. There are at least hundreds of----
    Senator Boxer. Well, it hasn't been taken, exactly. There's 
no standard for MTBE.
    Ms. Balter. There are at least hundreds of chemicals for 
which we have animal data that they're carcinogenic and no 
human data, and we make the assumption. Those are regulated in 
a different way, based on dose response.
    Senator Boxer. OK.
    Ms. Balter. Based on the concentrations associated with 
cancer.
    Senator Boxer. OK. Dr. Brautbar, one more followup. Then, 
Dr. Balter, you get to ask Dr. Brautbar.
    Dr. Brautbar. I don't know, maybe we're coming from 
different schools, but the most current text of toxicology and 
the most current papers of toxicology clearly state that there 
are carcinogens and many of those don't have dose response. You 
don't have dose response in carcinogenesis. You have dose 
response in toxicological effects, but not carcinogenesis. 
Benzene, specifically, is a known dose response carcinogen. I 
don't know where you're taking that idea that carcinogens have 
to have dose response.
    Senator Boxer. You want to respond, and then ask him a 
question? And welcome to Crossfire.
    Ms. Balter. I didn't know that.
    Senator Boxer. OK. No, go ahead. I'm finding this very--
it's very useful for me, so go ahead.
    Ms. Balter. We're having a semantic disagreement. 
Carcinogens have dose response. It is assumed that there is not 
a threshold when you're dealing with a carcinogen. It's a 
conservative assumption, but you assume that whereas if you're 
talking about neurotoxicity there has to be a certain exposure 
before you have any increased risk in neurotoxicity. For 
carcinogens we assume that there's no threshold, that any 
exposure causes some incremental increase in risk. There is 
still a dose response relationship, which means the higher the 
exposure the greater the probability of the effect. That's what 
dose response is, and it's true for carcinogens as well as 
noncarcinogens.
    Senator Boxer. Do you want to ask Dr. Brautbar a question?
    Ms. Balter. The problem--the main problem that I had with 
the testimony you gave is its focus on MTBE. I----
    Senator Boxer. Well, that was the purpose of the hearing.
    Ms. Balter. We are exposed to MTBE as a component of 
gasoline, and the question is: In your opinion, given what we 
know, what we've heard, what Mr. Patton just talked about, 
about the air quality benefits, the California estimates of the 
decrease in, for example, benzene exposure, known human 
carcinogen, where in your analysis did you do the risk benefit, 
did you come to the conclusion that MTBE is so terrible and so 
potent that its use in gasoline outweighs its benefits?
    Dr. Brautbar. Well, first of all, I think you misstated my 
testimony. In my writings I talk all the time about MTBE in 
gasoline, and that is exactly the synergistic effect that you 
have between two carcinogens, the MTBE and benzene, and it's 
not one additive to another, as you know, but you are 
multiplying the risk anywhere from 40, 60, 80 to 100 times. You 
look at other carcinogens, like asbestos, chromium, nickel, 
smoking, and others. So that's No. 1. So I'm talking about MTBE 
in gasoline.
    OK. No. 2, you show me the studies that are accepted by oil 
companies, especially by the one which came here last week and 
said that MTBE is not doing much to the environment, you show 
me the studies that have calculated that benzene has been 
significantly reduced and has reduced X amount of cancers per 
100,000 people. I haven't seen those studies in any of the 
presentations.
    Senator Boxer. OK. Well, you know, I come from the school 
of thought best described by Gary Patton at the beginning, 
which is before you do something know what the heck you're 
doing, and then I think----
    [Applause.]
    Senator Boxer. No, let's--no, no, we don't--and that goes 
for every one of us, in our personal lives, in our family 
lives, in our professional lives. If we're giving advice to 
people, think it through, et cetera, et cetera. Now, 
particularly when it comes to the health and safety, it seems 
an outrage that moves were made without knowing what this 
chemical does.
    Now, I don't want to chalk it up to any particular 
motivation because I really wouldn't know what the motivation 
was. Senator Hayden talked about decisions being made in back 
rooms, and I'm sure he's looked at this and I have to say, I'm 
not about to cast dispersion on any group or anyone, but I know 
what my responsibility is. You know, if I woke up yesterday and 
found this out I can't close my eyes to it.
    I also happen to know that when you expose children to 
these chemicals they have a different reaction. Children are 
not little adults. I am a little adult. I'm only four 11 and 
three-quarters. But children's bodies are changing, they're 
growing, they're more susceptible for these things. They're 
smaller and, therefore, when they breathe in or drink it's a 
greater proportion of their body weight. That's why I was very 
proud to write the Children's Environmental Protection Act, get 
the support of Carol Browner for that Act. Here we are talking 
about the impacts, you know, even on healthy people. Imagine 
the impacts on children who rely on us to protect them.
    Now, I have--you know, I'm very glad Dr. Balter came here 
today to give her opinion, and I don't question that she has 
any doubt in what she said, but it's the classic case, you 
know, of the people who are pushing a certain chemical to come 
in here with doctors and say not a problem. Even if we assume 
it is a problem, in the end it's not a problem. You know, 
there's a school of thought, which Dr. Balter I think 
represents very well.
    I'm not a doctor, but I am someone who's in a leadership 
position, and when people are telling me, no, we haven't done 
the tests, and we don't know what the problem is, it says to me 
that that's not good enough. So I think we need to take a time 
out here. We have enough information in terms of the problem 
spreading across the country, into other water supplies, and we 
need to act. We can't wait until we have this kind of problem. 
We certainly know we have to fix the leaking tanks, and I think 
even Senator Mountjoy said, very clearly, that even without 
MTBE we've got a problem with leaking tanks, so we need to fix 
it. But we don't know, and there's mixed testimony as to 
whether or not even if we had perfectly beautiful tanks, that 
MTBE might not corrode through those tanks. We don't know that 
yet.
    I will tell you right now, we're going to get new tanks, 
and we're going to put the same reformulated gasoline in there. 
Small businesses are going to invest big bucks and borrow 
money, and because there's a tough law out there that I support 
that says they have to do it. But if we sit back and just say, 
you know, not a problem, and we really don't know, I think we 
ought to be held responsible.
    I am coming to the point where I'm about to make a decision 
on my advice and request to Administrator Browner, and that's 
not to say Administrator Browner's going to listen to my 
advice. She'll listen. Whether she follows it is certainly up 
to her, and I have a lot of confidence in her. But I think 
we've got to stop the problem right now and stop adding to it, 
you know, get your arms around the problem.
    [Applause.]
    Senator Boxer. Get your arms around the problem, contain 
it, just as you would in a family. If there was somebody acting 
out and was destroying the family, you try to contain the 
problem and then you work on every member of the family. This 
is a problem that's spreading, literally physically spreading, 
and we have to stop it.
    I don't want to see us go to court, you know, for 3, 4, 5, 
6, 7, 8, 9, 10, 11 years, fighting about who's the responsible 
party. We know the responsible parties, and every one of us in 
government has to take responsibility, because we didn't even 
have a standard for MTBE. We still don't have a standard.
    Now it's interesting, Dr. Balter, to note that even though 
you clearly don't act as if you think we need a standard, EPA 
has given us an advisory. So they must have a little different 
view if they're now going it should be maximum 40 parts per 
billion.
    EPA Administrator can use her emergency authority under the 
Clean Air Act to curb the use of MTBE in order to protect the 
public health and welfare. I really think she ought to consider 
doing just that now, because by the time you get into, you 
know, waiting for another study, finding out if MTBE corrodes 
the tanks, what is the safe level, there's going to be a huge 
fight about that, because some people feel there's no safe 
level. Other people feel if you weigh the benefits against 
other things it's beneficial. So it's going to take us a long 
time.
    But in the meantime people are telling my friend, Mr. Hall: 
Don't give me this water because I don't like the smell and I'm 
not going to drink it, and I'm not going to have it, and I 
don't care what a doctor may tell me, that I'm safe, because 
I'm safe even though I'm tasting gasoline in my water, it's 
perfectly safe because I'm not breathing something else. It 
isn't going to fly. You know, people aren't going to accept 
that, and they shouldn't accept it. God gave us a sense of 
smell and we, you know, are warned, and we're not going to 
drink the water that tastes so foul and smells so foul.
    I just came into this hearing with a range of options on my 
mind. Certainly, the bigger picture is how do you get away from 
the use of fossil fuel. We import 50 percent of the fuel that 
we use. It's a cause of our trade deficit. It's a whole other 
problem.
    Gary's right on the standards for light trucks. I mean, 
we're falling behind, and those are terribly difficult 
political fights that are in a different context, but it 
doesn't mean that we can't pay attention to this one, because 
this one is an immediate problem.
    I want to say that until I can look my constituents in the 
eye and tell them this is safe, I'm going to work to stop the 
spread of MTBE, and that's what I've gotten out of this 
terrific hearing today.
    I know it wasn't the easiest hearing to have, you know, Dr. 
Balter, you put up with some measure of abuse. Dr. Brautbar, 
you dished it out and took a little yourself. To all the people 
who came forward, I just want to thank you so much. When I'm 
home in California I marvel at the strength and the 
intelligence of our people, and the fact that they are on the 
cutting edge of all these issues, and this was no different.
    Thank you all in the audience who came. I know I kind of 
tried to keep you from applauding, but you can applaud now. 
Thank you very much. We're adjourned.
    [Whereupon, at 11:46 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
    Statement of California State Senator Tom Hayden, Los Angeles, 
                               California
    The purpose of this hearing is to examine the impact of MTBE on our 
water supply which led to passage of Senate legislation this year. My 
bill (SB 1189) established a $5 million cleanup fund to help local 
communities while they go after responsible private parties, and 
requires official health taste and odor standards to be established 
during the next 12 months.
    The scientific evidence points to MTBE as both a carcinogen and a 
neurotoxin.
    On its carcinogenicity, I am submitting a paper by Dr. John 
Froines, chairman of the UCLA Department of Health Sciences. He 
describes MTBE as a ``B2 probable carcinogen'' based on a review of its 
structure activity, genotoxicity, case studies, epidemiology and animal 
studies. Based on carcinogenic effects in animal studies, he cites the 
Health Effects Institute report on oxygenates in gasoline, as follows:

    ``In assessing the overall significance of the cumulative data 
    produced by the studies investigating MTBE and TBA in rodents, the 
    most disconcerting aspect of the findings is that the two chemicals 
    produce tumors at five different organ sites in two strains of two 
    species. Considering that the mechanisms of action of these and 
    other non-mutagenic rodent carcinogens are poorly understood, it 
    would seem imprudent to dismiss these results as irrelevant to the 
    human condition.''

    Dr. Froines calls for urgent further study ``while doing everything 
we can to limit exposure to MTBE.''
    As to neurotoxicity, I am submitting testimony by Dr. Jorge 
Mancillas, formerly with UCLA and now a member of my Senate staff. He 
notes that in 1988, the Interagency Testing Committee (ITC) gave MTBE 
an ``A'' designation, which means there is ``an unreasonable risk of 
neuroxicity for which there is substantial human exposure.'' Animal 
inhalation studies have shown MTBE's neurotoxic effects, specifically a 
depression of central nervous system activity. Dr. Mancillas goes into 
detail about the scientific controversies, concluding that ``original 
studies indicating neurotoxic effects of MTBE have been misrepresented 
or ignored'' by public agencies. For example, the Cal EPA claim in 
April 1997 that they were ``unable to associate them (complaints) with 
MTBE exposure'' was strongly objected to by the authors of those same 
studies.
    More research is always helpful, but what should be condemned 
without reservation is the lack of conclusive evidence that MTBE was 
safe before it was introduced in California. Now our groundwater is at 
risk and the public rightly should be concerned with having to play the 
experimental role of guinea pigs.
    The original point of my SB 1189 and Senator Mountjoy's SB 521 was 
to place the burden of proof on the State and industry to, show by a 
reasonable deadline, that MTBE was safe for the public or else phase it 
out.
    That legislative intent was weakened during the legislative 
struggle. But the final passage of SB 1189 and SB 521 seem to have 
contributed to a basic rethinking by industry of the prudence of 
continuing to rely on MTBE.
    Chevron and Tosco have made business decisions to consider 
alternatives to MTBE before waiting for further evidence or public 
outcry over its impact on groundwater.
    In the meantime, we have a lot of groundwater to clean up. A 
Lawrence Livermore survey says there may be 9,000 gas storage tanks in 
California where MTBE is leaking into groundwater.
    We need double-walled storage tanks in this State and nation as 
soon as possible. But even that will not work to prevent airborne MTBE 
contamination of the soil and MTBE pollution of our lakes and 
reservoirs.
    MTBE may not have a future at all. I believe that it is an 
unacceptable public health problem. Its future depends on the 
willingness of public officials to reconsider past judgments as well as 
the internal cost-benefit analysis of the oil industry.
    How did this terrible situation arise? It is a question of 
governance and politics, not simply one of faulty science. I have two 
comments here:
    First, we in the legislature made an historic mistake in delegating 
to the Air Resources Board the issue of whether and which oxygenates to 
use in gasoline. This delegation was meant to ``take the politics out'' 
of the decision-making process, but in fact the politics simply went 
behind closed-doors into the dim lit world of professional lobbyists 
and their scientific mercenaries. We in the legislature now must take 
steps to reclaim the issue and provide a credible public process to 
examine the alternatives.
    Second, environmental organizations were blinded by a 
specialization between ``air'' and ``land'' experts that split air 
quality considerations from groundwater ones. As a result, many 
environmentalists joined in coalition with the oil industry to achieve 
the standards of the Clean Air Act, not realizing the adverse 
groundwater impacts nor becoming concerned that some in the industry 
had created a profitable subsidiary to produce and market MTBE.
    So it is time to return to the origins of this debate: how the oil 
and automobile industries can become compatible with protecting our air 
and our water supplies.
    All over California we hear paid commercials proclaiming that 
``success is in the air.'' Why is the public being presented with this 
propaganda barrage? Why was $13 million just spent by industry to cast 
doubt on whether global warming is a real issue? Why has our government 
retreated from a commitment to tougher fuel efficiency standards and 
low-emission, zero-emission vehicles?
    We are driving backwards from our environmental goals. It is 
projected that our nation's gasoline use is projected to increase by 33 
percent in the next 12 years. Every gallon burned emits 2 pounds of 
carbon dioxide. Industry executives are reveling in our consumption of 
sport utility vehicles which, according to the New York Times, ``will 
be the fastest-growing source of global warming gases in the United 
States over the next decade'' and which are exempt from gas-guzzler and 
luxury vehicle taxes. At this rate we will never reach the Clinton 
Administration's already modest goal of reducing carbon emissions to 
1990 levels by 2010. Reformulated gasoline is not the answer, it is 
only a transitional stop as we look for alternatives to greater 
dependence on fossil fuels.
    Your hearing takes place at an important moment of reappraisal of 
MTBE, but also at an important global moment when the nations of the 
world are gathered in Kyoto to discuss global warming. The pollution of 
our democratic process is the challenge we must address in order to 
ensure a safe and sustainable resource base for the future. I urge you 
to take the lead in returning this country to a path of clean and 
efficient fuels and renewable energy resources.
                                 ______
                                 
      Statement of Dr. John R. Froines, Senate Natural Resources 
             Environmental Quality Committee, May 12, 1997
    I appreciate the opportunity to appear before you and testify on 
the matter of methyl tertiary butyl ether (MTBE), the gasoline additive 
designed to reduce carbon monoxide and toxic air contaminants in 
reformulated gasoline. My name is John R. Froines. I am Professor of 
Toxicology and Chair of the Department of Environmental Health Sciences 
at the UCLA School of Public Health. I direct the UCLA Center for 
Occupational and Environmental Health.
    I serve on two State committees with direct relevance to this 
testimony: the Carcinogen Identification Committee of the CAL/EPA 
Science Advisory Board and the Scientific Review Panel of the Air 
Resources Board. My own research focuses in part on mechanistic issues 
in chemical carcinogenesis and, in particular, on the carcinogenicity 
of arsenic and chromium. I co-direct the UCLA Pollution Prevention 
Education and Research Center, and pollution prevention is directly 
relevant to the issues before us today.
    At the outset I want to list my conclusions relating to the use of 
MTBE as a fuel additive in California. I will then discuss some of the 
issues in greater detail.
    1. It is highly laudable for the legislature to be holding hearings 
to determine whether there are problems in the use of MTBE. 
Unfortunately, MTBE has been used in the United States since 1979 and 
there should have adequate discussion at the Federal level of the 
possible risks associated with exposure to MTBE long before we reached 
the current widespread use of the chemical. In my view the California 
legislature should establish legislation which requires a thorough 
review of the possible impact on public health from the introduction of 
new chemicals with potential for widespread use and possible exposure.
    2. The use of MTBE is very wide and growing and becoming 
international. There were 27 companies producing 9.1 million pounds of 
MTBE in 1992 and 12. 3 billion pounds were produced in the United 
States in 1995. The widespread use affects the content of the debate 
since both government and industry now have a vested interest in the 
continued use of the product, thereby making an independent, 
scientifically neutral evaluation more difficult. This reemphasizes why 
we have to adequately assess chemicals for toxicity before their 
introduction.
    3. While I would prefer us to be discussing electric vehicles or 
alternative (non-petroleum) fuels, the issue before us is the use of 
MTBE in reformulated gasoline. I consider reformulated gasoline to be a 
major advance in reducing ambient concentrations of toxic air 
contaminants. I support the use of reformulated gasoline while other 
alternatives are being developed. Reformulated gasoline has reduced the 
atmospheric concentrations of human carcinogens such as 1,3-butadiene 
and benzene.
    4. The primary issue to consider here is whether MTBE should be the 
compound in reformulated fuel used for octane enhancement and reduction 
of carbon monoxide in the ambient environment? A corollary to that 
question is whether MTBE has been adequately tested for toxicity. The 
answer to this latter question is an unequivocal no, and this means the 
answer to the primary question is uncertain.
    MTBE may turn out to be safe with little toxicity but we do not 
know that yet. The unanswered questions remain before us, and there is 
considerable uncertainty in the scientific information available to 
address issues of public health.
    I hope that MTBE turns out to be perfectly safe; I have no 
prejudices about this issue. My concern is that we resolve the 
uncertainties before we proceed to impact the environment further.
    5. Should there be a moratorium on the use of MTBE during the 
evaluation of exposure, toxicity and other unanswered questions? With 
our current state of knowledge my answer is an equally unequivocal no. 
We don't want to increase the concentrations of butadiene and benzene 
by not using reformulated gasoline with MTBE, but we also should do 
everything we can to limit exposure to MTBE while unresolved issues of 
toxicity are being addressed.
    6. Are the chronic animal bioassays that have been conducted to 
determine whether MTBE is a carcinogen relevant to humans or are they 
specific to the species tested, namely rats and mice? I consider the 
animal bioassays to be highly relevant and I agree with the sentiments 
of the Health Effects Institute (HEI) report on oxygenates added to 
gasoline which concluded:

    ``The mechanisms by which exposure to high concentrations of MTBE 
    or TBA [(tertiary butyl alcohol) a metabolite and breakdown product 
    of MTBE] causes tumor formation in different organ systems of mice 
    and rats are not understood . . .  In assessing the overall 
    significance of the cumulative data produced by the studies 
    investigating MTBE and TBA in rodents, the most disconcerting 
    aspect of the findings is that the two chemicals produce tumors at 
    five different organ sites in two strains of two species. 
    Considering that the mechanisms of action of these and other non-
    mutagenic rodent carcinogens are poorly understood, it would seem 
    imprudent to dismiss these results as irrelevant to the human 
    condition.''

    7. What should we do to evaluate MTBE and how long will it take? In 
terms of chemical testing for toxicity, I believe there should be 
collaboration between scientists at the University of California, the 
Office of Environmental Health Hazard Assessment (OEHHA) and the 
National Institute of Environmental Health Sciences (NIEHS) to develop 
protocols to test MTBE. The units within the University of California 
should be those established by the University and the legislature to 
address issues of chemical toxicity, namely, the Centers for 
Occupational and Environmental Health and the Toxic Substances Research 
and Teaching Program with input from other appropriate faculty.
    8. Additional chronic animal bioassays may be required and they can 
take a considerable period of time. Determination if the use of 
genetically altered rodents (transgenics) could be used to limit the 
time would be a matter for consideration. However, the protocols 
developed for testing should be reviewed by committees with input from 
affected parties, because if transgenic mice were used, interested 
parties could challenge the results arguing the test animals were 
genetically altered and therefore not relevant to the human condition. 
The requirement for an agreed upon protocol is necessary before any 
toxicity testing is initiated.
MTBE Background
    MTBE is a colorless organic ether used primarily as an octane 
booster in reformulated gasoline. It has a high vapor pressure. MTBE 
has high solubility in water; it is mobile and relatively resistant to 
biodegradation which creates the potential for chronic contamination of 
groundwater and surface water. MTBE travels through soil quickly and 
persists in the environment for long periods of time.
    MTBE has significant taste and odor problems associated with its 
contamination of drinking water. The aroma has been reported to be 
similar to paint thinner or turpentine and can be detected as low as 
13.5 to 45.4 ppb, lower than the levels considered unacceptable for 
health reasons.
    Exposure to the public occurs via inhalation where MTBE arises from 
manufacture of the product, gasoline production, tailpipe emissions and 
evaporative emissions. Exposure can also occur from contaminated 
drinking water as we have seen in Santa Monica where levels have been 
reported as high as 610 ppb.
Carcinogenicity of MTBE
    In this testimony I shall address the qualitative issue of whether 
MTBE should be considered a carcinogen and the level of evidence 
associated with the determination. I shall not consider quantitative 
risk assessment since I believe the qualitative issue remains 
fundamental to its use. I do not believe the issue should be whether to 
use oxygenated fuel with MTBE as the octane enhancer versus the use of 
non-reformulated gasoline containing other carcinogenic chemicals. I 
believe we should be conducting research to identify safe alternatives 
even while we investigate the toxicity and carcinogenicity of MTBE.
    There are five approaches to the identification of a chemical as a 
carcinogen and more recently the use of mechanistic considerations to 
assess the relevance of some of these approaches has become important. 
The five sources of information are:
    1. Structure-activity (Does the chemical structure suggest the 
chemical may be carcinogenic).
    2. Genotoxicity (Does the chemical produce alterations in the 
genetic makeup of test systems)
    3. Chronic animal bioassays
    4. Epidemiologic evidence (human studies)
    5. Case reports
    All of these approaches have proved valuable as tools to determine 
the potential carcinogenicity of a particular compound. For example, 
vinyl chloride was first considered carcinogenic based on 
identification of workers with a rare liver cancer, angiosarcoma, at BF 
Goodrich in the early 1970's. Structure-activity considerations have 
proved valuable in predicting the carcinogenicity of compounds or their 
metabolites known to be electrophilic. The Ames assay for detecting 
mutagens (genotoxicity) has been an important source of information on 
potential carcinogens. Animal studies have been crucial in identifying 
human carcinogens and with the exception of arsenic every known human 
carcinogen is carcinogenic in animals. Human studies have been very 
important in the qualititative identification of carcinogens, for 
example, butadiene, chromium, and arsenic have been identified as a 
result of epidemiologic investigation.
    In addition to the traditional approaches the International Agency 
for Research on Cancer (IARC) and the U.S. EPA now make use of other 
information on the mechanism of cancer associated with the 
carcinogenesis of a particular substance. Mechanistic considerations 
have been important in the classification of a number of chemicals by 
IARC and EPA is beginning to use this type of information in their 
determinations. However, a cautionary note is required since we know 
limited knowledge about the true mechanisms of cancer induction from 
chemicals. It is important not assume the validity of mechanistic 
arguments without careful testing of the inherent assumptions 
underlying the hypothesis. We do not want to rush to judgment on a 
substance which may have significant public health implications as a 
result of its use in commerce and the environment.
MTBE
    1. LStructure-activity. Structure activity considerations would 
result in the carcinogen, formaldehyde, being considered a likely 
product of biotransformation and degradation, but overall MTBE would 
not have been predicted to be a carcinogen. Formaldehyde and tertiary 
butyl alcohol are products of metabolism and degradation.
    2. LGenotoxicity. MTBE is not considered genotoxic, although there 
is some limited evidence in one assay, which has been associated with 
the genotoxicity of formaldehyde. Investigators at USC have reported 
MTBE is positive in the Ames Assay using TA 102, an infrequently used 
tester strain. These results require further investigation to validate. 
Formaldehyde is genotoxic.
    3. LCase studies There are no case studies suggesting specific 
cancers have arisen from MTBE.
    4. LEpidemiology. There are no studies on the carcinogenicity of 
MTBE in humans, and the limited timeframe of MTBE use would inhibit 
epidemiologic investigation.
    5. LAnimal studies. MTBE, TBA, and formaldehyde have all been found 
to be carcinogenic in animal studies. Chronic animal bioassays of MTBE 
have resulted in the identification of lymphomas and leukemias, kidney, 
testes and liver cancers. Thyroid and kidney tumors derived from the 
degradation product TBA and nasal cancers have been found in rats 
exposed to formaldehyde by inhalation.
    MTBE is metabolized to tertiary butyl alcohol (TBA) and 
formaldehyde. Formaldehyde is considered a known human carcinogen and 
is regulated as such by the Occupational Safety and Health 
Administration (OSHA). Formaldehyde is a product of atmospheric 
degradation of MTBE where it would be of more concern than via 
ingestion in drinking water because of its metabolism. TBA is further 
metabolized to other products whose toxicity has not been well 
investigated. The information on metabolism remains somewhat limited.
    These data taken together would suggest MTBE should be considered 
either a probable or possible carcinogen. EPA defines a probable 
carcinogen as an agent where the epidemiologic evidence is either 
``limited'' or where there is ``inadequate evidence'' and where there 
is ``sufficient evidence'' in animal studies. An agent would be a B1 
carcinogen if the epidemiologic evidence is limited and B2 if the 
evidence is inadequate. In my view MTBE should be considered a B2 
probable carcinogen until further testing resolves the issue further.
    The Health Effects Institute and Office of Science and Technology 
reports on MTBE both consider carcinogenic potency and U.S. EPA has 
developed a risk assessment. While it may be useful to review the risk 
assessment values I believe it is premature to make policy decisions 
based on those risk assessment values until further confirmation of the 
animal bioassays and resolution of mechanistic issues is completed.
Uncertainties Associated with the Animal Bioassays
    There are a number of uncertainties associated with the animal 
studies which require further investigation.
    1. The doses of MTBE were very high which may have caused toxicity 
and in some cases did cause early mortality in the treated animals. Is 
MTBE a carcinogen at the lower exposure levels found in the 
environment? This requires further investigation of the mechanism of 
carcinogenicity of MTBE.
    2. There is evidence that tumors in male rats may be species 
specific and therefore not relevant to assessment of human risk. The 
renal tumors may be secondary to alpha-2-micro-globulin nephropathy 
that is specific to male rats. However, serious questions have been 
raised about whether this proposed mechanism is a response to exposure 
or whether it constitutes an adequate explanation for the renal tumors. 
Based on our understanding of the mechanism of renal tumor formation we 
cannot disregard these tumors as being species specific at this point.
    3. It is not apparent what weight should be given to mouse liver 
tumors. Mouse liver tumors may result from different mechanistic 
pathways than human cancers and their relevance to assessing human risk 
has been questioned. At this stage, however, we cannot assume the liver 
cancers have no human significance based on mechanistic considerations.
    4. A series of issues have been raised about the findings of 
leukemias and lymphomas in the gavage study of Maltoni. A review of his 
pathology slides would assist clarification of the questions, but the 
findings represent very important conclusions until proven otherwise.
    Overall, the chronic animal bioassays remain important findings, 
but further followup studies are required. The HEI report gives the 
most detailed recommendations for further investigations and they are 
provided as appendices to this testimony. The recommendations indicate 
the wide range of health related questions that remain to be addressed. 
This recommended research will not be completed by 1998-1999, although 
considerable information could be developed by 1999 if we begin 
immediately. The State will need to coordinate its activities with U.S. 
EPA and NIEHS. In my view it is essential for NIEHS to be involved in 
all health related research. NIEHS should conduct research in contrast 
to the EPA approach which requires testing done by affected industry. 
Industry should be asked to contribute to the costs of the research, 
but independent academic and NIEHS researchers must conduct the 
studies.
    During the time the health and exposure related studies are being 
conducted there should be an equally energetic investigation of non-
toxic substitutes for MTBE.
    The Tables included with this testimony are taken from the Health 
Effects Institute report entitled ``The Potential Health Effects of 
Oxygenates added to Gasoline, A Review of the Current Literature.'' 
This was a special report of the Institute's Oxygenates Evaluation 
Committee.
                                 ______
                                 
                        Health Effects Institute
      the potential health effects of oxygenates added to gasoline
  A Special Report of the Institute's Oxygenates Evaluation Committee
Research Priorities for Oxygenates
    This review has identified gaps in information that have limited 
what the HEI Oxygenates Evaluation Committee could conclude about the 
health effects of oxygenates added to gasoline. The specific research 
needs in each of the areas evaluated are outlined below. Those that the 
Committee thought to be of the highest priority for resolving questions 
about health effects of oxygenates are marked with three asterisks 
(***), those with moderate priority with two asterisks (**), and those 
of lower priority with one (*).
    A number of studies to investigate further the effects of MTBE and 
to characterize the toxicity of other ethers are already planned or 
ongoing (see U.S. Environmental Protection Agency 1995). These are 
indicated in the appropriate categories below. In addition, testing for 
fuel registration, mandated under Section 211 (b) of the CAAA of 1990, 
will begin soon. The current requirement consists of evaluating the 
evaporative and combustion emissions from fuels containing oxygenates. 
The tests to be conducted on the emissions include a 90-day subchronic 
inhalation toxicity study, reproductive and developmental studies and 
neurotoxicity assessment and possibly a 2-year carcinogenicity study. 
The EPA has indicated its interest in modifying these requirements to 
ask for a more appropriate assessment of the emissions' toxicity. The 
Oxygenates Evaluation Committee encourages the EPA and industry to 
consider the following research priorities in developing alternative 
testing requirements.
    Testing of the individual oxygenates falls under the Toxic 
Substances Control Act. The Interagency Testing Committee designated 
ETBE and TAME to be tested (Federal Register 1994). As a result of a 
consent agreement between the EPA and the API, testing of TAME started 
in 1995 (Federal Register 1995). The research plan includes 
pharmacokinetic studies. studies of subchronic exposure in two species, 
reproductive and developmental toxicity, mutagenicity, and 
neurotoxicity. At this time, a consent agreement has not been agreed 
upon for ETBE testing. However. ARCO has indicated a commitment to 
conduct toxicity studies in rats and mice.
                          Exposure Assessment
    *** A comprehensive set of studies needs to be undertaken to 
determine levels of personal exposure to oxygenates using standardized 
protocols. Although more information on MTBE is needed, the need is 
particularly great for assessing exposure to ethanol, ETBE, and TAME 
because these compounds are currently in use, or may be soon, and the 
resulting exposures have not been adequately assessed. These factors 
should be considered in planning such studies:
    Using standardized methods for collecting samples (including the 
sampler's flow rate, sampling time, analytical methods, and calibration 
procedures); applying quality control procedures consistently across 
studies;
    Assessing exposures in microenvironments where consumers have the 
highest-level exposures such as in refueling vehicles, and in 
occupational settings where significant exposure is likely to occur:
    Measuring gasoline components other than oxygenates that might 
serve as markers for the complex mixture in the ambient air;
    Measuring levels of oxygenates and their metabolites (as 
biomarkers) in blood;
    Collecting data at different times of the year, and in areas with 
different climatic conditions, including extremely low and high 
temperatures and humidity; and
    Identifying sensitive populations and measuring their exposures.
    *Environmental sampling data are needed to assess the fate and 
distribution of atmospheric transformation products of MTBE and other 
oxygenates such as tertbutyl formats.
    *The extent of MTBE contamination of drinking water needs to be 
analyzed.
                       Metabolism and Disposition
    **Further studies of the metabolism of MTBE would be of great value 
in assessing the health risks from exposure to MTBE and in 
understanding the importance of differences in the metabolic process in 
determining sensitivity in individuals. Studies involving exposure to 
oxygenates as parts of complex mixtures that represent gasoline vapors 
and motor vehicle exhaust should be conducted to determine the 
potential interactive effects among gasoline components. lSome research 
in this area is under way at the Chemical Industry Institute of 
Toxicology (CIIT). funded by the Oxygenated Fuels Association [OFA], 
and research will be funded by HEI this year from its recent RFA on 
``Comparative Metabolism and Health Effects of Ethers Added to Gasoline 
to Increase Oxygen Content.'') Areas to be investigated include:
    The kinetics of TBA, formats, and formaldehyde formation and the 
role of the cytochrome P-450 enzymes in metabolizing MTBE and TBA;
    The metabolic fate of TEA in response to concerns about the 
potential toxicity of possible metabolites and of free radicals 
produced during oxidative metabolism.
    **Pharmacokinetic studies need to be extended to the other ethers, 
especially ETBE and TAME. (HEI is planning to fund studies to compare 
MTBE with other ethers. Also, for TAME, pharmacokinetic studies are 
being conducted to comply with regulations specified in the Toxic 
Substances Control Act.)
    *Studies that compare inhalation and oral exposure should be 
conducted to determine the kinetics of uptake and disposition of 
ethanol in human subjects at concentrations expected to be encountered 
)n ambient air. This information would enhance confidence in the 
current conclusion that ambient air exposures would not result in a 
significant increase in blood levels of ethanol.
                           Short-Term Effects
    ***Controlled human exposure studies should be conducted to assess 
the short-term effects of MTBE. other ethers, and ethanol in a 
hydrocarbon mixture that is representative of gasoline, and compare 
subjects' symptomatic reactions to that mixture with reactions to the 
hydrocarbons alone.
    Studies should include potentially sensitive subjects, such as 
individuals who have reported symptomatic responses to exposure to 
oxyfuel, as well as other groups hypothesized to be sensitive , perhaps 
individuals who have allergies or who are elderly. The effects of 
exercise should be assessed. (Studies of individuals who have reported 
a sensitivity to MTBE are under way or planned at the EPA and the 
Environmental and Occupational Health Sciences Institute.)
    Blood levels of the oxygenates and pertinent metabolites should be 
measured in these studies to understand the relationships among 
exposure, dose, and effects and to compare with levels measured in 
real-life situations.
    For MTBE, these studies should also evaluate possible neurotoxic 
effects at several exposure levels using sensitive tests to measure 
complex central nervous system functions.
    **Epidemiologic studies should be conducted to evaluate in the 
general population the short-term effects of MTBE, other ethers, and 
ethanol as gasoline additives. The limitations of the currently 
available information on the short-term effects of MTBE have been 
discussed in depth in the previous sections. The community based 
studies provide an indication of what symptoms might be encountered and 
insights concerning hypotheses to be tested. Future studies should aim 
at providing information on the relations between activities and 
exposure, exposure and biomarkers of dose, and dose and health 
outcomes. Several types of efforts would be informative concerning 
potential health consequences of MTBE:
    Longitudinal studies are needed that prospectively collect daily 
symptom reports before and after oxygenates are added to fuel in 
various geographical areas;
    Protocols should be developed for studies of symptom outbreal;s, 
including standardized questionnaires for symptoms and for assessing 
factors that may predispose wme individuals to these symptoms;
    Study designs should be developed to assess what factors define 
susceptibility and to identify susceptible subgroups;
    Occupational studies of workers involved in producing, handling, or 
transporting MTBE would provide useful information about a broader 
range of exposure and situations than those encountered by the general 
population:
    Consideration should be given to studies of outcomes other than 
symptoms, including neurobehavioral effects (such as reaction times, 
attention, and vigilance) and immunologic effects [such as T-cell 
counts).
    Hybrid protocol design that bring individuals from the community 
into laboratory investigations involving controlled exposure also may 
be informative.
    **Animal studies at relevant exposure levels also may be helpful in 
investigating the neurotoxic and other effects of MTBE and as a 
screening tool for other ethers. Behavioral tests that explore a broad 
range of complex motor, sensory, cognitive, and motivational 
measurements should be used. These studies should include measuring 
blood levels of MTBE and reporting, for dose-response relationships, a 
measurement such as a 10 percent change in performance, which would 
then be the precursor to a benchmark dose calculation.
                           Long-Term Effects
    ***Epidemiologic studies of workers who have been exposed to MTBE 
since the early 1970's should be conducted to determine whether the 
frequency of some types of tumors is increased in this population, as 
has been reported in animal studies.
    ***To determine the potential neoplastic and nonneoplastic effects 
of MTBE as part of a complex fuel mixture, studies involving long-term 
exposure to MTBE in gasoline should be conducted in rats and mice.
    ***To interpret the carcinogenic results from studies of MTBE in 
animals and extrapolate them to assess human risk, the following 
studies are needed:
    Studies should be conducted to investigate whether significant 
amounts of genotoxic metabolites are formed in organs in which tumors 
were observed in studies of long-term exposure to MTBE. Particular 
attention should be paid to formaldehyde, metabolites of TBA, and their 
putative macromolecular adducts.
    Studies should investigate whether the MTBE-induced tumorigenic 
responses can be explained by any of the mechanisms that have been 
suggested. For example, it has been argued that some of the tumors in 
the liver, testis, and thyroid induced with nonmutagenic carcinogens 
may result from endocrine disturbances caused by high doses of the test 
compounds or, in the case of the kidney, from a species- and gender-
specific mechanism that is not relevant to humans. (Some of these 
studies are being conducted at CIIT. funded by OFA).
                         Developmental Effects
    *Although the effects of MTBE on developmental processes seem to 
occur only at high doses at which maternal toxicity also is observed, 
studies of developmental effects of MTBE have not included extensive 
behavioral testing. Behavioral assays on the offspring of pregnant 
rodents exposed to MTBE by inhalation, or on preweanling newborns 
exposed to MTBE, should be conducted. They should explore a broad range 
of complex motor, sensory, cognitive, and motivational measures. 
(Developmental studies of neat TAME are currently being conducted as 
part of the TSCA requirements.)
           Health Effects Research on Ethers Other Than MTBE
    *** A comprehensive plan including, but not limited to, the types 
of studies listed under the various areas of research should be 
developed for investigating the health effects of other ethers. They 
should be based on the current knowledge of the effects of MTBE and on 
the results of pharmacokinetic studies of MTBE and other ethers. 
(Toxicity testing of TAME is in process under TSCA, and some work on 
ETBE in rats and mice will be funded by ARCO [90-day subchronic study, 
neurotoxicity screening!.)

[GRAPHIC] [TIFF OMITTED] T7218.001

[GRAPHIC] [TIFF OMITTED] T7218.002

                                 ______
                                 
  Statement of Jorge R. Mancillas, Before the California State Senate 
Environmental Quality Committee Bill under consideration: SB 1189, May 
                                12, 1997
Introduction
    The decision as to the fate of MTBE has serious economic and public 
health ramifications. The argument that phasing out MTBE as an additive 
in oxygenated fuels would have serious economic consequences is based 
on the fact that-large amounts of MTBE are used in California and 
throughout the country. It is this widespread Use, however, that 
provides the risk of exposure to a population of over 100 million 
Americans and requires that any potential or established risk to public 
health be taken with the outmost seriousness. Similarly, one can not 
make the argument that sufficient amounts of MTBE are being used widely 
enough to pose a risk to human health without acknowledging that any 
decision as to its future use must take in consideration its economic 
consequences.
    The best way to arrive at a policy decision regarding the future of 
MTBE as a gasoline additive is to rely strictly on solid science and 
careful and well-supported analysis of economic impact. Policy is best 
when based on fact, not fear, communication and cooperation, rather 
than cohersion.
    The goal should be to protect the health of our citizens, the 
integrity of our natural environment, and the solvency of the economic 
institutions that provide an adequate supply of fuels. Enlightened 
policy does not require that any of those objectives be brushed aside. 
Any proposals should include measures to insure prevention of harm to 
human health and thoughtful consideration of how to best handle the 
economic and environmental consequences of any changes in current 
policy.
    This testimony is intended to underscore tile urgency of dealing 
with the potential risks to public health posed by the use of MTBE as 
an additive in oxygenated fuels. Concern during policy discussions has 
centered on risks of carcinogenicity, based on evidence in the peer-
reviewed literature of MTBE's carcinogenic potential with chronic 
exposure to high enough doses in animal studies. Claims have also been 
made of associations with other pathological conditions which may merit 
further investigation.
    My testimony, however, focuses on the primary effect of MTBE on the 
human body: alteration of nervous system function. The view that the 
use of MTBE poses a significant risk of neurotoxic effects and that 
this is an immediate public health concern is based on:
    <bullet>Lthe fact that MTBE is a neuroactive substance (section 1 
of this written testimony)
    <bullet>Lknown plausible cellular mechanisms by which it disrupts 
normal function (section 2)
    <bullet>Lanimal studies which document its neurotoxicity (section 
4a) and
    <bullet>Lhuman epidemiological studies which document observed 
adverse effects symptomatic of nervous system disruption after exposure 
to MTBE (section 4b)
1. MTBE Belongs to a Class of Neuroactivesubstances
    MTBE (Methyl Tertiary Butyl Ether) is an ether. Ethers are 
neuroactive.
    Ethers were first isolated over 150 years ago and became of 
interest because of their ability to produce anesthetic effects in 
humans. Ether was first used as an anesthetic by dentist William Horton 
in Boston in 1846. It has been replaced as an anesthetic because the 
chemical characteristics that make some ethers useful as a gasoline 
additive, their flammability, created fire risks.
    The organs first and most abundantly perfused with MTBE once it 
reaches the bloodstream after penetrating the body either through 
inhalation, ingestion or dermal absorption are the brain, kidney, and 
liver. The first biological target of MTBE and the organ most sensitive 
to its actions is the nervous system.
2. Mechanism of Actions: MTBE Affects Nerve Cells by its Effects on 
        Membrane Fluidity
    Cell membranes are lipid bilayers. MTBE, because of its solubility 
in lipids, alters membrane fluidity, potentially affecting all cells in 
the body. Nerve cells are more sensitive to agents which disrupt 
membrane integrity because their function is performed by membrane-
bound molecules:
    Transmission of information by nerve cells is accomplished through: 
a) generation of electrical impulses (action potentials) by changing 
conductances of ion channels (which are proteins extending through 
their membranes); b) through secretion of neurotransmitters at the end 
of nerve fibers (another process which depends on cell membrane 
integrity); and c) through responsiveness to neurotransmitters by 
receptor molecules inserted in the membranes of their dendrites.
    The question then is, if MTBE is neuroactive, is there a 
significant risk of neurotoxic effects for humans at current levels of 
exposure?
3. In 1988 ITC Found MTBE to Pose an Unreasonable Risk of Neurotoxicity
    In March 1988, the Interagency Testing Committee (ITC), after 
review of a number of substances which included MTBE, gave MTBE an 
``A'' finding. An ``A'' finding was assigned to substances which 
present an unreasonable risk of neurotoxicity and for which there is 
substantial human exposure.
    The ``A'' finding on MTBE required conducting a core test battery 
for neurotoxicity, including a functional observational battery, motor 
activity tests, and neuropathological evaluations after acute and 
subchronic exposure.
    The ITC is a multidisciplinary advisory panel composed of one 
member of EPA, OSHA, Council on Environmental Quality, NIOSH, NIEH, 
NCI, NSF and the Department of Commerce. It issued 24 reports to EPA 
between 1977 and 1989, proposing 100 chemicals for inclusion in the 
priority list testing under section 4 of TSCA. Its finding on MTBE came 
before it was used as a gasoline additive as extensively as it is now 
and before its use became controversial.
    After negotiations with industry, EPA (Office of Toxic Substances) 
issued a consent decree (March 1988, Federal Register, volume 53-10391) 
mandating neurotoxicity evaluation. Industry proposed testing to be 
performed by the Bushy Run Research Center, owned by Union Carbide. 
Tests were completed and a report written in September 1989 (Report 52-
533, September 19, 1989). The results indicate MTBE has neurotoxic 
effects.
4. MTBE is Neurotoxic
            4a. Animal inhalation studies reveal neurotoxic effects of 
                    MTBE
    The Bushy Run Research Center studies, conducted on rats exposed to 
4 concentrations through inhalation (0, 8900, 4,000 and 8,000 ppm) 
showed that MTBE caused depression of Central Nervous System activity 
which was more apparent at higher doses.
    Among the effects observed after acute exposure were:
    <bullet>Lataxia
    <bullet>Lduck walk gait
    <bullet>Llabored respiration
    <bullet>Ldecreased muscle tone
    <bullet>Ldecreased body temperature
    <bullet>Ldecreased treadmill performance
    <bullet>Ldecreased hind-limb grip strength
    <bullet>Lincreased hind-limb splay, piloerection and lacrimation
    <bullet>Lincreased mean latency to rotate on an inclined screen
    In the studies after sub-chronic exposure:
    <bullet>LEffects similar to those caused by acute exposure were 
observed although the authors questioned their toxicological 
significance.
    <bullet>LSignificant changes in body temperature, motor activity 
and fore limb strength were observed.
    <bullet>LAbsolute brain weight was lower in animals exposed to 
8,000 ppm. Unfortunately, the authors did not examine or report what 
specific cell populations in the central nervous system account for the 
brain weight loss.
    Given the results of animal studies, does MTBE pose a risk of 
neurotoxicity in humans at the exposure levels resulting from its use 
as a gasoline additive?
            4b. Human epidemiological data shows a correlation between 
                    routine exposure to MTBE and symptoms of nervous 
                    system disruption
    In response to the 1990 amendments to the Clean air Act, Alaska 
converted to the use of oxygenated fuel containing 15 percent by volume 
MTBE in mid-October 1992. MTBE had not previously been added to 
gasoline in Alaska either as an octane enhancer or as an oxygenate.
    Within the first 3 weeks of November 1992, reports of headaches, 
dizziness and nausea poured into a local telephone hotline.
    In response to the complaints, a study was conducted by the Alaska 
Department of Health and Social Services and the Centers for Disease 
Control in December 1992, and January and February 1993.
    Workers who were exposed in the workplace and commuters subjected 
to nonoccupational exposure were evaluated while MTBE was in use and 
after use of oxygenated fuels was suspended in Alaska.
    <bullet>LAir concentrations of MTBE were monitored.
    <bullet>LBlood levels of MTBE in the subjects was measured.
    Results:
    <bullet>LIn areas where MTBE was added to gasoline, MTBE was 
detectable in the blood of occupationally exposed persons and the 
general public.
    <bullet>LPersons exposed to and with higher blood levels of MTBE 
more frequently reported headaches, eye irritation, nausea, dizziness, 
burning of the nose and throat, coughing, spaciness or disorientation, 
and vomiting, compared to those with lower blood levels of MTBE.
    <bullet>LExposure to gasoline without MTBE did not result in 
increased symptoms.
            4c. Policy results of the CDC and Alaska's DHSS 
                    epidemiological studies
    Use of oxygenated fuels with MTBE was suspended in Alaska.
    Alaska has been able to comply with the requirements of the Clean 
Air Act. Measures other than the use of reformulated gasoline, 
including comprehensive inspection and maintenance program resulted in 
a dramatic improvement in air quality and allowed for an immediate 
suspension of the use of MTBE while alternatives were sought. Ethanol 
was later introduced as a replacement for MTBE in Anchorage.
            4d. Symptoms of nervous system disruption have been 
                    reported in several States
    Complaints indicative of adverse health effects similar to those 
reported in Alaska have been reported in Montana, New Jersey, 
Wisconsin, Maine, Connecticut, Pennsylvania, Texas and Colorado.
    In April 1993, the Centers for Disease Control conducted studies in 
Stamford Connecticut similar to those in Alaska with the cooperation of 
the Connecticut Health Department. Again, the subjects with the highest 
blood MTBE levels had a higher incidence of symptoms of disruption of 
nervous system function.
    A study conducted in Albany, New York yielded negative results. 
Comparisons may be misleading, however, because the blood levels of 
MTBE were significantly much lower than in Alaska and Connecticut 
(levels for gasoline station attendants, for example, were 15.19 
micrograms per liter in Stamford vs. 0.42 micrograms per liter in 
Albany). A study comparing selected populations of southern and 
northern New Jersey did not include analysis of blood samples and its 
results are therefore more difficult to interpret.
            4e. Original studies indicating neurotoxic effects of MTBE 
                    have been misrepresented or ignored: A cautionary 
                    note
    The results of the Alaska studies have been misrepresented by CAL 
EPA in its April 1997 report (p. 9) when stating that they ``were 
unable to associate them [complaints] with MTBE exposure.'' The authors 
of the studies strongly object to that characterization. Reviews by 
Federal agencies have tried to downplay the results.
    Similarly, a November 1993 review by the ORD of the US-EPA 
misrepresents the Stamford CDC studies by creating categories of 
subjects which dilute the results. Whereas the relevant correlation to 
examine is that between blood levels and symptoms of adverse effects, 
they compare the median of one or another occupational category, 
diluting the strength of the correlation between MTBE blood levels and 
health effects. That and other reviews give equal or more weight to 
negative results in Albany than to those obtained in Alaska and 
Stamford, with complete disregard to the clear differences in blood 
levels.
    Whatever the intent is, one should be cautious and not rely on 
``reviews'' and ``assessments'' of the literature but consult the 
original studies, with a definite preference for studies the results of 
which have been published in peer-reviewed journals. The only reliable 
measure of exposure is a quantitative and pharmacokinetic analysis of 
blood levels, with measurement of symptoms at relevant time points in 
relation to changes in blood levels. Guesses about exposures based on 
measurement of air levels are misleading and at best dilute the 
results.
    If the results of the studies mentioned in 4a and 4b are indicative 
of neurotoxic effects of MTBE, why is there such little public 
awareness and reporting of adverse health effects?
5. Neurotoxic effects commonly go undetected and their cause 
        unidentified
    One of the major problems in establishing the risk of neurotoxicity 
for a human population is that irreversible neurotoxic effects are 
often not detected, nor accurately diagnosed. Even in the case of 
reversible, acute effects, the association of overt symptoms with 
exposure to the causative agent is rarely established. Usually, no one 
is looking for them and neither the public nor most doctors are trained 
to identify, recognize and interpret symptoms of neurotoxicity.
    Damage to the nervous system is more commonly expressed as loss of 
nerve cells, or impaired peripheral nerves, as opposed to visible 
abnormal growth as it is the case with cancer. Loss of neural tissue 
does not cause detectable biochemical changes that can serve as 
indicators.
    Doctors are not taught in medical school to look for neurotoxic 
effects. When patients complain doctors rarely conduct assays for the 
presence of neurotoxic substances in blood samples. It is also 
extremely rare, for example, for a doctor to have the equipment to 
measure speed of conduction of peripheral nerves.
    Nervous tissue is the most delicate, vulnerable and irreparable of 
all tissues. While other tissues can regenerate, a lost nerve cell is 
lost forever. Nerve cells can not divide. They are not replaced. Thus, 
damage to the nervous system is irreparable and cumulative.
    Often, as attested by even serious debilitating diseases, like 
Parkinson's disease or Alzheimer's disease, neuropathies do not present 
an immediate risk of death. Yet they harm the most essential, intimate 
human organ, that associated with all uniquely human qualities: the 
brain.
    The impact on an individual's quality of life when an impairment is 
sustained in memory, intelligence or motor skills is incalculable. The 
cumulative effect for society of diminished intellectual capacity 
(analytical abilities, information processing abili-

ties, memory, intelligence) at the level of a population is hard to 
assess. The devastating emotional impact is clear for those with 
relatives or friends suffering from neurological diseases.
    As long as systematic, comprehensive epidemiological studies are 
not conducted with human populations currently exposed to inhalation or 
ingestion of MTBE in the air or contaminated water, uncertainty will 
remain about the possibility of neurotoxic effects for the general 
population or for specially vulnerable sub-populations.
    At best, a massive experiment is being conducted and no one is 
collecting the data. At worst, significant neurological damage is being 
sustained by segment of the population with unknown and possibly 
immeasurable consequences.
6. Additional brief notes regarding risk of exposure
            6a. Environmental fate
    Gasoline contains other components long recognized as hazardous for 
human health. Therefore, people will tend to exercise some degree of 
caution when handling reformulated gasoline. The discovery of MTBE 
contamination in wells, however, raises additional concerns. When 
leakage from underground tanks or pipes occurs, MTBE diffuses faster 
and farther than other gasoline components and it stays in the 
environment longer. Its solubility in water and its high partition 
coefficient with soil allows it to diffuse faster than other components 
of gasoline and its rate of degradation is slower, especially when not 
vulnerable to photolysis. People may be exposed to MTBE without their 
knowledge. Exposure to low levels of MTBE by ingestion increases the 
exposure burden already present through inhalation.
            6b. Degradation products of MTBE and additional risks of 
                    prolonged exposure
    The two main products of MTBE degradation are toxic. As MTBE 
degrades and ceases to directly pose a risk it creates substances, 
formaldehyde and TBA (Tertiary Butyl Alcohol), which pose well 
documented risks to human health.
    The enzyme that catalyzes MTBE in the human body saturates. 
Therefore larger doses or prolonged exposure does not only have a 
cumulative effect but exposure to additional MTBE poses a larger risk.
7. Policy Recommendations
    The safest course of action would be to responsibly phase out MTBE 
and replace it with a safer alternative. If this alternative is chosen, 
sufficient time should be allowed for an orderly and cost-effective 
transition to alternatives which would accomplish the same fuel-
efficiency and clean-air goals.
    While MTBE use in reformulated fuels is phased out, as long as any 
significant amounts remain in the environment (i.e., in contaminated 
wells) or if MTBE continues to be used as a gasoline additive, minimum 
protective measures should include:
    1. Strict monitoring of levels of MTBE and its degradation 
products--in particular TBA and formaldehyde--in the air and water.
    2. Thorough monitoring of MTBE and TBA blood levels when there is 
likelihood of exposure.
    3. Require industry to effectively inform residents or workers in 
areas where MTBE is present of what are the symptoms associated with 
MTBE exposure. Provide hot-line to take in reports.
    4. Serious epidemiological investigation of complaints of adverse 
health effects.
                          selected references
    1. EPA Testing Consent Order on Methyl Tertiary Butyl Ether and 
response to the Interagency Testing Committee (1988), Federal Register 
53(62) 10391-10394
    2. Gill, M.W. (1989) ``Methyl Tertiary Butyl Ether `Single exposure 
vapor inhalation neurotoxicity study in rats','' Bushy Run Research 
Center Report 52-533
    3. Daughtrey, W.C., Gill, M.W., Pritts, I.M., Douglas, J.F., 
Kneiss, J.J. and Andrews, L.S. (1997), ``Neurotoxicological evaluation 
of Methyl Tertiary Butyl Ether in rats,'' Journal of applied 
toxicology, In Press (manuscript available upon request)
    4. Burbacher, T.M. (1993), ``Neurotoxic effects of gasoline and 
gasoline constituents,'' Environmental Health Perspectives 101 (s6): 
133-141
    5. Moolenar, R.L., Hefflin, B.J., Ashley, D.L. Middaugh, J.P. , and 
Ezel, R.A. (1994), ``Metyl Tertiary Butyl Ether in human blood after 
exposure to oxygenated fuels in Fairbanks, Alaska,'' Archives of 
Environmental Health, 49: 402-409
    6. ``An investigation of exposure to Methyl Tertiary Butyl Ether in 
oxygenated fuels in Fairbanks, Alaska,'' September 14, 1993, National 
Center for Environmental health, Centers for Disease Control and 
Prevention
    7. Middaugh, J.P. (1994), ``Reacting to gasoline additives,'' 
Science 263:1545
    8. ``Neurotoxicity: identifying and controlling poisons of the 
nervous system,'' Office of Technology Assessment, Congress of the 
U.S., April 1990.
                                 ______
                                 
                 Department of Health and Human Services,  
        Public Health Service, Centers for Disease Control,
                                      Atlanta, GA, August 12, 1993.

Hon. John A. Sandor
Commissioner, Department of Environmental Conservation
Juneau, Alaska 99801-1795

Dear Mr. Sandor: Enclosed please find an interim report that describes 
the epidemiologic investigations on human exposures to methyl tertiary 
butyl ether (MTBE) conducted by the Centers for Disease Control and 
Prevention (CDC) in collaboration with the Alaska Department of Health 
and Social Services and the Alaska Department of Environmental 
Conservation in Fairbanks, Alaska.
    Our major findings were:

    1. LIn areas where MTBE was added to gasoline MTBE was detectable 
    in teh blood of both occupationally-exposed persons and the general 
    public.
    2. LPersons with higher blood levels of MTBE more frequently 
    reported symptoms, including headache, nausea, burning of the nose 
    and throat, and spaciness, compared to those with lower blood 
    levels of MTBE.
    3. LExposure to gasoline without MTBE did not result in increased 
    symptoms.
    4. LWe believe that until MTBE is fully evaluated in community-
    based studies, questions will remain as to its safety for 
    widespread distribution and use.

    Thank you for the opportunity to work with you to investigate the 
illnesses in Fairbanks. As you know, we discovered a similar 
relationship between higher blood levels of MTBE and symptoms in 
Stamford, Connecticut. The consistency between the two study sites adds 
strength to these findings.
    We hope this interim report will be helpful to you. We believe it 
raises questions which must be resolved in future investigations.
            Sincerely yours,
                                  Ruth A. Etzel, M.D. Ph.D.
              Chief, Air Pollution and Respiratory Health Branch,  
                        Environmental Hazards and Health Effects,  
                          National Center for Environmental Health.
                                 ______
                                 
         Resolution passed by the American Medical Association
                       June 14, 1994, Chicago, IL
Subject: Moratorium on Methyl Tertiary Butyl Ether Use as an Oxygenated 
Fuel in Alaska
    Whereas, The Clean Air Act Amendment of 1990 required the use of 
oxygenated fuel in winter in all areas which exceed the National 
Ambient Air Quality Standard (NAAQS) for carbon monoxide (CO), an 
Anchorage and Fairbanks were two of the 39 cities required to use 
oxygenated fuel in the 1992-1993 winter season; and
    Whereas, in Fairbanks and Anchorage in 1992-1993 a large number of 
citizens complained of symptoms including headaches, dizziness, nausea, 
cough, and eye irritation; and studies by the Alaska Division of Public 
Health and the National Centers for Disease Control and Prevention 
found that these symptoms were associated with exposure to oxygenated 
gasoline, that MTBE was detectable in the blood of all workers and 
communities studied in Fairbanks, and that the association between 
symptoms and exposure to MTBE in gasoline needs further study; and
    Whereas, limited scientific evidence raises questions about the 
potential carcinogenicity of MTBE; and
    Whereas, the Alaska Division of Public Health recommended in 
reports released in December 11, 1992 and December 23, 1992 that the 
oxygenated fuels programs in Fairbanks and Anchorage, respectively, 
should be suspended; and
    Whereas, results of recent scientific studies suggest that addition 
of MTBE to gasoline does not lower CO emissions from motor vehicle 
exhaust at temperatures below 0 degrees; and
    Whereas, a dramatic decline in CO levels in ambient air in 
Anchorage and Fairbanks occurred before the implementation of the 
oxygenated fuels program as a result of the existing inspection and 
maintenance program and replacement of aging vehicles without using 
MTBE; and
    Whereas, based on current ambient air CO levels in Anchorage and 
Fairbanks, characteristics of population, condition of temperature and 
darkness, and low opportunity for exposure, no beneficial public health 
effects can be expected from further minor reductions of ambient CO 
levels that might result from the use of MTBE, therefore be it
    Resolved, that the American Medical Association urge that a 
moratorium on the use of MTBE-blended fuels be put into place until 
such time that scientific studies show that MTBE-blended fuels are not 
harmful to health, and that no penalties or sanctions be imposed on 
Alaska during the moratorium.
                                 ______
                                 
      Resolution Concerning the Use of Oxygenated Fuels in Alaska
          American Public Health Association, November 2, 1994
    Knowing that the Clean Air Act Amendment of 1990 required the use 
of oxygenated fuel in winter in all areas which exceed the National 
Ambient Air Quality Standard (NAAQS) for carbon monoxide; and
    Knowing that Anchorage and Fairbanks, Alaska were 2 of 39 areas 
required to use oxygenated fuel in the 1992-1993 winter season; and
    Knowing that more than 100 million Americans are being exposed to 
methyl tertiary butyl ether (MTBE), a fuel additive, and its combustion 
products; and
    Knowing that the use of oxygenated gasoline with methyl tertiary 
butyl ether (MTBE) in Fairbanks and Anchorage in 1992-1993 led to a 
large number of citizen complaints of headaches, dizziness, nausea, 
cough, and eye irritation; and
    Aware that scientific studies by the Alaska Division of Public 
Health and the National Centers for Disease Control and Prevention 
found that these symptoms were associated with exposure to oxygenated 
gasoline, that MTBE was detectable in the blood of all workers and 
communities studied in Fairbanks, and that the association between 
symptoms and exposure to MTBE in gasoline needs further study; and
    Recognizing that results of recent scientific studies suggest that 
addition of MTBE to gasoline does not lower CO emissions from motor 
vehicle exhaust at temperatures below 0 degrees Fahrenheit; and
    Knowing that a dramatic decline in CO levels in ambient air in 
Anchorage occurred before the implementation of the oxygenated fuels 
program in the winter of 1992-1993, and it is predicted that within 1 
to 3 years Anchorage will meet NAAQS CO standard as a result of th 
existing inspection and maintenance program and replacement of aging 
vehicles without using MTBE; and
    Believing that based on current ambient air CO levels in Anchorage 
and Fairbanks, characteristics of the population, condition of 
temperature and darkness, and low opportunity for exposure, no 
beneficial public health effects can be expected from further minor 
reductions of ambient CO levels that might result from the use of MTBE 
in Alaska, and
    Believing that similar circumstances my exist in other States; 
therefore
    1. Calls upon the U.S. Congress to take appropriate action to 
ensure that adequate scientific studies are funded and conducted on 
oxygenated fuels, including studies of potential toxicity of MTBE by 
the National Toxicology Program, a study of the comparative health 
benefit of using oxygenated fuels by the Institute of Medicine, studies 
of health effects from exposure of workers to MTBE by the National 
Institute of Occupational Safety and Health, and studies of health 
effects among the general public from exposure to oxygenated fuels by 
the National Center for Environmental Health, Centers for Disease 
Control and Prevention; and
    2. Calls upon the U.S. Congress to take appropriate action to delay 
imposition of sanctions under the Clean Air Act amendment for carbon 
monoxide exceedances upon the State of Alaska for a 3-year period while 
scientific studies of MTBE in arctic conditions are conducted and 
evaluated.
                               __________
   Statement of Hon. Richard Mountjoy, State Senator from California
    Thank you for the hearing, and it does give the people of 
California a voice directly to the U.S. Congress, and we appreciate 
that very much.
    Our original bill called for an outright ban of MTBE and then 
later, through the legislative process, 521 was watered down to a 
study, but a good study on MTBE. But even at the time that that went 
through we were saying that we believed, because of the public outcry 
and the poisoning of our water here in California, that MTBE would, in 
fact, be phased out prior to the completion of that study.
    I think both Senator Hayden and I have been involved in this issue 
to the extent that we pretty much knew what was coming down, regardless 
of what the political factors were here in the State Capitol.
    This water I have here is out of some wells in the City of 
Glenville. This well is contaminated to the levels of 200,000 parts per 
billion. Most of the wells in that city have been contaminated to the 
levels of 20,000 parts per billion, hardly something--I wouldn't--well, 
you can smell it if you choose to, but not for too long.
    It has almost destroyed property values, and you have to remember 
that this little city is uphill from Bakersfield. Getting into the deep 
water aquifers and flowing downstream into Bakersfield could be very, 
very dangerous.
    We have found that MTBE is in Lake Tahoe. There are lakes--and a 
lot of this, you know, is laid off on the boats. Well, we have the 
boats on the lakes and they're spewing fuel into the lakes. But you 
need to know that Lake Merced, in the Bay Area, is contaminated with 
MTBE and only has on it either boats that are rowed by hand or electric 
motors, so MTBE also gets in. I think you'll hear a little more about 
that from the geological survey folks and some of the other expert 
witnesses that you're going to have here today. MTBE is a threat.
    In the San Gabriel Valley we have spent considerable money and time 
over the last 20 years cleaning up our wells from other contaminates in 
that valley, and now they have the threat of MTBE invading that valley, 
a chemical that once in the water is soluble in the water and, 
therefore, flows through filters, no really good way to clean MTBE out 
of the water.
    Metropolitan Water told me that if they were to clean up MTBE--and 
they feel that they have to get it out of the water at the level of 5 
parts per billion, and I know EPA is now saying 30 to 40 parts are 
safe, I believe zero is really safe.
    You taste MTBE at around 5 parts per billion. Metropolitan Water 
feels that they cannot sell water that you can taste, therefore, to 
clean MTBE out of the water their estimates are triple the water rates 
for the people of the Los Angeles area if they were to have to clean 
MTBE out of the water to the level of which you could not taste it. 
And, so, it's a very, very large threat to our water supply system in 
Southern California and across this State, and across the nation. We 
now know that it's in Texas. We've heard that high levels in, of 
course, Pennsylvania, and you've mentioned most all of those areas. So 
it is a national threat to our nation's water supply, which is very 
precious.
    There is also the point that many of the people involved in the oil 
industry have said it isn't doing that much for the air, that the 
benefits to the air quality are very, very minute compared to the 
threat of the contamination of the water supply. For that reason alone 
I believe that the EPA should be urged to take immediate steps to 
either, No. 1, ban would be my, of course, first choice, or to at least 
relieve California of the necessity, or relieve the nation of the 
necessity, of oxygenating fuel at all, and try to clean it up either 
with another oxygenate of their choice or clean it up without any 
oxygenate at all, to get to the levels that are necessary.
    Many of them believe they can achieve that goal, and I think they 
ought to be allowed to turn their experts loose to try to. Once in the 
water and once in the ground--you mentioned the fact, which is true--
very, very, long biodegradation of MTBE. Benzene, generally speaking, 
400 feet from a tank, is going to biodegrade. MTBE, not so. It will 
travel through the water aquifers just as it if were water.
    The fact of life is that in Glenville the contamination was caused 
by leaking tanks and spillage of--while filling the tanks, new tanks, 
by the way. So we know that MTBE--it's not a question, are the tanks 
going to leak, it's--the question is when they're going to leak and how 
much are they going to leak.
    We saw a pipeline over Donner Pass in which started a leak, they 
estimated sometime in October. It was not even detected until March, a 
pipeline that had some 900 pounds of pressure in it. So we don't know 
the extent of the leakage in the Donner Pass area of that pipeline. So 
pumping MTBE through those lines is a very, very dangerous situation, 
and one that we believe needs to be--steps taken immediately.
    I'm pleased to see companies like Tosco and Chevron are now willing 
to step forward and say we ought to have some alternative to MTBE 
because it is dangerous to our water supply.
    Now, we all want clean air, and I believe we need to say on the 
course of attaining as clean an air as we can attain, however, at the 
same time we cannot afford to contaminate our precious water supply 
here in the State of California.
    As you mentioned before, every drop of water in California is very, 
very precious to us and we need to do everything we can to protect our 
supply.
    So just let me end by saying thank you so much for the hearing. I 
hope that our message is heard by the Congress of the United States and 
by the EPA, and that immediate steps are taken to stop the health risk 
that is going on.
    Senator Hayden mentioned that there is a study ongoing, but the 
study involves 32 million Californians as guinea pigs, and that's 
something I don't believe we can afford.
    So thank you again for the hearings and my chance to participate. I 
do have some documents from different water companies that are not 
going to be able to participate today, but I would like to submit these 
documents to you for entrance into the official record, and they are 
the positions of several water companies in the State of California.
                               __________
Statement of Craig Perkins, Director of Environmental and Public Works, 
                            Santa Monica, CA
    Good morning Senator Boxer. My name is Craig Perkins and I am the 
Director of Environmental and Public Works Management for the city of 
Santa Monica. In this capacity, one of my major areas of responsibility 
is management of the city's water production and distribution system. 
Over the past 2 years, this job has been made very difficult due to the 
impacts of MTBE contamination. You are probably well aware of the MTBE 
crisis that Santa Monica has faced over happened and what remains to be 
done.
    In late 1995 and early 1996, we first became aware that a new 
contaminant might be impacting the city's drinking water wells. In 
early February, 1996 we indeed confirmed that several of our wells had 
been contaminated with MTBE. Between February and October 1996, we shut 
down seven of the city's 11 water wells at two separate well fields 
because of the contamination. These wells had represented 71 percent of 
our local water well production and supplied about one half of Santa 
Monica's total daily water demand. At the time one of the first wells 
was shut down, the MTBE contamination had soared to 610 parts per 
billion (<greek-m>g/L), nearly 20 times the state action level. 
Clearly, the present situation represents an environmental crisis that 
has been a staggering blow to the city of Santa Monica both in 
financial terms and from the standpoint of an almost total loss of our 
reliable local water supply which has been of critical into during 
natural disasters such as the 1994 Northridge earthquake and other 
emergencies.
    As a result of the MTBE contamination, in June 1996 the Santa 
Monica City Council approved a 25 percent emergency MTBE surcharge on 
every water customer to pay for the additional $3.25 million in annual 
costs for the purchase of outside water to replace the lost well 
production. These surcharge revenues have not, however, covered the 
city's considerable legal and technical analysis costs.
    Santa Monica's major wellfield which is impacted, the Charnock 
wellfield, presents a classic example of a multiple party groundwater 
contamination problem. The city and the Regional Water Quality Control 
Board have identified 26 ``priority'' sites in the vicinity of the 
Charnock wellfield, including two gasoline product pipelines, which may 
be sources for the MTBE contamination. Considerable technical 
assessment and evaluation will therefore be required before actual 
cleanup can commence. The Arcadia wellfield is the other location which 
has been impacted by MTBE, and at this site there is only one party, 
Mobil Oil, who has caused the contamination.
    What was particularly difficult to deal with during the early 
stages of this unfortunate episode were the significant gaps in 
information about the potential public health and environmental impacts 
from MTBE as a water contaminant, and the distressing absence of 
technical and regulatory assistance from those state and Federal 
agencies entrusted with oversight of water quality and groundwater 
protection issues. As local government officials, we were forced to 
arrive at our own conclusions about whether MTBE contaminated water 
should be delivered to our citizens. No enforceable water quality 
standards for MTBE existed in early 1996. In the face of this 
regulatory vacuum, we made the decision to shut down the wells and take 
no chances with the health and safety of our community.
    Following many months of negotiations with the two oil companies 
who exercised good corporate responsibility and stepped forward to 
discuss the city's MTBE problem, Santa Monica entered into an interim 
agreement with Shell and Chevron in July, 1997 which reimbursed us for 
75 percent of the MTBE costs associated with the Charnock wellfield. 
This interim agreement enabled the City Council to reduce the emergency 
MTBE water surcharge by one-half. The agreement will expire in January, 
1998 unless renewed by these and/or other oil companies at a 100 
percent reimbursement rate. At Arcadia, ironically, where the 
culpability of Mobil Oil is clear, negotiations between the city and 
Mobil broke down approximately a year ago resulting in a lawsuit filed 
by Santa Monica against Mobil in February, 1997. This lawsuit is being 
pursued by the city in the face of continued recalcitrance on the part 
of Mobil to admit to their responsibility for the problem.
    It has become clear to Santa Monica that MTBE is a potent and 
pernicious threat to drinking water in California as well as other 
parts of the United States. Although MTBE has only been in widespread 
use since the early 1990's, and even though testing for MTBE has not 
been required until very recently, MTBE has now been found in almost 4 
percent of California drinking water systems sampled. We believe that 
these findings represent just the tip of the iceberg in terms of the 
MTBE that may be on its way. It is important to note that Benzene which 
has been a constituent in gasoline for several decades is rarely 
detected in wells, yet MTBE in a few short years has already managed to 
knock out 71 percent of Santa Monica's wells.
    With hard work and perseverance, Santa Monica will eventually 
overcome this crisis, but actions can be taken at the Federal and state 
level which could greatly facilitate our progress on the path toward 
restoration of our drinking water supply. At the Federal level, we 
believe that the action agenda should include the following:
    1. Adoption of clear and enforceable drinking water standards for 
MTBE by the earliest possible date;
    2. Strengthening of installation, monitoring and testing 
requirements for underground gasoline storage tanks and pipelines to 
respond to MTBE's more alarming fate and transport characteristics;
    3. Adoption of strict liability standards for those responsible for 
MTBE contamination to ensure that the polluter, not the victim, pays 
for damages and cleanup costs;
    4. Implementation of testing requirements for MTBE at all leaking 
underground storage tanks and in all public drinking water supplies 
throughout the United States so that we know as soon as possible how 
big a national problem MTBE has become and can better prevent the 
replication of Santa Monica's experience: and
    5. Evaluation of whether performance-based clean air standards for 
auto fuel would be more appropriate than the current mandate for the 
use of oxygenates.
    On behalf of the city of Santa Monica, I thank you Senator Boxer 
for the tremendous past support which you have given us in dealing with 
the MTBE problem. I look forward to further collaboration with you and 
your staff as we move forward toward comprehensive solutions.
                               __________
Statement of Cynthia C. Dougherty, Director, Office of Ground Water and 
            Drinking Water, Environmental Protection Agency
    Thank you for the invitation to appear here today. I am pleased to 
discuss the activities that EPA is undertaking to address environmental 
issues associated with methyl tertiary-butyl ether (MTBE).
    MTBE has been detected at elevated concentrations in groundwater 
near leaking fuel tanks throughout California, and this has raised 
concerns regarding the occurrence of MTBE in drinking water supplies. 
The Federal Government is addressing questions about MTBE on many 
fronts, and is working to accurately understand and characterize the 
scientific and policy issues. With respect to drinking water, this work 
will substantially improve our knowledge of the occurrence, potential 
for human exposure, and health effects of MTBE in drinking water 
sources across the country. We believe the data obtained from these 
activities should help increase our understanding of MTBE and other 
potential fuel oxygenates to better inform our decisions. In addition, 
yesterday EPA made available a Drinking Water Advisory on MTBE to 
provide guidance and information to States and local communities as 
they make important water supply and management decisions if MTBE is 
detected in a drinking water supply.
Clean Air Act
    As you know, in the 1990 amendments to the Clean Air Act (CAA), 
Congress mandated the use of reformulated gasoline (RFG) in those areas 
of the country with the worst ozone or smog problems. The RFG program, 
which began January 1, 1995, is currently required in ten areas and 
voluntarily implemented in another twenty-two (these thirty-two areas 
are in a total of 18 States and the District of Columbia). As directed 
in the CAA, RFG must contain a minimum oxygen content of 2 percent by 
weight, a maximum benzene content of 1 percent, and no lead, manganese, 
or other heavy metals. In June 1996, California required statewide use 
of its Phase II RFG, the ``cleaner burning gasoline,'' which has 
stricter standards than the Federal RFG requirements. RFG accounts for 
about 30 percent of the gasoline nationwide.
    RFG is required to reduce the emissions of both ozone-forming 
volatile organic compounds (VOCs) and toxic pollutants by 15 percent 
with no nitrogen oxide (NO<INF>X</INF>) increase. The refiners' 1995/96 
fuel data submitted to EPA indicate that the emissions benefits exceed 
the required reductions. EPA's 1996 Air Quality Trends Report showed 
that various toxic air pollutants, such as benzene, a known carcinogen, 
declined significantly between 1994 and 1995. Analysis indicates that 
this progress may be attributable to the use of RFG. Starting in the 
year 2000, the required emission reductions are substantially greater, 
at about 27 percent for VOCs, 22 percent for toxics, and 7 percent for 
NO<INF>X</INF>.
    Ethanol and MTBE are the primary oxygenates used in the RFG program 
to meet the oxygen content requirement. MTBE is not subsidized and is 
used in about 84 percent of RFG supplies because of economic reasons 
and its blending characteristics. MTBE is also often used in gasoline 
at lower concentrations as an octane enhancer in place of lead to 
reduce engine knocking.
    On November 21 of this year, Charles Freed, Director of EPA's Fuels 
and Energy Division, testified before the Assembly Natural Resources 
Committee of the California legislature on the winter oxygenated 
gasoline program and its environmental benefits and issues. I would 
like to repeat his testimony that it is EPA's position that the 
oxygenated fuels program and the reformulated gasoline program have 
resulted in large emission reductions, boosted the use of nonpetroleum 
and renewable fuel components, and improved air quality in our cities.
Research
    EPA and other Federal agencies have been conducting research to 
improve our knowledge of the issues related to MTBE. The White House 
Office of Science and Technology Policy (OSTP) convened an Interagency 
Oxygenated Fuels Assessment Steering Committee in May 1995 upon EPA's 
request. In February 1996, OSTP released its draft assessment of the 
wintertime oxygenated fuels program which looked at a broad range of 
issues related to the use of oxygenates in gasoline, including water 
quality impacts. The National Academy of Sciences (NAS), an independent 
body of scientists, was then asked by EPA to evaluate and peer review 
OSTP's draft Oxygenated Fuels Assessment Report. NAS's comments were 
used by the Committee in developing the final document that was 
released in June 1997, entitled ``Interagency Assessment of Oxygenated 
Fuels.'' As a result, this document is a thorough, comprehensive 
analysis of issues related to oxygenates in gasoline, including health 
effects, vehicle performance, water quality, and air quality benefits.
    The final OSTP report stated that, ``MTBE has been detected in 51 
public drinking water systems to date based on limited monitoring in 5 
States, however, when detected, the concentrations of MTBE were for the 
most part below the lower limit of the current EPA health advisory. 
This indicates that the consumption of drinking water was not a major 
route of exposure for these few systems.'' The OSTP report also noted 
that, ``Because of the very limited data set for fuel oxygenates in 
drinking water, it is not possible to describe for the nation MTBE's 
occurrence in drinking water nor to characterize human exposure from 
consumption of contaminated drinking water.'' The OSTP report concluded 
that more monitoring and research would be needed to better 
characterize major sources of MTBE to the environment and to enable an 
exposure assessment for MTBE and drinking water. The report also 
addressed the comparative risks of MTBE to gasoline, and stated that 
``the estimated upper-bound inhalation cancer unit risks for MTBE are 
similar to or slightly less than those for fully vaporized conventional 
gasoline; substantially less than that for benzene, a constituent of 
gasoline that is classified as a known human carcinogen; and more than 
100 times less than that for 1,3-butadiene, a carcinogenic emission 
product of incomplete fuel combustion.''
    EPA's Air program, pursuant to section 211 of the Clean Air Act, 
recently notified the fuels industry of the health effects testing it 
is required to perform for conventional and oxygenated gasoline 
(including MTBE). This exposure assessment and toxicology testing will 
commence shortly after the public comment period and will result in a 
greater understanding of the comparative risks associated with 
inhalation exposures to conventional and oxygenated gasoline fuels. The 
results of this research effort also may be helpful in characterizing 
risk in water by extrapolating the data to oral ingestion risk. Once 
this research is completed, the Agency-directed peer review will 
determine whether these fuels have been adequately tested or if more 
research will be required.
    EPA is also focusing research on drinking water issues related to 
MTBE. As a result of the OSTP recommendation for additional 
information, an Agency-wide task force has been formed to develop a 
``Research Strategy for Oxygenates in Water.'' Building upon the 
findings of the OSTP report, the Strategy will identify key issues and 
describe a strategy to obtain information to support health risk 
assessment and risk management in the areas of environmental 
occurrence, source characterization, transport and transformation, 
exposure, toxicity, and remediation. The identified research will build 
a stronger database to better assess the potential health risks related 
to oxygenates in water, and further our knowledge on occurrence, 
mitigation and remediation.
    On October 7, 1997, EPA convened a day-long meeting of over 50 
experts--including representatives from industry, academia, 
consultants, and other government agencies--to review a draft of the 
Strategy. The information produced in this workshop is being used to 
help finalize the research strategy for fuel oxygenates, that we hope 
will serve to coordinate efforts by various organizations, public and 
private, to address the issues related to oxygenates in water. The 
strategy will go out for public comment in January. I know the research 
that is being developed in the research partnership between some 
members of the Association of California Water Agencies (ACWA) and MTBE 
producers is being coordinated with the research strategy to prevent 
duplication and ensure effective coverage of needed subjects.
The Resource Conservation and Recovery Act
    Underground Storage Tanks Program: In addition to research, EPA has 
several programs that address MTBE. The primary source of MTBE 
detections at high concentrations is leaking underground fuel storage 
tanks, and possibly transmission facilities. About one million 
underground storage tanks (USTs) are in use in the United States that 
are subject to regulation under RCRA Subtitle I. About 76,000 of them 
are in California. Most of them are used for motor vehicle fuels--
either by gasoline stations or by non-marketers having on-site 
refueling facilities for their own car, truck, or bus fleets. States 
report that USTs are the most common source of groundwater 
contamination and that petroleum is the most common contaminant.
    EPA's ongoing efforts under our Underground Storage Tank (UST) 
Program are designed to prevent further contamination of water supplies 
by petroleum, including gasoline containing MTBE. Existing tanks are 
required to be upgraded, replaced, or closed by December 1998 to meet 
the spill, overfill, and corrosion requirements of Federal law, and in 
California are also required to be lined or double-walled. EPA 
regulations have required leak detection methods to be in place for all 
USTs since 1993. Both EPA and the States have the authority to enforce 
these regulations. In addition, EPA's UST Office is working closely 
with States to assist them in addressing MTBE when petroleum leaks are 
remediated. The Agency is also coordinating with the U.S. Department of 
Transportation on its pipeline leak prevention program.
    States have the primary responsibility for implementation and 
enforcement of the UST regulations although EPA also maintains 
authority to enforce these regulations. EPA recognizes that, because of 
the size and diversity of the regulated community, State and local 
governments are in the best position to oversee USTs. Subtitle I of 
RCRA allows State UST programs approved by EPA to operate in lieu of 
the Federal program.
    EPA has focused on helping State and local governments build 
programs capable of ensuring that USTs do not threaten human health or 
the environment. EPA provides financial assistance to States through 
cooperative agreements, as well as providing technical and regulatory 
assistance for the purpose of building State programs. For instance, in 
a joint undertaking in May 1997, States and EPA inspected about 10,000 
UST facilities, primarily to check on compliance with release detection 
requirements that have been in effect since December 1993. State and 
EPA inspectors found that about 68 percent of UST facilities were in 
full compliance. In addition, through data collected during this 
undertaking as well as data that EPA has begun collecting from States, 
EPA estimates that about half of UST facilities are now in compliance 
with the 1998 requirements. EPA Regional Offices are working with 
States to develop State-specific plans for increasing the compliance 
rate and for taking post-deadline enforcement action. Where States 
cannot or will not enforce the requirements, EPA can do so. The Agency 
is developing a plan for Federal action to support and augment State 
enforcement.
    The Santa Monica Enforcement Action: In May 1996, after the City of 
Santa Monica had learned that its Charnock and Arcadia drinking water 
wellfields were contaminated with MTBE, the City of Santa Monica wrote 
to EPA requesting our assistance with addressing this problem. EPA 
staff attended Task Force meetings organized by the city to learn more 
about this problem that also was affecting the Southern California 
Water Company which delivered water to nearby Culver City. By December 
1996, the City of Santa Monica's own initial efforts to obtain the 
cooperation of potentially responsible parties (including issuance of 
RCRA Section 7002 citizen suit notices) appeared to be unsuccessful. As 
a result, EPA decided to undertake a 3-month assessment of the 
contamination problem including the appropriate role for the Federal 
Government.
    In March 1997, after extensive consultation with the Los Angeles 
Regional Water Quality Control Board and the State Water Resources 
Control Board, EPA decided that it should play a role in addressing 
Santa Monica's MTBE contamination problem. EPA agreed to provide 
technical support and field oversight for the Arcadia wellfield 
investigation already being conducted by Mobil Oil Company under the 
supervision of the LA Regional Board. EPA also agreed to conduct a 
joint enforcement action with the LA Regional Board for the Charnock 
wellfield contamination.
    In April, 1997, EPA and the LA Regional Board entered into a 
Memorandum of Understanding to define their relative roles and 
responsibilities with respect to the Arcadia and Charnock 
investigations. Beginning with this MOU, EPA and the Board (``the 
agencies'') have developed a flexible and effective partnership to 
jointly address the two sites.
    The agencies worked with the city and Southern California Water 
Company to develop uniform requirements for information submittal on 
historical fuels management practices and for the conduct of systematic 
field investigations. These requirements were issued to the potentially 
responsible parties (PRPs) on June 19, 1997. The agencies held a 
meeting in Santa Monica on June 26, 1997 to discuss the requirements 
with the PRPs where about 80 people attended.
    Site field work began at some sites in November. The agencies have 
completed initial reviews of workplans for all of the sites and second 
reviews are approximately 80 percent complete. The agencies are hopeful 
that all sites will have approved workplans and begin field work by the 
end of January 1998. All final investigation reports are expected by 
early April 1998. The agencies believe that this represents rapid 
progress in addressing a very complex hydrogeologic problem.
    After the PRPs' investigation reports have been reviewed by the 
agencies, we will notify those PRPs who have been determined to have 
contributed to the Charnock Sub-Basin MTBE contamination. These 
notified PRPs will be required, hopefully in a settlement, but if not, 
through court action, to design and implement remediation which will 
bring the Charnock Sub-Basin back into beneficial use as a drinking 
water supply. EPA and the LA Regional Board plan to continue working 
jointly, in consultation with the impacted parties, to ensure this 
result.
    Some interim remediation has begun at the Arcadia wellfield where a 
pump and treat system is operating in order to control further 
migration of contaminated groundwater from the site. Source control and 
removal is still in progress. To date, approximately 2,000 cubic yards 
of contaminated soil have been removed from the site.
Safe Drinking Water Act
    In addition to authorities under RCRA, EPA is using authorities 
under the newly reauthorized Safe Drinking Water Act (SDWA) to address 
MTBE. The Safe Drinking Water Act Amendments of 1996 require EPA to 
publish a list of contaminants that may require regulation, based on 
their known or anticipated occurrence in public water systems. The 
amendments also require EPA periodically to make a determination of 
whether or not to develop regulations for at least five contaminants 
from this list (the first deadline for this determination is 2001). 
After consultation with the scientific community, including EPA's 
Science Advisory Board, the Office of Water published a draft 
Contaminant Candidate List for public comment in the Federal Register 
on October 6, 1997 (62 FR 52194). MTBE is included on this list. If 
health effects and occurrence information indicates the need, EPA also 
has authority to issue interim regulations for any contaminant that 
presents an urgent threat to public health, prior to the statutory 
deadlines for the determination to regulate or not.
    SDWA, as amended, also creates a new source water assessment 
program. States are required to assess the susceptibilities of each 
community's drinking water to sources of contamination, including a 
review of all potential sources of contamination such as underground 
storage tanks. With the results of these assessments, communities can 
develop measures to protect their water supply from these sources of 
contamination. Because these results must be reported to consumers in 
each community, protection measures can be tailored to address 
significant local concerns. The source water assessment program builds 
on the Wellhead Protection Program, which was created in the 1986 SDWA 
amendments, and is designed to protect ground water sources of drinking 
water. Forty-seven States and territories have Wellhead Protection 
Programs.
    Occurrence, fate, and transport of MTBE are issues on which it is 
essential that we improve our current understanding. Several efforts 
are underway in this area. As you know, although the California 
Department of Health Services (DHS) advised public drinking water 
suppliers to monitor their sources of drinking water for MTBE in 
February 1996, it was not required by State regulation until February 
1997. As of August 1997, 428 of 4,418 drinking water suppliers had 
sampled for MTBE. Fifteen suppliers have reported MTBE detections and 
27 or 1.2 percent of the sampled sources detected MTBE. Most of the 
reported concentrations to date have been below the draft 1992 Health 
Advisory 20 to 200 micrograms per liter range.
    The EPA Office of Water has also entered into a cooperative 
agreement with the United States Geological Survey (USGS) to conduct an 
assessment of the occurrence and distribution of MTBE in the 12 mid-
Atlantic and Northeastern States. Like California, these States have 
used MTBE extensively in the RFG and Oxygenated Fuels programs. This 
study will supplement the data gathered in California and will indicate 
whether or not MTBE has entered drinking water distribution systems or 
affected drinking water sources, and what types of pollutant sources 
are associated with detections of MTBE. We are preparing to begin data 
collection in early 1998.
    The USGS also is continuing its National Water Quality Assessment 
(NWQA) program, which includes monitoring for VOCs, including MTBE, in 
storm water, shallow groundwater, and shallow and deeper ground water 
in selected areas of the country.
    Finally, EPA released a Drinking Water Advisory on MTBE that will 
assist States and local communities in making important water supply 
and management decisions if MTBE is detected in a drinking water 
supply. This advisory is the latest of about 260 advisories issued in 
the twenty-year history of the advisory program. An advisory is not 
legally enforceable and is issued as guidance to water utilities and 
State and local heath officials to provide them with information, when 
there is no standard, on chemical contaminants that can be present in 
drinking water.
    MTBE is one of the unusual contaminants which appears to cause 
unpleasant taste and odor responses at concentrations in water below 
levels at which there is a health effects concern. The Advisory 
recommends that MTBE be controlled to levels in water that will protect 
the consumer acceptability of the water resource. The recommended 
levels will also provide protection of public health.
    The Advisory provides an evaluation of current health hazard 
information and an evaluation of currently available data on taste and 
odor problems associated with MTBE contamination of water, as the 
latter affect consumer acceptance of the water resource. It does not 
recommend either a low-dose oral cancer risk number or a reference dose 
(estimated no effect dose for noncancer effects) due to certain 
limitations of available data for quantifying risk. Guidance is given 
on the concentrations at which taste and odor problems likely would be 
averted, and how far these are from MTBE concentrations at which toxic 
effects have been seen in test animals.
    The Advisory recommends that keeping levels of contamination in the 
range of 20 to 40 <greek-m>g/L or below to protect consumer acceptance 
of the water resource would be expected to provide a large margin of 
safety from any potential health effects. Taste and odor values are 
presented as a range since human responses vary depending upon the 
sensitivities of the particular individual and the site-specific water 
quality conditions. These values are provided as guidance recognizing 
that water suppliers determine the level of treatment required for 
aesthetics based upon the customers they serve and the particular site-
specific water quality conditions.
    There are over four to five orders of magnitude between the 20 to 
40 <greek-m>g/L range and concentrations associated with observed 
cancer and noncancer effects in animals. There is little likelihood 
that an MTBE concentration of 20 to 40 g/L in drinking water would 
cause adverse health effects in humans, recognizing that some people 
may detect the chemical below this range. Concentrations in the range 
of 20 to 40 <greek-m>g/L are about 20,000 to 100,000 (or more) times 
lower than the range of exposure levels in which cancer or noncancer 
effects were observed in rodent tests. It can be noted that at this 
range of concentrations, the margins of safety are about 10 to 100 
times greater than would be provided by an EPA reference dose (RfD)to 
protect from noncancer effects. Additionally, they are in the range of 
margins of safety typically provided by National Primary Drinking Water 
Standards under the Federal Safe Drinking Water Act to protect people 
from carcinogenic contaminants.
    The Advisory notes that occurrences of ground water contamination 
observed at or above this 20-40 <greek-m>g/L taste and odor threshold--
that is, contamination at levels which may create consumer 
acceptability problems for water suppliers--have to date resulted from 
leaks in petroleum storage tanks or pipelines, not from other sources.
    Key research is anticipated to be published in 1998 that will 
enable EPA to utilize existing data from animal studies conducted by 
inhalation exposure to estimate human drinking water risk. This will 
address a major uncertainty and data gap that currently prevents risk 
estimates to be presented in the Advisory. When such data become 
available, the Office of Water will publish another Advisory that 
includes quantitative estimates for health risks.
    In summary, EPA is deeply involved in a comprehensive range of 
activities to gather the best scientific understanding of MTBE we can, 
as quickly as possible, to enable us to help protect the nation's water 
supplies in an informed and responsible manner. We believe this 
approach is faithful to the direction of Congress in the SDWA 
Amendments of 1996, to base our regulation of drinking water on ``the 
best available, peer-reviewed science.'' This focused and coordinated 
effort should assure you that EPA takes seriously the appearance of 
MTBE in water supplies, and that we and our partners are undertaking 
many activities to address concerns.
                               __________
   Statement by John Zogorski, Chief, National Synthesis on Volatile 
  Organic Compounds, National Water-Quality Assessment Program, U.S. 
           Geological Survey, U.S. Department of the Interior
    Senator Boxer, I appreciate the opportunity to appear before the 
Senate Committee on Environment and Public Works to testify on the 
subject of methyl tertiary butyl ether--commonly referred to as MTBE--
and water quality. My name is John Zogorski. I'm a hydrologist with the 
U.S. Geological Survey (USGS). As you may know, the mission of the USGS 
is to assess the quantity and the quality of the earth resources and to 
provide information that will assist resource managers and policy 
makers at the Federal, State, and local levels in making sound 
decisions. Assessment of water-quality conditions and trends is an 
important part of this overall mission. I am working on the National 
Water-Quality Assessment Program--often referred to as NAWQA. More 
specifically, I am responsible for the aspect of the NAWQA Program that 
is focused on synthesizing information on the occurrence and 
distribution of volatile organic compounds (VOCs) in ground water and 
surface water. MTBE is one of about 60 VOCs that we are assessing. The 
building blocks for the NAWQA assessment are comprehensive water-
quality investigations of more than 50 large river basins and aquifers 
distributed across the United States (Figure 1). The San Joaquin-
Tulare, Sacramento, and Santa Anna River basins in California are 3 of 
the study units that NAWQA is assessing.
    In 1995, the NAWQA Program published a report discussing the 
occurrence of MTBE in shallow ground water in urban and agricultural 
areas from the first set of 20 study units. Chloroform and MTBE were 
the two most frequently detected VOCs in samples from about 200 shallow 
wells in 8 urban areas and about 500 shallow wells in 20 agricultural 
areas. MTBE was detected in about 25 percent of the urban wells and 
about 1 percent of the agricultural wells. Concentrations ranged from 
the detection level of 0.2 micrograms per liter to as high as 23,000 
micrograms per liter. MTBE was most frequently detected in shallow 
ground water in Denver, Colorado and urban areas in New England. In 
Denver, about 80 percent of the samples from shallow urban wells had 
detectable concentrations of MTBE and in New England, about 35 percent 
of the samples from urban wells had detectable concentrations. Only 3 
percent of the wells sampled in urban areas had concentrations of MTBE 
that exceeded 20 micrograms per liter, which is the estimated lower 
limit of the U.S. Environmental Protection Agency (USEPA) draft 
drinking water health advisory level (figure 2.).

[GRAPHIC] [TIFF OMITTED] T7218.003

[GRAPHIC] [TIFF OMITTED] T7218.004

    I believe my colleagues from the USEPA will more fully discuss what 
is known about the human and aquatic health effects of MTBE and other 
fuel oxygenates. The initial sampling did not include information from 
urban areas in California. An urban ground water study is a component 
of the Sacramento River basin investigation, however, and our data 
collection in Sacramento will be completed at the end of this fiscal 
year.
    Last year, at the request of the USEPA and the Office of Science 
and Technology Policy (OSTP), I co-chaired an interagency panel to 
summarize what is known and unknown about the water-quality 
implications associated with the production, distribution, storage, and 
use of fuel oxygenates and their movement in the hydrologic cycle 
(figure 3).

[GRAPHIC] [TIFF OMITTED] T7218.005

    The results of our efforts were published as a chapter in a report 
entitled ``Interagency Assessment of Oxygenated Fuels'' prepared by the 
National Science and Technology Council, Committee on Environment and 
Natural Resources. The chapter summarizes the scientific literature and 
data on the sources, concentrations, behavior, and the fate of fuel 
oxygenates in ground water and surface water. We also discussed the 
implications for drinking water quality and aquatic life and we 
identified areas where the data are too limited to make definitive 
statements about the costs, benefits, and risks of using oxygenated 
gasoline in place of conventional gasoline. Recommendations for further 
data-base compilation, monitoring, assessment, research and reporting 
were made that we believe would reduce uncertainties and allow a more 
thorough assessment of human exposure, health risks and benefits, and 
environmental effects.
    I'd like to briefly summarize for the committee the major findings, 
conclusions and recommendations of this interagency assessment that was 
completed in late 1996:
    MTBE is the most commonly used fuel oxygenate. United States 
production in 1995 was estimated to be about 9 million tons. 
Essentially all of the MTBE that is produced is used for fuel 
oxygenation. Ethanol is the second most used oxygenate in gasoline 
blending. Ethanol production in the United States in 1994 was estimated 
to be about 4.5 million tons or roughly half the production of MTBE. No 
data are available to estimate the portion of this production used in 
gasoline.
    Like other hydrocarbon components of gasoline, fuel oxygenates are 
introduced to the environment during all phases of the petroleum fuel 
cycle: production, distribution, storage, and use. Releases of gasoline 
containing oxygenates to the subsurface from, for example, underground 
storage tanks, pipelines, and refueling facilities provide point 
sources for entry of oxygenates as well as gasoline hydrocarbons into 
the hydrologic cycle. Urban and industrial runoff and wastewater 
discharges also represent potential sources of oxygenates to the 
environment. In a few instances, such as in Santa Monica, California, 
high concentrations of MTBE have caused the shutdown of a drinking-
water production wells and the source of contamination is believed to 
be leaking underground gasoline storage tanks.
    Exhaust emissions from vehicles and evaporation from gasoline 
stations and vehicles are sources of MTBE and other oxygenates to the 
atmosphere. Because of their ability to persist in the atmosphere for 
days to weeks and because they will, in part, ``mix'' into water, fuel 
oxygenates are expected to occur in precipitation in direct proportion 
to their concentration in air. Hence, fuel oxygenates in the atmosphere 
provide a non-point, low concentration source to the hydrologic cycle. 
MTBE is much less biodegradable than ethanol or the aromatic 
hydrocarbon constituents of gasoline and, therefore, it will persist 
longer in ground water. MTBE also adsorbs only weakly to soil and 
aquifer materials. Consequently, MTBE will move with the ground-water 
flow and migrate further from sources of contamination.
    MTBE was detected in 7 percent of 592 storm-water samples in 16 
cities surveyed by the USGS between 1991-1995. When detected, 
concentrations ranged from 0.2 to 8.7 micrograms per liter, with a 
median of 1.5 micrograms per liter. A seasonal pattern of detections 
was evident, as most of the detectable concentrations occurred during 
the winter season. MTBE was detected both in cities using MTBE-
oxygenated gasoline to abate carbon monoxide non-attainment and in 
cities using MTBE-oxygenated gasoline for octane enhancement.
    At least one detection of MTBE has occurred in ground water in 14 
of 33 States surveyed. MTBE was detected in 5 percent of about 1,500 
wells sampled, with most detections occurring at low micrograms per 
liter concentrations in shallow ground water in urban areas.
    Limited monitoring by Federal, State, and local agencies and 
organizations has shown that drinking water supplied from ground water 
is a potential route of human exposure to MTBE. As of 1997, MTBE has 
been detected in 51 public drinking water systems based on limited 
monitoring in 5 States including New Jersy, Iowa, Colorado, Illinois, 
and Texas. However, when detected, the concentrations of MTBE were, for 
the most part, below the lower limit of the current USEPA health 
advisory. This indicates that the consumption of drinking water was not 
a major route of exposure for these few systems. Because of the very 
limited data set for fuel oxygenates in drinking water, it is not 
possible to describe MTBE's occurrence in drinking water nor to 
characterize human exposure from consumption of contaminated drinking 
water for the nation. There is not sufficient data on fuel oxygenates 
to establish water quality criteria for the protection of aquatic life, 
however, the petroleum industry is sponsoring research to complete 
needed studies.
    The presence of MTBE and other alkyl ether oxygenates in ground 
water does not prevent the clean up of gasoline releases: however, the 
cost of remediation involving MTBE will be higher than for releases of 
conventional gasoline. Also, the use of natural bioremediation to clean 
up gasoline releases containing MTBE may be limited because of the 
difficulty with which MTBE is biodegraded.
    The OSTP chapter on fuel oxygenates and water quality includes 
three broad recommendations.
    First, more complete monitoring data and other information is 
needed to:
    A. Identify and characterize major sources of MTBE to the 
environment;
    B. Characterize the relation between use of MTBE (and other alkyl 
ether oxygenates) in gasoline and water quality; and
    C. Enable an exposure assessment for MTBE in drinking water.
    Completing the exposure assessment for MTBE in drinking water 
should be given high priority. Monitoring of MTBE in drinking water for 
this purpose should ini-

tially be targeted to high MTBE use areas, and to those environmental 
settings that are otherwise thought to be most susceptible to 
contamination.
    Second, additional studies are needed to expand current 
understanding of the environmental behavior and fate of MTBE and 
similar oxygenates. For example, these studies are needed to help 
determine the significance of the urban atmosphere and land surface as 
non-point sources of contamination to surface and ground water, and to 
identify environmental settings where MTBE will be of concern.
    Finally, studies of the aquatic toxicity of MTBE and similar 
oxygenates are needed for a broad range of aquatic animals and plants 
indigenous to surface waters to define the extent of any threat and to 
form the basis of Federal water-quality criteria, if warranted.
    Again, I appreciate the opportunity to testify at this hearing. I'd 
be happy to try to address any questions of the committee.
                               __________
 Statement of Peter M. Rooney, Secretary for Environmental Protection, 
               California Environmental Protection Agency
    Good morning, Senator Boxer. I am Peter Rooney, Secretary for the 
California Environmental Protection Agency. I would like to start by 
thanking you for the opportunity to address you today on the issue of 
MTBE, its use as a gasoline additive, and the potential impacts of MTBE 
on human health and the environment. As you know, these are issues Cal/
EPA, the California legislature, and other interested parties have been 
discussing at length during this last year, discussions I am sure will 
continue throughout this legislative session.
    I understand you wish to limit today's conversation to the impacts 
of MTBE on water, but it is impossible to talk about this issue without 
first discussing why it is being used as a gasoline additive.
The Introduction of Cleaner Burning Gasoline
    As I'm sure you know, Senator, California has one of the greatest 
air quality challenges in the nation. At some time during the year, 90 
percent of California residents breathe air that does not meet the 
current Federal health-based air quality standards. Five of the seven 
air basins with ilk greatest air quality difficulties in the nation can 
be found here.
    California has, however, through innovative and technology-based 
strategies, realized great improvements in its air quality. 1996 proved 
to be the cleanest ``ozone season'' on record for the South Coast Air 
Basin, the Los Angeles region, and for San Diego. (1997 is even better, 
but 1996 may be a more appropriate benchmark to use because of the 
influence meteorology had on this year's air quality.) Undoubtedly, one 
of the chief reasons for that improved air quality in 1996 was the 
introduction of California's Cleaner Burning Gasoline onto the market, 
in most cases, ahead of schedule. The improvement in air quality is all 
the more remarkable because it came at a time when the California 
economy was truly in a state of full recovery--when vehicle trips were 
increasing and, coincidentally, speed limits were being raised.
    The success of the California Cleaner Burning Gasoline program is 
unprecedented. Up to 300 tons per day in ozone-forming precursors are 
no longer being emitted by the California light-duty vehicle fleet. 
Public exposure to known, potent human carcinogens has been reduced by 
30-40 percent; ambient levels of benzene have been reduced by 50 
percent. That benefit is equivalent to 3.5 million vehicles no longer 
being driven on California roadways.
Why is MTBE a Part of the Cleaner Burning Gasoline?
    The most persistent concerns about Cleaner Burning Gasoline relate 
to die use of MTBE (methyl tertiary butyl ether)--a gasoline additive. 
Those concerns center around MTBE's potential impact to human health 
and the environment. MTBE is an oxygenate--a compound that increases 
the oxygen content of gasoline. Its primary purpose is to allow 
gasoline to burn more completely and to reduce Carbon Monoxide 
emissions. It is the oxygenate of choice in California--and I strongly 
emphasize the word choice.
    Despite the best efforts of the California Environmental Protection 
Agency to clearly articulate the facts surrounding State policy, State 
regulation, and the state of the science on MTBE, the issue has been 
confused and confusing. So, in the interest of informing the committee, 
a brief overview is in order.
What Are Oxygenates?
    First and foremost, oxygenates are a required additive in 
California's Cleaner Burning Gasoline year-round because it is required 
by Federal law--(the Federal Clean Air Act). Oxygenates are a class of 
compounds that are blended with gasoline to increase its oxygen 
content.
    Oxygenates are grouped into two different classes; ethers and 
alcohols. Recently, there have been three different ethers in use 
throughout the United States. Currently, the lost widely used is methyl 
tertiary butyl ether (MTBE), followed by tertiary amyl methyl ether 
(TAME) and occasionally some small amounts of ethyl tertiary butyl 
ether (ETBE). Ethanol is the only alcohol currently in use as an 
oxygenate, although to my knowledge, it is not being used in California 
at this time.
    Oxygenates are blended with reformulated gasoline to help dilute 
the volumes of benzene, sulfur, aromatics, olefins, and other 
undesirable compounds. During the winter months, areas throughout the 
United States that are in violation of carbon monoxide standards use 
oxygenates to help reduce tailpipe CO emissions.
MTBE Mandate
    No Federal law or regulation, and no State law or regulation 
mandates the use of MTBE. In fact, California's Cleaner Burning 
Gasoline regulations provide the refining industry with the ultimate 
flexibility. As long as the performance standard is met, as long as the 
emission reductions are realized, California regulation allows Cleaner 
Burning Gasoline to be made without any oxygenate at all, except in the 
wintertime months, as explained above.
    Federal law preempts that flexibility. That's why the California 
Air Resources Board, Cal/EPA and Governor Pete Wilson's Administration 
has been on record for the past 2 years in support of efforts by a 
fonder member of the California Air Resources Board, Representative 
Brian Bilbray (HR 630 of 1997 and HR 3518 of 1996), that would remove 
the year-round oxygen ate mandate from the Federal Clean Air Act, at 
least with respect to California. I aid also pleased to note that 
Senator Feinstein has recently announced that she will introduce a 
companion bill in the Senate this January.
    California's state-of-the-art predictive model, indicates that 
gasoline can be made without any oxygenate and that Cleaner Burning 
Gasoline made without an oxygenate will still yield equivalent emission 
reductions, and several companies have recently indicated they would do 
so if Federal law was changed to mimic California's for a flexible, 
performance based approach.
MTBE in the Water
    You have specifically expressed an interest in the impact of MTBE 
in the waters of California. The Department of Health Services' Public 
Drinking Water Branch is addressing issues associated with the presence 
of detectable levels of MTBE in drinking water supplies in California--
and has increased monitoring which was initiated in February of this 
year. Dr. David Spath from the Department of Health Services is here 
with me, and will address that issue more fully.
    In 1983, the California legislature designated the State Water 
Resources Control Board (State Water Board) as the lead agency for 
administration of State and Federal underground storage tank (UST) 
laws. The State Water Board administers the UST Program as well as the 
UST Cleanup Fund. The UST Program includes both leak prevention and 
cleanup when leaks occur. I will discuss each of these programs as well 
as current State Water Board activities related to MTBE.
UST Leak Prevention
    California State law, paralleling USEPA regulations, provided a 10-
year compliance period for all related USTs to be removed, upgraded or 
replaced in accordance with State and Federal standards by December 22, 
1998 (note: smaller USTs, defined as those holding less than 1,100 
gallons, are not regulated by either State or Federal law).
    In 1983, there were approximately 155,000 operating USTs at 60,000 
facilities. There are now approximately 65,000 operating USTs located 
at 25,000 facilities. Aid estimated )3 000 of dose USTs, or 43 percent, 
still need to be removed, upgraded or replaced. This compares favorably 
with USEPA estimates which range from 45 to 60 percent of USTs 
nationwide which are still out of compliance.
    While the State Water Board has adopted regulations pertaining to 
UST leak prevention, over 100 local California agencies actually 
implement flee program. These local agencies are responsible for 
issuing operating pen-its for all USTs in California.
    Both the State Water Board and local agencies have pursued 
aggressive efforts to ensure that the 1998 State and Federal upgrade 
deadline is met. Outreach efforts have included public workshops held 
throughout the State for UST owners, articles in industry newsletters, 
direct mailings to UST owners, newspaper advertisement, and site visits 
by local agency field inspectors.
    In addition, the State Water Board has met with each State Agency 
that operates USTs and has obtained a commitment from each of those 
agencies that the 1998 deadline will be met. We are hopeful tat all 
Federal agencies will match our commitment, but to date we have not 
received these assurances.
    To further ensure compliance with the 1998 UST upgrade deadline, 
the Administration proposed and Governor Wilson signed SB 1491, 
authored by Assemblyman Cunneen. This law will prohibit the delivery of 
fuel to USTs which do not comply with upgrade standards after January 
1, 1999. The State Water Board is in the process of preparing 
certificates of compliance which will be posted in a visible location 
at each UST facility. This bill, sponsored by the Wilson Administration 
and supported by industry, underscores our commitment to prevent future 
leaks from USTs.
    The cost to tank owners to comply with the 1998 deadline varies 
considerably depending on whether the UST is upgraded by installing 
what is defined as a bladder or an epoxy lining or replaced with a 
double wall tank and double wall piping. Thus, for a three tank 
facility, the costs may range from $50,000 to $200,000.
    In order to assist UST owners in financing the costs of upgrades, 
the California Trade and Commerce Agency offers low interest loans. To 
date, the UST Cleanup Fund has provided over $42 million for this loan 
program. We have also supported legislation to increase funding for the 
loan program. However, we recognize that the loan program will not 
cover the needs of the many UST owners who will need financing in the 
near tend. Many UST owners will have to obtain private sector financing 
for facility upgrades.
    Finally, to ensure that the 1998 State and Federal standards for 
USTs are effective in preventing future leaks, Governor Wilson has 
directed die State Water Board to convene an advisory panel of 
knowledgeable people, including representatives from industry, local 
governments and water supply agencies. The advisory panel will review 
existing databases of UST contamination sites to determine if there is 
a leak history associated with UST systems that already meet die 1998 
Federal and State standards. If there is such a history, the panel will 
identify appropriate measures that would assure the prevention and 
detection of releases from retail marketing facilities.
UST Cleanup Efforts
    The cleanup of leaking USTs involves a coordinated effort between 
the State Water Board, nine Regional Water Quality Control Boards, 20 
counties under contract with the State Water Board, and a number of 
other local agencies, all of whom conduct regulatory cleanup oversight. 
The total annual budget for regulatory cleanup oversight is 
approximately $20 million.
    As of October 1997 and since the UST program's inception in 1983, a 
total of 31,704 sites have been identified as having leaking USTs. 
Tanks have been removed and appropriate cleanup measures have been 
completed at 15,328 of those sites. The 48 percent closure rate 
compares with a USEPA reported national average of 49 percent.
    The State Water Board has adopted regulations related to required 
cleanup of leaking UST sites and has provided training and technical 
assistance to local regulatory staff. Regional Water Quality Control 
Boards and local agencies oversee approximately 5,000 and 11,000 site 
cleanups, respectively.
UST Cleanup Fund
    The UST Cleanup Fund (Fund) was established in February 1991 to 
achieve two goals. First, to provide affordable environmental 
impairment insurance to eligible UST owners and operators enabling deem 
to meet Federal and State financing responsibility requirements, and 
second, to provide financial assistance for eligible cleanup costs and 
damages awarded to third parties injured by petroleum releases. On June 
9, 1993, the USEPA approved California's Fund as a mechanism for 
meeting the Federal financial responsibility requirements for USTs 
containing petroleum.
    Existing law requires every owner of a regulated petroleum 
underground storage tank to pay a per-gallon storage fee to the Fund. 
The fee began on January 1, 1991 at six mills ($0.006) per gallon and 
has been gradually increased to 12 mills ($0.012). The fee collection 
is scheduled to end on January 1,2005. The Fund's program will then 
begin to wind down as funds are depleted. (As of October 1997, the Fund 
had received over $700 million.)
    To be eligible to file a claim with the Fund, the claimant must be 
a current or past owner or operator of the UST from which an 
unauthorized release of petroleum has occurred, and must be required by 
the appropriate regulatory agency to under-

take cleanup action. Other eligibility conditions include compliance 
with applicable State UST permitting requirements and regulatory agency 
cleanup orders.
    The maximum reimbursement per site is $1 million, less the 
deductible. The deductible varies from $0 to $20,000 depending upon the 
claimant's priority classification.
    Statute governing the Fund sets forth a claim priority system which 
is based on claimant characteristics. The highest priority, Class A, is 
given to residential tank owners; the second priority, Class B, is 
given to small California businesses, governmental agencies and 
nonprofit organizations with gross receipts below a specified maximum; 
the third priority, Class C, is given to California businesses, 
governmental agencies and nonprofit organizations having fewer than 500 
employees; and the fourth priority, Class D, is given to all other 
claimants.
    Under the statute, the Priority List must be updated at least once 
a year to include new claims. Since Fall 1993, the list has been 
updated monthly. Claims from previous updates retain their relative 
ranking within their priority class with new claims ranked in their 
appropriate class below those carried over from the previous list. New 
claims in a higher priority class must be processed before older claims 
in a lower priority class.
    As of November 30, 1997, the Fund had received 352 Priority ``A'' 
applications; 4,362 Priority ``B'' applications; 2,096 Priority ``C'' 
applications; and 5,977 Priority ``D'' applications, for a total of 
12,751 applications.
    When a claim is activated from the Priority List, the eligibility 
requirements are verified with the appropriate regulatory agency, and a 
Letter of Commitment (LOC) is issued. The LOC is the mechanism the 
program uses to award or encumber funds for reimbursements of cleanup 
costs. As of November 30, 1997, the Fund had issued 5,252 LOCs in the 
amount of $546 million. These include 221 ``A'' claimants; 2,851 ``B'' 
claimants; 1,819 ``C'' claimants; and 361 ``D'' claimants. The average 
costs of cleanup paid by the Fund has been $150,000.
    In addition to reimbursing claimants for corrective action costs, 
the Fund provides money to the Regional Water Quality Control Boards 
(RWQCBs) and local regulatory agencies to abate emergency situations or 
cleanup sites which are posing a significant threat to human health, 
safety, and the environment. The Petroleum Underground Storage Tank 
Emergency, Abandoned, Recalcitrant (EAR) Account was established within 
the Fund to take corrective action at petroleum UST sites that have had 
an unauthorized release and that require either (l) immediate action to 
protect human health, safety and the environment (emergency or prompt 
action sites); or (2) where a responsible party cannot be identified or 
located (abandoned sites); or (3) the responsible party is either 
unable or unwilling to take the required corrective action 
(recalcitrant sites). All costs incurred are subject to cost recovery 
from the responsible party. The State Water Board manages the EAR 
Account which is funded by aid annual Budget Act appropriation of $5 
million from the Fund.
    The Commingled Plume Account was created within the Fund by the 
legislature in 1996 to encourage responsible parties with commingled 
plumes to coordinate their cleanup efforts, avoid litigation, more 
rapidly address required cleanups, and significantly reduce the costs 
of cleanup. A Commingled Plume is defined as the condition that exists 
when groundwater contaminated with petroleum from two or more discrete 
unauthorized releases have mixed or encroached upon one another to the 
extent that the cleanup action performed on one plume will necessarily 
affect the other. Commingled plume sites represent a special problem to 
California's groundwater protection efforts because they often 
represent more serious water quality impacts, involve parties float 
disagree as to liability, and include cleanups which continue to be 
stalled or handled in a piecemeal, haphazard and expensive manner. 
Unless corrective action is performed in a coordinated manner, cleanup 
of commingled plumes could be ineffective.
MTBE related actions
    In the spring of 1995, the U.S. Geological Survey reported findings 
of MTBE in shallow groundwater in the Denver area. As a result, our 
State Water Board asked the oil industry to sample monitoring wells at 
industry-owned leaking UST sites for MTBE. The results from that 
sampling efforts showed that most of these sites had detectable levels 
of MTBE in shallow groundwater. These results were found at about the 
same time the finding of high levels of MTBE in public drinking water 
wells in the City of Santa Monica. In the spring of 1996, the State 
Water Board requested all regulatory agencies involved in leaking UST 
cleanup oversight to add MTBE to routine monitoring well analyses. In 
addition, the State Water Board, with funding from the U.S. Department 
of Energy and the Western States Petroleum Association, contracted with 
the Lawrence Livermore National Laboratory to conduct a study of the 
environmental fate of MTBE in groundwater. The results of the Lawrence 
Livermore study are expected in March 1998.
    Thus far we know that MTBE, like the other three ether compounds 
used as oxygenate additives to gasoline, is reasonably soluble in water 
and resistant to biodegradation. As a result, once in groundwater, MTBE 
is difficult to remediate other than pumping and treating the affected 
groundwater. Clearly, additional research is needed in the area of 
treatability. Additional partnerships between the State and Federal 
Government, as well scientific, petrochemical and water industries are 
needed to develop faster and more cost efficient methods for 
remediation contamination.
    During the 1997 session, the California legislature passed several 
bills related to MTBE, in addition to AB 1491 (discussed above), all of 
which were signed by Governor Wilson. The State Water Board has a 
number of responsibilities arising from these bills. SB 521 authored by 
Senator Mountjoy requires that all leaking UST sites be sampled for 
MTBE prior to the issuance of a regulatory closure letter following 
satisfactory cleanup. This requirement is consistent with the earlier 
State Water Board request of regulatory agencies to require analysis of 
MTBE. AB 592, authored by Assembly Member Kuehl, and SB 1189, authored 
by Senator Hayden, contain a number of MTBE related provisions 
including requiring Regional `Water Quality Control Boards to report 
new discoveries of MTBE to water supply agencies on a quarterly basis 
and setting aside $5 million per year from the Fund for an alternative 
water supply or treatment for MTBE affected drinking water wells when 
requested by a water supply agency. Finally, AB 521 and SB 1189 require 
the State Water Board to conduct a pilot study in the Santa Clara 
Valley and Santa Monica areas to develop a geographical intonation 
system database of existing and potential sources of MTBE and existing 
public water supply wells. It is anticipated that once developed and 
accessible electronically, water supply and regulatory agencies will be 
able to better assess the potential risks to drinking water wells and 
surrounding groundwater aid take appropriate or preventative actions. 
The GIS mapping pilot study will be completed in June 1999. To ensure 
that possible human and environmental health issues were addressed as 
comprehensively as possible, in addition to signing these measures, the 
Governor specifically:

    <bullet>  Directed the State Water Board to determine if there is a 
leak history associated with tanks that have been upgraded, and if so, 
to determine what steps should be taken to avoid additional releases;
    <bullet>  Directed the State Water Board to evaluate refueling 
facilities and practices at marinas, as discussed above;
    <bullet>  Directed the California Energy Commission to conduct an 
evaluation of MTBE and alternative oxygenates (discussed further 
below).
Potential Impacts of Banning MTBE
    The California Energy Commission (Commission) is currently in the 
process of conducting a detailed evaluation of alternative gasoline 
additive supplies that could be used in lieu of MTBE. This study will 
include potential costs or savings to the public of the various 
alternatives, the present and future availability of these alternatives 
and the minimum time frames within which these alternatives could be 
undertaken without resulting in significant disruptions of California's 
gasoline supply.
    Preliminary estimates indicate that the short-tend impact of 
banning MTBE on reformulated gasoline production capability for 
California refineries would be significant. While only 11 percent of 
reformulated gasoline by volume, MTBE helps achieve compliance by its 
mixing with less desirable compounds in finished gasoline. With an 
immediate ban on MTBE, additional gasoline components would have to be 
removed until the remaining finished gasoline is in compliance, 
resulting in a decrease of the production of gasoline in the range of 
15 to 40 percent by volume. It is not unreasonable to believe that the 
resulting price spikes and probable spot shortages would have a 
dramatic impact on California consumers and the State's economy.
    The Commission has developed a work plan that will quantify various 
scenarios of reduced uses of MTBE and replacement with other 
oxygenates; changes in Federal mandates; and increased reliance on 
gasoline or blending components produced at refineries outside 
California.
    The Commission's study will develop an alternative oxygenates 
implementation strategy for California based on each feasible 
oxygenate, its availability and cost in the intermediate and long 
trend. The Commission will examine complete substitution of MTBE by 
ETOH, TBA, ETBE; a case in which oxygenates may be combined (to 
increase available total supplies of oxygenates); cases which assume 
changes in Federal legislation; and a case which examines the impact on 
California if there is a national movement to ban MTBE. All totaled, 78 
different scenarios will be quantified.
    The Commission plans to report the supply and price implications 
for each scenario in two distinct time periods: intermediate-term, and 
long-term. The near-term period will not be included in the refinery 
modeling runs but will be examined to determine what limiting factors 
could interfere with a smooth transition to an alternate oxygenate.
    In addition, the time frame and cost to upgrade California's 
distribution terminals to make them compatible with the alternative 
oxygenate are being studied and the marine infrastructure will be 
examined to determine what constraints to moving additional refined 
products though the system may exist.
Conclusion
    Under California regulations, die choice is left to refiners; there 
is no regulatory impediment to produce Cleaner Burning Gasoline using 
any oxygenate of choice, or no oxygenate at all. It is the Federal 
Clean Air Act that explicitly requires that reformulated gasoline in 
specified areas contain at least 2 percent oxygenate by weight in 
gasoline year-round.
    The clear and consistent message we would like the committee to 
hear is California's support aid desire for California fuel regulations 
to be the controlling rules in California. California views efforts 
like HR 630 as a prelude to further flexibility, not further 
restrictions.
    Cal/EPA aid its sister agencies are moving aggressively to address 
public concerns about the impact of MTBE and its impact on human health 
and the environment. We have taken, and will continue to take, swift 
action to eliminate contamination from any source. Just this last year, 
we have taken steps to expedite the UST program; enacted a ban on 
placing fuel into tanks that fail to comply with the Federal 
regulations initiated actions to update databases to include more 
accurate information about leaking tanks and pipelines, particularly 
with regard to their proximity to drinking water sources. We will 
respond where contamination exists, as we did in the City of Santa 
Monica.
    Cal/EPA is working closely with the Department of Health Services 
to establish primary and secondary drinking water standards for MTBE, 
and will expedite review of all health-required actions.
    Your staff has specifically asked me to suggest what the Federal 
Government could do to assist in our efforts. The problem we are 
discussing here today is yet another example of what can happen when 
the Federal Government tells States not just what to do, but how to do 
it. Do not mandate technology. Set standards, hold us to them, but 
allow us to determine how best to meet them--in this case, through 
California's far stricter reformulated gasoline requirements that build 
in flexibility for producers.
                               __________
    Statement of David Spath, Chief, Division of Drinking Water and 
   Environmental Management, California Department of Health Service
    My name is David Spath. I am the Chief of the Division of Drinking 
Water and Environmental Management with the Department of Health 
Services. The Department is responsible for regulating public water 
systems in California.
    I appreciate the opportunity to come before you and discuss the 
Department's efforts in determining the extent of MTBE contamination of 
drinking water sources as well as our work toward establishing primary 
and secondary drinking water standards for the chemical.
    The first finding of MTBE in a drinking water source in California 
occurred in 1990. MTBE was detected in Lobos Creek, which was used by 
the Presidio of San Francisco as a drinking water source. The chemical 
was also found in two shallow test wells being developed by the 
Presidio. These wells were never completed. The source of the MTBE was 
concluded to be surface runoff from surrounding residential and 
commercial areas. As a result of these findings. the Department 
established a 35 parts per billion (ppb) drinking water Action Level 
for MTBE.
    In February 1996, after information in the scientific literature 
suggested that MTBE may be a potentially significant threat to 
contaminate groundwater, particularly from leaking underground storage 
tanks. the Department issued an alert to public water systems 
recommending that they undertake voluntary monitoring of MTBE in their 
sources. We also notified public water systems of our intent to adopt a 
regulation identifying MTBE as an unregulated chemical for which 
monitoring would be required.
    On February 13, 1997, the Department adopted an unregulated 
chemical monitoring regulation for MTBE. The regulation affects more 
than 4,400 water systems and approximately 11,000 drinking water 
sources that include both surface water and groundwater. To date, 479 
water systems have reported monitoring results to us. The number of 
sources sampled is 2,442. The results indicate that 17 systems have 
detected MTBE in a total of 27 sources. Of those 27 sources, 15 are 
groundwater sources and 12 are surface water sources. Two water systems 
have reported sources with levels above the State Action Level of 35 
ppb. They include the City of Santa Monica and California Water Service 
Company in Marysville. In each case the source of water was 
groundwater. All of the monitoring results that I have cited are 
available to the public through our Internet site (http://
www.dhs.cahwnet.gov/prevsrv/ddwem/index.htm) and are undated monthly.
    In addition to overseeing these monitoring activities, the 
Department is in the process of implementing recently adopted State 
labs (Senate Bill 1189 (Hayden) and Assembly Bill 592 (Kuehl)), which 
require the Department to adopt primary and secondary drinking water 
standards for MTBE. Adoption of the secondary standard is required by 
July 1998, while the primary standard is required to be adopted by July 
1999.
    Secondary standards are intended to present aesthetic degradation 
of drinking water. In the case of MTBE. the focus is on the potential 
taste and odor problems that the chemical can cause. Unlike Federal 
secondary standards which are only advisory, California law mandates 
that the Department enforce State secondary standards. Therefore, 
public water systems will be required to comply with the MTBE secondary 
standard.
    The secondary standard for MTBE will be based on data from 
experiments that have been performed by researchers, using panels of 
subjects who were exposed to varying concentrations of MTBE in water to 
determine the levels at which it could be smelled or tasted. Recent 
studies indicated that MTBE exhibits an odor that could be sensed by 
some panelists at concentrations ranging as low as 2.5 ppb to 21 ppb. 
These studies also indicated that panelists could taste MTBE at levels 
ranging from 2 ppb to 40 ppb. The Department has drafted a proposed 
regulation which would establish a secondary standard for MTBE at 5 
ppb. The draft regulation is undergoing administrative review. We 
expect to have the proposed regulation available for public comment in 
early 1998.
    With regard to the primary drinking water standard, as I previously 
indicated, the Department currently uses an Action Level for MTBE of 35 
ppb in drinking water to protect against adverse health effects. This 
level is based on non-carcinogenic effects of MTBE in laboratory 
animals, with a large uncertainty factor that provides an added margin 
of safety for drinking water. Although animal studies suggest that MTBE 
may be a weak carcinogen when inhaled, it is not clear if MTBE has 
similar effects when ingested. This issue is still being studied.
    However, even if MTBE is determined to be a weak carcinogen through 
all routes of exposure, the secondary standard of 5 ppb that the 
Department is proposing should be sufficient to provide an adequate 
margin of protection from any potential health concerns.
    Along with a strong drinking water regulatory program, the 
Department also recognizes the need to protect sources of drinking 
water. Pursuant to the 1996 Federal Safe Drinking Water Act Amendments 
and recently enacted State law (Senate Bill 1307 (Costa)), the 
Department, in coordination with Federal, State, and local agencies, is 
developing a Drinking Water Source Assessment and Protection Program 
that is designed to assess the vulnerability of drinking water sources 
to contamination from chemicals such as MTBE and to develop strategies 
to protect these sources from future contamination. Depending on the 
States ability to match Federal funding for this program, the 
Department expects to complete the program plan and submit it to the 
U.S. Environmental Protection Agency for review and approval by mid-
1998. Once the program is initiated we anticipate that, as envisioned 
by the Federal and State laws, local partnerships between water 
systems, local government, private industry and the public will be 
developed to implement voluntary drinking water source water protection 
measures that will support existing State and Federal source water 
protection activities.
    That concludes my presentation. Thank you again for the opportunity 
to present our testimony on this important issue.
                               __________
   Statement of Stephen K. Hall, Executive Director, Association of 
                    California Water Agencies (ACWA)
    Senator Boxer and members of the committee, thank you for providing 
me an opportunity to submit this statement on behalf of the Association 
of California Water Agencies (ACWA) regarding methyl tertiary butyl 
ether (MTBE) and its impact on California water suppliers.
    ACWA's 437 public water agency members collectively manage and 
deliver 90 percent of the urban and agricultural water used in the 
State. Over 30 million Californians rely on ACWA members to provide a 
safe and reliable supply of drinking water to their homes, schools and 
businesses. Every time they turn on the tap, they are trusting our 
members to provide an adequate supply of healthful water at a cost they 
can afford.
    Public water agencies have worked hard to earn and maintain that 
trust. In fact, our members believe that consumers should never have to 
think twice about the quality of their drinking water.
    The job our members do has never been easy, given California's 
unpredictable weather, its complicated distribution system, and its 
ever-growing and conflicting demands for water. But the emergence of 
MTBE is presenting a new and ominous challenge that water agencies fear 
will make their job even more difficult.
    Though the subjects of gasoline additives and air quality 
regulations may be unfamiliar terrain for water agencies, ACWA members 
have a compelling interest in decisions regarding the continued use of 
MTBE and other oxygenates in gasoline. The potential for widespread 
drinking water contamination and the tremendous treatment costs 
involved demand that water utilities weigh in to ensure that water 
supply impacts receive due attention and consideration in the MTBE 
debate.
    ACWA members believe failure to adequately study and consider 
MTBE's impact on water resources before it was approved for use is the 
direct cause of the problems we face today.
    This testimony will describe the scope of the problem from the 
perspective of water utilities, highlight our primary concerns, 
identify some preliminary estimates for cleanup costs, and recommend 
several actions we believe are needed to protect water supplies and 
drinking water consumers from the impacts of MTBE use.
Scope of the Problem
    Monitoring data compiled to date by the California Department of 
Health Services (DHS) indicates that MTBE is indeed finding its way 
into the State's water sources. Data collected through November 1997 
shows that 29 water sources sampled had detectable levels of MTBE. Five 
of the 29 were above California's current action level of 35 parts per 
billion; 12 were above 5 ppb, the level at which DHS believes consumers 
can smell or taste MTBE in water. It must be noted, however, that MTBE 
detections are under-represented in the DHS data, particularly with 
respect to surface water. The data reflects sampling results for only 
22 percent of the State's 11,000 water sources, and does not include 
testing done by water agencies over and above the State's monitoring 
requirement.
    MTBE typically enters groundwater as a result of leaking 
underground storage tanks or pipelines, or as a result of a spill. 
Because it is highly soluble in water and is not easily biodegraded, it 
enters groundwater basins faster than other components of gasoline and 
is much more difficult to remove once it is there.
    To understand what this means for water utilities and their 
customers, several points must be made about the importance of 
groundwater resources in California. In a typical year, groundwater 
accounts for about 40 percent of the State's total water use. In 
drought years, California relies on groundwater for up to 60 percent of 
its needs. Many communities, particularly in the Central Valley, 
coastal regions and deserts, depend on groundwater exclusively for 
their drinking water needs. Most of the groundwater supplied to 
Californians today is served just as it comes out of the ground and 
requires no treatment.
    In Santa Monica, MTBE contamination of groundwater at levels of up 
to 500 ppb caused the city to lose 80 percent of its local water 
supply. Santa Monica is now forced to buy alternative water supplies at 
a cost of over $3 million per year. Elsewhere, MTBE is constraining the 
operations of public water systems. South Lake Tahoe Public Utility 
District, which has detected MTBE in two groundwater wells, has been 
forced to shut down two unaffected wells to try to prevent further 
travel of the MTBE plume in its main aquifer.
    MTBE is also being detected in lakes and reservoirs where gasoline-
burning recreational vehicles such as jet skis and power boats are 
used. Preliminary data from a statewide survey of surface water sources 
coordinated by ACWA during last summer's boating season shows that some 
MTBE is being detected on the surface of res-

ervoirs and near boat landings and at water intakes. In many cases, 
MTBE levels are near or slightly above the 5 ppb level that DHS is 
expected to propose as a secondary (consumer acceptance) standard for 
MTBE early next year. A report on the survey is due to be completed in 
early 1998.
Water Utility Concerns
    Though some call MTBE the most studied component of gasoline, 
little definitive data is available on how ingestion of MTBE in 
drinking water affects human health. The U.S. Environmental Protection 
Agency (EPA) is expected to issue a revised lifetime health advisory 
level for MTBE in drinking water of 20 ppb to 40 ppb before the year's 
end. The California Office of Environmental Health Hazard Assessment 
(OEHHA) is also evaluating human health risks and is expected to make a 
recommendation in 1998. The health risk assessments of both EPA and 
OEHHA are important because they will drive the primary (health-based) 
drinking water standard that California is required to establish by 
July 1, 1999. Water utilities have been required to monitor for MTBE 
since February 1997.
    To date, water agencies have been frustrated by the apparent 
emphasis EPA and California's own Environmental Protection Agency (Cal/
EPA) have placed on the air quality benefits of MTBE. Their consistent 
focus on achieving clean air goals--even at the expense of drinking 
water quality--has contributed to what many water agencies see as a 
downplaying of water supply impacts and an unjustified tradeoff between 
air and water quality protection. While the two agencies have struggled 
with their own internal debates over MTBE, precious time has been lost 
that could have been better spent addressing health effects and 
treatment research needs.
    Regardless of what is eventually learned from health effects 
research, water utilities already know that MTBE fouls the taste and 
odor of drinking water at relatively low levels. Initial studies by 
ACWA member agencies and others show that consumers can detect it in 
drinking water at levels as low as 2.5 ppb. Many describe it as 
reminiscent of turpentine. With such a low taste and odor threshold, 
MTBE contamination will render drinking water unacceptable at levels 
much lower than California's current action level and the heath 
advisory limit EPA is expected to propose.
    Even as regulations are being developed and proposed, water 
utilities are fielding a growing number of calls from consumers who are 
concerned about MTBE contamination and the safety of their drinking 
water. Water agencies take these calls very seriously, and are 
extremely concerned that ongoing detection of MTBE in drinking water 
sources around the State will cause consumers to lose confidence in the 
safety of their local water supplies. The extremely low taste and odor 
threshold of MTBE only serves to heighten that concern. In many 
respects, once consumers believe that they can taste or smell MTBE in 
their drinking water, that water is effectively lost and no amount of 
treatment or health effects data can restore it.
    Though the vast majority of California's water supplies have not 
been compromised by MTBE to date, any erosion of public confidence is 
too high a price to pay for a problem the water supply community did 
not create. Nonetheless, ACWA members will continue to assure their 
customers that the water delivered to their taps is safe and will 
further engage in activities on a number of fronts to address MTBE.
    Water agencies are tremendously concerned about the cost of 
treating and cleaning up MTBE in drinking water. Most feel strongly 
that water utilities and their customers should not be forced to 
shoulder the high cost of removing this contaminant or purchasing 
alternative drinking water supplies. There is also concern that too 
little is known about the best treatment options for removing MTBE from 
drinking water.
    Even if treatment questions were to be resolved tomorrow, ACWA 
members believe there is not enough being done to protect water sources 
from the threat of MTBE contamination. Though treatment technology is 
needed now in Santa Monica and will soon be needed in other 
communities, in many respects it is too little too late. More must be 
done to prevent MTBE from reaching groundwater and surface water 
sources in the first place.
    If nothing else, the current MTBE problem has exposed tremendous 
gaps in our collective knowledge of leaking underground fuel storage 
tanks, oil pipeline spill detection, refueling practices at retail gas 
stations and marinas, and the impacts of motorized watercraft on 
reservoirs. State officials believe there are more than 31,000 leaking 
underground tanks in California, and one can only assume there are 
hundreds more that have yet to be identified. Though the State Water 
Resources Control Board is mounting a major effort to upgrade and 
replace old tanks with new, double-walled models, to date only 55 
percent of the tanks have been upgraded to the new standard. About 
30,000 tanks have yet to be upgraded or replaced. Legis-

lation signed this year will prohibit delivery of fuel to tanks that 
have not been upgraded by January 1999, but ACWA members remain 
concerned that tanks and refueling practices associated with them will 
continue to pose a threat to water sources--especially since releases 
of MTBE are being detected at tank sites that have already been 
upgraded.
    There are also concerns that high-pressure pipelines that carry 
fuel into and across the State present a significant risk not only to 
important water sources, but also to treated water distribution lines. 
In Placer County, for example, there have been two leaks involving 
pressurized oil pipelines in the past 18 months resulting in 
contamination by MTBE of water transmission lines carrying treated 
water to homes. More information is needed to assess this threat of 
contamination and develop notification and prevention strategies.
    It's clear that we will never fully address the MTBE problem until 
decisive action is taken to protect drinking water sources through such 
means as removing MTBE from gasoline, improving the way gasoline is 
handled and stored, and minimizing MTBE releases from motorized 
watercraft with two-cycle engines.
Water Community Response to the Problem
    Even though this is clearly a situation water agencies did not 
create, ACWA and its members are working proactively to address MTBE 
rather than pointing fingers. As we have previously done on water 
quality issues such as arsenic and radon, ACWA is taking a leadership 
role to get answers and find solutions. The following is a synopsis of 
our activities to date:
    Statewide Surface Water Occurrence Survey. As mentioned above, in 
May 1997 ACWA began coordinating a voluntary statewide effort to sample 
reservoirs for the presence of MTBE. As part of the survey, water 
utilities were asked to use a sampling protocol to test reservoirs for 
MTBE levels at various points during the summer recreation season. A 
report on the survey is expected to be completed in early 1998.
    Research into treatment technologies. ACWA is working with its 
member agencies to secure funding for research into treatment 
technologies to remove MTBE from drinking water. Several short- and 
long-term research needs have been identified, and water utilities are 
actively engaged in discussions with oil industry representatives to 
explore a number of options for funding and carrying out research 
projects.
    Legislation. ACWA was active in passage of MTBE-related State 
legislation in 1997, and is developing language for proposed 
legislation in 1998. ACWA is considering proposals to address liability 
for environmental cleanups and drinking water treatment, notification 
of public water systems when pipeline or underground storage tank leaks 
occur, and access to private well information needed to develop basin-
wide groundwater protection strategies.
Costs
    Most drinking water systems in California are not equipped to 
remove MTBE. The limited research that has been done to date indicates 
that MTBE is more difficult and more expensive to remove from drinking 
water than other components of gasoline. Developing, constructing and 
operating treatment processes to remove MTBE will be tremendously 
costly at a time when public water agencies already face mounting costs 
to keep healthful water flowing to their customers taps.
    Water treatment experts believe that air stripping and advanced 
oxidation processes currently offer the best options for removing MTBE 
from drinking water. For groundwater, the estimated cost of installing 
either of these processes is $1 million--$1.5 million per well. The 
price tag escalates dramatically if additional land must be purchased 
or other site-specific needs must be addressed. Operating and 
maintaining such a treatment system would cost up to $100,000 a year 
per well.
    Since potentially hundreds of wells could be affected by MTBE, the 
total treatment costs could easily reach hundreds of millions of 
dollars in capital outlay alone. If alternative water supplies must be 
purchased, the cost can reach $400 per acre-foot, the amount of water 
used each year by two average families.
    It should be noted that loss of groundwater supplies as a result of 
MTBE contamination could create additional demands on the San Francisco 
Bay-Delta estuary if agencies are forced to purchase alternative 
surface water supplies. Increased pressure on the already stressed Bay-
Delta could negatively affect the ongoing water supply and ecosystem 
rehabilitation effort there.
    Several water utilities already are incurring costs as a result of 
MTBE contamination. Santa Monica has spent about $5 million this year 
on sampling, investigation and replacement water supplies. Santa Clara 
Valley Water District has spent an estimated $500,000 this year in 
staff time and resources to monitor and test groundwater and surface 
water supplies, analyze the risk to its system and develop plans to 
respond. South Tahoe Public Utility District has spent $200,000 since 
April 1997 to investigate MTBE contamination in its groundwater basin.
    Beyond these costs and the expense of treatment, widespread MTBE 
contamination will result in some intangible costs such as loss of 
consumer confidence, which no water agency can afford, and societal 
costs such as reductions in property values.
Recommended Actions
    ACWA members believe several actions are needed to protect water 
sources and drinking water consumers from the impacts of MTBE use.
    1. Research funding. Significant dollars must be allocated for 
research into MTBE treatment technologies, occurrence, source 
protection and health effects. Millions of dollars are needed now and 
in subsequent years to accomplish both short- and long-term research 
efforts to bring treatment techniques on line and improve our 
understanding of how MTBE moves in the environment so we can better 
protect water sources. Research must also be planned, funded and 
carried out to fill the tremendous gaps in our knowledge of the health 
effects of MTBE in drinking water. The Federal Government bears a major 
responsibility for seeing that the research is funded and carried out.
    2. Source protection. Action is needed at both the Federal and 
State levels to minimize the risk of MTBE contamination of our water 
sources. The State must get better data about leaking underground 
storage tanks, examine regulations governing their use, improve leak 
detection and reporting methods, and accelerate cleanups. Initiatives 
are underway to address storage tank issues, but the State must ensure 
that adequate resources are provided to get the work done. The State 
must also equip regional water quality control boards with funding and 
resources needed to deal with MTBE contamination and cleanup.
    At the Federal level, leadership is needed in Congress to ensure 
that the source water assessment and wellhead protection programs 
authorized under the 1996 Safe Drinking Water Act Amendments are fully 
funded. The amendments allow States to use 15 percent of their State 
revolving fund (SRF) for projects that protect drinking water sources. 
In addition, 10 percent of the State's SRF funding for the first year 
can be spent on source assessment activities, including wellhead 
protection. Senator Boxer, California water agencies need a strong 
commitment from you to ensure that these programs receive the full 
appropriation.
    Also at the Federal level, California needs flexibility to meet 
clean air goals without the use of additives such as MTBE that pose a 
threat to drinking water. HR 630, the Bilbray bill, is the type of 
legislation that takes that approach. It should be considered along 
with other measures.
    Federal legislation is also needed to promote better regulation of 
interstate pipelines to prevent MTBE contamination of drinking water 
sources.
    State, Federal and local agencies should examine recreational 
practices on reservoirs and ensure that there are adequate controls on 
motorized watercraft and fueling operations that may contribute to 
surface water contamination by MTBE.
    And to address the ``human factor'' involved in refueling 
practices, industry and regulatory agencies must work to develop best 
management practices and ensure that they are followed at every stage 
in the handling, transport and storage of gasoline.
    3. Ensure that water supply impacts are considered before chemicals 
are approved for use. There are growing indications that oxygenates 
such as MTBE may not be needed in the long term to achieve the air 
quality goals sought by both State and Federal agencies. Recent actions 
by Chevron Corp. and Tosco Corp. recommending a phase-out of MTBE 
reinforce the need to fully consider impacts on water supply and the 
potential for other cross-media pollution before gasoline additives and 
other chemicals are approved for use.
Conclusion
    California simply cannot afford to lose any of its limited water 
resources to MTBE contamination. According to projections by the 
State's Department of Water Resources, California will be 4 million to 
6 million acre-feet short of water each year by 2020 without additional 
facilities and water management strategies. Given these growing 
demands, protection of our State's drinking water sources must be given 
full consideration in every forum in which MTBE and other oxygenates 
are evaluated.
    Even if MTBE were taken out of gasoline tomorrow, we will still 
have to deal with significant amounts of this contaminant in our 
environment. The potential for drinking water contamination and the 
tremendous treatment costs involved warrant serious consideration by 
this committee as it explores any further measures affecting MTBE use.
    We are certain, Senator Boxer, that with your deep and caring 
concern for the health of children and families, you will work 
diligently with us to protect California's water supplies and the 
health of Californians. ACWA and its members stand ready to assist this 
committee and other agencies and industry representatives as they seek 
to address MTBE and related issues.
                               __________
Statement of Nachman Brautbar, M.D., University of Southern California 
                           School of Medicine
    Honorable Senator Boxer, members, ladies and gentlemen, it is an 
honor to testify in front of the United States Senate Environment and 
Public Works Committee. My name is Dr. Brautbar, a medical doctor from 
Los Angeles, and a 23-year resident and citizen of California. I am 
testifying today as a physician and scientist. I have no political 
agenda and have not received any compensation, from either the opponent 
or proponent, to be here today.
    I practice medicine, treat and diagnose patients, and teach at the 
University of Southern California School of Medicine and hold the title 
of Professor of Clinical Medicine, and former Associate Professor of 
Pharmacology. I am a member of the National Society of Toxicology, 
American College of Toxicology, and have published over 160 scientific 
medical papers in medicine, toxicology and pharmacology. My resume is 
attached to your package as Exhibit ``A'' [Note: retained in committee 
files].
    In the last 5 years I have studied the health effect of MTBE in 
gasoline on patients, and personally examined over 350 patients with 
MTBE health related problems from drinking water contaminated with MTBE 
and gasoline. The patients I have seen and examined have been exposed 
to MTBE and gasoline in the drinking water, due to contamination from 
leaking gasoline tanks. Those 350 patients who did not know that they 
were exposed to MTBE in gasoline developed skin rashes, sinus 
congestion, severe headaches, loss of memory, shortness of breath, 
asthma, diarrhea and abnormal white blood cell life span. These 
symptoms which started in 1992 were verified by review of medical 
records, examination and laboratory testing. Before these patients were 
exposed to MTBE and gasoline in drinking water none of them experienced 
any of these symptoms and findings. Removing these patients from MTBE 
and gasoline contaminated water resulted in some improvement and in 
some, complete reversal of these pathological and disabling findings.
    In addition to the objective studies and physical examination 
documenting the validity of those complaints, I have conducted studies 
of the blood cells in these patients. These tests showed that the life 
span of the white blood cells of MTBE in gasoline exposed patients was 
reduced significantly, indicating serious harmful effects of MTBE in 
gasoline in linewith the position of leading physicians and scientists 
worldwide, that MTBE in gasoline is harmful to humans (Exhibit ``B''). 
My studies have been published in scientific peer-reviewed journals, 
preprints of these manuscripts are attached here as Exhibits ``C'' and 
``D''. [Note: exhibits are retained in committee files].
    MTBE causes cancers in many organs and tissues in significant 
numbers of experimental animals and these cancers are identical to 
those exposures by the same doses as has been described for other 
carcinogens such vinyl chloride and benzene which are known human 
carcinogens. My opinion is supported by the general agreement among 
experts in chemical carcinogens, that a substance which causes cancer 
in significant numbers of experimental animals in well documented 
assays, poses a presumptive carcinogenic risk to some humans even in 
the absence of confirmatory experimental data in humans. Even though 
there is no recognized method as yet for establishing the existence of 
a threshold for a carcinogen in human populations, these principles, 
which are accepted by scientific and medical experts throughout the 
world, have served for many years and are still serving as the basis 
for some public health and policy and regulatory action on carcinogens. 
Specifically, the International Agency for Research on Cancer (IARC) of 
the world health organization in its supplement 7 of the monograph, 
1987, page 22, indicates that the information compiled from the first 
41 volumes of IARC, shows that of the 44 agents for which there is 
sufficient or limited evidence of carcinogenicity to humans, all 37 
have been tested adequately in experimentally produced cancer in at 
least one animal species . . . -in the absence of adequate data on 
humans it is biologically plausible and prudent to regard agents for 
which there is sufficient evidence of carcinogenicity in experimental 
animals as if they presented a carcinogenic risk to humans. (Exhibit 
``E'' attached) [Note: retained in committee files].
    The permissible water levels for benzene and vinyl chloride, which 
are carcinogenic, has been reduced extensively to levels of 0.7 for 
benzene and 0.5 for vinyl chloride micrograms per liter in California, 
and 1 micrograms per liter for benzene and 2 micrograms per liter for 
vinyl chloride in North Carolina. In February 1996 the U.S. EPA 
conducted an inter agency assessment of potential health risks 
associated with oxygenated gasoline, which was concerned mainly with 
MTBE. Using the EPA's own data from that meeting, table 5, my colleague 
Dr. Mehlman has calculated the exposure level for MTBE. Based on the 
lymphoma and leukemia data from the EPA's table 5, the upper bound 
limit cancer risk is 4 x 103 milligrams per kilograms per day which 
means in simple language that this level of exposure to MTBE 4 
individuals per 1,000 may develop cancer. This is an extremely high 
risk and such an exposure is not justified. Specifically, the State of 
North Carolina classifies water suitable for drinking to mean ``the 
quality of water which does not contain substances in concentrations 
which either singularly or in combination is ingested into human body, 
may cause death, disease, behavioral abnormalities, congenital defects, 
genetic mutations will result in incremental lifetime cancer risk in 
excess of 1 per 1 million.'' Thus, based on North Carolina's definition 
and the maximum risk of cancer of 1 per 1 million, the reported oral 
potency in risk for leukemia and lymphoma of 4 per 1 million violates 
these provisions.
    The substantial weight of evidence clearly indicates that MTBE is 
carcinogenic. This is reported by several studies where MTBE was shown 
to cause cancer in 2 different species of experimental animals. The 
medical scientists are further clear that pregnant women, young 
children, people on medications, and sensitive individuals are at even 
greater risk for developing cancers. Thus the levels of exposure for 
these individuals may be extremely high.
    The permissible exposure levels of contaminants in drinking water 
for possible or probable human carcinogens are set extremely low, 
sometimes even as low as for a known human carcinogen. Accordingly, I 
am of the opinion that in order to reduce or prevent unnecessary risk 
of individuals developing cancers the drinking water standard should be 
no greater than that for benzene.
    For a susceptible individual, there may be 100 times greater risk 
for contracting and dying from cancer. The hundred times greater 
susceptibility factor is based on an analogy to MTBE in gasoline. Cross 
sensitivity of MTBE in gasoline is 100 times greater than MTBE alone 
and causes a tremendous variety of acute illnesses including 
neurological, allergic and respiratory in humans. This indicates strong 
synergistic interaction with other chemicals as in the case of, for 
instance, asbestos and smoking causing lung cancer. The smoking factor 
increases the risk of asbestos related cancer by a factor of multiplied 
60 to 80.
    This issue of synergistic effects, meaning exposure to MTBE alone 
may not be as carcinogenic and as toxic as exposure to MTBE and 
gasoline due to multiplying the risk factor by a factor of 100. The 
synergistic effect may occur out of joint or separate exposure to 
single compounds, as well as one of exposure to mixture of potentially 
carcinogenic compounds, that is exactly what is happening with MTBE and 
gasoline that penetrates the drinking water from corroded tanks such as 
in the case of Wilmington, North Carolina, such as in the case of Santa 
Monica, California, and such as in the case of Glenwood, California. It 
is the issue of the synergistic effect of MTBE and gasoline 
contaminating the drinking water and consumed by unknowing citizens, 
children, pregnant women, elderly and patients with chronic diseases on 
a daily basis. This synergistic effect is described nicely and 
summarized on Exhibit ``F''. [Note: retained in committee files].
    My office receives many phone calls daily from patients who are 
sick and have been exposed to MTBE and are seeking medical help. This 
problem is not unique to the citizens of California. Patients in 
Alaska, Maine, New Jersey, North Carolina, Pennsylvania, Michigan and 
others have been presenting with these same problems as a result of 
exposure to MTBE in gasoline. Indeed, the State of Alaska has banned 
the used of MTBE in gasoline as a result (Exhibit ``G''). [Note: 
retained in committee files].
    History is a good predictor and teacher of the future. Throughout 
my 30 years as a physician, I have seen patients who suffered lung 
disease and lung cancer from cigarette smoking, but was told by the 
cigarette companies that cigarette smoking is safe, the rest today is 
indeed history.
    Indeed our great State of California under the leadership of the 
Honorable Senator Mountjoy is, in my opinion, following in the 
footsteps of Alaska. Most recently Chevron, the States largest refiner, 
announced that the company is asking the State air resource board to 
allow it to make gasoline without MTBE, saying in a statement that MTBE 
and similar chemicals do little to reduce smog and is a threat to water 
supplies. Seven wells in Santa Monica have been shut because of MTBE 
contamination and water experts fear that MTBE will cloud all wells in 
years to come. Chevron's K.C. Bishop was quoted to say that when 
customers are concerned Chevron is concerned. I believe that the 
writing is on the wall, scientific data and medical studies are clear, 
concise, and the public, as well as manufacturers such as Chevron are 
realizing that exposing the public to MTBE in gasoline is a dangerous 
and is uncalled for.
                               __________
   Statement of Nancy J. Balter, principal, International Center for 
                        Toxicology and Medicine
    I appreciate the opportunity to submit testimony to the Environment 
and Public Works Committee of the United States Senate. My curriculum 
vitae is attached. Briefly, I am a pharmacologist/toxicologist who has 
spent most of my career on the full time faculty at Georgetown 
University School of Medicine where I did research and taught courses 
in pharmacology and toxicology to medical students and undergraduates. 
In 1995, I retired from academics to move to Colorado. I am currently a 
Principal with the International Center for Toxicology and Medicine, 
where I work as a consultant on a variety of environmental and 
occupational health issues. As a consultant to the Oxygenated Fuels 
Association since 1993, I am very familiar with the health-related 
studies of oxygenated gasoline in general and MTBE specifically. I have 
served as a consultant and peer reviewer for the U.S. EPA, CDC and the 
National Academy of Science on this issue, and have written a paper on 
the acute health effects associated with exposure to oxygenated 
gasoline, which will be published in the December issue of the journal, 
Risk Analysis. A copy of this paper is also attached to this statement.
    My testimony deals with the health implications of the continued 
use of MTBE in reformulated and oxygenated gasoline. In addressing this 
issue, the potential for toxicity of MTBE cannot be considered in 
isolation, but must be weighed against the benefits associated with its 
use in gasoline. Gasoline, itself, is known to contribute significantly 
to human exposures to numerous toxins, including carbon monoxide, 
ozone, and known human carcinogens such as benzene and 1,3-butadiene. 
The rationale behind the reformulation and addition of oxygenates to 
gasoline is to reduce these exposures. Thus, the focus in the 
consideration of health effects should be how the risks from MTBE 
exposure from oxygenated gasoline compare to the benefits associated 
with the decreased exposure to toxic gasoline-related emissions that 
occurs as a result of addition of MTBE to the gasoline.
    The major route of human exposure to MTBE is through inhalation of 
air containing MTBE that has evaporated from gasoline or been released 
in the exhaust from vehicles. In addition, there can be human exposure 
associated with MTBE in water. The most significant source of MTBE in 
water is gasoline leaks and spills, including leakage of underground 
storage tanks. Gasoline contamination of water is a problem whether or 
not the gasoline contains MTBE. The question is, how does the movement 
of MTBE from gasoline to water affect the benefit risk equation for 
oxygenated gasoline vs. conventional gasoline?
    We know a great deal about the toxicity of MTBE and the exposure 
concentrations necessary to cause toxicity. There has been extensive 
animal testing for acute and chronic toxicity, including 
carcinogenicity, as well as both experimental and epidemiological 
studies in humans. The animal studies involve exposures that are many 
orders of magnitude above the concentrations to which humans would be 
exposed. The results of these studies and their extrapolation in the 
prediction of human risk are considered separately for carcinogenic and 
non-carcinogenic endpoints since the approaches for extrapolating from 
animals to humans are different.
    With respect to non-cancer endpoints, the thresholds for toxicity 
in animals are sufficiently high that toxicity in humans exposed to 
MTBE in air as a result of its use in oxygenated gasoline are not 
expected to occur. The epidemiological studies comparing health effects 
in areas using conventional vs. oxygenated gasoline, and experimental 
studies involving controlled exposure to MTBE at environmentally 
relevant concentrations support this conclusion. These data and 
conclusions are discussed much more fully in the attached paper.
    Although the concentration of MTBE in water contaminated as a 
result of a gasoline leak or spill can be high, humans are not likely 
to be exposed at these levels because the presence of MTBE in water at 
very low concentrations impacts the taste and smell characteristics of 
the water such that exposure will be self-limiting. In situations where 
the MTBE concentration in water is high, there might be short-term 
exposures that result in irritant effects. However, longer exposures at 
these levels will not occur. Although there are no animal studies 
involving long-term drinking water exposure, the threshold for chronic, 
non-cancer toxicity can be extrapolated from a subchronic study 
involving oral gavage exposure (i.e., the chemical was delivered 
directly into the stomach by tube) or from the lifetime inhalation 
exposure studies. Using either approach for extrapolation, it is clear 
that the water safety level that would protect against chronic, non-
cancer toxicity is well above the threshold for odor and taste changes. 
In other words, from a practical point of view, humans will not be 
chronically exposed to MTBE in water at concentrations associated with 
toxicity.
    MTBE causes several types of tumors in animals exposed to high 
concentrations of the chemical. While it is generally assumed that a 
chemical that causes cancer in experimental animals poses some cancer 
risk to humans, the scientific and regulatory communities are 
recognizing that there are exceptions to this conservative assumption 
depending on the mechanism of action of the chemical. For example, when 
the mechanism of cancer induction is one that only occurs at high 
exposures where cell death and tissue damage occur, such an effect 
would not be expected to occur in humans since the exposure would be to 
far lower doses than in the experimental animals. Other mechanisms of 
cancer induction related to the effects of chemicals on hormonal 
balance or an animal-specific cellular component are similarly not 
necessarily relevant for predicting human risk. On the other hand, a 
chemical whose mechanism of action involves damage to DNA is likely to 
have a similar effect in humans. MTBE does not damage DNA, and there is 
some evidence that its carcinogenic effect in animals may involve 
mechanisms not relevant to predicting human risk; additional study is 
taking place to clarify this issue. For the purposes of this 
discussion, however, it will be assumed that the animal cancer response 
is a relevant predictor of human risk.
    The cancer risk calculations contained in the September 2, 1996, 
California Environmental Protection Agency briefing paper on MTBE are 
as follows: the calculated increase in risk associated with breathing 
MTBE as a result of its use in gasoline is one to two lifetime cancer 
cases per million people exposed; balanced against this is a calculated 
decreased risk of about 60 per million that occurs because the use of 
reformulated gasoline reduces the opportunity for gasoline-associated 
exposure to known human carcinogens such as benzene and 1,3-butadiene. 
Adding the potential risk associated with exposure to MTBE through 
water at the upper limit of the threshold for taste and odor 
recognition, the net benefit of MTBE on human cancer risk remains above 
50 per million.
    In summary, there is accumulating evidence that the projected 
health benefits of oxygenated and reformulated gasoline are, in fact, 
being realized. It is against this benefit that the risks of gasoline-
related MTBE exposures need to be weighed. We know that there will be 
human exposure to MTBE as a result of its use in gasoline these 
exposures are primarily a result of breathing air containing 
evaporative and exhaust products of gasoline, but may also occur from 
gasoline-contaminated water supplies. However, the exposures from these 
sources are below the threshold for human toxicity. Whether or not MTBE 
exposure increases human cancer risk remains an area of scientific 
debate. But even if we make the assumption that MTBE is a potential 
human carcinogen, the predicted cancer risk associated with MTBE-
containing reformulated gasoline is less than that associated with 
conventional gasoline. This is because compared to conventional 
gasoline, the use of reformulated gasoline results in decreased 
exposures to known human carcinogens such as benzene.
    A recently published study has reported effects on the life cycle 
of white blood cells in a group of individuals exposed to water 
contaminated as a result of an underground storage tank leak. The water 
reportedly contained low levels of MTBE and benzene. There are some 
significant questions about the methods that were employed in the 
interpretation of this study, and the findings are seemingly 
implausible given the fact that the studies were done almost a year 
after the cessation of the exposure. In any case, however, the reported 
exposure was to both benzene and MTBE, making it impossible to conclude 
that MTBE was the causative agent. Given the fact that benzene is a 
known human carcinogen and its primary target in humans is the blood 
system, benzene is a much more likely candidate for causing the 
reported effects than is MTBE.
    The scientific and regulatory communities will continue to study 
MTBE, and some questions do remain. These have been identified in 
several reviews that have been completed in the last year. While the 
toxicity of MTBE itself has been well studied, studies that directly 
compare the effects of gasoline, with and without MTBE, are planned but 
not yet completed. A question has also been raised as to whether there 
are some individuals who are uniquely sensitive to MTBE. Whenever a new 
chemical or drug is introduced, this possibility always exists. While 
nothing in MTBE's toxicological profile predicts that there will be 
such a sensitivity, at least one study is underway to investigate this 
possibility.
    Another question that has been raised is whether it is necessary to 
do toxicological studies in animals exposed to MTBE in drinking water. 
With the use of a technique known as physiologically-based 
pharmacokinetic (PBPK) modeling, it is possible to identify the 
drinking water dose equivalents of the exposure regimens used in the 
inhalation studies. This extrapolation is based on the principle that 
it is the dose of a chemical delivered to the target tissue that 
determines the effect, independent of whether the dose was delivered by 
inhalation or by drinking water. The PBPK model is a computer 
simulation of the body, including the various organs (target tissues), 
each with its characteristic blood flow and pathways for handling the 
chemical; routes of elimination of the chemical are also included. Both 
inhalation and drinking water dosing can be simulated, and the target 
tissue concentrations of MTBE and its metabolites determined as a 
function of time. By doing this, the inhalation dose response data can 
be translated to target-tissue dose response data. The simulated 
drinking water exposure that results in similar target tissue doses can 
then be determined as a basis for the extrapolation. A PBPK model for 
MTBE and its major metabolite, TBA, has been published and is currently 
being validated for route-to-route extrapolation.
    Use of PBPK modeling as the basis for route-to-route extrapolation 
has been used for a number of other chemicals and can be done with a 
high degree of confidence. In the case of MTBE, it may well be the only 
way to determine dose-response data for drinking water exposures since 
the odor and taste properties of MTBE are likely to prevent animal 
exposures at levels high enough to provide an adequate test of 
toxicological response. Some studies have been reported involving oral 
exposure using a gavage method, where a bolus of MTBE is introduced 
directly into the stomach. However, such studies are a poor simulation 
of a drinking water exposure because the dose is introduced all at one 
time rather than in increments over the course of the day. In this 
respect, inhalation exposure provides a better simulation of the 
exposure that occurs.
    Continued examination and confirmation of the benefits and risks 
associated with the use of MTBE in reformulated gasoline is 
appropriate. However, there are adequate data at this point to support 
the safety and benefits of continued use of MTBE-containing 
reformulated gasoline as these studies are being done.
                                 ______
                                 
    Causality Assessment of the Acute Health Complaints Reported in 
                   Association with Oxygenated Fuels
  (By Nancy J. Balter, Ph.D., International Center for Toxicology and 
            Medicine, Georgetown University, Washington, DC)
Abstract
    In some areas where oxygenated fuel programs have been implemented, 
there have been widespread complaints of non-specific health effects 
attributed to the gasoline. There are a number of hypotheses that can 
account for this apparent association. This paper examines the 
hypothesis that the use of oxy-fuel (either oxygenated gasoline or 
reformulated gasoline) results in exposure of the general population to 
one or more chemicals at concentrations that cause toxicologic injury. 
Although several oxygenates can be used in oxy-fuels, this analysis 
focuses on MTBE because it is the most widely used oxygenate and 
because the data base of relevant toxicologic data is greatest for this 
oxygenate.
    The causal assessment is based on an evaluation of the qualitative 
and quantitative plausibility that oxygenated fuel-related exposures 
have toxicological effects, and the epidemiologic studies that directly 
test the hypothesis that the use of oxygenated fuels causes adverse 
health effects. The plausibility that chemical exposures related to 
oxy-fuel use cause toxicological effects is very low. This 
determination is based on consideration of the exposure-response and 
time-action profiles for relevant toxicological effects of MTBE in 
animals, experimental MTBE exposure studies in humans, and the 
possibility that the addition of MTBE to gasoline results in 
toxicologically significant qualitative and/or quantitative changes in 
gasoline-related exposures. Similarly, the epidemiologic studies of 
oxy-fuel exposed cohorts do not support a causal relationship between 
oxy-fuel use and adverse health effects. Although the data are 
insufficient to rule the possibility of unique sensitivity in a small 
segment of the population, the strength of the evidence and the 
availability of other more plausible explanations for the health 
complaints reported in association with oxy-fuels support a high degree 
of confidence in the conclusion that MTBE-containing oxygenated fuels 
are not the cause of acute toxicity in the general population.
Introduction
    The use of chemicals (``oxygenates'') to increase the oxygen 
content of gasoline has increased dramatically since 1988, as a result 
of voluntary and government-mandated programs to reduce emissions of 
gasoline-associated air pollutants. The Clean Air Act Amendments of 
1990 mandated the use of specific types of oxygenate-containing 
gasolines in non-attainment areas for carbon monoxide and ozone. In 
carbon monoxide non-attainment areas, the oxygenate was required to be 
added to conventional gasoline during the winter months such that the 
final gasoline product (``oxygenated gasoline'') contained 2.7 percent 
oxygen by weight. In ozone non-attainment areas, year-round use of a 
reformulated gasoline product containing a minimum of 2.0 percent 
oxygen by weight was required. Other than the oxygenate, this gasoline 
(``preformulated gasoline'' or ``RFG'') generally contains the same 
components as conventional gasoline, although in different proportions 
in order to meet the emission requirements of the Clean Air Act 
Amendments.
    In a minority of areas where oxygenated gasoline or RFG 
(collectively referred to as ``oxy-fuel'') has been introduced there 
have been reports of widespread acute health complaints characterized 
by non-specific symptoms such as headache, cough, eye irritation, 
nausea, burning of the nose and throat, dizziness and disorientation. 
Several hypotheses can be put forward to explain this apparent 
association: (1) that the addition of the oxygenate to gasoline results 
in exposure to one or a combination of chemicals at concentrations 
above the threshold for causing toxicity; (2) that extensive media 
reports concerning the public resistance to government-mandated oxy-
fuel and claims of adverse health effects caused members of the general 
public to attribute non-specific symptoms from a variety of causes to 
the use of oxy-fuels; (3) that the odor of the oxy-fuel, which is 
distinctive and can be perceived at lower concentrations compared to 
conventional gasoline,\1\ triggers a psychogenic response resulting in 
acute symptoms; (4) that odor and media coverage are both component 
causal factors in the triggering of symptoms and their attribution to 
oxy-fuels. The role of odors and psychological factors in the response 
to oxy-fuels is discussed in an accompanying paper.\2\
    This paper focusses on the first hypothesis, that oxy-fuel 
emissions result in exposure of the general population to one or more 
chemicals at concentrations that cause toxicologic injury. Although the 
oxygenates themselves are the most obvious candidates for examination, 
it is also possible that the addition of the oxygenate to gasoline 
results in qualitative and/or quantitative changes in exposure to other 
components of gasoline that contribute to a toxicologic response. Such 
exposures could result from evaporative emissions from gasoline, 
exhaust emissions of combusted or uncombusted gasoline, or atmospheric 
transformation products of chemicals from any of these sources. The 
causal evaluation considers, first, plausibility, and then the findings 
of epidemiologic studies of oxy-fuel exposed cohorts. Evidence relating 
to plausibility includes data from experimental studies involving 
animal or human exposure to chemicals in oxy-fuel emissions. 
Plausibility depends not only on whether qualitatively similar effects 
to those reported in exposed populations are seen in experimental 
studies, but also on a quantitative evaluation of whether humans could 
plausibly be exposed to concentrations of the chemical(s) sufficient to 
cause a given toxicologic effect. Since this evaluation was stimulated 
by the reports of widespread health complaints, the quantitative aspect 
of the evaluation focuses on whether exposure is above the threshold 
for an effect in the average member of the general public. In 
situations where there is an absence of relevant data to assess 
plausibility, the evaluation is based on theoretical considerations.
Plausibility
    The evaluation of plausibility focuses on MTBE (methyl-tertiary-
butyl ether), the most commonly used oxygenate in oxy-fuels and the 
most commonly implicated causative agent in anecdotal reports of 
adverse effects.\3\ Since the evaluation of plausibility involves 
qualitative and quantitative considerations, the exposure-response 
characteristics of experimental exposure to MTBE are compared to MTBE 
exposures in real-life situations. Activity and microenvironmental MTBE 
exposures in the general population have been estimated by USEPA.\4\ 
Most relevant to the evaluation of acute health effects in the general 
population are the activity-related exposures associated with 
automobile refueling and commuting. Self-service automobile refueling 
is associated with the highest acute MTBE exposure concentrations; a 
reasonable worst-case estimate of exposure is 2-10 ppm for several 
minutes. Exposure to MTBE in gasoline stations, not associated with 
self-service refueling, or during commuting involves exposures that are 
an order of magnitude or more lower in concentration, but somewhat 
longer in duration. The presence of MTBE in ambient air, public 
buildings and residences can result in longer duration exposures, but 
at concentrations that are quite low, in the range of 0.001-0.01 ppm.
    Exposure of animals. Most relevant to a consideration of 
plausibility are animal experiments in which the exposure is to a 
mixture of gasoline and MTBE, where the findings are compared to 
animals exposed to the same gasoline to which MTBE had not been added. 
Although such studies are planned, none have been reported to date. A 
number of studies involving animals exposed to atmospheres containing 
MTBE daily for up to 24 months have been reported; the findings of 
these studies are considered here only as they relate to the target 
organ systems defined by the anecdotal reports of acute health effects. 
Most of the studies involved at least subchronic exposure for 6 fur/d 
for a minimum of 4 weeks. For each study, the record of daily clinical 
observation of study animals was reviewed to identify signs of acute 
health effects. These clinical observations were generally made after, 
not during, the daily exposure period.
    Signs of central nervous system depression, including ataxia, 
hypoactivity, lack of a startle reflex, and twitching of the eyelids, 
were generally seen in rats and mice exposed to 3,000 or 8,000 ppm 
MTBE. These effects were transient and reversible; no cumulative 
effects were observed \5\ The time to onset of the CNS effects of MTBE 
was dependent on the exposure concentrations.\6\ \7\
    No clinical signs of gastrointestinal effects were observed in the 
animal studies, nor was there histopathological evidence of effects on 
this organ system following inhalation exposure. Chronic inflammation 
of the nasal turbinates and pharynx was reported in rats exposed to 
1000 or 3000 ppm MTBE, 6 hr/d, for 9 days.\8\ However, similar findings 
were not reported in other studies, including chronic bioassays in rats 
and mice involving exposures up to 8,000 ppm MTBE.\9\ \10\ MTBE 
exposure causes concentration-dependent eye irritation, especially in 
rats. In a 6 hr. single exposure study,\11\ rats in the high exposure 
groups, 4,000 and 8,000 ppm, had lacrimation 1 hour, but not 6 or 24 hr 
after termination of the exposure. Ocular effects, including swollen 
and/or encrusted periocular tissue and lacrimation, were reported in 
all rat studies and in some mouse studies. Signs of ocular irritation 
in rats were routinely recorded at and above 3,000 ppm, but not at 400 
or 800 ppm. The time course of the appearance of ocular irritation was 
concentration-dependent, appearing after 2-3 weeks of daily exposure in 
rats exposed to 8,000 ppm MTBE, and not until at least 9 weeks (and 
often much longer) in animals exposed to 3,000 ppm.\9\ Ophthalmologic 
examination of rats exposed to 8,000 ppm daily for 13 weeks found no 
treatment-related abnormalities.\5\
    Based on these studies, the LOAEL for MTBE in rodents is 3,000 ppm 
and the threshold for adverse effects is between 800 and 3,000 ppm, 
both for repeated exposures of 6 hr/d. This is more than three orders 
of magnitude above the chronic exposures expected in the general 
population associated with commuting or the presence of MTBE in ambient 
air. Acute exposures associated with refueling, are not expected to 
exceed 10 ppm for a period of 10 min. representing a cumulative 
exposure of 100 ppm min. This compares to 144,000 ppm min at the most 
conservative NOAEL (400 ppm with exposure for 360 min) for irritation 
reported in the animal studies. Applying a safety factor of 1,000, 
short-term peak exposures to MTBE associated with refueling would be 
well below this extrapolated threshold for irritative effects in 
humans. Although for some eye irritants sensitization can occur with 
chronic exposure, the large margin of safety accommodates this 
possibility.
    Another approach to determining the threshold for irritative 
effects is based on a mouse bioassay in which sensory irritation is 
expressed as the exposure concentration (ROD) that produces a 50 
percent decrease in respiratory rate.\12\ Based on the empirical 
observation of a good correlation between the RD60 and the occupational 
TLVs for a number of structurally diverse chemicals, it has been 
suggested that occupational exposure limits of 3 percent of the RD50 
will be generally non-irritating and, therefore, appropriate as a 
TLV.\13\ \14\ The ROD for sensory irritation for MTBE is 4600 ppm,\15\ 
which would extrapolate to a suggested TLV of 140 ppm.
    Experimental human exposure to MTBE. Experimental studies of the 
effects of MTBE exposure on healthy humans have involved 1 hour double 
blind exposures to 1.4 ppm \16\ or 1.7 ppm,\17\ MTBE; a third study 
\18\ involved 2 hour exposures to 2, 25 and 50 ppm MTBE, but did not 
include a clean air comparison exposure. The studies used both 
subjective and objective measures to assess the effects of MTBE on CNS 
function and eye and nasal irritation. The studies were consistent in 
demonstrating that exposure to MTBE under controlled conditions, at 
concentrations relevant to human exposures, had no significant effects 
on the central nervous system or eye and nasal irritation. Although 
limited in that the studies examined only healthy subjects, they do not 
support the plausibility that exposure to MTBE, at levels associated 
with its use in gasoline, will cause CNS toxicity or have irritative 
effects. The studies were not of sufficient size to necessarily 
identify individuals who were uniquely sensitive.
    Exposure to other chemicals or chemical combinations associated 
with the use of MTBE in gasoline. The acute health complaints that have 
been reported in some of the areas where oxy-fuels have been introduced 
are non-specific and typical of irritative responses that occur to many 
diverse chemicals at high enough levels of exposure. Both evaporative 
and exhaust emissions from conventional gasoline, and their degradation 
products, include chemicals or mixtures of chemicals that can cause 
headache, dizziness, irritation of the eyes and respiratory tract, 
gastrointestinal symptoms, etc. The effect of MTBE addition on other 
exposures associated with gasoline would ideally be tested in studies 
comparing the effects of gasoline with and without MTBE. However, no 
such studies have been reported. Since it is at least theoretically 
possible that the addition of MTBE to gasoline results in qualitative 
and/or quantitative changes in other gasoline-related exposures, with 
those changes causing toxicologic effects, some candidate chemicals 
were identified for consideration. Exposure to formaldehyde (FA), a 
combustion product of MTBE, and tertiary butyl formats (TBF), the major 
photochemical degradation product of MTBE, could increase as a result 
of the use of MTBE in oxyfuels, and are evaluated here as possible 
causes of health effects. The possibility of additive or synergistic 
interactions unique to oxy-fuel emissions is also considered.
    The acute health effects of FA are, to some extent, similar to the 
symptoms reported in association with oxy-fuels. FA is an ocular and 
upper respiratory tract irritant; other oxy-fuel symptoms such as 
headache and gastrointestinal complaints are less commonly associated 
with FA.\19\ Ambient and microenvironmental concentrations of FA, and 
the effect of MTBE on the contribution of gasoline emissions to these 
levels have been reviewed by USEPA,\20\ which concluded that ambient FA 
concentrations in urban areas average 1-3 ppb, with peaks as high as 5-
8 ppb at some urban locations. Microenvironmental concentrations in 
semi-enclosed areas with automobile exhaust can be considerably higher; 
the maximum concentrations of FA reported in parking garages and in the 
passenger compartments of automobiles are 34 and 29 ppb, respectively. 
Based on modeling, USEPA estimated that addition of 15 percent MTBE to 
gasoline would result in a 1-2 percent increase in primary FA 
emissions, although this increase would be at least partially offset by 
a decrease in the secondary formation of FA from gasoline-derived VOCs, 
which are reduced by addition of MTBE to gasoline.
    The threshold for acute irritation by FA is generally considered to 
be between 100 and 3,000 ppb,\20\ although some individuals report 
discomfort at lower concentrations. Asthmatics do not appear to be at 
particular risk from low concentrations of FA.\21\ The threshold for 
irritation is well above ambient FA concentrations and maximum reported 
microenvironmental levels, even considering the additional contribution 
of MTBE. While it is theoretically possible that an individual who is 
unusually sensitive to FA will be affected by even very small increases 
in microenvironmental exposure, such an individual would be expected to 
be affected by gasoline, independent of the presence of MTBE.
    The major atmospheric degradation product of MTBE is tertiary-butyl 
formats (TBF)\22\, a chemical uniquely associated with the use of MTBE-
containing oxy-fuels. No data on the toxicology of TBF could be 
identified. Von Oettingen \23\ reported limited range finding acute 
toxicity data for other alkyl formats esters, including n-butyl 
formate, which suggest that they are sensory and respiratory tract 
irritants. However, the data presented are insufficient for 
establishing NOAELs or LOAELs for any of the formates, or for 
predicting the effects of TBF. In the absence of primary toxicity data 
for TBF, the threshold for irritation has been estimated based on the 
empirical relationship between irritant (nasal pungency) and odor 
thresholds, with the odor threshold for TBF being estimated based on 
extrapolation from data for a structurally related series of chemicals, 
the alkyl acetate esters \24\.
    Apredictable relationship between odor and sensory irritation 
thresholds has been established for many chemicals, including alkyl 
acetate esters,\26\ such that if the odor threshold is known, the 
irritation threshold can be predicted. The odor threshold for TBF has 
not been experimentally determined, but has been estimated to be 2.6 
ppm \24\ based on the relationship between the standardized odor 
thresholds of a series of alkyl formates and acetates,\26\ and the 
relationship between the odor thresholds of a series of alkyl acetates, 
including tertiary-butyl acetates. Based on the empirical relationship 
between odor threshold and nasal pungency threshold, the sensory 
irritation threshold is estimated to be 505 times the odor threshold, 
or 1,313 ppm. This threshold is reasonable when considered in the 
context of the data for other similar chemicals.\24\
    A worst-case estimate of the concentration of TBF in ambient air 
associated with the use of MTBE containing oxy-fuel is 0.2-0.3 ppb.\28\ 
Although there is uncertainty in both the estimated human exposure to 
TBF and its sensory irritation threshold, since both are based on model 
predictions rather than actual data, the predicted sensory irritation 
threshold is six orders of magnitude above a worst case estimate of TBF 
exposure, providing a very large margin of safety.
    The likelihood that MTBE or its combustion or degradation products 
is the cause of acute toxicity in humans is low given the large margin 
between the observed, extrapolated or predicted thresholds for adverse 
effects in humans, and exposures that can occur as a result of the use 
of MTBE in oxy-fuels. However, since exposure to MTBE and its breakdown 
products always occurs as part of a complex mixture of VOCs associated 
with exhaust and evaporative gasoline emissions, subthreshold 
exposure(s) to MTBE and/or its breakdown products could interact, 
additively or synergistically, with other chemicals in ambient air or 
microenvironments where gasoline exposures occur, to cause adverse 
effects not seen in the absence of MTBE.
    Synergistic interactions have been reported for sensory \23\ and 
lung \30\ irritation in some animal studies. Where such interactions 
were seen, exposure concentrations were well above the thresholds for 
the individual chemicals. An additive or, in the case of sensory 
irritation, a less than additive response, was reported when exposure 
concentrations were low. Since exposure to MTBE or its breakdown 
products are well below the threshold for toxicity, even considering 
the uncertainties inherent in some of the projections, there is no 
basis for expecting synergistic interactions.
    Many of the effects that have been attributed to oxy-fuels, 
including eye irritation, nose and throat burning, and cough, relate to 
sensory irritation. These responses are mediated via common chemical 
sense receptors, which are activated by a non-specific physical 
interaction between the chemical and the free nerve endings located in 
mucosal tissue, with the threshold for response primarily a function of 
the chemical's physical chemical properties.\31\ Physical chemical 
properties are similarly thought to determine the chemical's threshold 
for odor, vagally mediated respiratory tract irritation, and CNS 
effects.\32\ If the interaction between chemicals and the receptors 
that mediate the types of responses that have been associated with oxy-
fuels is nonspecific in nature, additive effects of chemicals found in 
mixtures would be expected.
    Additive interactions between MTBE and/or its breakdown products 
and other atmospheric or microenvironmental contaminants are plausible. 
Although the exposure to potentially irritating chemicals such as MTBE, 
FA and TBF will increase with addition of MTBE to gasoline, exposure to 
other potentially irritating chemicals, including VOCs and ozone, is 
expected to decrease. The exposure concentrations of individual 
chemical irritants resulting from MTBE addition appear to be 
sufficiently below their respective thresholds that additive effects 
resulting in toxicity would not be expected. However, the net effect of 
addition of MTBE to gasoline on irritant chemical exposures and the 
nature of the interaction between the chemicals require additional 
study.
    In summary, the plausibility evaluation considered what is 
currently known or predicted about the toxicology of MTBE and its 
atmospheric and combustion degradation products, and the effects of 
MTBE on exposures to, and resulting toxicity of, evaporative and 
exhaust gasoline emissions. These data and predictions provide little 
support for the plausibility that MTBE-containing oxy-fuels cause an 
increase in acute toxicity in the general population compared to 
conventional gasoline.
Epidemiological studies of populations exposed to oxy-fuels
    Several epidemiologic study designs have been used to examine the 
relationship between oxyfuels and adverse health effects. They are 
considered here only insofar as they provide information or insight 
relevant to the question of causation. Alaska. The introduction of 
oxygenated gasoline Alaska was associated with numerous complaints of 
health effects. In response, the Alaskan Department of Health, in 
cooperation with the Centers for Disease Control (CDC), executed 
several related studies \33\ \34\ \35\ \36\ \37\ \38\ that assessed 
exposure using stationary, personal and biomarker monitoring, and 
health effects based on responses to a questionnaire, number of 
emergency room admissions or number of health insurance claims.
    The CDC study in Fairbanks \33\ \34\ assessed exposure and effects 
in December, when oxygenated gasoline was being used (Phase D, and in 
February (Phase II), 2 months after suspension of the oxygenated 
gasoline program in Alaska. The prevalence of self-reported symptoms, 
including headache, eye irritation, burning of the nose and throat, 
cough, nausea, dizziness and spaciness, was increased in Phase I 
compared to Phase II. Occupationally exposed workers whose post-shift 
blood MTBE concentrations fell in the upper quartile were more likely 
than those with lower MTBE blood concentrations to report having one or 
more key symptoms on the day the blood sample was taken, consistent 
with an exposure-response relationship.
    Questionnaire-based interviews were conducted during Phase I in 
convenience samples of individuals who differed considerably in their 
potential exposure to gasoline (based on the reported number of hr/wk 
spent in an automobile). Although the number of subjects was small, no 
exposure response was demonstrated by the symptom prevalence in the 
three groups.\36\ Emergency room visits with complaints of headache 
were not increased during the period of oxygenated gasoline use,\36\ 
nor were the number of health insurance claims for headache, 
respiratory tract complaints and asthma.\38\
    The increased prevalence of symptoms in Phase I compared to Phase 
11 is consistent with an association with oxy-fuel use, although the 
high level of public attention that preceded the introduction of 
oxygenated gasoline in Alaska is a significant confounder. Several 
other factors must be considered in the interpretation of the Alaska 
findings. The key symptoms considered in the study are non-specific and 
have numerous potential causes, including exposure to gasoline 
emissions, independent of the presence of an oxygenate. The Alaska 
study provides no comparative data for the expected prevalence of these 
symptoms either in individuals exposed to gasoline not containing an 
oxygenate, or in the general population, not exposed to gasoline.
    To resolve some of these questions, CDC conducted two similar 
investigations: in Stamford, Connecticut,\39\ \40\ mandated oxygenated 
gasoline was used, but there had been no adverse publicity; in Albany, 
New York,\41\ an oxygenated gasoline program was not in effect. These 
comparison studies were not done concurrently, did not use identical 
methods for the identification of study subjects or assessment of 
health complaints, and were conducted at different times of the year 
such that the prevalence of seasonal illness could have been different. 
Although not ideal, these comparison studies do provide some insights 
into the factors responsible for the findings in the Alaska study.
    The prevalence of key symptoms was similar in Stamford and Albany 
both for individuals who had potential occupational exposure to 
gasoline and commuters (Table 1). Although the prevalence of symptoms 
in occupationally exposed individuals in Fairbanks was higher than in 
Stamford or Albany, this difference could not be attributed to 
differential exposure to MTBE since the post-shift MTBE blood 
concentrations in the Fairbanks and Stamford occupational cohorts were 
similar.
    Taken together, the findings of the Alaska study and the related 
studies in Stamford and Albany do not support an association between 
oxygenated fuel exposure and acute health effects.
    Rather, they suggest the importance of evaluating the role of 
gasoline exposure, independent of the addition of MTBE, and increased 
public awareness or expectation as factors influencing the perception 
of an association between oxygenated gasoline and acute health 
complaints.
    New Jersey. This study \42\ compared the prevalence of target 
health complaints in workers in state-operated garages in northern New 
Jersey, where an oxygenated fuels program was in effect, to that of 
workers in southern New Jersey, where the oxygenated fuels program had 
ended several months earlier. Members of these cohorts had high 
potential exposure to gasoline based on their occupation; based on 
their location in the state, the two cohorts were likely to differ 
substantially in their exposure to oxygenated gasoline. Standardized 
questionnaires were used to determine overall symptom prevalence and 
the difference in symptoms for each worker post-shift compared to pre-
shift.
    Workers in the north did not report any increases in symptom 
prevalence compared to workers in the south, even when the analysis was 
limited to those with the highest potential gasoline exposure (based on 
a self-reported average of 5 or more hours per day pumping gasoline). 
In both the north and the south, workers reported significantly more 
symptoms at the end of the work shift compared to the beginning of the 
shift. However, there was no difference between the north and south in 
this analysis, suggesting that the effect was not specifically due to 
exposure oxygenated gasoline. Among possible explanations for the post-
shift increase in symptoms in both cohorts was exposure to gasoline, 
independent of the presence of oxygenate.
    Wisconsin. This was the first study \43\ to examine the 
relationship between health complaints and exposure to reformulated 
gasoline. The study was undertaken in response to numerous citizen 
complaints of adverse health effects following the introduction of RFG 
in the Milwaukee area. A random digit dial study design was used to 
compare symptom prevalence, based on responses to a standardized 
questionnaire, in individuals from each of three areas; in two of the 
areas RFG was in use. In one (Milwaukee), there was extensive public 
resistance to RFG and adverse media coverage; in the other (Chicago), 
there had been no adverse public response to RFG. The third area (non-
Milwaukee Wisconsin) used conventional gasoline.
    The prevalence of each symptom included in the survey, including 
some not previously associated with oxy-fuels, was significantly higher 
in Milwaukee than in Chicago or non-Milwaukee Wisconsin. In Milwaukee, 
symptom prevalence did not increase with increasing exposure when 
average commuting time was used as a semi-quantitative surrogate for 
exposure. There were no differences between Chicago and non-Milwaukee 
Wisconsin in the prevalence of any symptom. Thus, while this study 
confirms a high prevalence of symptom reports in Milwaukee in a 
randomly selected population, the non-specificity of the symptom 
associations, lack of an exposure-response relationship, and comparison 
to the other study groups suggests that the response in Milwaukee was 
not causally related to RFG exposure.
Causality analysis
    The synthesis of the experimental and epidemiologic data discussed 
in the preceding sections is based on an adaptation of the principles 
set forth by Evans.\44\ These general guidelines have been widely 
applied in the evaluation of putative causal relationships between 
environmental exposures and disease, and are adapted here to the 
situation where exposure is poorly defined and effects are subjective 
and non-specific. Accordingly, the following criteria should be met if 
exposure to oxy-fuels in general--or MTBE specifically--causes health 
disturbances in the general population:
    Epidemiological studies should establish an association between 
exposure to oxy-fuels and self-reported symptoms or objective health 
findings. Clearly, none of the epidemiologic studies establishes such 
an association. Although each of the studies used a different approach, 
all are retrospective in design. Recall bias in the reporting of 
symptoms is a significant concern, especially since in many of the 
study locations oxy-fuels had received a great deal of public 
attention. The potential significance of recall bias is demonstrated by 
the marked differences in symptom prevalence in the Milwaukee and 
Chicago cohorts, which experienced comparable exposure to RFG, but 
differed in their awareness of the public controversy concerning oxy-
fuels.
    Another significant limitation of the studies is the lack of 
adequate exposure data. lisle exposure definition used in all of the 
studies was based on place of residence or employment of the subject, 
and is likely to be a source of non-differential exposure 
misclassification. Furthermore, while this definition encompasses the 
complex mixture of chemicals associated with evaporative and exhaust 
emissions from oxy-fuels, a more restricted definition that limits the 
analysis to the toxicologically significant exposure(s) would increase 
the ability of the study to detect effects, if there are any.
    In spite of the limitations of the epidemiologic studies, they do 
address the concerns raised by anecdotal reports that exposure to the 
fuel and/or MTBE was causing widespread health disturbances in the 
general population. If a large segment of the population were, in fact, 
being affected, as has been suggested, the reported studies had a very 
good chance of detecting the effect. Table II, which presents the 
results of power calculations for several of the key symptoms, 
illustrates this point for the assumption that the use of oxy-fuels 
caused a twofold increase in symptom prevalence. For example, if the 
prevalence of headaches were doubled in Stamford compared to Albany, 
studies of comparable size would detect a statistically significant 
difference (at a = 0.05) 99 percent of the time.
    The response to exposure to oxy-fuels should follow a logical 
biological gradient from moderate to severe depending upon dose. Some 
of the epidemiologic studies employed exposure metrics to examine dose-
response relationships. Symptom prevalence was independent of the 
amount of time spent in an automobile \36\ or commuting.\43\ On the 
other hand, both the Alaska \33\ \34\ and Stamford \33\ studies 
reported an increase (statistically significant in Stamford only) in 
the presence of one or more key symptom in occupationally exposed 
subjects with MTBE blood levels in the upper quartile compared to other 
workers. However, subjects with the greatest exposure to MTBE tended to 
have the greatest exposure to other volatile gasoline components as 
well, and the response could reflect an effect of gasoline exposure, 
independent of the addition of the oxygenate. This explanation is 
consistent with the finding in the New Jersey study \42\ that workers 
had an increase in post-shift symptoms compared to pre-shift, but that 
this increase was unrelated to whether or not the gasoline they were 
exposed to contained MTBE.
    The quantitative extent of exposure necessary to cause any specific 
effect should be normally distributed for the population. While this 
has not been tested formally, the anecdotal experience is clearly 
inconsistent with this principle. Health complaints have not been 
reported in most areas where oxy-fuels have been used, rather only in 
localized areas of the country. Such marked differences in the 
distribution of complaints is unlikely to be explained by differences 
in microenvironmental and/or ambient levels of gasoline emissions or 
exposures.
    The temperal relationship between exposure and symptoms should make 
biological sense and be normally distributed for the population. No 
data have been collected on the timing of the appearance of symptoms 
following exposure to, or introduction of, oxy-fuel in an area, or on 
the distribution of response in the population.
    The effects should be replicated in appropriate experimental 
exposure models in animals or man. The effect of exposure to oxy-fuels 
has not been adequately examined in experimental studies, either animal 
or human. However, the effects of MTBE exposure have been carefully 
examined. In animal studies, MTBE can be an ocular, sensory and 
respiratory tract irritant and have CNS effects at concentrations many 
orders of magnitude higher than those experienced in association with 
the use of oxy-fuels. Humans experimentally exposed to MTBE at 
concentrations comparable to and in excess of those experienced as a 
result of the use of MTBE in oxy-fuel did not have eye or nose 
irritation or CNS effects attributable to MTBE, as measured using 
objective tests for these endpoints.
    Discontinuation of oxy-fuel use should decrease the incidence of 
the symptoms associated with its use. The only study that addresses 
this is the Alaska study in which the prevalence of all symptoms was 
found to be significantly less after the oxy-fuel program ended than 
during the program. In fact, the prevalence of symptoms measured after 
cessation of the program was considerably less than reported in any of 
the other studies, including the Albany study,\41\ where oxy-fuels were 
not in use. Given the extent of public resistance to the oxy-fuel 
program in Alaska, the difference in symptom prevalence is likely to be 
influenced by recall bias.
    All of the relationships and findings should make biological and 
epidemiological sense. The anecdotal reports of adverse health effects 
associated with oxy-fuels have tended to occur in clusters, a 
phenomenon that is not usually associated with a toxicological 
mechanism of action. Based on what is known about the exposure-response 
characteristics of the effects of MTBE in humans and animals, exposure 
to this chemical, associated with its use in oxy-fuels, would not be 
expected to cause adverse health effects in the general population. Nor 
would it be predicted that adverse health effects would be caused by 
qualitative or quantitative changes in oxy-fuel emissions, compared to 
conventional gasoline.
Discussion
    Questions about the possible acute health effects of oxygenates 
(particularly MTBE) in oxyfuels are based on anecdotal reports of 
transient, non-specific health complaints, which occur with apparently 
high frequency in a minority of communities using these gasolines. Both 
experimental and epidemiological approaches have been used to examine 
the hypothesis that there is a causal relationship between MTBE and/or 
oxy-fuels and acute health complaints. These studies do not establish a 
plausible basis for expecting that oxy-fuels or MTBE will cause adverse 
health effects, and the epidemiologic studies have consistently failed 
to find a causal association between exposure to oxy-fuels and adverse 
health effects. On this basis, it clearly can be concluded that a 
causal relationship between oxy-fuel use and adverse health effects in 
the general population is not very plausible and has not been 
established.
    In view of the concerns that have been raised about the health 
effects of oxy-fuels and MTBE, and the extent of exposure in the 
general population, it is important to extend the analysis to consider 
the likelihood that a causal relationship exists in spite of the lack 
of supporting data currently available. This judgment relies on an 
analysis of the completeness and quality of the available data, and 
consideration of alternate explanations for the claimed association 
between oxy-fuels and adverse health effects.
    There are sufficient toxicologic and exposure data available for 
MTBE, the oxygenate used in most of the oxy-fuel sold in the U.S., to 
conclude that exposure to MTBE, resulting from the use of oxy-fuels, is 
well below the threshold for toxicity. There is less information on the 
effect of oxygenates on exposures to other chemicals that comprise 
gasoline evaporative and exhaust emissions. Based on what is known, or 
reasonably expected, however, it appears unlikely that toxicologically 
significant exposures will occur.
    The most significant data gap is the absence of studies on 
evaporative and exhaust emissions of oxy-fuel mixtures themselves. 
There exists the possibility of synergistic effects within the 
emissions mixture that will not necessarily be predicted based on 
existing knowledge. There is also the potential that evaporative or 
exhaust emissions of oxy-fuels contain novel chemicals or chemical 
mixtures that are toxicologically significant. The fact that no such 
compounds or mixtures have been identified to date does not necessarily 
mean that they do not exist.
    The deficiencies in the experimental data are at least partially 
compensated for by the existence of epidemiologic studies of 
populations exposed to the emissions mixtures that result from the use 
of oxy-fuels. The epidemiologic studies vary in quality, but complement 
each other In they use different approaches to assess the association 
between oxy-fuels and symptom prevalence. Most of the studies had 
sufficient power to detect effects if they were occurring in a large 
segment of the population; that is, an effect on the order of that 
suggested by the anecdotal reports.
    It is possible that the epidemiologic studies are not detecting a 
small subpopulation of uniquely sensitive individuals who are 
experiencing symptoms. The anecdotally reported symptoms are 
nonspecific, transient, and consistent with subjective complaints that 
are reported in subpopulations of individuals in response to a variety 
of consumer products, chemicals and odors. The scientific community 
continues to debate whether subjective symptoms of this type, reported 
in response to very low concentrations of chemicals, represent a 
toxicological or psychological (i.e., somatoform) response.
    The Wisconsin study \43\ \45\ examined risk factors for sensitivity 
to RFG. In the first phase of the study having had a cold or flu and 
being aware of RFG issues were strong predictors of symptoms reported 
to be associated with gasoline. Phase II of the study compared 
individuals (``health contacts'') who called government agencies to 
report health complaints that they associated with RFG to the randomly 
selected Phase I subjects. Again, having had a cold or flu and being 
aware of RFG issues predicted symptoms in the health contacts. In 
addition, the health contacts were more likely to have doctor diagnosed 
allergies, in the absence of asthma, and be older compared to the 
individuals surveyed in the random digit dial part of the study. The 
New Jersey garage worker study \42\ also reported that older 
individuals reported more symptoms, although this was found to be a 
function of their preexisting health status rather than oxy-fuel 
exposure.
    In a survey of subjects with multiple chemical sensitivities, the 
increase in symptoms associated with gasoline stations and driving were 
comparable to the increase associated with other settings such as 
shopping malls, grocery stores and office buildings.\46\ Based on this 
small study, oxyfuels do not appear to represent a uniquely significant 
problem for individuals who are reportedly sensitive to low 
concentrations of diverse chemicals.
    The judgment as to the likelihood of a causal relationship between 
oxy-fuel exposure and adverse health effects also includes 
consideration of other explanations for the health complaints that have 
been associated, anecdotally, with oxy-fuel use. The types of symptoms 
reported in association with oxy-fuels are quite common and can have 
numerous causes, infectious, toxicologic and constitutional. A bias 
toward reporting these symptoms and/or attributing them to oxy-fuel 
exposure can be introduced in areas where the possible adverse health 
effects of oxy-fuels have received public and media attention.\47\ 
Support for this possibility comes from the Wisconsin study,\43\ which 
found that awareness of RFG issues was a predictor of symptoms in the 
Milwaukee area. Reporting bias secondary to media reporting could also 
explain why symptom prevalences were so much higher in the Alaska study 
\33\ then in the Stamford study.\33\
    The fact that the odor of oxy-fuels is different from that of 
conventional gasoline \1\ can also play a role in the symptom 
associations that have been reported. The change in odor is likely to 
make individuals more aware of the routine exposure to gasoline that 
occurs in some microenvironments, and more aware of transient symptoms 
caused by gasoline exposure. Odor perception has been reported to 
correlate both with symptom prevalence and environmental concerns in 
individuals living near hazardous waste sites, suggesting the 
possibility that the perception of odor triggers stress-related 
symptoms or increases an individual's awareness of existing 
symptoms.\48\
    Taken together, the experimental and epidemiologic findings support 
a high degree of confidence in the conclusion that MTBE-containing 
oxygenated and reformulated gasolines are not the cause of acute 
toxicity in the general population. This conclusion is further 
strengthened by the existence of plausible alternative explanations for 
the health complaints reported in association with the introduction of 
oxy-fuel or RFG in some communities.\2\
Acknowledgements
    The author is a consultant to ARCO Chemical Company, which provided 
financial support for preparation of this paper. Several individuals 
made substantial contributions to the analysis: Michael Ginevan 
performed the power calculations; Rick Rykowski, the TBF atmospheric 
modeling; and William Cain, the estimation of the irritation threshold 
for TBF. The author appreciates the helpful critical review of the 
manuscript provided by Mark Reasor, Jonathan Borak, John Domanski and 
Sorell Schwartz, and the technical support of Kitt Booher and Donna 
Rudder.
                               References
    1. R. Clark, ``Odor threshold studies of oxygenates and oxygenate/
gasoline blends,'' Conference on MTBE and Other Oxygenates; pp D-160-
171, July (1993).
    2. D.C. MacGregor and R. Fleming, ``Chemical risk perception and 
symptom reporting: Interpreting public reactions to MTBE exposure. 
Submitted.
    3. H.A. Anderson, ``Physician Alert Notice,'' State of Wisconsin 
Department of Health and Social Services, February 22, 1995.
    4. A.H. Huber, Human exposure estimates of methyl tertiary butyl 
ether (MTBE),'' Conference on MTBE and Other Oxygenates, pp. C-87-116, 
July (1993).
    5. D.E. Dodd and W.J. Kintigh, Methyl tertiary butyl ether (MTBE): 
Repeated (13-week) vapor inhalation study in rats with neurotoxicity 
evaluation,'' BBRC report 87-73-35007. Bushy Run Research Center, 
Export, PA (1989).
    6. Industrial Bio-Test Laboratories, ``Five-day vapor inhalation 
toxicity study with 7-70A in rhesus monkeys,'' Report to Sun Oil 
Company, unpublished. (1970).
    7. Industrial Bio-Test Laboratories, ``Two-week subacute vapor 
inhalation toxicity study with 770A in rhesus monkeys,'' Report to Sun 
Oil Company, unpublished. (1970).
    8. Biodynamics, ``A 9 day inhalation toxicity study of MTBE in the 
rat,'' Project No. 80-7452, unpublished. (1981).
    9. J .S. Chun, H . D. Burleigh-Flayer and W.J . Kintigh,  Methyl 
tertiary butyl ether: Vapor inhalation oncogenicity study in Fischer 
344 rats.'' BRRC project No. 91 N0013B. Bushy Run Research Center, 
Export, PA, unpublished. (1992).
    0. H.D. Burleigh-Flayer, J.S. Chun and W.J. Kintigh, Methyl 
tertiary butyl ether: Vapor inhalation oncogenicity study in CD-1 mice. 
BBRC project No.91 N0013A. Bushy Run Research Center, Export, PA, 
unpublished. (1992).
    1. M.W. Gill, Methyl tertiary butyl ether single exposure vapor 
inhalation neurotoxicity study in rats, BBRC project report 52-533. 
Bushy Run Research Center, Export, PA, unpublished. (1989).
    2. American Society for Testing and Materials, ``Standard test 
method for estimating sensory irritancy of airborne chemicals,'' ASTM 
Designation: E981-84, American Society for Testing and Materials, 
Philadelphia (1984).
    3. Y. Alarie, ``Dose-response analysis in animal studies: 
Prediction of human responses,. Environ Health Perspect42, 9-13 (1981).
    4. M. Schaper, ``Development of a data base for sensory irritants 
and its use in establishing occupational exposure limits,'' Amer. 
Indust. Hygiene Assoc. J. 54, 488-544 (1993).
    5. J.S. Tepper, M.C. Jackson, J.K. McGee, D.L. Costa and J.A. 
Graham, ``Estimation of respiratory irritancy from inhaled methyl 
tertiary butyl ether in mice,. Inhal Toxicol 6, 563-569 (1994).
    6. J.D. Prah, G.M. Goldstein, R. Devlin, D. Otto, D. Ashley, D. 
House, K.L. Cohen and T. Gerrity, ``Sensory, symptomatic, inflammatory, 
and ocular responses to and the metabolism of methyl tertiary butyl 
ether in a controlled human exposure experiment,'' Inhal Toxicol 6, 
521-538 (1994).
    7. W.S. Cain, B.P. Leaderer, G.L. Ginsberg, L.S. Andrews, J.E. 
Cometto-Muniz, J.F. Gent, M. Buck, L.G. Berglund, V. Mohsenin, E. 
Monahan and S. Kjaergaard, ``Human reactions to brief exposures to 
methyl tertiary-butyl ether (MTBE),'' Report submitted by the John B. 
Pierce Laboratory, New Haven, CT March 2 (1994).
    8. G. Johanson, A. Nihlen, A. Lof, ``Toxicokinetics and acute 
effects of MTBE and ETBE in male volunteers,'' Toxicol Lett 82/83, 713-
718 (1995).
    9. American Conference of Governmental Industrial Hygienists, Inc. 
(ACGIH), ``Formaldehyde,'' in in ``Documentation of the Threshold Limit 
Values and Biological Exposure Indices, 6th edition, Cincinnati, OH, 
pp. 664-688 (1991).
    20. USEPA, Motor Vehicle-Related Air Toxic Study, Chapter 6. 
Formaldehyde, (U.S. Environmental Protection Agency). EPA 420-R-93-005, 
April (1993).
    21. D.J. Green, L.R. Sauder, T.J. Kulle and R. Bascom, ``Acute 
response to 3.0 ppm formaldehyde in exercising healthy nonsmokers and 
asthmatics,'' Am Rev Respir Dis 135, 1261-1266, (1987).
    22. S.M. Japar, T.J. Wallington, S.J. Rudy and T.Y. Chang, ``Ozone-
forming potential of a series of oxygenated organic compounds,'' 
Environ Sci Technol 25, 415-419 (1991).
    23. W.F. van Oettingen, ``The aliphatic acids and their esters--
Toxicity and potential dangers,'' A.M.A. Arch Indust Health 20, 517-
531, 1959.
    24. W.S. Cain, Personal communication to L.S. Andrews, October 3 
(1995).
    25. J.E. Cometto-Muniz and W.S. Cain, ``Perception of odor and 
nasal pungency from homologous series of volatile organic compounds 
Indoor Air 4, 140-145 (1994).
    26. M. Devos, F. Patte, Rouault, P. Laffort and L.J. van Gemert, 
``Standardized Human Olfactory Thresholds,. Oxford, IRL Press (1990).
    27. J.E. Cometto-Muniz and W.S. Cain, ``Nasal pungency, odor, and 
eye irritation thresholds for homologous acetates,'' Pharmacol Biochem 
Behav 39, 983-989 (1991).
    28. R.A. Rykowski, personal communication.
    29. J.E. Cometto-Muffiz, M.R. Garc(a-Medina and A.M. Calviffo, 
Perception of pungent odorants alone and in binary mixtures,'' Chemical 
Senses 14, 163-173 (1989).
    30. T.R. Geizleichter, H. Witschi and J.A. Last, ``Synergistic 
interaction of nitrogen dioxide and ozone on rat lungs: Acute 
responses,'' Toxicol Appl Pharmacol 116, 1-9 (1992).
    31. J.E. Cometto-Muniz and W.S. Cain, Sensory reactions of nasal 
pungency and odor to volatile organic compounds: The alkylbenzenes,'' 
Amer Indust Hygiene Assoc J 55, 811-817 (1994).
    32. G.D. Nielsen, E.S. Thomsen and Y. Alarie, Sensory irritant 
receptor compartment properties Equipotent vapour concentrations 
related to saturated vapour concentrations, octanol-water, and octanol-
gas partition coefficients,'' Acta Pharmac Nord 1, 31-44 (1990).
    33. U.S. Department of Health and Human Services, Centers for 
Disease Control and Prevention, ``An investigation of exposure to 
methyl tertiary butyl ether in Fairbanks, Alaska. Unpublished, October 
22 (1993).
    34. R.L. Moolenaar, B.J. Hefflin, D.L. Ashley, J.P. Middaugh and 
R.A. Etzel, Methyl tertiary butyl ether in human blood after exposure 
to oxygenated fuel in Fairbanks, Alaska,. Arch Environ Health 49, 402-
409 (1994).
    35. M. Belier and J. Middaugh, ``Potential illness due to exposure 
to oxygenated fuels, Fairbanks, Alaska. State of Alaska Department of 
Health and Social Services, Anchorage, December 11 (1992).
    36. M. Beller and J. Middaugh, ``Potential illness due to exposure 
to oxygenated fuels--Fairbanks, Alaska,'' Conference on MTBE and Other 
Oxygenates, pp. D-2-6, July (1993).
    37. B. Chandler and J. Middaugh, ``Potential illness due to 
exposure to oxygenated fuels Anchorage, Alaska,'' Conference on MTBE 
and Other Oxygenates, pp. D-7-11, July (1993).
    38. M.E. Gordian, M.D. Huelsman, M.L. Bracht and D.G. Fisher, 
``Using insurance claims data to investigate effects of oxygenated 
fuels on community health in Anchorage Alaska,'' Conference on MTBE and 
Other Oxygenates, p. D-128, July (1993).
    39. U.S. Department of Health and Human Services, Centers for 
Disease Control and Prevention, ``An investigation of exposure to 
methyl tertiary butyl ether among motorists and exposed workers in 
Stamford, Connecticut,'' Unpublished, September 14 (1993).
    40. M.C. White, C.A. Johnson, D.L. Ashley, T.M. Buchta and D.J. 
Pelletier, ``Exposure to methyl tertiary butyl ether from oxygenated 
gasoline in Stamford, Connecticut,'' Arch Environ Health 50, 183-189 
(1995).
    41. U.S. Department of Health and Human Services, Centers for 
Disease Control and Prevention, An investigation of exposure to MTBE 
and gasoline among motorists and exposed workers in Albany, New York,'' 
Unpublished draft, August 4 (1993).
    42. S.N. Mohr, N. Fiedler, C. Weisel and K. Kelly McNeil, ``Health 
effects of MTBE among New Jersey garage workers,'' Inhal Toxicol 6, 
553-562 (1994).
    43. H.A. Anderson, L. Hanrahan, J. Goldring and B. Delaney, An 
investigation of health concerns attributed to reformulated gasoline 
use in southeastern Wisconsin. Final report,. Wisconsin Department of 
Health and Social Services, May 30 (1995).
    44. A.S. Evans, ``Causation and disease: The Henle-Koch postulates 
revisited,'' Yale J Biol Med 49, 175-195 (1976).
    45. H.A. Anderson, L. Hanrahan, J. Goldring and B. Delaney, ``An 
investigation of health concerns attributed to reformulated gasoline 
use in southeastern Wisconsin. Phase 2. Telephone registered health 
concerns. Final Report,. Wisconsin Department of Health and Social 
Services, September 18 (1995).
    46. N. Fiedler, S.N. Mohr, K. Kelly McNeil and H.M. Kipen, 
WResponse of sensitive groups to MTBE,'' Inhal Toxicol 6, 539-552 
(1994).
    47. P.R. Lees-Haley and R.S. Brown, ``Biases in perception and 
reporting following a perceived toxic exposure, `` Percept Motor Skills 
75, 531-544 (1992).
    48. D. Shusterman, J. Lipscomb, R. Neutra and K. Satin, ``Symptom 
prevalence and odor-worry interaction near hazardous waste sites, `` 
Environ Health Perspect 94, 25-30 (1991).

[GRAPHIC] [TIFF OMITTED] T7218.006

                               __________
 Statement of Gary Patton, General Counsel, Planning and Conservation 
                                 League
    My name is Gary Patton. I am delighted to be here today, and want 
to thank you for inviting me to testify at this important hearing, 
inquiring into the many issues related to water pollution by the 
gasoline additive methyl tertiary butyl ether (MTBE). Your involvement 
in these issues is very much welcomed and appreciated.
    I am the General Counsel of the Planning and Conservation League, a 
statewide environmental advocacy organization. The Planning and 
Conservation League is a non-profit and non-partisan statewide alliance 
of individual citizens and conservation organizations. Located in 
Sacramento, PCL is the oldest environmental lobbying group in 
California. For over thirty years, PCL has played a key role in 
virtually every significant legislative effort affecting the 
environment, and PCL has also been successful in passing a number of 
environmentally beneficial statewide initiative measures. The State 
legislature has recognized PCL's leadership in a resolution that states 
that PCL `` . . . has been instrumental in the passage of every major 
piece of environmental legislation in California.''
    As you undoubtedly know, both national and State environmental 
organizations, including PCL, have strongly supported the ``Cleaner 
Burning Gas'' program implemented by the California Air Resources 
Board. This program is founded on fuel specification regulations 
promulgated by the ARB, and has required the development and use of a 
special blend of reformulated gasoline in this State. California's 
``Phase 2'' reformulated gasoline regulations became effective in early 
1996, and have resulted in very significant air quality improvements 
and have also resulted in the widespread use of MTBE as a fuel 
additive. MTBE now amounts to about 11 percent by volume of virtually 
all the gasoline fuel sold in California.
    I served, on behalf of PCL, on a broadly based ARB advisory 
committee that provided oversight of the implementation of the 
California ``Phase 2'' reformulated gasoline'' program. PCL was also 
actively involved in the legislation passed in the State legislature 
earlier this year, relating to MTBE.
    There is no doubt, in my opinion, that the reformulated gasoline 
now being used in California is truly ``cleaner burning.'' ARB figures 
say that smog-forming emissions from motor vehicles have been reduced 
by 15 percent, because of the deployment of Phase 2 Reformulated 
gasoline. This is equivalent to having removed 3.5 million vehicles 
from the road. The California ``Cleaner Burning Gas'' program is the 
single most effective smog reduction measure since the introduction of 
the catalytic converter. California RFG also produces fewer cancer-
causing emissions. ARB calculations demonstrate an overall reduction in 
carcinogenic risk of about 40 percent, due to the change in the 
gasoline formulation required by the California Phase 2 reformulated 
gasoline regulations. In fact, the health benefits of California's 
reformulated gasoline are significant.
    Unfortunately, the analysis utilized when California's Phase 2 
reformulated gasoline program was mandated made what has turned out to 
have been an unfounded assumption. It was assumed, because MTBE has 
been utilized as a gasoline additive for many years (though in small 
quantities), that changing the formulation of gasoline to replace about 
11 percent of the benzene in gasoline with MTBE would not change any of 
the characteristics of the gasoline except those related to air 
emissions. This assumption was wrong.
    A ``success story'' on the air quality side, MTBE is anything but a 
success story when water pollution is considered. Your hearing agenda 
today indicates that you are studying ``possible'' water pollution by 
MTBE. This is too charitable. There is no doubt that significant 
instances of MTBE-related water pollution have occurred in various 
locations throughout California, and that further and serious pollution 
incidents are probably inevitable. MTBE moves rapidly through soil and 
groundwater in a way that is different from the way that other 
components of gasoline move. Any gasoline leak is serious, and 
potentially a danger to human health and the environment. 
Unfortunately, leaks of gasoline containing MTBE are more serious than 
other gasoline leaks and not because MTBE is more carcinogenic or 
dangerous than benzene (in fact, there is evidence that MTBE is safer 
than benzene, which is highly carcinogenic). The problem is the rapid 
deployment of MTBE in soil and groundwater, which leads to a more 
difficult clean up situation, and the fact that MTBE contamination 
makes water unusable for drinking water purposes when even minute 
amounts of MTBE are present, because of odor and taste problems.
    PCL is greatly concerned with the water contamination problems 
associated with MTBE, which is why we supported the three pieces of 
State legislation enacted last year, SB 1189 by Senator Tom Hayden, AB 
592 by Assembly Member Sheila Kuehl, and SB 521 by Senator Richard 
Mountjoy. Both the Hayden and Kuehl bills mandate that a primary and 
secondary drinking water standard for MTBE be developed, and they 
mandate improvements in pipeline and underground tank safety programs. 
Senator Mountjoy's bill in its final form requires a study of the 
comparative study of the human health and environmental risks and 
benefits, if any, associated with the use of MTBE in gasoline, as 
compared to other possible additives, including ethanol. The study 
mandated by SB 521, as you undoubtedly know, is to be completed in 
early 1999. Based on the final document, incorporating comments from 
the public and relevant State and Federal agencies, the Governor must 
make a certification either that ``on balance, there is no significant 
risk to human health or the environment of using MTBE in gasoline'' or 
that there is a significant risk. If the Governor determines that there 
is a significant risk, he is directed to implement appropriate action 
in response to his finding. Clearly, this could result in the 
prohibition of the further use of MTBE in gasoline.
    PCL did not support the early version of SB 521, which would have 
``banned'' MTBE effective immediately. As stated, however, we do 
believe that a thorough, but rapid, study is called for, and that it 
may well be advisable, when the results of that study have been 
received, to take action that will result in the elimination of MTBE 
from California gasoline.
    Is there, in the meantime, something we can do and that you and the 
Congress can do? Yes.
    All gasoline leaks into soil and groundwater are dangerous to the 
public health and the environment. Both State and Federal requirements 
can be tightened.
    Alternative oxygenates should be made available. It is time to 
begin seriously considering the use of ethanol, which, while it has a 
number of potential problems, also has many positive features that make 
it an attractive substitute for synthetic oxygenates like MTBE.
    We will use less gasoline, and thus pollute the air less, and 
expose groundwater to less risk, to the degree that we can transition 
to non-petroleum transportation fuels. We will also achieve these 
positive results to the degree that we can
    increase fuel efficiency and substitute transit and rail 
transportation for transportation based on the single occupancy auto. 
The Federal Government can play a key role in achieving all of these 
ends, and I encourage you and your colleagues to pursue them. In fact, 
we need longer term, fundamental strategies for reform. By achieving 
such long term and fundamental reforms, we can generate a positive 
outcome from the genuine public health and environmental crisis 
occasioned by the water pollution incidents involving MTBE that are now 
occurring throughout California, and that we must assume will continue 
to occur.
    Thank you again for allowing me to testify here today.
                               __________
             Health Hazards From Exposure to MTBE in Water
                      (By Myron A. Mehlman, Ph.D.)
                             qualifications
    I received a Bachelor of Science in chemistry from City College of 
New York in 1957 and a Ph.D. from Massachusetts Institute of Technology 
in 1964. I undertook further study as a Post-doctoral Fellow in 
biochemistry at the Institute for Enzyme Research, University of 
Wisconsin (1967). In 1974, I completed the Program for Health Systems 
Management at Harvard Business School.
    Presently, I am an Adjunct Professor of Environmental and Community 
Medicine at University of Medicine and Dentistry of New Jersey--Robert 
Wood Johnson Medical School in Piscataway, New Jersey. My current 
research includes the study of asbestos exposure in the petrochemical 
and oil refining industries, toxicology of gasoline, methyl tertiary 
butyl ether (``MTBE'') and also studies of solvents and environmental 
toxicants in general. I am also an Adjunct Professor of Medicine at the 
Mt. Sinai School of Medicine in New York City, a faculty member of New 
York University Medical School, and a Visiting Professor of Industrial 
and Environmental Toxicology for Department of Pharmacology and 
Toxicology, Rutgers College of Pharmacy, Rutgers University, New 
Jersey.
    From 1977 to 1978, I served as Director of Environmental Health and 
Toxicology for Mobil Oil Corporation. In this capacity, I monitored 
exposures of toxic and carcinogenic chemicals and gases in chemical 
plants and refineries, and developed health and safety procedures.
    From 1978 to 1989,1 held the position of Director of Toxicology and 
Manager of Environmental Health and Science Laboratory in the 
Department of Environmental Affairs and Toxicology for Mobil Oil 
Corporation. I was responsible for the Environmental and Health 
Sciences Laboratory, which consisted of a staff of over 100. My 
responsibilities as Director involved testing, methods development, and 
evaluation of the toxicity and carcinogenicity of various chemicals and 
petroleum products. Under my direction, extensive multidisciplinary 
testing was conducted on potential environmental hazards. The 
disciplines involved included: toxicology, ecotoxicology, biochemistry, 
carcinogenesis, genetic toxicology, environmental chemistry, pathology, 
reproductive toxicity, pharmokinetics, metabolic evaluation, 
dermotoxicity, and analytical chemistry.
    I have held many positions in the areas of environmental health and 
toxicology with the United State government. From 1991-1994, I held the 
position of Visiting Scientist for the Agency for Toxic Substances and 
Disease Registry, Public Health Service, and the Department of Health 
and Human Services. In this capacity, I conducted research on the 
carcinogenesis and toxicology of petroleum chemicals.
    In addition, I was the Interagency Liaison Officer for the Office 
of Director at the National Institutes of Health (``NIH''). I also 
served as the Special Assistant to the Associate Director for Program 
Planning and Evaluation at NIH. In these capacities, I dealt with 
environmental policies and toxicological testing of chemicals and 
environmental pollutants. This work involved large-scale evaluation 
programs regarding proper procedures for productions, use and disposal 
of toxic and cancer-causing chemicals. Health agencies falling within 
these policy guidelines included NIH, National Institute of 
Environmental Health Sciences, Centers for Disease Control and 
Prevention, National Institute of Occupational Safety and Health, Food 
and Drug Administration, National Toxicology Program (``NTP''), 
Consumer Products Safety Commission, Department of Energy, and the U. 
S. Environmental Protection Agency (``U.S. EPA''). I was the Special 
Assistant for Toxicology, Nutrition, and Environmental Affairs in the 
Office of the Assistant Secretary for Health of the Department of 
Health, Education and Welfare. In addition, I was Chief of Biochemical 
Toxicology, Bureau of Foods at the Food and Drug Administration. 
Furthermore, at the Department of Health, Education and Welfare, I 
served as the executive secretary to the Committee to Coordinate 
Toxicology and Related Programs.
    I am actively involved in several professional organizations. For 
example, I am a founding member and past president of the American 
College of Toxicology and a member and past president of the 
International Society of Exposure Analysis. In addition, I am currently 
the Secretariat for North America and a member of the Executive Council 
of the Collegium Ramazzini.
    I am also a member of the New York Academy of Science; Society of 
Risk Analysis; Society for Experimental Biology and Medicine; Society 
of Toxicology; Air Pollution Control Association; American College of 
Nutrition; American Chemical Society (Division of Biological Chemistry 
and Medical Chemistry); American Society for Pharmacology and 
Experimental Therapeutics; American Physiological Society; American 
Institute of Nutrition; and American Society for Biological Chemists. 
On behalf of Mobil Oil Corporation, I was also a member of the Chemical 
Industrial Institute of Toxicology (``CIIT'').
    Moreover, I serve and have served on editorial boards of number of 
professional publications, I was the editor of the Journal of 
Toxicology and Environmental Health and the Journal of Environmental 
Pathology and Toxicology, the official publication for the American 
College of Toxicology. I also serve on the editorial boards of 
Environmental Research, Journal of Clean Technology, Environmental 
Toxicology, and Occupational Medicine, Journal of Exposure Analysis and 
Environmental Epidemiology, and Toxicology and Industrial Health. I was 
the series editor for Advances in Modern Nutrition, Advances in Modern 
Toxicology, and Symposium of Metabolic Regulation, and I am currently 
the series editor of Advances in Modem Environmental Toxicology.
                                opinions
    My opinions are based, in part, on the studies and analysis 
contained in this report.
    Based on the currently available cancer studies, it is my opinion 
that MTBE is a probable human carcinogen. Moreover, I further opine 
that in order to reduce or prevent unnecessary risks of developing 
cancers, exposure levels in drinking water should not exceed 5 parts 
per billion (``ppb''). My opinion is based on the following:
    1. It is an accepted scientific principle that when a chemical is 
shown to cause cancers in different species of experimental animals, it 
is considered probable human carcinogen. MTBE has been shown to cause 
cancers in two different species of experimental animals in three 
separate studies.
    2. When a chemical is shown to cause cancers in experimental 
animals and/or in humans, the levels to which humans can be exposed are 
set extremely low by State and Federal Governments, even though there 
is really no safe level above zero for a carcinogen. This means that 
some humans who are exposed to MTBE, even at extremely low levels, may 
develop cancers, especially pregnant women, young children, and 
sensitive individuals.
    3. Since MTBE has been shown to cause cancers similar to that of 
benzene, a known human carcinogen, it is prudent to set drinking water 
levels at 5 ppb or less.
                               discussion
A. Studies on MTBE
    It is my opinion that MTBE can cause cancers in humans. 
Specifically, studies in at least three different laboratories have 
demonstrated that MTBE causes cancer in rats and mice. These cancers 
include leukemia and lymphomas, testicular cancer, kidney cancer, and 
liver cancer.
    Further, MTBE causes cancers in many organs and tissues of two 
species of experimental animals, and these cancers are identical to 
those caused by exposures at the same doses as benzene, vinyl chloride, 
and 1,3-butadiene, which are known human carcinogens. My opinion is 
supported by the general agreement among experts in chemical 
carcinogenesis that a substance which causes cancer in significant 
numbers of experimental animals in well conducted assays poses a 
presumptive carcinogenic risk to some humans, even in the absence of 
confirmatory epidemiological data. Even though there is no recognized 
method as yet for establishing the existence of a threshold for a 
carcinogen in the human population; these principles, which are 
accepted by scientific and medical experts throughout the world, have 
served for many years as the basis for sound public health policy and 
regulatory action on carcinogens.
    For example, the International Agency for Research on Cancer 
(``IARC'') of World Health Organization with input from hundreds of 
world-renown scientists, set forth the following principle:
    Information compiled from the first 41 volumes IARC monographs 
shows that, of the 44 agents for which there is sufficient or limited 
evidence of carcinogenicity to humans, all 37 that have been tested 
adequately experimentally produce cancer in at least one animal species 
. . . .Thus, in the absence of adequate data on humans, it is 
biologically plausible and prudent to regard agents for which there is 
sufficient evidence of carcinogenic risk to humans. (IARC Monograph, 
Supplement 7, 1987)
B. Carcinogenic Effects of MTBE
    Furthermore, I am of the opinion that MTBE causes cancers. 
Specifically, in chronic-inhalation studies of MTBE, the two highest 
exposure concentrations (3,000 and 8,000 parts per million (``ppm'') 
resulted in an excessive number of deaths (ARGO, 1993). It was 
suggested (memo to the U.S. Environmental Protection Agency) that MTBE-
induced kidney disease was responsible for the deaths in both mice and 
rats. Uropathy \1\ was the term coined for the findings in mice, but 
pathological examination suggested that kidney effects were not the 
major cause of the deaths among mice. Chronic progressive renal \2\ 
disease was reported in all doses in the male rats, and in the higher 
two doses among females. There was also an increase in kidney tumors in 
males, and one incidence of kidney tumor in the females. Despite the 
fact that renal lesions were identical in both males and females, the 
author of the study claimed that a<greek-m>,2globulin \3\ was involved. 
The U.S. EPA's guidelines on this matter emphasize that this type of 
nephrotoxicity \4\ occurs only among some strains of male rats (U.S. 
EPA, 1991; Melnick, 1992, 1993; ARCO, 1993).
---------------------------------------------------------------------------
    \1\ Any disorder involving the urinary tract.
    \2\ Pertaining to the kidney.
    \3\ Specific protein found in kidney of male rats.
    \4\ The quality of being toxic or destructive to kidney cells.
---------------------------------------------------------------------------
1. MTBE Should Be a Class B Carcinogen
    MTBE should be a Class B carcinogen. Nevertheless, the U.S. EPA 
misclassified MTBE. By promising conclusive evidence that was to be 
based on ongoing research, the oil industry convinced the U.S. EPA that 
this protein was the cause of the renal toxicity. Some of these reports 
were promised as late as April 1993. The U.S. EPA report (U.S. EPA, 
1993) implied that the kidney toxicity and tumors were due to 
a<greek-m>,2globulin. The report noting the failure of the kidneys to 
stain appropriately for a<greek-m>,2globulin was submitted to the U.S. 
EPA by the oil industry task force in their November 5, 1993, Section 
Be submission. However, the U.S. EPA was aware of these facts prior to 
this time. In August 1993, an expert on a<greek-m>,2globulin, from 
CIIT, investigating the possible role of this protein on the MTBE-rat 
nephropathy \5\ informed U.S. EPA management that the slides did not 
stain for a<greek-m>,2globulin. This misinformation above lead the U.S. 
EPA to classify MTBE as a Class C carcinogen rather than a Class B 
carcinogen, thus exposing humans to an increased risk of cancer from 
MTBE.
---------------------------------------------------------------------------
    \5\ Disease of the kidneys.
---------------------------------------------------------------------------
2. Increases in Testicular Tumors
    There was also an increase in testicular tumors in male rats, and 
liver tumors in both sexes of mice (Burleigh-Flayer et al., 1992).These 
increases were excused as a basis for quantitative risk assessment 
because--in the case of the testicular tumor--the historical control-
ranges were higher than concurrent controls. The rather unique argument 
for disregarding the mouse liver tumors, apparently being applied by 
the U.S. EPA only to this compound, was: ``Evidence of toxicity 
observed at the high dose causes the human hazard significance of high-
dose chemically induced mouse liver tumors to be the subject of 
debate.'' The scientific bases for this interpretation are, at best, 
weak.
3. MTBE Affects Fetus
    The U.S. EPA did recognize that MTBE affects the fetus. However, 
their analysis included no data from the Biles et al. (1987) study 
which noted changes that were biologically, but not statistically, 
significant at lower concentrations than those in the U.S. EPA-selected 
studies. It is noteworthy that the American Conference of Governmental 
Industrial Hygiene (``ACGIH'') committee used the Biles et al. 1987 
study as the basis for their proposed Threshold Limit Values (``TLVs'') 
\6\.
---------------------------------------------------------------------------
    \6\ TLVs refer to airborne concentrations of substances and 
represent conditions under which it is believed that nearly all workers 
may be repeatedly exposed day after day without adverse effect.
---------------------------------------------------------------------------
    As with the inhalation studies, the results of these studies, 
reported to the U.S. EPA by ARCO on November 16, 1993 under Section Be 
of the U.S. EPA's Toxic Substances Control Act, showed an increase in 
testicular tumors. However, because gasoline also contains benzene, a 
potent leukemogen \7\, the increase in leukemia, Leydig \8\ cell 
tumors, and lymphomas may be of greater significance (Infante et al., 
1977; infants and White, 1985). Therefore, we now have the potential 
for additive effects of two leukemogens in gasoline. Why these results 
were not discussed in the U.S. EPA report (U.S. EPA, 1993) is unusual 
since Section Be was listed in the references.
---------------------------------------------------------------------------
    \7\ Any substance or entity considered to be a causal factor in the 
occurrence of leukemia.
    \8\ Cells which are found in the testes.
---------------------------------------------------------------------------
4. Further Studies that Support Carcinogenic Effects
    In October 1993, at a meeting sponsored by Collegium Ramazzini in 
Carpi, Italy, Professors Maltoni and Belpoggi reported their findings 
in experimental studies, as shown in Table 1 below. The results of all 
animal carcinogenicity studies on MTBE are summarized in Table 2. To 
date, the weight of evidence clearly provides sufficient data to 
conclude that MTBE and its metabolites--formaldehyde and tertiary butyl 
alcohol (``TBA'')--are animal carcinogens.

                        TABLE 1. Results of Carcinogenicity Study In Sprague Dawley Rats
----------------------------------------------------------------------------------------------------------------
             Cancer Type                       Control                 250 mg/kg               1,000 mg/kg
----------------------------------------------------------------------------------------------------------------
Combined lymphoma and leukemias......  3.4 percent............  11.8 percent...........  25.5 percent
Testicular Leydig cell tumors........  7.7 percent............  8 percent..............  34.4 percent
----------------------------------------------------------------------------------------------------------------
Source: Belpoggi et al. (1995). Toxicol. Ind. Health. 11(2). pp. 119-150.


                             TABLE 2. Weight of Evidence for Carcinogenicity of MTBE
----------------------------------------------------------------------------------------------------------------
                                                                     Statistically
                Animal                          Organ                 Significant                 Sources
----------------------------------------------------------------------------------------------------------------
Rat..................................  Kidney Tumor...........  Yes....................  ARCO, 1993
Male Rat.............................  Testes Tumor...........  Yes....................  ARCO, 1993
                                                                                         Belpoggi et al., 1995
Female Rat...........................  Lymphoma and Leukemia..  Yes....................  Belpoggi et al., 1995
Male Mouse...........................  Liver..................  Yes....................  ARCO, 1993
Female Mouse.........................  Liver..................  Yes....................  ARCO, 1993
----------------------------------------------------------------------------------------------------------------

    Mehlman (1996) summarized the weight of evidence for 
carcinogenicity for MTBE. The weight of evidence available to date 
clearly provides sufficient data to conclude that MTBE and its 
metabolites--formaldehyde and t-Butyl alcohol--are carcinogenic in 
animals.

        TABLE 3. Weight of Evidence for Carcinogenicity for MTBE
------------------------------------------------------------------------
                                                         Statistically
             Animal                      Organ            Significant
------------------------------------------------------------------------
Male rat........................  Kidney tumor......  Yes
Male rat........................  Testes tumor......  Yes
Female rat......................  Lymphoma and        Yes
                                   leukemia.
Male rat........................  Hemolymphoreticula  Yes
                                   r tumors.
Male mouse......................  Liver.............  Yes
Female mouse....................  Liver.............  Yes
------------------------------------------------------------------------

    C.B. Hirmath and J.C. Parker in a U.S. EPA publication entitled 
``Methyl Tertiary Butyl Ether: Cancer Risk Assessment Issue'' from the 
Office of Research and Development, U.S. EPA, Washington, DC summarized 
scientific citation for cancer studies as follows:

                                     TABLE 4. Weighing the Evidence for MTBE
----------------------------------------------------------------------------------------------------------------
                Animal                          Organ           Statistical Significant           Isues
----------------------------------------------------------------------------------------------------------------
Male rat.............................  Kidney.................  Yes....................  Yes
Male rat.............................  Testes.................  Yes....................  Yes
Male mouse...........................  Liver..................  Yes....................  Yes
Female mouse.........................  Liver..................  Yes....................  Yes
----------------------------------------------------------------------------------------------------------------
Increased tumor incidences reported in second study by different route of administration.
Two metabolites (formaldehyde and t-Butyl alcohol) show carcinogenic activity in animals.

C. Exposure Limits for MTBE
    1. State Regulation and Guidelines for MTBE in Drinking Water It is 
my opinion that the State guidelines at the present time are 
misleading. More specifically, the State guidelines and standards 
(listed below) were developed prior to conducting any adequate 
toxicological testing on MTBE, and as a result, there was little or no 
data available regarding the safety of MTBE. In fact, cancer data was 
not even available until 1993-1995.

   TABLE 5. Regulations and Guidelines Applicable to Methyl Tertiary Butyl Ether (MTBE): State Regulations and
                                               Guidelines (Water)
----------------------------------------------------------------------------------------------------------------
                                         Water Quality: Human
                State                           Health                Information               Reference
----------------------------------------------------------------------------------------------------------------
AZ...................................  Domestic/Drinking H2O..  351 <greek-m>g/l.......  Sittig 1994
CT...................................  Drinking H2O Guidelines  100 <greek-m>g/l.......  FSTRAC 1990
MA...................................  Drinking H2O Guidelines  50 <greek-m>g/l........  FSTRAC1990
ME...................................  Drinking H2O Guidelines  50 <greek-m>g/l........  FSTRAC 1990
NH...................................  Drinking H2O Guidelines  200 <greek-m>g/l.......  FSTRAC 1990
RI...................................  Drinking H2O Guidelines  50 <greek-m>g/l........  FSTRAC 1990
VT...................................  Drinking H,0 Guidelines  40 <greek-m>g/l........  FSTRAC 1990
----------------------------------------------------------------------------------------------------------------
Source: Toxicological Profiles
Note: FSTRAC, Federal State Toxicology and Regulation Alliance committee.

    In the absence of toxicological or cancer data, the exposure level 
for systemic effects are set at 10 to 100 fold lower. However, when 
cancer data is available, as in the case of MTBE, the drinking water 
level should be set between 1 to 5 <greek-u>g/l which is the case for 
other carcinogens.
    As noted heretofore, the above standards and guidelines were set 
prior to the availability of cancer studies. It is now clear that there 
is sufficient evidence for carcinogenicity for MTBE in experimental 
animals. MTBE, which is comparable to benzene (a known human 
carcinogen), causes cancers at approximately the same concentrations as 
benzene does. Therefore, the occupational and environmental exposure 
levels for MTBE should be same as that for benzene which the U.S. EPA 
sets at 5 ppb for ambient air and water permissible exposure levels. 
The following discussion of benzene serves to illustrate the current 
state of scientific knowledge as to the carcinogenicity of benzene in 
experimental animals and humans.
D. Benzene: A Human Carcinogen
    Benzene, a significant component of gasoline and other petroleum 
products, is widely recognized as a carcinogen in both animals and 
humans (Poklis and Burkett, 1977; Mehlman, 1983, 1985, 1989, 1990; U.S. 
EPA, 1984, 1986). Today, total benzene usage is approximately 11 
billion gallons per year (ACGIH, 1990); it has been estimated that 
238,000 people are occupationally exposed to benzene in petrochemical 
plants, petroleum refineries, and other operations. More than 90 
percent of the benzene produced in the United States is manufactured 
from petroleum sources. Benzene is currently classified by the U.S. EPA 
and IARC as a human carcinogen.
    1. Benzene-Caused Cancers in Animals. In numerous studies, Maltoni 
and Scarnato (1979) and Maltoni et al. (1982a,b,c, 1983a,b, 1985, 1987) 
demonstrated that benzene caused tumors in rats and mice, including 
cancer of the zymbal gland, oral cavity, lung, skin, nasal cavity, 
forestomach, harderian gland, mammary gland, preputial gland, ovary, 
and uterus; hepatomas; angiosarcoma of liver; hemolymphoreticular 
neoplasia; lymphoma; and all types of leukemias (Table 6). Huff et al. 
(1989) expanded these studies using a broader dose-range, reporting 
numerous cancers occurring at a lower dosage in various organs and 
tissues (Table 6). These types of reports such as Maltoni et al. and 
Huff et al., are well-known, published, reliable scientific reports 
which experts in the scientific community rely upon to support their 
opinions and conclusions.
    2. Earlier Knowledge of Benzene Causation of Leukemias. The earlier 
data on benzene-caused carcinogenicity in humans were based on a number 
of clinical cases of leukemias in humans occupationally exposed to 
benzene. The 1928 report by Delore and Borgomano and the 1932 report by 
Lignac were followed by a variety of reports from Italy (Vigliani and 
Saita, 1964; Vigliani, 1976), France (Goguel et al., 1967; Girard et 
al., 1968, 1970), and Turkey (Aksoy et al., 1972,1974). Goldstein (] 
977), in a comprehensive review of the literature on benzene, compiled 
case reports on benzene-exposed individuals with hemolymphoreticular 
cancers. The types of leukemias found in these individuals included: 
acute myelogenous leukemia, erythroleukemia, acute myelomonocytic 
leukemia, chronic myelogenous leukemia, myelofibrosis and myeloid 
metaplasia, thrombocytopenia, acute lymphoblastic leukemia, chronic 
lymphocytic leukemia, lymphomas, and other related cancers. As 
previously noted, these types of studies listed above are frequently 
relied upon by experts as the bases of their opinions.

      TABLE 6. Cancers Caused by Benzene Exposure in Rats and Mice
------------------------------------------------------------------------
                RATS \1\                             MICE \2\
------------------------------------------------------------------------
Zymbal gland...........................  Zymbal gland
Oral cavity............................  Oral cavity
Nasal cavities.........................  Skin
Skin...................................  Lung
Forestomach............................  Harderian gland
Mammary gland..........................  Mammary gland
Hepatomas..............................  Preputial gland
Angiosarcoma of liver..................  Forestomach
Hemolymphoreticular neoplasia..........  Ovary
Lung...................................  Uterus
                                         Leukemia
                                         Lymphoma
------------------------------------------------------------------------
\1\ Maltoni et al, 1989.
\2\ Huff et al., 1989.

3. Human Leukemias and Cancers Caused by Benzene
    The types of leukemias caused from exposure to benzene include: 
acute myelogenous leukemia, acute lymphocytic leukemia, acute 
erythroleukemia, acute myelomonocytic leukemia, acute promyelocytic 
leukemia, acute undifferentiated leukemia, hairy-cell leukemia, chronic 
myelogenous leukemia, chronic lymphocytic leukemia, Hodgkin's disease, 
non-Hodgkin's lymphoma, and multiple myeloma (Table-7). Yin et al. 
(1989) reported significant increases in human cancers from exposure to 
benzene. Benzene caused leukemia and cancers of the lung, liver, 
lymphosarcoma, stomach, esophagus, nasopharnyx, and intestine (Table 
8). In 1946, the threshold limit value-time weighted average (TLV-TWA) 
\9\ for benzene was 100 ppm. From then on, it was reduced as follows: 
1947, 50 ppm; 1948-1956, 35 ppm; 1957-1962, 25 ppm; 1977-1987, 10 ppm; 
currently it is 1 ppm. In July 1990, the ACGIH recommended that the 
TLV-TWA for benzene be reduced to 0.1 ppm.
---------------------------------------------------------------------------
    \9\ TLV-TWA is the time-weighted average concentration for a normal 
8-hour workday and a 40-hour workweek, to which nearly all workers may 
be repeatedly exposed, day after day, without adverse effect.

       TABLE 7. Types of Leukemia from Benzene Exposure In Humans
------------------------------------------------------------------------

------------------------------------------------------------------------
<bullet>  Acute myelogenous leukemia     <bullet>  Hairy-cell leukemia
<bullet>  Acute lymphocytic leukemia     <bullet>  Chronic myelogenous
                                          leukemia
<bullet>  Acute erythroleukemia          <bullet>  Chronic lymphocytic
                                          leukemia
<bullet>  Acute myebmonocytic leukemia   <bullet>  Hodgkin's disease
<bullet>  Acute promyelocytic leukemia   <bullet>  Non-Hodgkin's
                                          lymphoma
<bullet>  Acute undifferentiated         <bullet>  Multiple myeloma
 leukemia
------------------------------------------------------------------------
Sources: Debra and Borgomano, 1928; Goguel et al., 1967; Vigliani, 1976;
  Infante et al., 1977; Rinsky et al., 1981; IARC, 1982; De Coufle et
  al., 1983; Rinsky, 1987; Aksoy, 1989; Goldstein, 1989.


            TABLE 8. Excess Human Cancers In Benzene Workers
------------------------------------------------------------------------

------------------------------------------------------------------------
<bullet>  Leukemia                       <bullet>  Stomach
<bullet>  Lung                           <bullet>  Esophagus
<bullet>  Liver                          <bullet>  Nasopharynx
<bullet>  Lymphosarcoma                  <bullet>  Intestine
------------------------------------------------------------------------
Source: Yin et al. (1989).
Note: The data are from 28,460 workers (15,643 males, 12,817 females)
  from 233 factories and 28,257 control workers from 83 factories.
  Lowest average estimated level of exposure for leukemia, 6.5 mg/m\3\.

    In 1939, Hunter reported that benzene causes human cancers. It is 
my opinion, that there is no safe level of exposure to benzene. My 
opinion is supported by others documented reports. For example, in 
September 1948, the American Petroleum Institute-(``API'') issued a 
document entitled API Toxicology Review: Benzene, prepared by P. 
Drinker and widely circulated to oil companies. This report states, 
``Inasmuch as the body develops no tolerance to benzene and there is a 
wide variation in individual susceptibility, it is generally considered 
that the only absolutely safe concentration for benzene is zero.''
    Moreover, in further support of my opinion, in 1989 the Committee 
on the Evaluation of Carcinogenic Substances (Health Council of The 
Netherlands), in consultation with other research institutes and with 
the participation of industry experts, carefully conducted a health 
risk assessment on benzene in ambient air, based on all available human 
and animal data. The committee concluded, in its Integrated Criteria 
Document, that ``chronic exposure in ambient \10\ air to benzene should 
be limited to below 12 <greek-u>g/m\3\, or 4 ppb.'' This exposure will 
limit the risk of leukemia. Since we do not know of any safe level 
above zero, avoiding any possible exposure to benzene and benzene-
containing products is desirable.
---------------------------------------------------------------------------
    \10\ Ambient defined: surrounding.
---------------------------------------------------------------------------
E. Comparison of Cancers Caused by Benzene and by MTBE
    Results in Table 9 demonstrates that benzene-caused cancer in 
animals, such as kidney, liver, hemolymphorecticuiar, leukemia and 
lymphoma are also caused in animals exposed to MTBE. The evidence below 
strongly supports my opinion that the parallels between benzene and 
MTBE are extremely significant.

                      TABLE 9. Comparison of Cancers Caused by Benzene and MTBE In Animals
----------------------------------------------------------------------------------------------------------------
                                                            Benzene                                MTBE
                Cancer                --------------------------------------------------------------------------
                                               Animals                   Humans                  Animals
----------------------------------------------------------------------------------------------------------------
Kidney tumors........................  Yes....................  Yes....................  Yes
Leukemia.............................  Yes....................  Yes....................  Yes
Lymphoma.............................  Yes....................  Yes....................  Yes
Hemalymphoreticular Tumors...........  Yes....................  Yes....................  Yes
Liver tumors.........................  Yes....................  Yes....................  Yes
----------------------------------------------------------------------------------------------------------------

F. Regulation Levels for Possible and Probable Human Carcinogens as a 
        Precedent for MTBE to Be Classified as a Probable Human 
        Carcinogen
    The regulation and advisories issued by the U.S. Federal Government 
and individual State governments to control the levels of contaminants 
in drinking water vary as detailed below:

1,2-Dichloroethane
    California: 1 <greek-m>g/L
    Connecticut: 1 <greek-m>g/L
    New Jersey: 2 <greek-m>g/L
    U.S. EPA: 5 <greek-m>g/L

1,1,2,2-Tetrachloroethane
    Arizona: 0.5 <greek-m>g/L
    Kansas: 1.7 <greek-m>g/L
    Vermont: 1.7 <greek-m>g/L
    U.S. EPA: 1.7 <greek-m>g/L

1,1-Dichloroethane (vinyl chloride)
    Illinois: 1 <greek-m>g/L

Trichloroethylene
    U.S. EPA: 5 <greek-m>g/L

1,1,1-Trichloroethane
    New Jersey: 26 <greek-m>g/L

    As a means of comparison, the regulatory levels of benzene, a known 
human carcinogen, are listed below.

Benzene
    California: 0.7 <greek-m>g/L
    Connecticut, Florida, and New Jersey: 1 <greek-m>g/L
    Maine and Puerto Rico: 5 <greek-m>g/L
    U.S. EPA: 5 <greek-m>g/L

    As one can see from the above data, the permissible exposure levels 
of contaminants in drinking water for possible or probable human 
carcinogens are extremely low, sometimes even as low as that for a 
known human carcinogen, such as benzene. Thus, the standards for MTBE 
should at the minimum, be decreased in accordance with that of other 
chemicals which are classified as possible or probable human 
carcinogens. The following are examples of chemicals which are 
classified as probable or possible human carcinogens. The 
classification of these chemicals as probable human carcinogens is a 
result of reliance on information from various studies listed below. As 
noted heretofore, these kinds of studies are accepted throughout the 
scientific community.
1. Carcinogenicity of Trichloroethylene
    Maltoni et al. (1986, 1988) reported statistically significant 
increases in lung and liver tumors in rats and mice exposed to 
trichloroethylene (``TCE''). These studies also report incidence of 
testicular Leydig cell tumors in rats, adenomas and hepatomas in male 
Swiss mice and lung adenomas in female B6C3F1 mice. Increases in tumors 
are also reported in the animal studies conducted by Fukuda et al. 
(1983) and Bell et al (1978).
    Henschler et al. (1980) exposed mice, rats, and Syrian hamsters to 
TCE and found significant increases of malignant lymphomas and NTP 
studies (1982, 1986a) report significant increases in liver and kidney 
cancers in mice and rats exposed to the chemical.
    In studies of humans exposed to TCE, Axelson et al. (1978, 1986a, 
1986b) report significant increases in bladder cancers and lymphomas. 
Blair et al. (1979) found significant increases in cancers at several 
sites (lung/bronchus, trachea, cervix, and skin), and Barret et al. 
(1980) report an association between cancer and naso- and oropharynx 
resulting from exposure to TCE. The U.S. EPA has classified TCE as a 
probable human carcinogen and recommended that the maximum content 
level of the chemical in drinking be water 5pg/L.
2. Carcinogenicity of 1,1 Dichloroethane
    In 1985, Maltoni et al. demonstrated that exposure to 1,1 
dichloroethane (``DCE'') causes cancer in Swiss mice. Their study 
reports an increase in both malignant and nonmalignant cancers in male 
and female mice exposed to 10 ppm to 25 ppm Cancers of the mammary 
glands and lung and renal adenocarcinomas and leukemias were found.
    The renal adenocarcinomas are of particular interest as they are 
rare tumors in the Swiss mouse. Furthermore, the Maltoni et al. study 
reports the incidence of a variety of mammary tumors (fibroadenomas, 
carcinomas, sarcomas, and carcinosarcomas). Quast et al. (1988) also 
observed a statistically significant increase in adenocarcinomas in the 
mammary gland in rats exposed totally to DCE.
    Results of studies of animals show increases in various malignant 
and nonmalignant cancers following oral or inhalation exposure to DCE, 
thus providing evidence that DCE is a carcinogen (Maltoni et al., 1985; 
Ponomarkou and Tomatis, 1980; Quast et al., 1986; Van Duuren et al., 
1979). On the basis of such data the U.S. EPA has concluded that DCE is 
a possible human carcinogen, the category that applies to chemicals for 
which there is a limited evidence of carcinogenicity at the moment. 
However, the current weight of the evidence suggests that DCE is at 
least a probable human carcinogen.
G. State of North Carolina's Classification of MTBE
    1. Review of Standards. Set forth below is the State of North 
Carolina's review and classification of MTBE as a carcinogen which was 
prepared by Dr. Kenneth Rudo (the State toxicologist) and published in 
Toxicology and Industrial Health, Volume 11, Number 2,1995
    In 1992-1993, when North Carolina held public hearings pursuant to 
    setting a groundwater standard for MTBE, no carcinogenicity data 
    were available for review, and citizen comments indicated that no 
    such data existed. When the Environmental Epidemiology Section 
    (EES) of the North Carolina Department of Environment, Health, and 
    Natural Resources (NCDEHNR) contacted the EPA about possible 
    ongoing studies, the section was informed that these bioassays were 
    not complete and that no carcinogenicity data, positive or 
    negative, currently existed for MTBE.

    Weight of Evidence of Carcinogenicity Utilized By EPA
      Group A--Human Carcinogen (U.S. EPA, 1987)
    This group is used only when there is sufficient evidence from 
    epidemiologic studies to support a causal association between 
    exposure to the agents and cancer.

      Group B--Probable Human Carcinogen
    This group includes agents for which evidence of human 
    carcinogenicity based on epidemiologic studies is ``limited,'' and 
    also includes agents for which the weight of evidence of 
    carcinogenicity based on animal studies is ``sufficient.'' The 
    group is divided into two subgroups. Usually, Group B1 is reserved 
    for agents showing limited evidence of carcinogenicity from 
    epidemiologic studies. It is reasonable, for practical purposes, to 
    regard an agent with ``sufficient'' evidence of carcinogenicity in 
    animals as if it presented a carcinogenic risk to humans. 
    Therefore, agents for which there is ``sufficient'' evidence from 
    animal studies and for which there is ``inadequate evidence'' or 
    ``no data'' from epidemiologic studies would usually be categorized 
    under group B2.

      Group C--Possible Human Carcinogen
    This group is used for agents with limited evidence of 
    carcinogenicity in animals in the absence of human data. It 
    includes a wide variety of evidence, e.g., (a) a malignant tumor 
    response in a single well-conducted experiment that does not meet 
    conditions for sufficient evidence, (b) tumor responses of marginal 
    statistical significance in studies having inadequate design or 
    reporting, (c) benign (not malignant) tumors with an agent showing 
    no response in a variety of short-term tests for mutagenicity, and 
    (d) responses of marginal statistical significance in a tissue 
    known to have a high or variable background tumor rate.

      Group D--Not Classifiable as to Human Carcinogenicity
    This group is generally used for agents with inadequate human and 
    animal evidence of carcinogenicity or for which no data are 
    available.

      Group E--Evidence of Noncarcinogenicity for Humans
    This group is used for agents that show no evidence for 
    carcinogenicity in at least two adequate animal tests in different 
    species or in both adequate epidemiologic and animal studies.
    The designation of an agent as being Group E is based on the 
    available evidence and should not be interpreted as a definitive 
    conclusion that the agent will not be a carcinogen under any 
    circumstances.
    2. Conclusion by Dr. Kenneth Judo. The following conclusion by Dr. 
Rudo which is set forth below supports my opinion on MTBE. In arriving 
at his conclusion, Dr. Rudo cites several studies which also support my 
findings on MTBE:

    Both the Chun et al. (1992) and Burleigh-Flayer et al. (1992) 
studies exhibited several problem areas that must be considered when 
deciding if a resulting increase in tumors should or should not 
contribute to a weight-of-evidence decision for carcinogenicity. In 
each case, high doses of MTBE caused increased toxicity and mortality 
in the treated animals, resulting in a study lasting less than 2 years. 
In addition, there were high levels of spontaneous testicular tumor 
formation in control F344 rats (common for this strain) and the 
appearance of male rat kidney tumors (a possible alpha-<greek-m>2-
globulin effect) in the Chun study. However, the EES feels that these 
studies are valid for the following reasons.
    1. In the Chun study, a statistically significant increase in 
kidney and testicular tumors was identified in male rats. A dose 
response effect was evidence for the testicular tumors, even with the 
shortened study time (less than 24 months). The problem with a shorter 
study duration is that it may mask any lower dose response that may 
exist. In the Chun study, this was not the case unless the low-dose 
group was to exhibit a response at 24 months. The important point is 
that a clear statistically significant tumor response was detected, 
which decreases the negative impact of increased mortality and shorter 
study time. This is also true for the Burleigh-Flayer study. Both male 
and female mice exhibited a statistically significant increase in a 
tumor response. The shortened study duration in this case may have 
affected the sensitivity of the bioassay, since a response was evident 
only in the high-dose group. As the EPA poster stated, there was no way 
to know if a longer exposure period would have provided a dose response 
(Hiremath and Parker, 1994). However, even in this study, a clear 
statistically significant tumor response was observed. This renders the 
problems of mortality and study time less important for determining if 
MTBE is actually carcinogenic to these animals.
    2. Although control groups in male rats in the Chun study exhibited 
a high spontaneous background of testicular tumors, the response in two 
dose groups was still statistically significant when compared to the 
controls. This significant tumor increase, along with the observed dose 
response, justifies a consideration of this study as ``contributing to 
the overall weight of evidence for MTBE carcinogenicity'' (Hiremath and 
Parker, 1994). Further evidence of the significance of the testicular 
tumors as relevant to humans was provided by Belpoggi et al. (1995). 
They observed the formation of male rat testicular tumors in Sprague-
Dawley rats (vs. the F344 rat strain utilized by Chun and coworkers), 
with controls exhibiting a much lower background rate of testicular 
tumors than found in the Chun Study. This indicates that the Sprague-
Dawley rat is a better model for detecting testicular responses than 
the F344 rat, and also supports the testicular tumor finding by Chun et 
al. (1 992).
    3. Information discussed earlier in this paper indicated that the 
male rat kidney tumor response observed in the Chun study was not 
related to alpha-<greek-m>2-globulin accumulation, according to 
criteria set forth by the U.S. EPA (1991), and that no evidence was 
found to indicate that MTBE causes alpha-<greek-m>2-globulin 
accumulation. Therefore, due to the statistically significant tumor 
increase, ``the kidney tumors are viewed as being relevant to humans 
and as contributing to the overall weight of evidence for MTBE 
carcinogenicity'' (Hiremath and Parker, 1994). Further evidence of the 
significance of the kidney tumors as relevant to humans was the NTP 
study that found an increased kidney tumor response in male rats when 
TBA, a major MTBE metabolite, was administered in drinking water (NTP, 
1994).
    4. The Burleigh-Flayer study indicated a statistically significant 
increase in two types of liver tumors (adenomas in female mice, 
carcinomas in male mice) in both sexes of CD-1 mice. From the viewpoint 
of the EES, these liver tumors contribute to the overall weight of 
evidence for MTBE carcinogenicity.
    5. The Maltoni study (Belpoggi et al., 1995) has given an 
indication of statistically significant tumor increases in a different 
rat strain (Sprague-Dawley vs. F344) than that utilized by Chun et al. 
(1992). In addition, an increase in a different tumor type (leukemias 
and lymphomas) in female rats was observed, with a dose response 
evident, as well as the testicular tumor response observed in male 
rats. The information from this study adds significantly to the overall 
weight of evidence for MTBE carcinogenicity.
    6. A major metabolite of MTBE, formaldehyde, has been shown to be 
mutagenic and carcinogenic in animals and probably in humans. The 
metabolic activation of a compound to a known carcinogen also must be 
considered in assessing an overall weight of evidence for MTBE 
carcinogenicity.
    The strength of the statistically significant increase in tumors 
observed, dose responses, and carcinogenic responses in different 
rodent species and in both sexes of CD-1 mice, overcomes the problems 
detailed in the Chun and Burleigh-Flayer bioassay studies. It is 
evident from these studies that MTBE is an animal carcinogen. More work 
may be necessary in order to assess the carcinogenic potency and to 
assign a carcinogenic risk value to MTBE, but its carcinogenicity in 
animals has been established. MTBE causes tumors in male rats (kidney 
tumors in F344 rats and testicular tumors in F344 and Sprague-Dawley 
rats), female Sprague-Dawley rats (lymphomas and leukemias), male CD-1 
mice (liver carcinomas), and female CD-1 mice (liver adenomas) in a 
statistically significant manner. A major metabolite, formaldehyde, is 
both a mutagen and potent probable human carcinogen. Another major 
metabolite, TBA, has been found to cause the formation of kidney tumors 
in male rats. All of these facts contribute convincingly to an overall 
weight of evidence for MTBE carcinogenicity. In fact, there appear to 
be no overall negative bioassay studies in animals at this time for 
MTBE and there have been no human epidemiological studies completed. In 
addition, the NCDEHNR Science Advisory Board on Toxic Air Pollutants 
has corroborated the BES identification of MTBE as an animal carcinogen 
by their statement that these studies represent ``some evidence'' of 
carcinogenicity of MTBE in animals (Science Advisory Board on Toxic Air 
Pollutants, 1994).
    Based on the overall weight of evidence for MTBE carcinogenicity, 
the EES would classify MTBE as a B2 probable human carcinogen. This 
classification also indicates that the EES will review the North 
Carolina groundwater standard to reflect the carcinogenicity of MTBE 
and should undertake a consideration of this compound's carcinogenic 
potential from an ambient air exposure standpoint. These steps are 
necessary to ensure human health protection from the extensive use and 
increased exposure of the public to MTBE.
    The State of North Carolina's conclusion that MTBE should be 
classified as a B2 probable human carcinogen is consistent with my 
findings and conclusions.
H. U.S. EPA'S Cancer Potency of MTBE Analysis
    While it is extremely prudent to use the total weight of the 
evidence (which is the generally scientifically accepted methodology) 
to classify MTBE as probable human carcinogen, as in the case of North 
Carolina, the drinking water exposure levels should not exceed that of 
benzene which is 5 ppb.
    In February 1996, the U.S. EPA conducted an Interagency Assessment 
of Potential Health Risk Associated with Oxygenated Gasoline, which was 
concerned mainly with MTBE. Table 5 of the U.S. EPA's Interagency 
report describes the cancer potency estimates for MTBE based on tumor 
data from studies in rats and mice.
    Using the EPA's potency data from Table 5, I have calculated the 
exposure level for MTBE. Although this is a acceptable method for 
calculating levels of exposure it is a less desirable method than 
others. In rats, based on the lymphomas and leukemia data from EPA's 
Table 5, the upper bound unit cancer risk is 4 x 10-3 mg/kg/day. This 
means that at this level of exposure to MTBE, one individual per 1000 
individuals may develop cancer.
    Title 15A, Section 2L-Groundwater Classification of North Carolina 
Standards General Statutes, Section .0102 Definitions (24) ``Suitable 
for Drinking'' defines ``suitable for drinking'' to mean ``a quality of 
water which does not contain substances in concentrations which either 
singularly or in combination if ingested into human body, may cause 
death, disease, behavioral abnormalities, congenital defects, genetic 
mutations, or result in an incremental lifetime cancer risk in excess 
of 1 x 10 6 or render the water unacceptable due to aesthetic qualities 
including task, odor, or appearance.'' Thus, based on risk of cancer of 
1 x 10-6, the oral potency in rat for leukemia and lymphoma is 4 x 10-3 
cancer risk per mg/kg/day. Accordingly, a 4 x 1-6 cancer risk per 
<greek-m>g/kg/day for a 70 kg person would limit the exposure to 17.5 
<greek-m>g/L per day for a normal healthy individual.
                               conclusion
    The substantial weight of evidence clearly indicates that MTBE is 
carcinogenic. This is supported by several studies where MTBE was shown 
to cause cancers in two different species of experimental animals. In 
addition, the cancers caused by MTBE are identical to those caused by-
exposures at the same doses as benzene, vinyl chloride, and 1,3-
butadiene, which are known human carcinogens. Pregnant women, young 
children, and sensitive individuals are at an even greater risk of 
developing cancers.
    It is an accepted scientific principle that when a chemical is 
shown to cause cancers in different species of experimental animals, it 
is considered a probable human carcinogen. Not only has MTBE been shown 
to be carcinogenic, the Biles et al. 1987 study indicates that it is 
also teratonenic. \11\
---------------------------------------------------------------------------
    \11\ Pertaining to the production of physical defects in offspring 
in utero.
---------------------------------------------------------------------------
    The permissible exposure levels of contaminants in drinking water 
for possible or probable human carcinogens are set extremely low, 
sometimes even as low as that for a known human carcinogen. 
Accordingly, I am of the opinion that in order to reduce or prevent 
unnecessary risks of individuals developing cancers, the drinking water 
standards should not exceed 5 ppb.
                               __________
        Metropolitan Water District of Southern California,
                Office of the Board of Directors, December 9, 1997.

The Honorable Barbara Boxer,
Washington, DC 29510.
              submittal of testimony on mtbe contamination

Dear Senator Boxer: Thank you for holding this important hearing and 
for the opportunity to provide testimony and comment to the Senate 
Committee on Environment and Public Works. The forum that this hearing 
provides will go a long way toward focusing attention on the MTBE 
contamination at the Federal level.
    As the City of Santa Monica's representative to the Metropolitan 
Water District of Southern California's (Metropolitan) Board of 
Directors, I represent water utility that has suffered the most severe 
impacts of MTBE contamination. Metropolitan's board has supported State 
legislation this past year on MTBE contamination. With the passage of 
this legislation, it is my hope that focus can now shift to those areas 
of Federal regulation that govern interstate pipelines and research 
funding for clean-up of MTBE contamination.
    I would have joined you in this morning's hearing, except that 
Metropolitan's Board of Directors, today, is expected to provide 
legislative direction to the staff regarding the issue. As a result of 
this direction, we will provide your committee with written comments 
for your consideration. I anticipate comments to be delivered to you 
within the next few days. Please do not hesitate to contact me for any 
additional information as you feel necessary.
            Sincerely,
                                         Judy Abdo, Member,
                                                Board of Directors.
                                 ______
                                 
    Statement of Metropolitan Water District of Southern California
    The Metropolitan Water District of Southern California 
(Metropolitan) appreciates the opportunity to provide testimony and 
comments to this hearing of the Senate Committee on Environment and 
Public Works on the issue of methyl tertiary butyl ether (MTBE) and its 
impacts on California's water supply.
    Metropolitan through its 27 member agencies anal almost 200 public 
waler systems, provide nearly 600 percent of the drinking, water to 
over 16 million persons in six counties in Southern California. 
Metropolitan imports water from two sources: the Colorado River and the 
Sacramento-San Joaquin Delta. While most communities regard 
Metropolitan water as supplemental to local supplies, a few areas 
depend on Metropolitan to provide all of their water needs.
    The use of MTBE as a gasoline additive has resulted in MTBE 
occurrence in surface and groundwater sources throughout California. 
When MTBE enters the water environmental, it poses special problems 
because of its unique properties that differentiate it from non-
oxygenated gasoline. MTBE is not readily adsorbed by soil particles and 
is relatively low in volatility which makes it resistant to removal by 
natural or manmade treatment processes. Once in groundwater, it can 
move at virtually the same velocity as the water.
    MTBE in drinking water is known to create unacceptable taste and 
odor at very low levels. Ingestion of water contaminated by relatively 
low levels of MTBE is believed to pose some health risk, but the degree 
and nature of the health risk is not yet certain. Both the United 
States Environmental Protection Agency (USEPA) and the State of 
California, Office of Environmental Health Hazard Assessment are 
currently reevaluating the health risk. The USEPA has also moved to 
include MTBE on its Drinking Water Contaminant Candidate List for 
possible regulation.
    The City of Santa Monica, a Metropolitan member agency, has 
suffered the nation's most severe groundwater contamination to date. 
Vital groundwater aquifers continue to be vulnerable to leaking 
underground storage tanks and petroleum pipelines. Surface water 
reservoirs subjected to recreational motorcraft are showing persistent 
levels of MTBE contamination. A recent survey of surface water 
reservoirs and waterways open to recreational activity, indicate low 
levels of MTBE contamination. This survey involved reservoirs found 
around the State including several in Metropolitan's service area 
(Attached is the survey results from California's State Water Projects 
Lake Perris in Southern California).
    MTBE use and its subsequent occurrence in drinking water has been 
the subject of extensive legislation in California. Four significant 
pieces of legislation dealing with MTBE and leaking underground storage 
tanks passed the State legislature and was signed by Governor Pete 
Wilson. The legislative package will provide water utilities and 
regulatory agencies with important tools to protect groundwater 
supplies. However, additional measures are still needed. Certain 
mandates in the recently passed legislation will accelerate treatment 
and remediation needs. The unique properties of MTBE will not make it 
amenable to conventional treatment removal.
    While the debate continues over the use of MTBE as fuel oxygenate, 
Metropolitan recognizes the benefits of so-called cleaner burning fuels 
in reducing air emissions. However, we feel that there should be no 
environmental tradeoffs between the need for clear air and clean water. 
Metropolitan maintains that no matter which oxygenate is mandated by 
the State of California, it must be used and regulated in a manner that 
does net pose a threat to drinking water supplies.
    Metropolitan continues to support all efforts to deal with the 
problem of MTBE contamination of drinking water supplies. While 
legislative and regulatory efforts in the State of California have been 
significant, the following are areas that the Federal Government can be 
of assistance:
    Pipelines. Interstate pipelines present a significant risk to 
drinking water sources. Current laws make them exempt from California 
State regulation. Interstate pipelines need improved monitoring and 
enforcement standards.
    Funding. To address the needs of water utilities to treat and 
remediate MTBE contamination, research funding is badly needed for 
clean-up technologies.
    Perchlorate. The new and equally difficult chemical contaminant of 
ammonium perchlorate has impacted water systems throughout the western 
United States. Perchlorate has entered the Colorado River watershed 
upstream of Parker Dam. Metropolitan is seeking Federal assistance in 
securing $100 million for contaminated groundwater interception and 
remediation technology as well as $10 million per year to cover the 
cost of ``blending'' Colorado River water to reduce perchlorate levels.
    Metropolitan is pleased to hate the opportunity lo share flus 
comments and concerns on the use of MTBE and its impacts. Metropolitan 
is also ready to continue to work with all Federal agencies to address 
this serious contamination issue.

[GRAPHIC] [TIFF OMITTED] T7218.007

                               __________
  Statement of Rick Hydrick, Manager of Water Operations, Sacramento, 
                               California
    MTBE contamination is problem of national magnitude. Unfortunately, 
there hasn't been a national effort to address the problem. In fact, 
the response has been quite the opposite. South Tahoe Public Utility 
District, like many other small water suppliers, have found ourselves 
shouldering the weight of our contamination problem completely on our 
own.
    No agency or water supplier in this country was prepared for the 
magnitude of MTBE contamination. The issue is how quickly we can gear 
up to respond to the threat. I can only speak to the South Tahoe 
experience, and our experience is that:

    <bullet>  regulatory agencies have not fully recognized the 
problem, therefore
    <bullet>  the agencies have not made MTBE contamination a priority, 
therefore
    <bullet>  there is no strategy to address the problem.

    South Tahoe has been forced to essentially ``go it alone'' in 
trying to find solutions to our contamination problems. We first 
discovered MTBE in 1996. We immediately sought--and are still seeking--
assistance at the regional, State and Federal levels. I can honestly 
report that not one agency said ``Yes, we agree that MTBE in South 
Tahoe's drinking water is a problem that deserves the utmost 
attention.'' We have dogged out regional agency to help us aggressively 
address the threat MTBE poses to our water supply.
    Regulatory agencies need to level with the public on this. We need 
to openly admit that we don't have most of the answers. We need to find 
out why, even when leaking underground tanks are replaced, we still 
have MTBE escapes from the site. But in a situation of this magnitude, 
we can't wait for all the studies, all the research--we must take a 
precautionary approach. We need to:

    <bullet>  find the potential sources of contamination
    <bullet>  eliminate those sources, quickly
    <bullet>  and treat the groundwater that is contaminated.

    South Tahoe Public Utility District cannot do it alone, nor should 
we. We have spent $200,000 just dealing with MTBE in the past 7 months 
with absolutely no end in sight. We need Federal, State or regional 
assistance, immediately. We are not picky about who is going to step up 
to the plate, as long as somebody does.
    We are sincerely appreciative of the effort that went into 
organizing this hearing, and we commend Senator Boxer for her diligence 
in pursuing solutions.
                               __________
                  U.S. Environmental Protection Agency
            december 1997, office of water, epa 822-f-97-009
                             epa fact sheet
            drinking water advisory: consumer acceptability
   advice and health effects analysis on methyl tertiary-butyl ether 
                                 (mtbe)
The Advisory
    The U.S. Environmental Protection Agency (EPA) Office of Water is 
issuing an Advisory on methyl tertiary-butyl ether (MTBE) in drinking 
water. This Advisory provides guidance to communities exposed to 
drinking water contaminated with MTBE. This document supersedes any 
previous drafts of drinking water health advisories for this chemical.
What is an Advisory?
    The U.S. EPA Health Advisory Program was initiated to provide 
information and guidance to individuals or agencies concerned with 
potential risk from drinking water contaminants for which no national 
regulations currently exist. Advisories are not mandatory standards for 
action. Advisories are used only for guidance and are not legally 
enforceable. They are subject to revision as new information becomes 
available. EPA's Health Advisory program is recognized in the Safe 
Drinking Water Act Amendments of 1996, which state in section 
102(b)(1)(F):
    The Administrator may publish health advisories (which are not 
regulations) or take other appropriate actions for contaminants not 
subject to any national primary drinking water regulation''.
    As its title indicates, this Advisory includes consumer 
acceptability advice as ``appropriate'' under this statutory provision, 
as well as a health effects analysis.
What is MTBE?
    MTBE is a volatile, organic chemical. Since the late 1970's, MTBE 
has been used as an octane enhancer in gasoline. Because it promotes 
more complete burning of gasoline, thereby reducing carbon monoxide and 
ozone levels, it is commonly used as a gasoline additive in localities 
which do not meet the National Ambient Air Quality Standards.
    In the Clean Air Act of 1990 (Act), Congress mandated the use of 
reformulated gasoline (RFG) in areas of the country with the worst 
ozone or smog problems. RFG must meet certain technical specifications 
set forth in the Act, including a specific oxygen content. Ethanol and 
MTBE are the primary oxygenates used to meet the oxygen content 
requirement. MTBE is used in about 84 percent of RFG supplies. 
Currently, 32 areas in a total of 18 States are participating in the 
RFG program, and RFG accounts for about 30 percent of gasoline 
nationwide.
    Studies identify significant air quality and public health benefits 
that directly result from the use of fuels oxygenated with MTBE, 
ethanol or other chemicals. The refiners' 1995/96 fuel data submitted 
to EPA indicate that the national emissions benefits exceeded those 
required. The 1996 Air Quality Trends Report shows that toxic air 
pollutants declined significantly between 1994 and 1995. Early analysis 
indicates this progress may be attributable to the use of RFG. Starting 
in the year 2000, required emission reductions are substantially 
greater, at about 27 percent for volatile organic compounds, 22 percent 
for toxic air pollutants, and 7 percent for nitrogen oxides.
Why Is MTBE a Drinking Water Concern?
    A limited number of instances of significant contamination of 
drinking water with MTBE have occurred due to leaks from underground 
and above ground petroleum storage tank systems and pipelines. Due to 
its small molecular size and solubility in water, MTBE moves rapidly 
into groundwater, faster than do other constituents of gasoline. Public 
and private wells have been contaminated in this manner. Non-point 
sources, such as recreational watercraft, are most likely to be the 
cause of small amounts of contamination in a large number of shallow 
aquifers and surface waters. Air deposition through precipitation of 
industrial or vehicular emissions may also contribute to surface water 
contamination. The extent of any potential for buildup in the 
environment from such deposition is uncertain.
Is MTBE in Drinking Water Harmful?
    Based on the limited sampling data currently available, most 
concentrations at which MTBE has been found in drinking water sources 
are unlikely to cause adverse health effects. However, EPA is 
continuing to evaluate the available information and is doing 
additional research to seek more definitive estimates of potential 
risks to humans from drinking water.
    There are no data on the effects on humans of drinking MTBE-
contaminated water. In laboratory tests on animals, cancer and 
noncancer effects occur at high levels of exposure. These tests were 
conducted by inhalation exposure or by introducing the chemical in oil 
directly to the stomach. The tests support a concern for potential 
human hazard. Because the animals were not exposed through drinking 
water, there are significant uncertainties about the degree of risk 
associated with human exposure to low concentrations typically found in 
drinking water.
How Can People be Protected?
    MTBE has a very unpleasant taste and odor, and these properties can 
make contaminated drinking water unacceptable to the public. This 
Advisory recommends control levels for taste and odor acceptability 
that will also protect against potential health effects.
    Studies have been conducted on the concentrations of MTBE in 
drinking water at which individuals can detect the odor or taste of the 
chemical. Humans vary widely in the concentrations they are able to 
detect. Some who are sensitive can detect very low concentrations, 
others do not taste or smell the chemical even at much higher 
concentrations. Moreover, the presence or absence of other natural or 
water treatment chemicals can mask or reveal the taste or odor effects.
    Studies to date have not been extensive enough to completely 
describe the extent of this variability, or to establish a population 
threshold of response. Nevertheless, we conclude from the available 
studies that keeping concentrations in the range of 20 to 40 micrograms 
per liter (ug/L) of water or below will likely avert unpleasant taste 
and odor effects, recognizing that some people may detect the chemical 
below this.
    Concentrations in the range of 20 to 40 <greek-th>g/L are about 
20,000 to 100,000) (or more) times lower than the range of exposure 
levels in which cancer or noncancer effects were observed in rodent 
tests. This margin of exposure is in the range of margins of exposure 
typically provided to protect against cancer effects by the National 
Primary Drinking Water Standards under the Federal Safe Drinking Water 
Act. This margin is greater than such standards typically provided to 
protect against noncancer effects. Thus, protection of the water source 
from unpleasant taste and odor as recommended will also protect 
consumers from potential health effects.
    EPA also notes that occurrences of ground water contamination 
observed at or above this 20-40, <greek-th>g/l taste and odor 
threshold--that is, contamination at levels which may create consumer 
acceptability problems for water suppliers--have to date resulted from 
leaks in petroleum storage tanks or pipelines, not from other sources.
What is Being Done About the Problem?
    Research. The EPA, other Federal and State agencies, and private 
entities are conducting research and developing a strategy for future 
research on all health and environmental issues associated with the use 
of oxygenates. To address the research needs associated with oxygenates 
in water, a public, scientific workshop to review the EPA's Research 
Strategy for Oxygenates in Water document was held on October 7, 1997.
    Discussions included current, or soon to be started, oxygenate 
projects in the areas of environmental monitoring/occurrence, source 
characterization, transport and fate, exposure, toxicity, remediation, 
among others. The identified research will help provide the necessary 
information to better understand the health effects related to MTBE and 
other oxygenates in water, to further our knowledge on remediation 
techniques, and to direct future research planning toward the areas of 
highest priority. This document is expected to be available for 
external review by January, 1998. EPA plans to hold a workshop with 
industry to secure commitments on conducting the needed research in the 
Spring of 1998.
    The EPA has also recently notified a consortium of fuel and fuel 
additive manufacturers of further air-related research requirements of 
industry under section 211(b) of the Clean Air Act (CM). The proposed 
animal inhalation research focuses on the short and long term 
inhalation effects of conventional gasoline and MTBE gasoline in the 
areas of neurotoxicity, immunotoxicity, reproductive and developmental 
toxicity, and carcinogenicity. The testing requirements will also 
include an extensive array of human exposure research. This research 
will be completed at varying intervals over the next 5 years and could 
be very useful for assessing risks from MTBE in water, depending on the 
outcome of studies underway on the extrapolation of inhalation risks to 
oral ingestion.
    When adequate research on the human health effects associated with 
ingestion of oxygenates becomes available, the EPA Office of Water will 
issue a final health advisory to replace the present advisory.
Monitoring
    The EPA's Office of Water has also entered into a cooperative 
agreement with the United States Geological Survey (USGS) to conduct an 
assessment of the occurrence and distribution of MTBE in the 12 mid-
Atlantic and Northeastern States. Like California, these States have 
used MTBE extensively in the RFG and Oxygenated Fuels programs. This 
study will supplement the data gathered in California and will attempt 
to shed light on the important issues of (1) whether or not MTBE has 
entered drinking water distribution systems or impacted drinking water 
source supplies, and (2) determine if point (land) or nonpoint sources 
(air) are associated with detections of MTBE in ground water resources. 
Activities are underway to begin collecting data in early 1998.
Underground Storage Tanks
    Under EPA regulations, leaks from underground storage tank systems 
(USTs) which may cause contamination of groundwater with MTBE or other 
materials are required to be reported to the implementing agency, 
which, in most cases, is a State agency. The EPA Office of Underground 
Storage Tanks and State and local authorities are addressing the 
cleanup of water contaminated by such leaks. All USTs installed after 
December 1988 have been required to meet EPA regulations for preventing 
leaks and spills. All USTs that were installed prior to December 1988 
must be upgraded, replaced, or dosed to meet these requirements by 
December 1998.
Safe Drinking Water Act Candidate List
    The Safe Drinking Water Act (SDWA), as amended in 1996, requires 
EPA to publish a list of contaminants that may require regulation, 
based on their known or anticipated occurrence in public drinking water 
systems. The SDWA, as amended, specifically directs EPA to publish the 
first list of contaminants (Contaminant Candidate List, or CCL) by 
February 1998, after consultation with the scientific community, 
including EPA's Science Advisory Board, and after notice and 
opportunity for public comment. The amendments also require EPA to 
select at least five contaminants from the final CCL and make a 
determination of whether or not to develop regulations, including 
drinking water standards, for them by 2001. The EPA Office Water 
published a draft CCL for public comment in the Federal Register on 
October 6, 1997 (62 FR 52194). MTBE is included on the draft CCL based 
on actual MTBE contamination of certain drinking water supplies, e.g., 
Santa Monica, and the potential for contamination of other drinking 
water supplies in areas of the country where MTBE is used in high 
levels.
How Can I Get My Water Tested?
    A list of local laboratories that can test your water for MTBE can 
be obtained from your State drinking water agency. The cost for testing 
is approximately $150 per sample. The analysis should be performed by a 
laboratory certified to perform EPA certified methods. The laboratory 
should follow EPA Method 524.2 (gas chromatography/mass spectromety).
How Can I Get Rid of MTBE If It's In My Water?
    In most cases it is difficult and expensive for individual home 
owners to treat their own water. Any detection of MTBE should be 
reported to your local water authority, who can work with you to have 
your water tested and treated.
Are There Any Recommendations for State or Public Water Suppliers?
    Public water systems that conduct routine monitoring for volatile 
organic chemicals can test for MTBE at little additional cost, and some 
States are already moving in this direction.
    Public water systems detecting MTBE in their source water at 
problematic concentrations can remove MTBE from water using the same 
conventional treatment techniques that are used to clean up other 
contaminants originating from gasoline releases, such as air stripping 
and granular activated carbon (GAC). However, because MTBE is more 
soluble in water and more resistant to biodegradation than other 
chemical constituents in gasoline, air stripping and GAC treatment 
requires additional optimization and must often be used together to 
remove MTBE effectively from water. The costs of removing MTBE will be 
higher than when treating for gasoline releases that do not contain 
MTBE. Oxidization of MTBE using UV/peroxide/ozone treatment may also be 
feasible, but typically has higher capital and operating costs than air 
stripping and GAC.
    To Obtain the Advisory: Call the National Center for Environmental 
Publications and Information (NCEPI) at 1800-490-9198 to be sent a copy 
or write to NCEPI, EPA Publications Clearinghouse, P.O. Box 42419, 
Cincinnati, OH 45242 .
    Internet download: www.epa.gov/OST/Tools/MTBEaa.pdf
    To Obtain the Research Strategy on Oxygenates in Water, External 
Review Draft, Contact: Diane Ray, U.S. EPA, Office of Research and 
Development, NCEA, MD-52, RTP, NC 27711 or by phone (919) 541-3637.
    Internet download: www.epa.gov/ncea/oxywater.htm
    To Obtain the 211(b) Air-Related Research Requirements, Contact: 
John Brophy, U.S. EPA, Office of Air and Radiation; phone (202) 564-
9068; www.epa.gov/omswww/omsfuels.htm
    For Further Information on the Advisory, Contact: Barbara Corcoran, 
U.S. EPA, Office of Water, Mail Code 4304, 401 M St. S.W., Washington, 
DC. 20460, or by e-mail at MTBE.advisory
    epamail.epa.gov, or by phone at (202) 260-5389.
    For Further Information on the Research Strategy, Contact: Diane 
Ray, U.S. EPA, Office of Research and Development, NCEA, MD-52, RTP, NC 
27711 or by phone (919) 541-3637.
                                 ______
                                 
                               MEMORANDUM
         office of water, u.s. environmental protection agency
                          washington, dc 20460
    December 8, 1997

SUBJECT: Issuance of the Drinking Water Advisory: Consumer 
Acceptability Advice and Health Effects Analysis on Methy Tertiary-
Butyl Ether (MTBE)

FROM: Tudor T. Davies, Director, Office of Science and Technology 
(4301)

TO: Addressees

    The Office of Water's Office of Science and Technology is 
transmitting the December 1997 Drinking Water Advisory: Consumer 
Acceptability Advice and Health Effects Analysis on Methyl Tertiary 
Butyl Ether (MTBE). The Office of Water (OW) Health Advisory Program 
was initiated to provide information and guidance to individuals or 
agencies concerned with potential risk from drinking water contaminants 
for which no national regulations currently exist. Advisories are used 
only for guidance and are not legally enforceable. The purpose of this 
Drinking Water Advisory is to support immediate needs for information 
by State and local drinking water facilities and public health 
personnel due to MTBE contamination of potable water. The scope of this 
Advisory is limited to an examination of cancer and non-cancer data, as 
well as organoleptic (taste and odor) effects which may affect consumer 
acceptance of the water supply, and does not include information on 
other subjects typically found in an health advisory, such as treatment 
technology and analytical methods. This Advisory does not recommend 
either a low-dose oral cancer risk number or a reference dose (RfD), 
due to certain limitations of available data for quantifying risk.
    MTBE is a widely used octane enhancer that promotes more complete 
burning of gasoline and reduces carbon monoxide (CO) levels in air. The 
most common source of ground water contamination by MTBE is leakage 
from underground storage tanks. Drinking water contamination is most 
likely a consequence of MTBE's small molecular size and relatively high 
water solubility, which permits it to readily migrate through water 
sources. Non-point sources, such as recreational watercraft, are most 
likely to be the cause of small amounts of contamination of surface 
waters. Air deposition through precipitation of industrial or vehicular 
emissions may also contribute to surface and ground water 
contamination.
    Since the Office of Water does not believe there is an adequate 
data base for developing a Lifetime Health Advisory value for MTBE, it 
is making a policy call and issuing this Advisory to provide an 
evaluation of current health hazard information and to discuss how far 
various environmental concentrations are from concentrations at which 
toxic effects have been seen in test animals. (This comparison is 
called a ``margin of exposure'' or MoE; for instance, if a measured 
concentration is 100,000 times less than the range of minimally adverse 
effects noted in test animals, the MoE is 100,000.)
    Were are many uncertainties and limitations associated with the 
toxicity data base for this chemical. The animal tests available to 
date were not conducted by exposing the animals to MTBE in drinking 
water, but rather by inhalation or introduction of the chemical in oil 
directly to the stomach several times a week. Although useful for 
identifying potential hazards, limitations of the reported studies do 
not allow confident estimates of the degree of risk MTBE may pose to 
humans from low level drinking water contamination. The toxicokinetic 
models are also limited for extrapolating results from inhalation 
studies to effects from oral exposure to drinking water sources. 
Ongoing research is needed to resolve these issues before a more 
complete health advisory can be developed. Nevertheless, the available 
data allow a conclusion that keeping MTBE concentrations in the range 
of 20 to 40 micrograms per liter of water or below to protect consumer 
acceptance of the water resource would also provide a large margin of 
exposure from the toxic effects. Taste and odor values are presented as 
a range, since human responses vary depending on the particular 
individual and the site-specific water quality conditions. These levels 
are about 20,000 to 100,000, or more, times lower than the range of 
exposure levels in which cancer or noncancer effects were observed in 
rodent tests. This margin is in the range of margins of exposure 
typically provided for cancer effects by National Primary Drinking 
Water Standards under the Federal Safe Drinking Water Act.
    When the data base is improved enough to allow greater confidence 
in the toxicity conclusions, the Office of Water will publish another 
Advisory for MTBE that includes quantitative estimates for health 
risks. This Advisory is not a mandatory standard for action, but 
provides practical guidelines for addressing contamination problems and 
supersedes previously published draft advisories.
    If you have any questions regarding this Advisory, contact Barbara 
Corcoran, the OST Health Advisory Program Manager (mail code 4304; 
telephone 202-260-1332).
                               __________
                                                Oxybusters,
                                        Lodi, CA, December 9, 1997.

Honorable Senator Barbara Boxer
Senate Environment and Public Works Committee
Washington, DC 20510

    My name is Jodi Waters and I am the founder of California 
OxyBusters. We are a true grass roots organization in the sense that 
all of our support and financing has come from individual citizens and 
a few small businesses. Our primary purpose is to stop the use of MTBE 
in our gasoline and our secondary goal is to stop the use of all 
oxygenates in gasoline because we are convinced that all of them do 
more harm than good. This is especially true of MTBE.
    I became concerned about MTBE while I was caring for the health 
problems of a neighbor over a period of a year or so. Her doctors could 
not figure out what was wrong or how to treat her. One day I heard 
about Dr. Peter Joseph on the radio and the health effects of MTBE and 
realized that his information on MTBE described my neighbor's problems 
exactly and, since we live about a block from a busy freeway, that it 
logically fit. Her symptoms went away when she left the State of 
California to an area where they don't use MTBE.
    More research quickly convinced me that MTBE was a bad poison. So I 
started California OxyBusters in December of 1996 to try to get it out 
of our gasoline. Since then I have been contacted by over 60000 
concerned and angry Californians by mail, phone, fax and personal 
discussion at many public events. This figure is separate from the over 
110,000 people who signed our petition to ban MTBE in California 
although I am sure that most of those 60,000 people also signed the 
petition.
    The health effects of MTBE to humans are well documented by others 
testifying here today, but for completeness I wish to enter into the 
record the two booklets that OxyBusters printed that were authored by 
Dr. Peter Joseph.
    As far as MTBE's effects in water, there are several points that 
should be made and I will be happy to supply lots of documentation in 
support of these points to you or anyone else who wants it.
    Unlike gasoline, MTBE is soluble in water. This means that when a 
spill or leak of MTBE or gasoline containing MTBE occurs that the MTBE 
dissolves in whatever surface or ground water may be present, 
separating from the gasoline. The MTBE then migrates with the water to 
wherever that water goes. This means that it can spread rapidly and 
move a long distance. MTBE is not broken down by natural microorganism, 
as is spilled gasoline without MTBE, so it lasts many years in the 
aquifer. MTBE is also very difficult and expensive to remove to the 
point of being economically infeasible. This means that once it is in a 
community water supply those people have problems. Big problems.
    An example of just such an occurrence is the small mountain 
community of Glennville, CA about 35 miles east of Bakersfield. 
Glenoville's water supply is contaminated by MTBE in concentrations of 
up to 320,000 parts per billion following a gasoline spill in 1986. (35 
parts per billion is the standard set by the California EPA, and the 
doctors and scientists say that 0-5 parts per billion is the mad 
acceptable level.) After the spill, Kern County received money from the 
Environmental Superfund to clean-up the spill, but instead turned the 
funds over to the State of California. The State, however, failed to 
either cleanup the spill or warn the residents of Glennville of the 
hazard. Consequently the residents suffered for years with a wide range 
of unexplained ailments and severe allergic reactions, now known to 
have been caused by MTBE. Now they have been told not drink or bathe in 
the water because it will make them sick. The State said they would 
providing drinking water, but it took them 4 months after informing 
them of the danger to even do that. The State is not providing bathing 
water nor are they going to clean up the spill. These people are 
trapped--they can't sell their property, they can't rent, and they 
can't use it themselves. They can't bathe, wash clothes or drink their 
own water. They are powerless against what has happened. The State is 
in control. These people need help and they are just being hung out to 
dry by the State and the oil companies that poisoned their water. 
California OxyBusters is the only group that has come to their aid.
    Here is a bottle of water from Glennville's water well. Just smell 
it--taste it if you dare. And many bureaucrats and oil company of 
ficials still say this stuff isn't a problem! They say they can contain 
it. Really? MTBE eats through the new double lined fiberglass fuel 
tanks and it is calculated that it will take 1,000 years to recycle 
safely through the environment. IT ISN'T A PROBLEM?! For whom? The 
bureaucrats or the people who have to breath, drink and bathe in it? 
The EPA was created to solve problems like this, not create them.
    MTBE recycles in the environment. It evaporates from surface spills 
and fumes escape into the atmosphere during pumping. Incomplete 
combustion also emits small amounts of MTBE into the atmosphere. All 
this airborne MTBE then dissolves into the airborne moisture and 
eventually falls all over the earth in the form of MTBE rain. Remember 
ACID rain? Well, now we have MTBE rain! The concentrations are 
obviously far less than from direct spills, but since it does not 
readily biodegrade, the effect is cumulative and someday in the future 
MTBE contamination will be a problem for virtually everybody on the 
planet.
    Realize too that this is the same water that is used to grow all of 
our food supplies. All flora and fauna depend on rain water, directly 
or indirectly, for life. This includes you and me, Senator. What 
happens when all water contains MTBE? What will happen is that all of 
our food will contain MTBE. The food that you and I and our children 
eat.
    The EPA is supposedly about saving the earth for our children and 
future generations. How does MTBE play into this picture? Who is making 
big money off this product and what do they want us to believe? It 
takes a village to make sure that bureaucrats really do act in the best 
interest of the children, because we, the ``villagers,'' know that MTBE 
is clearly NOT in the best interest of the children.
    So I ask you--who is safe from MTBE? Are you? Are you drinking it 
now, today, here in this building? Consider the fact that it is in 
every waterway in California (as stated by Deputy Director Hart of the 
State Water Resources Board). The people of California have fought many 
political civil wars over water issues. And now the State and big 
business are poisoning that water. There is nothing more important to 
the people of California than their cars or their water. Which is going 
to be taken away from them first? Is MTBE in our best interest, the 
best interest of our children, or in the interest of power, money and 
control? I think you know my opinion.
            Thank you,
                                             Jodi M Waters,
                                   President, California OxyBusters
                                 ______
                                 
              Reformulated Gasoline: A Source of Illness?
                      an open letter to physicians
 peter m. joseph, ph.d., professor of radiologic physics in radiology, 
               hospital of the university of pennsylvania
    I believe there is a new illness in our region which is affecting 
thousands of people and is largely unknown and unrecognized by most 
patients and physicians. \1\ It is due to a sensitivity reaction to a 
chemical used in the new ``reformulated'' gasoline (RFG) whose sole 
purpose is, ironically, to improve our health. The chemical is methyl 
tertiary butyl ether (MTBE). Whether adding such oxygenated chemicals 
to gasoline really reduces vehicle emissions is now considered by many 
to be doubtful, consistent with earlier analyses. \2\
---------------------------------------------------------------------------
    \1\ Joseph P.M., Letter: Atmospheric Byproducts of MTBE as a Source 
of Community-wide Illness. Arch. Env. Health 1995;50:395-396.
    \2\ Calveri J.G., Heywood J.B., Sawyer R.F., Seinfeld J.H., 
Achieving acceptable air quality: Some reflections on controlling 
vehicle emissions. Science 1993;261 :37-45.
---------------------------------------------------------------------------
    The symptoms can be roughly categorized as respiratory, 
neurological, or allergic.
    The respiratory symptoms include inflammation of any of the mucous 
membranes in the upper respiratory track (URT), including sinusitis, 
rhinitis, pharyngitis, or bronchitis. These symptoms are almost 
indistinguishable from those of common viral URT infections. However 
there is rarely any fever, and any discharge can be categorized as more 
typical of allergic reactions than of infection. More important, the 
time course is very different from URT infections, since the symptoms 
continue for an indefinite period of time, usually many weeks or 
months, but are often modulated by subtle changes in the weather 
conditions (see below). Patients report a feeling of severe malaise, 
described as ``I just feel terrible.'' Antihistamines are usually not 
helpful, certainly not as much as they are in conventional seasonal 
allergies.
    Perhaps the most important respiratory effect is exacerbation of 
asthma, the prevalence of which is apparently skyrocketing in the 
Philadelphia and New Jersey area. The Philadelphia Department of Health 
has formed a special Asthma Task Force to try to understand and cope 
with this problem.
    The neurological symptoms include headache, nausea, insomnia, and 
sometimes visual disturbances. One symptom I have found most troubling 
is a sense of lightheadedness, similar to ethanol intoxication. Some 
patients complain of lethargy. These can be modulated by weather 
conditions or be constant for many weeks. A special case of neurologic 
symptoms is cardiac arrhythmia experienced by a very small percentage 
of sensitive people.
    The allergic symptoms commonly are skin rash or tearing in the 
eyes. These are exacerbated by exposure to gasoline fumes or 
byproducts, such as by riding in cars in heavy traffic.
    Some people, including myself, experience a hot flushed feeling in 
the skin of the head and neck.
    Very few people get all of these symptoms, more commonly only a few 
are seen. It is relatively common for one person to have either the 
respiratory or neurological symptoms, but not both.
    Some of these symptoms would normally be attributable to more 
conventional causes, such as emotional stress or viral infections. To 
make it clear why I am convinced that they are caused by the gasoline 
additive MTBE, I must describe some history.
    When MTBE was added to gasoline in Fairbanks, Alaska, in the winter 
of 1992, many people (estimated to be 10 percent of the population) 
complained of the above symptoms. The symptoms were associated with 
gasoline fumes and/or exhaust in that they got worse when people drove 
in traffic and better in their homes out of town. The CDC did a 
thorough investigation, including measuring blood levels of MTBE and 
its metabolite TBA. \3\ The Governor of Alaska demanded that MTBE be 
removed and the symptoms complaints promptly subsided. The same 
scenario was repeated at the same time in Missoula, Montana with the 
same result, except that the CDC was not involved. Since then, 
spontaneous citizen protest groups have arisen in Maine, Pennsylvania, 
New Jersey, Connecticut, Colorado, Texas, and Wisconsin. In New Jersey, 
the citizens' group ``Oxybusters'' has collected about 13,000 petition 
signatures against MTBE. In January, 1995, ABC Television ran a 15 
minute documentary explaining the history of this problem. \4\
---------------------------------------------------------------------------
    \3\ Moolenaar R.L., Hefflin B.J., Ashley D.L., Middaugh J.P., Etzel 
R.A. Methyl tertiary butyl ether in human blood after exposure to 
oxygenated fuel in Fairbanks, Alaska. Arch. Env. Health 1994;49:402-
408.
    \4\ California OxyBusters was organized in December, 1996 and by 
May, 1997 had collected over 80,000 petition signatures in support of 
legislation to remove MTBE from gasoline. The bill, SB521, is going 
through the legislative process as of this date.
---------------------------------------------------------------------------
    MTBE has been used as a gasoline additive since approximately 1979. 
However, it was used solely to increase the octane of some brands of 
premium gasoline and the total amount used was roughly an order of 
magnitude less than today. In our region, we were required to have 15 
percent MTBE in all gasoline starting in the winter of 92-93, and again 
each winter since then. We are currently (since March 1, 1995) required 
to have 11 percent MTBE 12 months per year as part of the national RFG 
program.
    My own history started also in the winter of 92-93. At that time my 
symptoms were mainly neurological, including intractable insomnia. I 
had several extensive diagnostic workups, and was diagnosed with 
multiple environmental allergies, including dust mites. After cleaning 
up my home environment, l noticed some improvement in the early spring. 
(Note that pollen allergies get worse in spring!) I did suffer pollen 
allergy symptoms throughout most of 1993, and started on immunotherapy 
shots in September 1993. I did not notice any severe problems in 
November 1993 when MTBE was again reintroduced. I did contract 
pneumonia in mid December which was treated with antibiotics. However, 
even after the pneumonia cleared I continued to feel sick, with the 
symptoms of malaise and lightheaded described above. I found that a 
light box designed to treat winter depression was not effective.
    Around the end of January 1994, I noticed that many colleagues were 
not feeling well. Through casual conversation I found two men and two 
women who also had the lightheaded feeling. One woman also had a 
continuous headache for which her doctor's prescription of analgesics 
were not helpful. The symptoms of the three men not only varied from 
day to day, but almost always in synchrony! This certainly suggests 
some sort of environmental cause. We all got better on sunny days and 
worse on cloudy days. For example, Sunday February 20 started out as a 
bright, cold, winter day. l felt fine that morning and went walking in 
my suburban neighborhood. By afternoon, the skies clouded over, and by 
evening I felt very sick (malaise, nauseous) and slept poorly. The next 
day I discovered that the other two men had identical experiences. By 
comparison, March 10 (when oxygenated gasoline was no longer required) 
was also a cloudy day and we all felt fine. All symptoms of all five 
people disappeared by the middle of March, and we all remained well 
throughout the spring, summer, and fall of 1994. However, in November 
1994 when MTBE was again put into gasoline, four of us again developed 
the same symptoms as before. l found that an air filtering machine 
which could absorb organic compounds including formaldehyde was very 
helpful in controlling my symptoms. This story was described in the 
February 19 issue of the Philadelphia Inquirer.
    During the winter of 1994-95 my own symptoms in the URT became 
worse, with definite pain in the chest, cough, and several difficult 
URT infections. These symptoms, together with the malaise and 
lightheadedness described above, are always much worse on cloudy days 
when there is no rain or wind. Cloudy days with rain or wind are 
noticeably better, but not as good as sunny days. During March 1995 
almost every evening, when the sun went down, l would feel ill .
    In January and February 1995 I made several public appearances on 
radio and television asking for people with similar problems to contact 
me. l have spoken to over 100 people who believe their symptoms may be 
caused by MTBE. In some cases, the people had pre-existing medical 
conditions which could also explain their symptoms. However, in most 
cases it is my judgment that MTBE is the most likely cause. A few of 
those people have written letters giving their detailed history and in 
most cases it is very hard to find any other plausible explanation 
other than MTBE. In some cases, the symptoms recurred in synchrony with 
our regional MTBE usage, and in other cases the symptoms completely 
resolved when the people (temporarily) travelled to another geographic 
region which did not have the high levels of MTBE. Personally, I am 
completely convinced that MTBE is capable of causing the illnesses 
reported.
    We should ask how this situation could come about, and whether the 
government had not tested MTBE before requiring us to use it. The 
Environmental Protection Agency (EPA) is the primary advocate of the 
use of so-called ``oxygenate'' chemicals in gasoline, the goal being to 
reduce carbon monoxide emissions by more complete oxidation (so-called 
``cleaner burning''). The EPA imposed MTBE on Denver starting in the 
winter of 1988, and claims that no significant complaints were 
received. However, I personally know of several individuals in that 
area who were affected and who say that the EPA dismissed their 
complaints as being groundless. I have copies of written complaints by 
65 people in Colorado Springs from the winter of 1992.
    There have been several toxicologic studies of MTBE in rats and 
mice which indicated no permanent damage. However, there are short temm 
neurological effects such as would be expected from any ether. There 
have been a few short term acute exposure studies with human 
volunteers; these were all done with healthy young adults. The CDC did 
another driver survey study in Stamford Connecticut in March 1993 and 
found people reporting the same symptoms as in Fairbanks, Alaska \5\. 
They concluded that ``Persons with high blood concentrations of MTBE 
reported a high prevalence of one or more of the key symptoms  . . .  
that had been previously associated with MTBE exposure in Fairbanks, 
Alaska. This association appears to be specific to these symptoms.'' A 
study of New Jersey garage workers in 1993 compared northern and 
southern workers who had high and low MTBE exposure, respectively and 
claimed to find no difference. However, their group of northern workers 
who pump gasoline more than 5 hours per day did show a statistically 
significant (P=0.03) increase in MTBE symptoms. Some people interpret 
that study as negative because in a specially selected subgroup of only 
11 individuals no increase in MTBE-type symptoms was found. That 
obviously does not rule out a possible sensitive subgroup on the order 
of a few percent. Meanwhile, since 1993, many more automobile and 
gasoline workers in New jersey have concluded that MTBE in gasoline is 
ruining their health. I have spoken to several of them.
---------------------------------------------------------------------------
    \5\ White M.C., Johnson C.A., Ashley D.L., Buchta T.M., Pelletier 
D.J. Exposure to Methyl Tertiary-Butyl Ether from Oxygenated Gasoline 
in Stamford, Connecticut. Arch. Env. Health 1995;50:183-189.
---------------------------------------------------------------------------
    I am convinced that the EPA has not properly understood the nature 
of this problem. When MTBE is dispersed in the atmosphere, it can be 
converted by atmospheric chemistry into tertiary butyl formate (TBF), 
which is an ester of formic acid. To date there are no studies of the 
effects of chronic exposure to TBF, but since it is an irritant it is a 
possible contributor to the respiratory effects of concerto Even more 
likely is the direct production of formic acid in the exhaust stream of 
cars burning MTBE; this is expected to result from the partial 
oxidation of MTBE into TBF, and the subsequent pyrolysis of TBF into 
fommic acid and isobutylene. \6\ Another possible byproduct of MTBE 
combustion is tertiary butyl nitrite (TBN), which is known to be 
destroyed by sunlight. TBN is structurally analogous to amyl nitrite, a 
drug of abuse with known neural-vascular effects.
---------------------------------------------------------------------------
    \6\ Gordon E., Price S.J.W., Trotman-Dickerson A.F. The pyrolsis of 
tert. Butyl Formate. J. Chem. Soc. 1957;1957:2813-2815.
---------------------------------------------------------------------------
    So far, the EPA has funded any biological or clinical studies of 
the effects from the TBF produced from MTBE, and there is virtually no 
information on it in the toxicologic literature. However, it is 
expected to be similar to other formates, such as formic acid (FA). FA 
is known to be extremely irritating to the mucous membranes of the 
respiratory system. In fact, it is more irritating than fommaldehyde, 
at least in guinea pigs. \7\ It is also toxic to the nervous system and 
is the major toxin active in methanol poisoning. FA will accumulate in 
monkeys and humans but not in lower animals. \8\ This might explain why 
experiments with rodents did not show any problems. It is not known how 
the metabolism of TBF compares with FA.
---------------------------------------------------------------------------
    \7\ Amdur M.O. The response of guinea pigs to inhalation of 
formaldehyde and formic acid alone and with a sodium chloride aerosol. 
Int. J. Air Pollut. 1960;3:201-220.
    \8\ Tephly T.R. The toxicity of methanol. Life Sci. 1991 ;48: 1031-
1041.
---------------------------------------------------------------------------
    The only information on TBF itself I could locate is this 
description of the acute effects, taken from the manufacturers ``MSDS'' 
(material safety data sheet):
Acute Effects
    <bullet>  Harmful if swallowed, inhaled, or absorbed through the 
skin;
    <bullet>  Material is extremely destructive to tissue of the mucous 
membranes and upper respiratory tract, eyes, and skin;
    <bullet>  Inhalation may be fatal as a result of spasm, 
inflammation and edema of the larynx and bronchi, chemical pneumonitis 
and pulmonary edema;
    <bullet>  Symptoms of exposure may include burning sensation, 
coughing, wheezing, laryngitis, shortness of breath, headache, nausea 
and vomiting;
    <bullet>  To the best of our knowledge, the chemical, physical, and 
toxicological properties have not been thoroughly investigated.

    In addition to the cloudy day effect, many individuals resort that 
their symptoms get worse at night. This might be due to an alternate 
chemical pathway for conversion of MTBE into TBF which uses nitrate 
radicals, rather than hydroxyl radicals, and is expected to function 
only at night. \9\ However, I consider it more likely that some toxic 
compound is being produced directly from the exhaust of cars, and that 
for some reason this compound is either destroyed or dispersed by 
sunlight. One such compound, TBN, is known to be rapidly destroyed by 
sunlight. Another possibility is that FA accumulates in water droplets 
on cloudy, humid, days, and these are rapidly vaporized when the sun 
emerges. (It is known that acid irritants are more troublesome when 
condensed onto particles than when in the gaseous phase \10\) Various 
studies of FA in ambient air show huge day-to-day fluctuations. \11\ 
\12\ Direct automotive production of FA would be maximal during the 
winter when the evening commuting rush hour occurs in darkness. All 
experimental studies of automobile exhaust that I have seen ignore the 
production of FA as well as most other possible products of the 
combustion of MTBE. However, it is known that hydroxyl radicals (OH) 
are present in the combustion process, and it is also known that such 
radicals can convert MTBE into TBF. \13\ The published studies \14\ 
\15\ look only for a preselected list of pure hydrocarbons, plus a 
handful of aldehydes. These studies invariably list a few percent 
``unidentified hydrocarbons.'' In some cases the quantity of 
``unidentified hydrocarbons'' increased when MTBE was added to the 
fuel. \14\ This is extremely important because proponents of MTBE talk 
as if it were proven that adding MTBE to gasoline can only decrease all 
possible exhaust products (except for fommaldehyde, acknowledged to be 
increased with MTBE). Furthermore, one would expect production of FA to 
be maximal during periods of acceleration when the car's air/fuel 
system tends to bum a mixture which has excessive fuel, thus greatly 
enhancing production of FA and other products of partial oxidation.
---------------------------------------------------------------------------
    \9\ Langer S., Ljungstroem E. Reaction of the nitrate radical with 
some potential automotive fuel additives. A kinetic and mechanistic 
study. J. Phys. Chem. 1994;98:5906-5912.
    \10\ Wilson R., Spengler I.D., Particles in our Air: Concentrations 
and [lealth Effects. (Harvard Univ. Press, Cambridge, MA, 1996), pp. 
88-91.
    \11\ Grosjean D. Formic Acid and Acetic Acid Measurements during 
the Southern California Air Quality Study. Atmospheric Environment 
1990;24A:2699-2702.
    \12\ Lawrence J.E, Koutrakis P. Measurement of Atmospheric Formic 
and Acetic Acids: Methods Evaluation and Results from Field Studies. 
Environ. Sci.Technol. 1994;28:957-964.
    \13\Smith D.F., Kleindienst T.E., Hudgens E.E., McIver C.D., 
Bufalini J.J. The photooxidation of methyl tertiary butyl ether. Int. 
J. Chem. Kin. 1991;23:907924.
    \14\ Kirchstetter T.W., Singer B.C., Harley R.A., Kendall G.R., 
Chan W. Impact of Oxygenated Gasoline Use on California Light-Duty 
Vehicle Emissions. Environ. Sci. Technology 1996;30:661-670.
    \15\ Hoekman S.K. Speciated Measurements and Calculated 
Reactivities of Vehicle Exhaust Emissions from Conventional and 
Reformulated Gasolines. Environ. Sci. Technology 1992;26:1206-1216.
---------------------------------------------------------------------------
    Many individuals have noticed a foul odor coming from cars burning 
MTBE-RFG under certain conditions, such as acceleration during cloudy 
days. From subjective experiments in my own garage, comparing exhaust 
from MTBE versus ethanol RFG, I can say that there is some extremely 
foul and irritating substance produced from MTBE fuel that is not found 
with ethanol fuel. Furthemmore, my symptoms did increase while 
breathing air in the environment with the MTBE-RFG.
    It is known that the main metabolic products of MTBE are 
fommaldehyde (F) and tertiary butyl alcohol (TBA). F is known to be 
both toxic and a potent sensitizer. TBA is not as well known, but there 
is a report of allergy \16\ which suggests that it also can sensitize.
---------------------------------------------------------------------------
    \16\ Edwards, Jr, E.K., Edwards E.K. Allergic reactions to tertiary 
butyl alcohol in a sunscreen. Cutis. 1982;29:476-478.
---------------------------------------------------------------------------
    Many Philadelphians would agree with the statement that the 1995 
flu season was one of the worst they can remember. This impression has 
been publicly documented for New York City by the New York Times \17\ 
on January 17, which said ``The flu and cold season has singled out New 
York with particular fury this year. While much of the country has 
remained unusually healthy this winter, many New Yorkers have coughed, 
sneezed and wheezed their way into the new year,'' and on February 2, 
``upstate New York, (was) not as badly hit by the flu epidemic''. \18\ 
One would normally attribute this to increased virulence of the virus 
causing the infections. However, the unusually severe symptoms were 
seen in a only few east coast cities, and not in upstate New York or 
Boston, for example. These other areas have not been exposed to MTBE in 
gasoline for nearly as long (three winters) as we have. I propose that 
the true explanation lies in the irritative effects of FA on the 
respiratory mucous membranes which, coupled with induced sensitization 
in some manner not fully understood, weakened our normal ability to 
resist the influenza virus.
---------------------------------------------------------------------------
    \17\ Rosenthal E. Flu casts fevered misery across New York region. 
(New York Times, New York, 1995), pp. 1-2.
    \18\ Fein E.B. With blood shortage near crisis, hospitals prepare 
to delay operations. (New York Times, New York, 1995), pp. 3-3.
---------------------------------------------------------------------------
    The New York Times did not run any articles commenting on the 
seventy of the 1996 flu season, except that it arrived unusually early. 
\19\ However, I do know of several individuals in Philadelphia who 
suffered with extremely resistant respiratory infections that required 
many weeks of antibiotic therapy before resolution.
---------------------------------------------------------------------------
    \19\ Belluck P. Sneezing Season is Early and Hospitals Reflect It. 
(New York Times Dec. 6, New York, 1995), pp. 1-5.
---------------------------------------------------------------------------
    It seems clear that only a small minority of people are continually 
affected by these new pollutants; I estimate the fraction to be a few 
percent. We are clearly dealing with a question of a subpopulation 
which is or has become sensitive to one or more of these chemicals. 
Since many more people are reporting these symptoms now than in the 
previous 2 years, we can conclude that more people are becoming 
sensitized through chronic exposure. There is no doubt in my mind that 
thousands of people are suffering from this without any suspicion of 
the true cause.
    There is now preliminary evidence that some component of MTBE 
induced pollution is inducing cardiac arrhythmias in some susceptible 
people. These people report that their heart sometimes skip beats, and 
the problem disappears when they travel to areas not requiring 
oxygenated gasoline. One person reported that his heart immediately 
stabilized when he flew in an airplane. He has since moved from New 
York City because he could not tolerate the medical problems he was 
having that he attributed to the MTBE-related air quality. The 
observation that this problem gets worse at night suggests that FA or 
TON may be a factor. Also interesting is the fact that the 1993 Vital 
Statistics report from New York State indicates that, whereas the death 
rate from non-ischemic heart disease had been dropping steadily since 
1988, beginning in 1992 it began to climb again in New York City. The 
fact that a much smaller rise was seen in ``the rest of New York 
State'' suggests some environmental factor present in New York City but 
not New York State. MTBE was mandated mostly in the New York City area 
and surrounding suburban counties, and not in most of upstate New York. 
A similar, but smaller, increase is seen in the Vital Statistics 
reports from Philadelphia in 1992, 1993, and 1994. Obviously, further 
research on this problem is needed.
    The intensity of symptoms decreased for myself and many others in 
early April 1995. This is probably due to the reduced emission of FA 
from cars which are not being driven while very cold as in the winter. 
However, I and others I know with this sensitivity still usually feel 
worse on dark, cloudy days without rain. The fact that rain clears our 
symptoms argues against some effect attributable to reduced air 
pressure or lack of perceived sunlight. Furthermore, in the fall and 
winter of 1995-96 I and many others again experienced increasing 
difficulties, although generally not quite as bad as the winter of 
1995. This relative improvement is probably due to the fact that 
Philadelphia was required to use only 11 percent MTBE in 1995-96, 
rather than the 15 percent of the previous winters. A similar reduction 
in intensity of symptoms was not reported by individuals in Fairfield 
County, Connecticut, where the gas was again required to contain 15 
percent MTBE. The general worsening of symptoms in winter may also be 
due to the shortening of daylight hours, thus exposing us to more FA or 
TON.
    The question of what the practicing physician can do is difficult. 
Since the very existence of the disease is controversial, there are no 
established treatment guidelines. Antihistamines are usually not 
helpful, with the possible exception of the skin rashes. In several 
cases of extreme skin rash, treatment with high doses of oral 
prednisone for several weeks was necessary. This is not surprising 
since sensitivity to small molecules may not be mediated by the IgE 
allergic responses that lead to excessive histamine release. l 
speculate that sensitivity to poison ivy may be a more chemically 
accurate analogy. However, in this case the agent is being inhaled 
rather than applied to the skin. Current medical opinion is divided on 
the nature of the neurological or immunological reactions in this type 
of sensitivity reaction.
    Some people go on to develop major respiratory problems similar to, 
or possibly including, asthma, which require inhaled steroids for 
management. In some cases the physicians diagnose only ``dyspnea'' 
since spirometry tests for asthma are negative. I believe that the 
increase in asthma rates in cities in recent years is largely 
attributable to the increased usage of MTBE in gasoline over this 
period of time. MTBE was first approved for use in gasoline in 1979, 
exactly the year that asthma mortality abruptly reversed direction; 
what had been a steady decline and has been climbing ever since. \20\ 
\21\ The Philadelphia Inquirer \22\ said that asthma deaths in 
Philadelphia have tripled since 1981. Recent statistics from the 
Philadelphia Department of Health showed an increase of 44 percent in 
office visits for asthma from 1993 to 1995, exactly the period when 
MTBE and RFG have been required. Prevalence data obtained by a school 
nurse in Downingtown, PA show a 100 percent increase between October 
1992 and October 1993, following the introduction of 15 percent MTBE in 
November 1992. No one has offered any other plausible explanation for 
this explosive growth in asthma other than FA. On September 5, 1995 the 
New York Times ran a front page article \23\ describing rising asthma 
rates in the Bronx; the death rate of 11.0/100,000 is 26 times the 
national average in 1988! I have spoken to several school nurses (two 
in Delaware County, two in Chester County, and one in Nutley New 
Jersey) who were (independently) unanimous in their observation that 
they have seen a huge increase in childhood asthma over roughly the 
last two or 3 years. Some writers have suggested that the increase in 
childhood asthma is limited to the minority populations in the inner 
cities. My information does not support that idea. Downingtown, PA, for 
example is in Chester County, a semi-rural area about 40 miles west of 
Philadelphia. One man who coaches athletics in a very wealthy ``Main 
Line'' suburb of Philadelphia says he has seen a huge increase in 
asthma in children over ``the last three or 4 years.''
---------------------------------------------------------------------------
    \20\ Sly R.M. Changing asthma mortality. Ann. Allergy 1994;73:259-
268.
    \21\ Rachelefsky G.S. Helping patients live with asthma. Hospital 
Practice 1995;Nov 15:51-64.
    \22\ Fitzgerald S. Asthma's grip baffles the experts. (Phila. Inq. 
June 11, Philadelphia, 1995), pp. I -18.
    \23\ Nossiter A. Asthma Common and on Rise In the Crowded South 
Bronx. (New York Times, September 5, New York, 1995), pp. 1-2.
---------------------------------------------------------------------------
    Further evidence that usage of MTBE in gasoline exacerbates asthma 
comes from Dr. Kevin Fennelly of the National Jewish Center for 
Immunology and Respiratory Medicine in Denver. Dr. Fennelly observed 
that some of his asthma patients got worse when MTBE was mandated in 
their gasoline. Denver was given oxygenated gasoline in 1988, 4 years 
earlier than most other cities. He applied to the EPA for funding to 
study this problem but the money was never given. Obviously, an 
epidemiologic study of this problem is imperative. Unfortunately, with 
one exception, l have not succeeded in inducing any of the State health 
departments to take the slightest interest in this problem. As I 
indicated, the Colorado Department of Health has been especially 
zealous in its promotion of oxygenated gasoline and ignored many 
complaints from the citizens of that State.
    The one State health department that has taken my ideas seriously 
is Maine, where an extremely active citizen's action group is opposed 
to MTBE-RFG. Several legislators believe that their health has been 
affected and are holding public hearings. The Department of Health has 
initiated a study of asthma hospitalization rates in the State. Results 
through the first half of 1995 show no evidence for an increase in 
those counties using MTBE-RFG. However, due to the time lag for 
sensitization to occur, I would not expect to see any increase prior to 
the winter of 1995-96 at the earliest. One engine mechanic there 
developed severe occupational asthma 5 months after beginning work with 
MTBERFG, and he obviously has far greater exposure than does the 
general public.
    One school nurse in suburban Philadelphia said she has seen a huge, 
almost an order of magnitude, increase in the number of children 
diagnosed with attention deficit disorder (ADD). Since many of the 
neurological symptoms experienced by myself and other adults are very 
similar (lightheadedness, difficulty in concentrating, etc.), it is not 
unreasonable to attribute this diagnosed condition in children to some 
component of MTBE-induced air pollution. It is interesting to note that 
national statistics indicate a great increase in drug abuse among 
children starting in 1992; the geographical distribution of this 
problem was not made known.
    MTBE should have a high index of suspicion for automobile or 
gasoline workers with these symptoms. Mehlman \24\ found that a large 
percentage of workers in oil refinery plants using MTBE developed the 
symptoms discussed here. People whose homes have attached garages may 
get sick from the fumes from their cars kept there. It is my suspicion 
that some of the symptoms attributed to MTBE in gasoline may actually 
be due to contamination of gasoline with TBF. This idea is supported by 
otherwise inexplicable inconsistencies in reports from gasoline 
workers, such as a major change in severity of symptoms on changing the 
brand of MTBE-RFG.
---------------------------------------------------------------------------
    \24\ Mehlman MA. Dangerous and Cancer-Causing Properties of 
Products and Chemicals in the Oil Refining and Petrochemical Industry: 
Part XV. Health Hazards and Health Risks from Oxygenated Automobile 
Fuels (MTBE). Int. J. Occupational Med. Toxic. 1995;4:219-236.
---------------------------------------------------------------------------
    Because of the widespread protest against MTBE, the EPA and the 
White House Office of Science and Technology Policy contracted a 
detailed review of published research by the Health Effects Institute 
(HEI) of Cambridge, MA. I have prepared a detailed critique of that 
report which is available on request from me. In general, they ignored 
the evidence that I sent them and misinterpreted the evidence in the 
public literature. This misinterpretation was due to a series of false 
assumptions they made about the nature of the problem, for example, 
that all symptoms are due to MTBE rather than to FA. A list of their 
fallacious assumptions is enclosed. Nevertheless, the report offers 
these summary conclusions:
    ``They [the studies] do provide an imperative for further research 
. . . Also to be considered is that MTBE exacerbates the effects of 
other health factors.
    Individuals with preexisting respiratory health conditions or 
allergies and older people are among the groups who may be more 
sensitive . . . these studies provide an indication that some 
individuals exposed to emissions from automotive gasoline containing 
MTBE may experience acute symptoms such as headache or eye and nose 
irritation.''
    What is amazing is that in view of these facts, the HEI committee 
nevertheless concludes that [front page] ``the potential health risks 
of oxygenates are not sufficient to warrant an immediate reduction in 
oxygenate use.'' Unless there is some overwhelming advantage to public 
health from the use of oxygenates, it is difficult to see how this 
conclusion can be derived from all of the preceding data and 
uncertainties.
    The most important review of this question was published by the 
National Academy of Sciences in June 1996. They concluded that there 
were significant errors in some of the conclusions of the HEI report. 
They concluded that existing evidence clearly indicates that 
oxygenating gasoline does not significantly reduce carbon monoxide in 
winter, and that existing evidence does not rule out the possibility 
that MTBE usage is causing health problems. This report, which is 160 
pages long, is available from the NAS. I have written a seven page 
summary that is available upon request.
    In my opinion, this is really a problem of public health policy 
rather than clinical medicine. However, because of the confusing and 
controversial nature of the problem, more clinical input is essential. 
I encourage any physicians who are interested to contact me for more 
detailed information. I also encourage anyone interested to contact me 
to take part in the political movement whose purpose is to ban or 
reduce the level of this noxious chemical in our environment. I can be 
reached at the Hospital of the University of Pennsylvania, telephone 
number 215-662-6679. email: joseph rad.upenn.edu
                               __________
                  Health Effects from MTBE In Gasoline
                         peter m. joseph, ph.d.
Summary
    MTBE is a chemical that is being put into gasoline under orders of 
the Federal Government in certain regions of the country (Regions). 
Many people find that it is causing them various kinds of illness. The 
symptoms can be either respiratory, neurological, cardiac, or allergic. 
Respiratory means any part of your respiratory system can be affected, 
including sinuses, nose, and throat, and can cause cough or trouble 
breathing. Asthma especially has been made worse by this problem. The 
neurological symptoms can include insomnia, anxiety, dizziness, nausea, 
headache, attention deficit disorder, or heart palpitations. The 
allergic symptoms include watery or itchy eyes and skin rash. The 
easiest way to determine if you have this problem is to travel to a 
region of the country where MTBE is not required to be in all gasoline 
and see if your condition improves. In many cases, people find that 
their symptoms get worse at night and on dark cloudy days without rain, 
but get better when the sun is shining.
What is MTBE?
    MTBE is Methyl Tertiary Butyl Ether. It is a special kind of ether 
and is known to have effects on the brain. It contains oxygen inside 
each molecule, so it is used to add oxygen to gasoline. For this reason 
it is called an ``oxygenate.'' The purpose of oxygenating gasoline is 
to reduce the amount of carbon monoxide (abbreviated CO) gas that cars 
produce. Carbon monoxide is a poisonous gas produced by automobiles, so 
the EPA (Environmental Protection Agency) is trying to reduce it to im-

prove our health. The EPA says that MTBE reduces CO by at most 20 
percent, but a recent review by government scientists indicates that CO 
is reduced by at most 5-10 percent. That small reduction is very 
unlikely to be of help to anyone.
    MTBE is one component of the new so-called ``reformulated 
gasoline'' (abbreviated RFG). RFG must, by definition, contain the 
equivalent of at least 11 percent of MTBE. However, during the last 
three winters certain regions of the country have been required to have 
gas containing 15 percent MTBE. Those regions include New York City and 
surrounding regions in Connecticut and New Jersey, Philadelphia and its 
surrounding four suburban counties, Baltimore, Washington DC, and all 
of California. (There may also be other cities that I am not aware of; 
ask your local EPA office for details.) This was done from November 1 
to March 1 during the winters of 1992-93,1993-94, and 1994-95. Since 
January 1, 1995, all ofthese regions plus many more have been required 
to use RFG all year round. In most places, RFG will contain 1 1 percent 
MTBE, although in a few States (Washington, Oregon, Montana, and 
Minnesota) ethanol is used as the oxygenate rather than MTBE. Ethanol, 
also called ethyl alcohol, is exactly the same kind of alcohol that is 
used in alcoholic beverages. Again, your local EPA or State Department 
of Environmental Protection is the best source of information for your 
area.
    In December 1994 Pennsylvania canceled the MTBE program in all of 
Pennsylvania except for the five-county Philadelphia area. However, in 
some areas of Pennsylvania gasoline with MTBE was still being sold even 
though it was not required. It may happen that the EPA will soon 
require that Pittsburgh use RFG again.
What are the health concerns for MTBE?
    The EPA and others have done many animal experiments with MTBE. At 
high doses, larger than those you would normally encounter, it 
basically makes the animals drunk. So far, most of the animal 
experiments do not indicate any really bad effects from doses you are 
likely to receive in the air. However, some people react badly to MTBE, 
usually with headache, nausea, dizziness, or other signs of illness. 
These people will experience these problems when driving in heavy 
traffic or especially when pumping gasoline.
    A famous scientist in Italy, Dr. Cesare Maltoni, has conducted 
experiments in which he showed that rats got cancer when exposed to 
MTBE. Some cancer experts at the EPA agree that MTBE should be 
classified as a carcinogen. It was not so many years ago that people 
thought that benzene was safe, and in fact, some automobile mechanics 
used to wash their hands in it. Benzene is a chemical that used to be 
very common in gasoline, but now we know that benzene really does cause 
cancer. In fact, one of the goals of the RFG program is specifically to 
reduce the amount of benzene in gasoline to less than 1 percent.
    It is interesting to note that the 1990 Clean Air Act, which 
requires the use of either MTBE or some other oxygenate, also lists 
MTBE as a hazardous chemical whose presence in the environment should 
be reduced! For example, it is known to be very toxic when present in 
drinking water. Unlike normal gasoline, it easily dissolves in water 
and so is practically impossible to remove once it gets into the 
underground water supply.
    It is also interesting to compare the toxicities of benzene and 
MTBE. EPA regulations require that if certain quantities of either 
substance are accidentally spilled, they must be reported. EPA 
regulation 40 CFR 302 (CERCLA Section 102) requires that any spill of 
more than 1 pound of MTBE must be reported, whereas only spills of 10 
pounds or more of benzene must be reported. This implies that the EPA 
thinks that MTBE is 10 times more dangerous than benzene. In RFG 
gasoline they specifically require that benzene be limited to less than 
1 percent, whereas they nevertheless require that RFG contain 11 
percent MTBE or equivalent.
What other chemicals are involved?
    Theoretically, MTBE in your gas tank should burn up inside your 
car's engine and leave no residue. However, no automobile is 100 
percent efficient, so some MTBE does come out of the exhaust. The exact 
amount probably depends on how new and well tuned your car's engine is. 
Old cars usually emit much more pollution than new cars.
    In addition to MTBE, automobile combustion also produces another 
chemical, called formaldehyde, in the exhaust. Formaldehyde is known to 
be toxic, and is considered to be a major source of air quality 
problems and illness when indoors. For example, certain types of cheap 
wood (plywood, particle board) are known sources of formaldehyde. The 
amount of formaldehyde emitted when MTBE is in gasoline is definitely 
higher than without MTBE, although the exact amount is hard to pin 
down. Measurements in Hartford, Connecticut indicate an increase of 
roughly 50 percent. Measurements in a tunnel in San Francisco showed an 
increase of 38 percent.
    In fact, in all of the studies of automobile exhaust gases so far, 
there is roughly 5 percent of the exhaust that is called simply 
``unidentified hydrocarbons.'' This means that there are other 
chemicals being produced that have not been identified. It is most 
likely that among these is formic acid, since that is known to be 
produced when methanol is used as a fuel, and MTBE and methanol are 
closely related. Obviously, it is possible that formic acid could be 
among the unidentified hydrocarbons, but so far no one has thought to 
look for it. According to one medical reference book, formic acid can 
produce eye irritation, tearing, nasal discharge, throat irritation, 
coughing, trouble breathing, nausea, and skin rashes.
    Once the MTBE emerges from the tailpipe, it enters the atmosphere 
and we breath it into our bodies. It circulates in our bloodstream and 
enters all of our body's organs, including the brain, liver, developing 
fetus, etc. The liver converts it into formaldehyde and also another 
chemical called tertiary butyl alcohol (TBA). In most people it does 
this within a time span of one to 2 hours. Formaldehyde is known to be 
a toxic chemical that converts into formic acid and affects the brain. 
As for TBA, the human body is not well equipped to detoxify TBA, and it 
requires approximately 1 or 2 days for it to be eliminated. During this 
time you may experience symptoms from the TBA in your body. You should 
understand that TBA is different from the kind of alcohol in alcoholic 
beverages; that kind is called ethanol. The healthy human body can 
process and eliminate ethanol much more easily than TBA; that is why a 
person with a lot of ethanol in his blood does not remain drunk for 
more than a few hours after he stops drinking.
    When the MTBE is in the air, another chemical reaction also occurs; 
it can be converted into a chemical called tertiary butyl formate 
(TBF). The EPA and other MTBE proponents have totally ignored TBF. This 
is tragic since it is extremely irritating to the respiratory system 
and is probably responsible for many of the symptoms that people are 
experiencing. Very little scientific information is known about the 
toxic properties of TBF. However, it can be purchased as a research 
chemical, and its manufacturer gives this information on its toxic 
effects:
    Acute effects:
    <bullet>  Harmful if swallowed, inhaled, or absorbed through the 
skin;
    <bullet>  Material is extremely destructive to tissue of the mucous 
membranes and upper respiratory tract, eyes, and skin.
    <bullet>  Inhalation may be fatal as a result of spasm, 
inflammation and edema of the larynx and bronchi, chemical pneumonitis 
and pulmonary edema.
    <bullet>  Symptoms of exposure may include burning sensation, 
coughing, wheezing, laryngitis, shortness of breath, headache, nausea 
and vomiting.
    To the best of our knowledge, the chemical, physical, and 
toxicological properties have not been thoroughly investigated.
    So, TBF and formic acid are highly toxic chemicals of the type 
known as ``respiratory irritants.'' Other chemicals with similar toxic 
properties are known to induce asthma attacks as well as inhibit the 
body's natural defense against respiratory infections, such as cold, 
flu, pneumonia, etc. For example, the New York Times reported on 
January 17, 1995 that the flu was exceptionally bad in New York City 
and parts of Connecticut, but not in upstate New York. The areas that 
had a bad flu season, such as Philadelphia, were exactly those areas 
that have had 15 percent MTBE for the last three winters. Other cities, 
such as Boston, which just got MTBE in January were not as hard hit 
because those people have not been exposed to it as long as New York 
City. In December 1995 the New York Times reported that the flu had 
struck especially early that year, ``in spades.'' In November 1996, the 
Philadelphia Inquirer reported that the flu was in full force by the 
middle of November and that three suburban schools had been forced to 
close down entirely; such a closing was historically unprecedented. 
Thus it appears that, at least in Philadelphia and New York City, 
people are less resistant to the flu than in previous years.
    It is important to understand that you do not have to be in a car 
or at a gas station to be affected by these chemicals. They will be in 
the air throughout the polluted urban environment, so you can 
experience symptoms while at work, at home, or even in the hospital!
Who is affected?
    The key idea is chemical sensitivity. Some people are much more 
sensitive to certain chemicals than others; this is similar to being 
allergic. This effect is known to exist, but the medical facts are not 
well understood. Unlike allergy, it can not usually be treated with 
antihistamines or other drugs. Evidently most people are not sensitive 
to these chemicals or else we would see more people being sick from 
MTBE. However, it appears that approximately 5 to 10 percent of the 
people are sensitive to at least one of the previously mentioned four 
chemicals. It is possible to be sensitive to more than one.
    It is well known from experience in the chemical industry that 
someone who is not sensitive can become sensitive to a given chemical 
by being repeatedly exposed to it over a long period of time. This 
seems to be happening with MTBE and its byproducts (TBF), because with 
each passing month more people are complaining about sensitivity 
symptoms. This can happen to anyone, but it appears to be most 
prevalent in people over the age of 40 (especially women) and perhaps 
in children with allergies or asthma.
    Automobile mechanics and gas station workers who must breath MTBE 
and TBF fumes all day are showing more and more signs of illness. Some 
have become so sick they have been forced to quit their jobs.
What are the symptoms that people are reporting?
    The symptoms can be roughly divided into four categories: 
respiratory, neurological, allergic, and cardiac.
    Respiratory symptoms are due to irritation of the tissues in lungs, 
bronchial tubes, and nasal passages. The result feels much like a cold. 
Some people report sudden difficulty in breathing; that is a serious 
problem for which they should see a doctor as soon as possible. (Also, 
it is possible that the irritation produced can inhibit your body's 
natural defense against a true cold, although this has not been 
proven.) One common symptom is a long lasting cough that never seems to 
get better. Another common symptom is chronic inflammation of the 
sinuses. Also, many people with this problem just feel terrible, sort 
of ``sick all over.'' A sense of hot flushing in the skin around the 
head and neck is common.
    Neurological symptoms include nervousness, dizziness, spacey 
feeling, ``lightheadedness,'' nausea, insomnia, and headache. Some 
people describe this as like having a cloth wrapped around your brain, 
or being drunk. Some people have trouble with short term memory. A 
common problem is difficulty in concentrating on complex tasks, such as 
reading a complicated newspaper article or paying attention to traffic 
while driving. It is possible that this is the cause of the recent 
increase in attention deficit disorder (ADD) in schoolchildren in MTBE 
regions of the country.
    The allergic symptoms include watering in the eyes, discharge of 
fluid in the throat, or skin rash.
    Some people are reporting heart palpitations from exposure to auto 
exhaust or on bad weather days. There have also been many reports of 
apparently healthy young athletes dying of unexpected heart attacks, 
especially on cloudy days. If you experience this sort of problem, 
especially late at night, you should consult a doctor. Be sure to show 
him or her a copy of this report, because most doctors are not aware of 
this effect.
    Some people report that they have attacks of chest pain or heart 
palpitations while driving in traffic. Some scientists believe that TBF 
or formic acid can affect the beating of the heart through its effect 
on the nervous system, but this has not been proven. Nevertheless, 
statistics show a remarkable increase in the death rate from heart 
disease in New York city as soon as MTBE was mandated in 1992, and 
California newspapers report that some people are having heart attacks 
while driving through the tunnel between San Francisco and Oakland.
    The symptoms you will feel will depend on which of these chemicals 
you are sensitive to. Actually, the details of this problem are not 
known, so it is hard to be more specific than this.
How do you know if you have this condition?
    The respiratory symptoms are very similar to other diseases, 
especially to asthma or the common cold. The neurological symptoms 
could be caused by some other serious medical problem, such as anemia 
or brain tumor. You should get checked out by a doctor if you have 
these symptoms. There is no specific test for the MTBE condition. The 
best way to determine if you have the MTBE problem is to take note of 
what factors influence it. It is bound to be worst when in the center 
of a big city or near a major highway. If you can travel to another 
part of the country that does not require MTBE in gasoline, you can see 
if your symptoms go away.
Where is MTBE being used?
    This is complicated, since in some States it is practically 
required in all gasoline, in some States it is required only in certain 
counties, while in other States where ethanol is being used as the 
oxygenate there is practically no MTBE at all in the gasoline. States 
using only ethanol for oxygenate include Alaska, Minnesota, Montana, 
Oregon, Washington, and parts of Colorado. So far, most of Pennsylvania 
ex-

cept for Philadelphia, Delaware, Chester, Montgomery, and Bucks 
counties are not supposed to have mandatory MTBE. Obviously, if you 
want to escape MTBE it would be good to go to a very rural area. New 
Jersey, Connecticut, and Massachusetts, including their shore areas, 
have MTBE or some other oxygenate. However, some people have reported 
they feel better at some of the more isolated areas of the Jersey 
shore, such as Cape May. North Carolina has banned all oxygenated 
gasoline specifically because of bad health effects from MTBE, although 
MTBE is still being used as an octane enhancer in high octane grades of 
gasoline.
    If you are not sure whether MTBE is being required in your area, 
there are two things you can do to find out. The simplest is to just 
smell the gasoline at the pump, since MTBE has a very strong and 
distinctive odor that most people find very obnoxious. Another source 
of information is your local EPA office or State office of 
environmental protection.
Weather effects
    Weather plays a very important role in the symptoms of many people 
with this problem. Many people find that their symptoms get much better 
when the sun is shining and worse at night or on dark cloudy days when 
it is not raining. This may be because sunlight disperses the formic 
acid, although this has not been proven. It is also possible that 
another possible byproduct of MTBE, called TON, may be involved because 
it is definitely destroyed by sunlight. At the present time, we do not 
know the exact identity of the chemical that gets worse on cloudy days.
    On the other hand, if it is cloudy but raining then people usually 
feel better because the rain clears the air of many pollutants, 
including MTBE and TBF.
    However, there are some people who do not get better when the sun 
is shining and yet are convinced that their symptoms are related to 
MTBE because they feel better on travel to regions without MTBE 
gasoline. This must mean they are sensitive to some other chemical 
whose nature has not yet been determined.
What about pumping gas?
    Some people feel especially ill when they are pumping gasoline, and 
try to avoid it at all costs. The symptoms, which usually include 
dizziness or wooziness, can last for several hours. In several cases 
people have had serious automobile accidents soon after pumping MTBE 
gasoline. If you get symptoms only during or soon after buying 
gasoline, you might try to find a brand without MTBE. For example, on 
the east coast Getty Oil Co. usually uses ethanol instead of MTBE in 
the winter months. However, during the summer the EPA has forced them 
to use MTBE instead of ethanol.
How do we know about this problem?
    MTBE was first put into gas at a high level in Denver in 1988-89. 
The EPA set up a ``hotline'' on which to take complaints. They said 
there were very few. However, some sensitive people living in Colorado 
insist that the EPA never listened to their complaints; these people 
have been suffering ever since! In the winter of 1992-93, MTBE was also 
introduced into Alaska. In the city of Fairbanks, there was a huge rise 
in all of the previously mentioned symptoms with almost half of the 
city complaining. The problem was so obvious that the EPA hired doctors 
from the Centers for Disease Control (CDC) to investigate. The CDC 
study implied that MTBE was causing the illness. Governor Hickel of 
Alaska ordered all MTBE out of the State, and the symptoms promptly 
disappeared! The CDC then did a similar study in Stamford, Connecticut 
and found similar problems. Furthermore, they found that the intensity 
of the peoples' symptoms was directly related to the amount of MTBE in 
their blood. In Missoula, Montana, MTBE was used as an oxygenate in 
1992-93. There were many reports of the symptoms discussed here. Two-
thirds of the doctors there noticed that their asthmatic patients got 
worse. A citizens action group organized opposition and managed to get 
MTBE removed from their city. The result was a dramatic decrease in 
these symptoms.
    The EPA, however, rejected the CDC and Missoula findings and 
refused to allow the CDC to conduct any more investigations. The EPA is 
now pushing for this program to be expanded to even more States. You 
can call the EPA hotline at 800-621-8431 to protest this policy. 
However, do not expect to receive a polite answer. The most important 
step is to write to your senators and congresspersons and ask them to 
change the law that requires that we use this chemical in our gasoline.
    In 1995, the White House Office of Science and Technology Policy 
appointed several high level committees of scientists to look into this 
problem.
    The committee on air pollution concluded that the use of MTBE and 
other oxygenates has provided very little, if any, improvement in the 
air quality as normally determined. (They did not consider the 
tremendous increase in TBF in the air!) The committee on health effects 
wrote a rather ambiguous report in which they admitted that people with 
allergies and older people may be more sensitive and recommended that 
more research be done. They did not consider TBF or the tremendous 
increase in asthma in cities where MTBE is being required.
    These reports were severely criticized by a special ``blue ribbon'' 
committee of non-government scientists appointed by the National 
Academy of Sciences (NAS). The NAS is the highest body of scientific 
expertise in the country. The NAS report, released in June 1996, 
concluded that there is no evidence at all that using MTBE in gasoline 
is cleaning the air and may even be making ozone worse! They also 
indicated that they could not rule out the possibility that some people 
are becoming sick from MTBE in gasoline and recommended more research 
to see if that is true. They. also recommended that TBF be measured 
routinely in the air, something that has not yet been done.
Asthma
    The proponents of MTBE will point out that it has been used in 
gasoline since 1979 with, they say, ``no problems.'' However, asthma 
has been increasing dramatically over exactly that time span. The 
Philadelphia Inquirer on June 11, 1995 ran an article entitled 
``Asthma's Grip Baffles the Experts,'' in which they said that asthma 
deaths in Philadelphia had tripled since 1981, and that the cause was 
unknown. The article made it clear that we are now living with a real 
epidemic of this terrible, sometimes fatal, disease. Several newspaper 
reports from New York City indicate really huge increases in some parts 
of the city, with one school in the Bronx showing one-third of the 
students with asthma. On April 13, 1997 the New York Daily news ran an 
article that said ``New York is the asthma capital of the nation.'' 
Recent statistics from the Philadelphia Department of Health indicate a 
43 percent increase in asthma office visits from 1993 to 1995. Several 
of the asthma deaths of teenagers reported occurred in the middle of 
the night. Some studies indicate that formic acid increases at night. 
In view of the highly toxic effect that formic acid has on the 
respiratory system, the use of MTBE in gasoline has to be No. 1 on the 
list of suspected causes. Practically all schools in the Philadelphia, 
New Jersey, Connecticut, and New York City regions are reporting huge 
increases in asthma over the last few years that the asthma doctors are 
totally unable to explain. In Stamford, CT, the doctors noticed that 
the increase is worst for those children who live near Interstate 1-95 
and who play under the overpasses, obviously breathing a large amount 
of car exhaust. The Stamford Department of Health indicates that the 
percentage of children there with asthma jumped from 8 percent in 1993 
to 24 percent in 1996. Similarly, studies by asthma doctors in 
Philadelphia showed even higher percentages of children with asthma. 
These high percentages have never been seen before in human history, 
and are so high that some doctors just can't believe them! We 
desperately need to get more statistics on the increase of asthma in 
school children. There is also evidence of a huge increase in the 
incidence of asthma appearing for the first time in adults, something 
that used to be rare, because asthma usually appears first in 
childhood.
What can be done about this?
    In many States where MTBE has been used, citizen action groups have 
formed to oppose MTBE. In New Jersey a group called ``Oxybusters'' has 
accumulated over 13,000 petition signatures, and in Pennsylvania so far 
2000 signatures.$ However, government officials have so far ignored 
these petitions. That is why a letter to your elected officials is more 
effective than just signing a petition.
    In California, the Oxybusters group has had much more success. With 
the support of a San Francisco talk radio station, they gathered over 
62,000 petition signatures. On April 15, l 997 a bill was introduced 
into the California Senate to (essentially) ban MTBE. After hearing 
testimony from three scientists, as well as several citizens whose 
health has been affected, the Transportation Committee voted 7-1 to 
pass the ban. At present, the ultimate fate of the California ban is 
not yet known.
    Another important activity is to somehow educate the public on the 
importance of this issue. This can be done by writing letters to your 
local newspaper. Do not expect doctors to be sympathetic, because they 
are usually very resistant to the suggestion that there is a new 
disease that they know nothing about. This is true even for those who 
suffer from it personally. However, after many months of seeing data 
and evidence they may eventually come to believe that we are right.
    *California OxyBusters was organized in December, 1996 and by May 
20, 1997 had collected over 80,000 petition signatures in support of 
legislation to remove MTBE from gasoline. The bill, SB521 is going 
through the legislative process as of this date.
    You can also make copies of this report and distribute them to 
friends, colleagues, and leave stacks whereever the public gathers, 
such as in pharmacies or doctors' offices. The following telephone 
numbers will reach Oxybusters or other citizens action committees 
against MTBE: California: 209-334-6538 or 415-334-6538; E-mail: 
acctech(lodinet.com Connecticut: 203-358-0780 Maine: 207-883-4691 New 
Jersey: 609-275-7080 or 609-589-6325 Pennsylvania: 610-352-7072 In 
addition, two Oxybuster chapters have set up web pages: http://
www.lodinet.com/mtbe.htm http ://www.ziplink.net/dgrolfe Also, somebody 
at MIT has a copy of the Hartford Courant article at http://the-
tech.mit.edu/V115/N38/gas.38w.html Call Dr. Peter Joseph, Hospital of 
the University of Pennsylvania 215-662 6679 for more information or to 
help in this matter.
                    a few points of fact about mtbe
    <bullet>  MTBE is a poison.
    <bullet>  Prior to using MTBE as a gasoline additive on a massive 
scale in 1992, there were no adequate studies to support the safety of 
MTBE: this continues to be proven by the increasing reports of human 
illnesses and ongoing carcinogenic studies.
    <bullet>  MTBE in gasoline causes neurotoxic, allergic and 
respiratory illnesses.
    <bullet>  Toxicological studies do NOT support the safety of MTBE.
    <bullet>  MTBE from gasoline and its metabolites accumulate in 
human blood.
    <bullet>  TBA, a MTBE metabolite, causes cancer in experimental 
animals.
    <bullet>  MTBE causes an increase in concentrates of formaldehyde 
in the air. Formaldehyde is a carcinogen that causes leukemias and 
lymphomas.
    <bullet>  MTBE in gasoline does not statistically significantly 
reduce blood benzine levels in humans.
    <bullet>  Oil refining workers and consumers are getting sick when 
exposed to MTBE.
    <bullet>  MTBE causes cancers in many organs and tissues of two 
species of experimental animals. These cancers are identical to those 
caused by exposures to of the same dose to benzene, vinyl chloride and 
1.3 butadiene, all known carcinogens. There is general agreement among 
experts in chemical carcinogens that a substance which causes cancer in 
a significant number of experimental animals in well conducted assays 
poses a presumptive carcinogenic risk to some humans, even in the 
absence of confirmatory epidemiological data. There is no recognized 
method as yet for establishing the existence of a threshold for a 
carcinogen in the human population. These principles, which are 
accepted throughout the world, have served for many years as the basis 
for sound public health policy and regulatory action on carcinogens.
    <bullet>  MTBE causes leukemias and lymphomas, testicular, kidney 
and liver cancers in test animals.
    <bullet>  MTBE is most likely immunotoxic to humans (tests are 
under way).
    <bullet>  MTBE does not reduce CO exceedences of above 9 ppm as was 
proposed (New Jersey, Alaska, North Carolina).
    <bullet>  Industry claims that few areas experience toxic symptoms 
from MTBE is FALSE.
    <bullet>  MTBE is not magic. ``It is my opinion after review of the 
scientific literature and of the numerous Oxygenated Fuels Association 
advertisements, the EPA was mislead by industry officials who 
misrepresented the safety of MTBE without the support of adequate 
studies. A good example of this is kidney cancer. In this case the 
industry assured the EPA that kidney cancer was caused by a special 
mechanism of action (2ug globulin) which they alleged was not relevent 
to human cancer. Upon testing, however, this turned out not to be the 
case. Consequently, the Agency misclassified the cancer risk from MTBE. 
In due time this mistake will be corrected.'' (Dr. Myron E. Mehlman, 
Ph.D.)
    <bullet>  Interpretetions and conclusions by scientists from 
consulting corporations and universities paid by the oil industry 
concerning the safety of MTBE is FALSE!
    <bullet>  ``The greatests tragedy is that all of the adverse health 
effects from exposure to gasoline containing MTBE could have been 
avoided. It is apparent that there has been deliberate experimentation 
on unknowing and unsuspecting citizens of our country.'' (Dr. Myron E. 
Mehlman, Ph.D.)
    <bullet>  MTBE is not the only source of problems. Its metabolites, 
created when it is burned in automobile engines, include formaldehyde, 
TBF or TBA and toxilogical symptoms correlate with blood [MTBE and 
metabolites] levels.
    <bullet>  Ambient TBF levels are sufficient to create problems.
    <bullet>  Respiratoty infections are made worse by TBF.
    <bullet>  Drastic increases in asthma cases correlate precisely 
with the use of MTBE in gasoline.
    <bullet>  Toxic symptoms disappear when people leave areas where 
MTBE is used.
    <bullet>  With the addition of MTBE, more gasoline is used and thus 
has a greater impact on environmental degeneration.
    <bullet>  MTBE in gasoline causes leaks in gas tanks and 
underground storage tanks.
    <bullet>  MTBE causes deterioration of automotive fuel systems.
    <bullet>  MTBE in gasoline reduces mileage per gallon.
    <bullet>  MTBE dissolves in water and very difficult to remove. 
This will result in drastic increases in the cost of water in districts 
with MTBE contaminated water supplies.
    <bullet>  MTBE is being found in significant quantities in water 
supplies.
    <bullet>  MTBE in very small concentrations in water adversely 
affects it taste and in very moderate quantities makes it undrinkable.
    <bullet>  MTBE in irrigation water could destroy our agricultural 
industry if other States and countries refuse to buy California 
produce. Dairy and animal products would be similarly affected.
    Many points in this list are taken from a letter dated March 29, 
1995 written by Dr. M.A. Mehlman to Fred Craft, Executive Director, 
Oxygenated Fuels Association, Inc. Washington, D.C. Dr. Mehlman is 
editor of the journal Toxicology and Industrial Health and is a 
consultant to the Oil, Chemical and Atomic Workers union. He has 
surveyed over 800 people in New Jersey in regards to MTBE and its 
erects on them. Dr. Mehlman is Adjunct Professor of Public Health, 
Robert Wood Johnson Medical School, Piscataway, NJ. (609) 683-4750. 
Other points are taken from various news reports and other previously 
published writings of Dr. Peter M. Joseph.
                               __________
             Statement of the Oxygenated Fuels Association
    This statement is presented to the Environment & Public Works 
Committee of the United States Senate by the Oxygenated Fuels 
Association (OFA) in response to the field hearing conducted on 
December 9, 1997 in Sacramento, California concerning methyl tertiary 
butyl ether (MTBE). OFA is a national trade association established in 
1983 to advance the use of oxygenated fuel additives. These additives 
not only improve the combustion performance of motor vehicle fuels, 
thereby significantly reducing automotive emissions and air pollution, 
but also replace or dilute many of the toxic compounds historically 
associated with gasoline emissions.
    OFA member companies produce and market the majority of the United 
State's oxygenate compounds for use in cleaner burning, reformulated 
gasoline (RFG) and pollution fighting wintertime oxyfuels, including 
California's clean-burning gasoline program. The oxygenate of choice, 
both in California and nationwide, is MTBE--the prime pollution 
fighting component in clean burning CARB II and reformulated gasoline.
    Our membership appreciates this opportunity to present the views of 
OFA with respect to the committee's questions concerning MTBE and its 
role in the RFG and cleaner burning gasoline programs. We request that 
this written statement become part of the official record of this 
proceeding.
    This inquiry represents a clear case of right time, right place and 
right agenda. The highway of history has brought energy, health and 
environmental concerns to a crossroads where we are left with two 
choices--a head-on collision, or some common sense cooperation.
    What better time to arrive at this intersection than here and now?
    The time is the relative beginning of the reformulated and cleaner 
burning gasoline programs, giving us a large enough window of 
opportunity in which to protect our air and water resources while 
assuring our ability to produce and distribute the fuels that are so 
vital to this nation's future.
    OFA's purpose in submitting this statement is not to complain that 
MTBE is misunderstood or unfairly abused about its impact on the health 
and environment, especially by a few entities in the State of 
California. OFA is not submitting this statement to inflame the debate 
about who is the bad guy in this story. Instead, we would like to 
substitute reason for emotion. To do that between now and the end of 
these remarks, OFA will state and attempt to support four points.
    The first thing we will say is that we are still in the crisis 
enrichment stage of the RFG program. That means we know what we do not 
know, and lacking definitive knowledge there is a temptation to imagine 
the worst, overcorrect the problem, and do considerable damage to our 
energy, environmental, and economic needs.
    The second thing OFA will convey is that we are practicing guilt 
distribution. While attempting to deflect or conceal the real problems 
affecting a few ground and surface water resources, again mostly in 
California, it has been decided by a vocal few that MTBE is the 
culprit. If we can just eliminate it as a constituent in gasoline, our 
lives will be enriched and risk-free.
    The third point OFA will make is to issue a plea for balance. This 
nation's political, business and public interest leaders and policy 
makers have come a very long way to recognize that production of energy 
and protection of environment and health are no longer mutually 
exclusive. We need to recognize the contradiction between the shouting 
that our water is poisoned, and our air is fouled--and the reality that 
we are now healthier and enjoy longer lives than human beings ever 
have.
    And the fourth point we will emphasize is the need for all of us to 
come to our senses--in this case, a sense of purpose, a sense of 
timing, and a sense of cooperation. We all want a healthy environment 
and affordable energy. To whatever extent RFG, MTBE and the supply and 
distribution system plays to affect those goals, we have the time and 
the talent to create the solutions that will keep us on the course we 
can all live--and breathe--with.
    So, what is MTBE? Methyl Tertiary Butyl Ethyl is an octane enhancer 
and cleaner burning octane alternative to lead and aromatics. MTBE was 
first commercially used in Europe in 1973. It has been used in the 
United States since 1979 and in California for over 12 years--since 
1986. It is now the principal pollution fighting ingredient in RFG.
    RFG is sold year-round in about 32 percent of the U.S. gasoline 
market, throughout 17 States with the worst air pollution problems. 
According to U.S. Environmental Protection Agency estimates, since its 
introduction in January 1995, RFG has eliminated approximately 300 
million tons of pollution from the nation's atmosphere. In California, 
reductions in vehicle emissions including VOCs, NO<INF>X</INF>, 
SO<INF>2</INF> and CO due to cleaner-burning gasoline are equivalent of 
removing of 3.5 million vehicles from the State's roads. In addition, 
California's level of highly toxic benzene from fuel exposure has been 
reduced by 50 percent.
    The result of this program is that the citizens of California now 
enjoy the best air quality not just in years, but also in decades. 
Enclosed as Attachment I is a California Air Resources Board (CARB) 
report entitled ``Cleaner-Burning Gasoline: An Assessment of Its Impact 
on Ozone Air Quality in California,'' issued in October 1997. The study 
examined the improvements in ozone air quality due to RFG in three 
major areas of the State, namely, the South Coast Air Basin, the 
Sacramento Metropolitan Area, and the San Francisco Bay Area.
    After factoring control strategies for emissions other than from 
vehicles and for meteorology, the CARD findings are significant in that 
cleaner-burning gasoline, with MTBE as its principal pollution fighting 
additive, is directly responsible for the following ozone improvements:
    --11 percent improvement in the South Coast Air Basin
    --12 percent improvement in the Sacramento Area
    In the nation-wide market, MTBE comprises approximately 80 percent 
of the volume of oxygenate required to produce RFG. Most of the 
remaining 20 percent are ethanol used primarily in the Midwest where 
State incentives exist. The reasons are easily explained. Simply 
stated, air quality restrictions, refinery operating requirements, 
state-of-the-art blending practices, ease of supply and distribution 
and basic economics dictate MTBE as the oxygenate of choice for most 
areas requiring cleaner burning gasoline.
    Similarly, in the regions of the country where other oxygenates are 
used, the additives of choice for local rehmery operations are 
determined by the same economic and logistical issues.
    Concerning the first of the four points we wish to emphasize to the 
committee--in the U.S., and particularly in California, we are very 
much into the crisis enrichment stage on this matter. An intense public 
debate, fueled by the pseudo science of radio talk show commentary and 
exacerbated by misleading and inaccurate press reports, continues among 
political, economic and commercial circles regarding MTBE. An outburst 
of emotional alarm, based on anecdotal and unsubstantiated claims 
concerning health and environmental impacts of MTBE, remains the focus 
of attention.
    However, the facts concerning MTBE and health prove different. MTBE 
is one of the most extensively tested chemicals ever introduced in 
modern commerce, amounting to approximately 80 health studies since 
1969. Assessments of these studies generally concluded that the use of 
MTBE as a gasoline additive poses no increased risk of health effects 
over conventional gasoline. In fact, the addition of MTBE to make 
gasoline burn cleaner results in lower vehicle emissions which, in 
turn, contributes to improved public health by limiting human exposure 
to air pollution.
    The White House's Office of Science and Technology Policy (OSTP), 
in its Interagency Assessment of Oxygenated Fuels Report, concluded 
chronic, non-cancer health effects (neurological development or 
reproductive) ``would not likely occur at environmental or occupational 
exposures to MTBE.'' In California, the California Air Resources Board 
(CARB) credits the State's clean gasoline program for reducing the 
public's exposure to cancer risk by 40 percent. In terms of 
encroachment of MTBE into drinking water sources, the OSTP report noted 
that `` . . . the consumption of drinking water was not a major route 
of exposure . . . '' for MTBE, based on the available monitoring data 
collected so far. The OSTP report farther noted that most detection of 
MTBE was below the lower limit of a previous draft EPA health advisory 
of 70 parts per billion (ppb).
    While the U.S. has led the world in MTBE studies, other parts of 
the globe have also conducted research into the health effects of MTBE. 
For instance, The European Centre for Ecotoxicology and Toxicology of 
Chemicals (ECETOC) has concluded: ``the risk characterization for MTBE 
does not indicate concern for human health with regard to current 
occupational and consumer exposures.'' ECETOC also concluded: ``MTBE is 
not carcinogenic according to the criteria (set forth in the European 
Union's) Directive on Dangerous Substances.'' Dr. Nancy Balter, 
Principal with the International Center for Toxicology and Medicine, 
presented formal testimony at the field hearing and her final statement 
is enclosed, labeled as Attachment II.
    What we have done in California and as a nation is to identify what 
we think is a problem, gone through the initial response of over-
reaction, and are now, hopefully, moving toward a more measured 
approach.
    California recently enacted legislation that calls on the 
University Of California to perform additional studies--a requirement 
that OFA both applauds and supports. The oxygenates industry is 
confident that sound, objective science will demonstrate, once again, 
that MTBE benefits human health and the environment when properly used 
by significantly reducing air pollution.
    The second point we mentioned is that the process of guilt 
distribution is underway. Finding someone to blame. Who are the good 
guys and who are the bad guys? This phenomenon has been exacerbated as 
stories abound concerning the contamination of California's water 
resources.
    MTBE has been detected in some sites in California, mostly at 
levels far below any potential to harm human health or welfare. In a 
few instances, however, the levels of contamination have been 
substantial and have precipitated quick and appropriate responses from 
civic authorities.
    OFA firmly believes that MTBE and the other hundreds of components 
of gasoline should never be in the water table or in surface waters. 
Releases or leaks from underground gasoline storage tanks or pipelines 
are the main causes of MTBE entering groundwater sources. The presence 
of MTBE in groundwater is a strong indicator that other toxic gasoline 
components, such as the known human carcinogen benzene, have also 
entered the subsurface.
    OFA further believes the responsible parties for leaking tanks or 
pipelines, whether industrial, commercial or municipal, should bear the 
financial burden of emergency response, cleanup and remediation for 
such events.
    OFA supports Federal and California requirements for upgrading 
underground tanks and related improved leak monitoring programs, which 
must be in place for all gasoline storage sites by December, 1998. 
Sites that had previous leaks or spills must also be cleaned up by this 
deadline. Failure to meet these requirements will result in closure of 
these sites. We support these programs and applaud the State of 
California for its leadership in this vital environmental effort.
    In addition, statements have been made suggesting that the 
``corrosive'' nature of MTBE is the main cause for the failure of 
underground storage tanks and thus responsible for the leakage of 
gasoline into certain ground water resources. These statements, at best 
inaccurate, further demonstrate the need for balance and reason. As a 
supplement to this statement, the committee will find several documents 
completely dispelling the notion that MTBE is the causal agent in the 
leaking or failure of underground fuel tanks. The first, labeled 
Attachment III, is a paper entitled ``MTBE Compatibility with 
Underground Storage Tank Systems,'' prepared by James M. Davidson of 
Alpine Environmental, Inc. Among the many conclusions of the scientific 
study that debunk the theory that MTBE is the culprit in the tank 
leakage problem are the following:
    ``All information indicates that MTBE is compatible with 
underground storage tanks and piping made from fiberglass.''
    ``All available testing of numerous seals indicated they were 
compatible with the maximum MTBE concentrations allowed by law in 
gasoline (i.e. 15 percent MTBE volume/volume).''
    ``No scientific basis could be found to support claims that MTBE 
may be causing UST leaks due to incompatibility with glues used in 
fiberglass UST systems, or due to incompatibility with vapor recovery 
systems.''
    The second document (Attachment IV) concerning tank compatibility 
with MTBE is a paper written by Sullivan D. Curran, Executive Director 
of the Fiberglass Tank & Pipe Institute. The paper discusses the 
compatibility of gasoline and gasoline-oxygenate blends. Also included 
(Attachment V) are warranties for double-wall under-

ground petroleum storage tanks provided by Fluid Containment, Inc. and 
Xerxes Corporation, two leading manufacturers of underground storage 
tank systems. These warranties each expressly provides a thirty (30) 
year guarantee for oxygenated motor fuels containing up to 20 percent 
(by volume) of MTBE.
    That brings us to the third point--a call for balance and middle 
ground. It is time to eliminate the rhetoric; to look at what is 
possible and probable--to be reasoned and reasonable.
    As a practical matter, MTBE is essential in making the CARB II and 
Federal RFG gasoline necessary to meeting clean air requirements with 
the huge California demand for gasoline. Californians use 35-37 million 
gallons of gas per day, or about 13 billion gallons per year. The 
existing refinery configurations and available supply of other 
oxygenates are not adequate to replace MTBE and still meet this huge 
demand. The needed changes would require additional massive investments 
to retool rehmeries, build oxygenate capacity, and in some cases add 
transportation and distribution facilities.
    The oxygenate and oil industries have already spent more than $3 
billion in California for capital expenditures for Clean Air Act 
compliance based upon what they identified as the only viable means of 
compliance.
    OFA firmly believes that it is unwise to consider alternative 
oxygenates that have not undergone the same kind of rigorous scientific 
scrutiny applied to MTBE. The fact is MTBE is one of the most studied 
compounds ever to be introduced into modern commerce. As previously 
stated, no fewer than 80 health studies have been completed to date, 
which collectively demonstrate that MTBE is not harmful when used for 
its intended purpose--as an anti-pollution additive in gasoline. 
According to the President's Office of Science & Technology Policy 
(OSTP), health studies, including controlled exposure studies, have 
shown that persons are not at increased risk of experiencing acute 
health effects. The National Academy of Sciences, in a review of the 
OSTP report last June, concluded that MTBE appears ``not to pose a 
substantial human health risk.'' The Health Effects Institute said 
``adding oxygenates is unlikely to substantially increase the health 
risks associated with fuel used in motor vehicles; hence, the potential 
health risks of oxygenates are not sufficient to warrant an immediate 
reduction in oxygenate use at this time.'' With 80 studies, needless to 
say, there are many other excerpts that could be quoted. To phase it 
out--particularly in favor of less thoroughly tested additives (or 
return to more-polluting conventional gasoline)--makes no sense.
    The current debate over the use of MTBE, especially in California, 
can not, and should not, devolve into the notion that this is a choice 
between clean air or clean water. It is true that some water resources 
have been contaminated, raising legitimate questions about MTBE, its 
health effects and encroachment into water supplies. On October 20, 
1997, the California Department of Health Services reported that out of 
2,268 drinking water sources sampled, 28 had detections of MTBE. Santa 
Monica and Marysville had findings exceeding the State action level of 
35 ppb. It is critical that these issues are thoughtfully and 
responsibly addressed, and the California legislature has taken action 
to do so.
    The real issue of course is that gasoline does not belong in the 
water and if it ends up there it should be cleaned up. It became 
popular to say that MTBE could not be cleaned up in the water. But that 
is, quite simply, not true. MTBE can be remediated with existing and 
effective technology. It can be more expensive than cleaning up 
benzene, for example, however, in many cases these costs are within 
reason. A paper prepared by Michael C. Kavanaugh, P.E., Ph.D., Vice 
President of Malcome Pirnie and an expert in remediation, water 
treatment technology and associated costs, is enclosed as Attachment 
VI.
    The California legislature recently passed and the Governor signed 
three bills to address the benefits and concerns related to MTBE and 
other oxygenates. These bills call for extensive study and evaluation; 
direct the establishment of drinking water standards; require 
identification and monitoring of potential sources of water 
contamination, and expedite the remediation of gasoline spills and 
leaks. A fourth measure passed by the California legislature and signed 
into law by the Governor prohibits the delivery of any petroleum 
products to tanks not in compliance with the new standards. OFA 
supports these measures and particularly looks forward to the 
anticipated exoneration of MTBE through the studies required. Both 
Wisconsin and Maine have already gone through a similar process and 
reached the conclusion that MTBE is safe as it is used in gasoline and 
indeed provides tremendous health benefits through its cleaner burning 
gasoline properties.
    Our fourth and fmal point sums up the other three. It is an appeal 
to develop our senses. The first of these is a sense of purpose. We 
should understand that most everything begins with energy. Nearly 
everything we do as a civilization has a direct link to energy. RFG and 
cleaner-burning gasoline, with MTBE as the additive of environmental 
and economic choice has a huge role in that equation. Our purpose must 
be to fmd the best way to use it as intended, not the most expedient 
way to condemn it.
    One more sense we should promote is that of mutual cooperation. A 
sense of understanding that health and the environment are everyone's 
concern. No one has exclusive claim about clean air and water.
    OFA appreciates the fact that individual States, including 
California, have not allowed themselves to be swayed by false claims 
and innuendoes. We trust the U.S. Congress will likewise render similar 
judgement. We are absolutely convinced that sound science, facts, and 
demonstrated results do and will continue to prove the efficacy of MTBE 
as a safe, effective pollution fighter.
    California is enjoying the finest air quality the State has 
experienced in over 4 decades, and we are very pleased to be a part of 
that substantial achievement.
                                 ______
                                 
                                ADDENDUM
1. Supply and Demand
    The current demand for gasoline in California is approximately 
950,000 barrels per day (bid). Both CARB II gasoline and Federal 
reformulated gasoline (which is required to be used in certain Federal 
nonattainment areas of the State) need the addition of oxygenates to 
work. The State's gasoline sales are split about two-thirds Federal 
reformulated gasoline and one-third CARB II gasoline. Because it is the 
least expensive, most plentiful, and highly effective alternative, more 
than 90 percent of the oxygenate compounds used in California are MTBE, 
totaling approximately 96,000 bid. Most of the other oxygenate used in 
California is TAME, a co-product manufactured within some refineries in 
limited volumes.
    The use of oxygenates like MTBE in the volumes discussed has a 
beneficial impact on the total supply of motor fuels throughout 
California.
    By adding MTBE or other oxygenates to gasoline, the total gasoline 
supply is increased. This helps stabilize the price of gasoline.
2. Limitations of Ethanol in California
    There are a number of reasons why ethanol can not materially 
replace MTBEin California, including availability, logistics, economics 
and environmental problems. In terms of logistics, for example, ethanol 
must be splash blended at individual terminals, requiring drastic 
changes to the logistical infrastructure across the State.
    According to an analysis by Dewitt & Company, Inc., the US 
production of ethanol is approximately 70,000 bid. Of this 23,000 bid 
are used for Clean Air Act (CAA) purposes (i.e. making Federal RFG) in 
PAD II; 17,500 bid for oxyfuels (wintertime use); and 27,000 bid used 
in the Midwest (encouraged by additional State subsidies). Thus, there 
is inadequate additional ethanol capacity for the California market 
(which would need an additional 50,000 bid of ethanol). To meet the 
full California need, new ethanol plants must be constructed, requiring 
an investment of at least $1.5 billion.
    With regard to transportation, ethanol can not be transported by 
pipeline, so it must be railed or trucked in--an expensive proposition, 
especially since every tank must be completely dry because of ethanol's 
affinity for water. The committee should consider whether there would 
be enough rolling rail stock (tank cars) to support a massive 
deployment of ethanol from Midwestern processing plants to California, 
especially during the current difficulties in the railroad 
transportation system plaguing all of American industry. Use of ethanol 
would force California to rely upon the railroads for a significant 
amount of its ethanol requirements.
    Then there is the question of ethanol's impact on the integrity and 
overall effectiveness of California's air pollution program. Because of 
ethanol's higher blending vapor pressure, it is more volatile than MTBE 
and can not be used without violating Federal Volatile Organic 
Compounds (VOC) standards, or making costly adjustments to the base 
gasoline stock. The National Academy of Science is continuing to study 
the ozone forming potential of ethanol based fuels.
    Therefore, for all these reasons, it is a practical impossibility 
to get enough ethanol into California as a substitute for MTBE. The 
bottom line is clear, from availability, cost, transportation and 
infrastructure points of view, ethanol is not a viable alternative to 
MTBE.
3. Bilbray Legislation
    The Clean Air Act Amendments of 1990 required the use of a Federal 
RFG that contains a minimum 2.0 percent oxygen content by weight in ten 
cities (and surrounding areas) which have the most serious ozone 
pollution levels. Due to the tight statutory deadlines placed on EPA 
for the development of regulations and guidance to the States along 
with the overall complexity of the issue and the level of public 
interest, a regulatory negotiation or ``REG-NEG'' committee was 
established. This committee compromised most affected stakeholders, 
including Federal and State governments and various affected industries 
and environmental groups. An historic agreement that formed the basis 
for the oxygenated fuels and reformulated gasoline program was signed 
by most of the participants on August 16, 1991.
    California, having additional clean air problems throughout the 
State, further restricted the use of conventional gasoline. The State 
adopted a ``cleaner-burning'' gasoline program that would include all 
areas of the State not covered by the Federal RFG program. This 
gasoline, known as CARB gasoline, does not require the use of 
oxygenates to meet the prescribed emissions parameters. The cities of 
Los Angeles, San Diego and Sacramento and the San Joaquin Valley are 
among the areas required by Federal mandate to use oxygenates in 
California's ``cleaner-burning'' gasoline. These areas and their demand 
for fuel suggests that approximately two-thirds of all gasoline sold in 
California must contain oxygen at a 2 percent minimum.
    Legislation has been introduced by Congressman Bilbray that would 
give California rehmeries the ``flexibility'' to maintain its fuel 
emissions standards without having to meet the Clean Air Act mandated 2 
percent oxygen requirement. OFA remains in opposition to this 
legislation. However, the merits (or lack of them) concerning the 
Bilbray legislation must not be part of this debate concerning the 
efficacy of MTBE in gasoline, its detection in groundwater or purported 
health effects. The issues are unrelated and while several attempts to 
join them have been attempted, the motives to do so are, at best, 
disingenuous. Enactment of Bilbray-type legislation will not solve the 
problem of gasoline and all its constituents leaking from underground 
storage tanks. Further, most proponents of the Bilbray legislation 
acknowledge the importance of MTBE in California's remarkable 
achievements in air quality and its necessity to remain a prominent 
component of CARB II gasoline.
    Enclosed as Attachment VII is an article entitled ``MTBE Concerns 
in California'' that was published by DeWitt & Company in their 
December 11, 1997 ``MTBE/Oxygenates/Clean Fuels'' Newsletter. In this 
article, Dewitt & Company, recognized experts in the fuels and refinery 
sectors, describe in detail the lack of relationship between the 
Bilbray legislation and the overall issue of MTBE in California 
gasoline.
                               __________
                              ATTACHMENT I
     california environmental protection agency air resources board
                       technical support division
                        air quality data branch
                    client support services section
                              october 1997
  Cleaner-Burning Gasoline: An Assessment of Its Impact on Ozone Air 
                         Quality in California
          investigators: lawrence c. larsen; steven j. brisby
    The opinions, findings, and conclusions expressed in this paper are 
those of the staff and not necessarily those of the California Air 
Resources Board.
                                Synopsis
    California's cleaner-burning gasoline was introduced statewide in 
early 1996. As the most significant ozone-reducing measure in 
California since 1975 when vehicle emission standards were adopted that 
required catalytic converters, cleaner-burning gasoline provided 
significant emission reductions almost overnight. Because the shift to 
cleaner-burning gasoline occurred over such a shorteriod, the impact on 
ozone levels in 1996 was expected to be discernable. This paper 
describes an effort to determine whether a measurable change in ambient 
ozone concentrations could be detected.
    The Air Resources Board staff analyzed ozone concentrations for the 
smog season (May through October) for the South Coast Air Basin, the 
Sacramento Metropolitan Area, and the San Francisco Bay Area Air Basin. 
The results show overall reductions in ozone of approximately 18 
percent and 14 percent for the South Coast and Sacramento regions, 
respectively, after adjusting for meteorological differences between 
1996 and years prior to the introduction of cleaner-burning gasoline. 
The results for the Bay Area are less conclusive; the analysis showed a 
modest overall im-

provement of approximately 4 percent in ozone in 1996, when compared to 
l995 and 1994. It is necessary to adjust for meteorology because 
different meteorology from day to day and year to year can produce 
different air quality even if emissions remain constant.
    The improved ozone reflects the cumulative effects of all State and 
local air quality measures including new motor vehicle emission 
standards. However, cleaner-burning gasoline was responsible for most 
of the emission reductions experienced in California in 1996. 
Therefore. it is reasonable to attribute the majority of the observed 
improvment to this program Based on emission inventory data, it is 
estimated that the introduction of cleaner-burning gasoline accounted 
for over half the ozone improvement in 1996. This analysis estimates 
that cleaner-burning gasoline accounted for about an 11 percent 
improvement in ozone in the South Coast, a 12 percent improvement in 
ozone in the Sacramento area, and a 2 percent improvement in ozone in 
the Bay Area.
    This paper presents the methodology used by the staff and the 
results of the analysis.
                       description of methodology
    The discussion below addresses the regions and time periods 
analyzed, the ozone data used, the meteorological factors selected, and 
the analytical methods applied.
What regions and time periods were analyzed?
    This analysis addressed three regions of California--the South 
Coast Air Basin (Los Angeles Area), the Sacramento Metropolitan Area, 
and the San Francisco Bay Area Air Basin Each of these regions has a 
relatively dense network of ozone monitors that operated both before 
and after introduction of cleaner-burning gasoline. In addition, these 
three regions had sufficiently complete meteorological data to support 
the detailed analysis that was required.
    Ideally, the impact of cleaner-burning gasoline on ozone air 
quality would be assessed by comparing the ambient ozone concentrations 
from the most recent years before the new gasoline (1994 and 1995) to 
the concentrations after the introduction of the new gasoline (1996). 
For the San Francisco Bay Area and the Sacramento Metropolitan Area, 
this approach was used.
    In the South Coast Air Basin, a different baseline period was 
needed because Federal Reformulated Gasoline was introduced in 1995. 
Because this analysis was not focused on changes in emissions due to 
the Federal program, the 1996 ozone data were compared to the 1993/1994 
ozone data in the South Coast Air Basin. By using this approach, the 
introduction of Federal Reformulated Gasoline did not mask the effects 
of cleaner-burning gasoline.
What odor data were used?
    The daily maximum ozone concentration is an important parameter 
from a public health perspective. For each year and region used in the 
analysis, the daily maximum ozone concentrations were used to represent 
regional ozone. The data for the daily maximum ozone concentrations 
were taken from the ARB's database for measurements that satisfy the 
criteria for ``data for record''.
Why should meteorology be considered?
    Differences in meteorological conditions affect the concentrations 
of air pollutants strongly from day to day and, to a lesser e dent, 
from year to year. Even when emissions of pollutants do not change, 
differences in meteorological factors such as winds, temperatures, and 
sunlight can cause pollutant concentrations to differ greatly. 
Accordingly, an analysis of the impact of cleaner-burning gasoline on 
ozone concentrations needs to consider meteorological differences that 
affect air quality data used to represent conditions before and after 
the introduction ofthe gasoline.
    Although existing information does not allow for complete 
accounting for weather effects, the methods used in this analysis to 
adjust for meteorology are thought to remove the majority of the 
weather effects and provide a valid way of determining emission 
impacts.
What meteorological measurements were used?
    Scientists have studied meteorology and air pollution, especially 
ozone, for many years. In studies around the world, surface ozone 
formation increases when precursors accumulate near the ground on days 
with intense sunlight and high temperatures. In many cases, certain 
meteorological measurements have been found to be Icey indicators of 
these conditions and, therefore, key indicators of ozone forming 
potential.
    Three types of routine meteorological measurements are often useful 
indicators of ozone forming potential in many areas of California. They 
are air temperatures sever al thousand feet above the ground, 
temperatures at the surface, and wind speeds at the surface. These 
indicators, individually or in combination, can often ``explain'' much 
of the day-to-day variation in ambient ozone concentrations associated 
with the weather Figures l(a)-1(c) use data from the Sacramento 
Metropolitan Area for 1994 through 1996 to illustrate the relationships 
between these three meteorological factors and daily maximum ozone in 
the region.
    Figure 1(a) shows the relationship between daily maximum ozone and 
the temperature of the air five thousand feet above the ground: Air 
temperatures aloft because they determine the height and strength of 
inversions that limit the volume of air in which pollutants can muc As 
temperatures aloft increase,.pollutants including ozone and its 
precursors--tend to accumulate near the ground. As Figure 1(a) shows, 
higher temperatures aloft usually indicate higher ozone forming 
potential. The relationship shown in Figure 1(a) is nonlinear, and it 
is not surprising that a second order term (e.g., X\2\) is often needed 
when using temperatures aloft to help explain differences in daily 
ozone.
    Figure 1(b) shows the relationship between daily maximum ozone and 
daily maximum air temperature near the ground. Surface temperatures can 
be effective surrogates for solar intensity while they measure 
temperature directly, solar intensity and temperature are important 
because the photochemical reactions that produce ozone work faster as 
sunlight and temperature increase. Higher surface temperatures usually 
indicate greater ozone forming potential. The relationship shown in 
Figure 1(b) is also nonlinear, and a second order term is usually 
important when using surface temperatures to help explain differences 
in daily ozone.
    Figure 1(c) shows the relationship between daily maximum ozone and 
surface wind speeds. Surface wind speeds are important because winds 
can help disperse pollutants and can increase the volume of air 
available to dilute pollutants; in general the higher the wind speed 
the lower the ozone potential. Although the relationship shown in 
Figure 1 (c) is nonlinear, a first order term is omen sufficient to 
incorporate the effect of wind speed on differences in daily ozone.
    In different areas of the State, temperatures aloft, surface 
temperatures, and wind speeds may differ in their relative importance 
for explaining differences in daily maximum ozone concentrations. 
Nevertheless, some combination of these three meteorological factors 
accounts for much of the variation in the daily maximum ozone 
concentrations throughout the ozone season in each of the three areas 
of California that were analyzed.
    Table 1(a) identifies the specific variables that were used in the 
equations that relate meteorological conditions to daily maximum ozone 
concentrations in each of the three regions analyzed. For the South 
Coast Air Basin, the combination of variables did not include wind 
speed because it did not significantly increase the ability of the 
equation to explain the daily maximum ozone concentrations in that re 
zion. Nevertheless, wind speed was included in the equations used for 
the Sacramento Metropolitan Area and the San Francisco Bay Area Air 
Basin.
How were the meteorological data applied?
    In concept, if emissions remain relatively unchanged from one year 
to the next, then days with similar meteorology should produce similar 
maximum ozone concentrations in both years. To confimn this, days with 
similar meteorology first need to be grouped together. Then, similar 
days in the first year are compared with similar days in the second 
year to determine whether there is a difference in ozone. Differences 
in ozone then most lilcely indicate a change in emission levels. The 
actual steps are briefly described below.
    First, maximum hourly ozone concentration data and meteorological 
data were collected for each day of the ozone seasons in the baseline 
years (before cleaner-burrung gasoline) and in 1996 (after cleaner-
burning gasoline). The ozone season is defined as May through October.
    Second, the data for the baseline years were used to develop an 
equation for each area that integrates the effects of daily 
meteorological conditions--air temperatures aloft, surface 
temperatures, and wind speeds. These equations were then used to 
quantify the ozone forming potential of all days in the ozone season. 
The days were then grouped by similarity of their ozone forming 
potential. We refer to these groups as meteorological categories or 
simply ``categories'' in this paper. The equation developed for each 
area is shown in Table 1(b).
    Third, it was observed that the number of days that fell in each 
meteorological category (i.e., the frequency distribution of ozone 
forming potential) was different for each year. For example, some years 
had more days that were conducive to the formation of high ozone than 
other years. In order to separate the effects of emissions and 
meteorology on ozone concentrations, we must first level the 
meteorological playing field. To allow comparison of ozone levels in 
one year with ozone levels in another year, both years need to have the 
same frequency distribution of ozone forming potential. Therefore, a 
standard or ``typical'' ozone season was established based on a 
representative mix of the meteorological categories.
    Table 2 shows the actual frequency distributions of categories for 
1994, 1995, and 1996 in the Sacramento Metropolitan Area. The frequency 
distributions for the 3 years were averaged together to produce a 
``typical'' ozone season frequency distribution. An example of this 
averaging method is shown in conjunction with Table 2.
    Fourth, the average of the daily maximum hourly ozone 
concentrations for the days in each category was calculated. This was 
done for each year. The results for the Sacramento Metropolitan Area 
are shown in Table 3.
    Fifth, all categories whose ozone forming potential exceeded the 
State ozone standard were identified. With these categories for each 
year, the average ozone concentrations were weighted together to 
produce an annual, meteorologically adjusted. average ozone. The 
weighting factor for each category was its typical frequency determined 
in the three above. Only those categories whose ozone forming potential 
exceeded the California l-hour ozone standard (0.09 ppm) were used 
because the elects of differing emissions (the focus of this analysis) 
are most discernable when the meteorological conditions lead to ozone 
concentrations well above the prevailing ``background'' concentrations. 
For the Sacramento Metropolitan Area, categories  and above were used 
for calculating the annual weighted averages. The results are shown at 
the bottom of Table 3.
    Finally, the annual weighted averages were used to estimate the 
impacts of emission reductions on ozone air quality before and after 
the introduction of cleaner-burning gasoline.
                       performance of the method
How well did the procedure account for meteorological effects?
    Although the analyses were necessarily limited by the amount of 
meteorological data and the level of detail that could be pursued, the 
procedure was effective according to the most commonly used objective 
measure of performance--``R-squared''.
    For example, Figure 2 shows graphically the effectiveness of the 
equation relating meteorological conditions and daily magnum ozone 
concentrations for the Sacramento Metropolitan Area In the figure, the 
meteorological categories are plotted on the x-as in order of 
increasing ozone forming potential, and the measured ozone 
concentrations for the baseline data (1994 and 1995) are plotted on the 
y-ams. Each dot represents one day during the 1994 or the 1995 ozone 
season. The relationship shows a strongly increasing trend with an it-
squared value of approximately 0.70. That is, the meteorological 
categories account for 70 percent of the variation in the daily magnum 
ozone concentrations during the May-October ozone season. This 
performance is excellent when compared to other efforts to explain 
ozone concentrations based on meteorological data The R-squared values 
for the other two regions were as good as or better than the R-squared 
value for Sacramento.
    The 30 percent of the variation that is not explained by the 
equation may be due in part to to variation in emissions between 1994 
and 1995 and to meteorological factors that the equation did not 
include. For example, carryover of ozone from the previous day can inc 
ease daily maximum ozone concentrations significantly, but no direct 
measurements of carryover are routinely available and estimates of 
carryover may be subject to high uncertainty.
Was it necessary to account for meteorology?
    Table 2 illustrates the need to account for meteorological effects. 
As the table shows for Sacramento, 1994 differed greatly from 1995 and 
1996 us the frequencies of the two categories with the highest ozone 
forming potential--categories 11 and l2. In 1995 and 1996, these 
categories had 6 days and 5 days, respectively, while 1994 had none. 
Because 1994 lacked the more ``extreme'' meteorological
    conditions, the unadjusted average ozone concentrations were lower 
for the season. Without adjusting for meteorology, the lower average 
ozone in 1994 might be attributed to lower emissions instead of more 
accurately being attributed, in large part, to the weather.
                                results
What are the estimated improvements in overall ozone after adjusting 
        for meteorology?
    Table 4 summarizes the results of the analysis. For each region, 
the table shows the average ozone (for days with potential to exceed 
the State ozone standard) for the baseline years and for 1996 after 
adjusting for most of the meteorological effects. The table also shows 
the percent improvement in the average ozone from the baseline years to 
1996. The improvements represent changes in ozone due to reduction in 
emissions from all sources, not just to cleaner-burning gasoline.
    For the South Coast Air Basin, the baseline years were 1993 and 
1994. As noted earlier, the introduction of Federal Reformulated 
Gasoline in the South Coast during 1995 made it necessary to use the 
two earlier years as the baseline from which to estimate ozone benefits 
due to California's cleaner-burning gasoline. As shown in Table 4, the 
improvement in the average ozone from the baseline years to 1996 was 18 
percent after adjusting for meteorology.
    For the Sacramento Metropolitan Area, the baseline years were 1994 
and 1995. After adjusting for most of the meteorological variation, the 
improvement in the average ozone from the baseline years to 1996 was 14 
percent.
    The results for the San Francisco Bay Area are less dramatic than 
the results for the South Coast and Sacramento. After adjusting for 
meteorology, the analysis indicates that Bay Area ozone concentrations 
improved overall by 4 percent.
    How much of the ozone improvement is attributable to cleaner-
bUTjing gasolines The process by which ozone is formed in the lower 
atmosphere is complex, and various methods might be used to estimate 
the portion of air quality improvements that are due to c'eaner-burnang 
gasoline. For this analysis, we used the ratio of the emission 
reductions from cleaner-buming gasoline to the total emission 
reductions to apportion the overall ozone improvement to cleanerSurning 
gasoline.
    Table 5 shows esrussion inventory data for the South Coast, 
Sacramento County (approximation for the Sacramento Metropolitan Area), 
and the San Francisco Bay Area. In each region, the total emissions of 
ozone precursors ROG and NO<INF>X</INF> were reduced substantially 
between the baseline years and 1996. In all three regions, cleaner-
burning gasoline accounted for more than half of the total reductions 
in ROG and NO<INF>X</INF>.
    For the South Coast Air Basin, the reduction in ozone due to 
cleaner-burning gasoline was approximately 11 percent (60 percent x 18 
percent). Similarly, for the Sacramento Metropolitan Area, cleaner-
burning gasoline achieved a reduction of approximately 12 percent (85 
percent x 14 percent). For the San Francisco Bay Area, an improvement 
of approximately 2 percent (63 percent x 4 percent) in ozone is 
attributable to cleaner-burning gasoline.
How do these results compare with other analyses?
    In late summer of 1996, the staff looked at preliminary data for 
June, July, and August. That initial analysis showed overall reductions 
in ozone of is percent, 11 percent and 10 percent in the South Coast, 
Sacramento, and Bay Area regions, respectively, after adjusting for 
meteorological differences between 1996 and the baseline years. 
Differences between that preliminary analysis and the more complete 
analysis discussed in this paper include the following:
    erroneous surface temperature data included in the preliminary 
analysis for the Bay Area were removed for the more complete analysis, 
additional data for ozone and meteorology were used in order to 
complete the full ozone season of May through October, data for 1993 
were added when preparing the equations relating ozone and meteorology 
in the South Coast and the San Francisco Bay Area, daily maximum 
surface temperature data were added to the Sacramento analysis, 
additional data for surface tempertures and wind speeds were added to 
the San Francisco Bay Area analysis, overall ozone improvements were 
calculated with respect to an additional set of baseline years--1993/
1994--for the South Coast Air Basin, an estimate of the portion of 
ozone improvement due to cleaner-burning gasoline was added.
    Of the above differences between this analysis and the preliminary 
analysis, the most significant was the removal of erroneous surface 
temperature data that had been included in the analysis for the Bay 
Area; the erroneous data had caused the preliminary analysis to 
estimate a substantially higher overall ozone improvement in the Bay 
Area compared with the improvement indicated by the new analysis (10 
percent versus 4 percent).
    The results of the new, more complete analysis show overall 
reductions in ozone (from the base years to 1996) for the South Coast 
and Sacramento regions (after adjusting for meteorology) that are 
similar to those in the preliminary analysis 18 percent versus 18 
percent In the South Coast and 14 percent versus 11 percent in the 
Sacramento Area. The results for the San Francisco Bay Area are now 
less dramatic, showing a few percent reduction in ozone after adjusting 
for meteorology.
    Another perspective is to loolc at what reductions in ozone 
precursor emissions are expected from the emission inventory. Table 5 
shows emissions for the three regions and the reductions that were 
expected between the base years and 1996. The reductions in overall ROG 
and NO<INF>X</INF> emissions are 10 to 11 percent. The proportion due 
to cleaner-burning gasoline varies from to 9 percent. Ozone benefits, 
based on a one-to-one correspondence with the inventory data would 
suggest lower benefits for the South Coast and the Sacramento Area and 
higher benefits for the San Francisco Bay Area than those based on the 
analysis of ambient ozone data. The future may provide additional 
information to help reconcile these differing estimates of the impact 
of cleaner-burning gasoline on ozone concentrations in California.
    The analysis described in this paper is not definitive, and 
conclusions based on it have some uncertainty. Nevertheless, this 
analysis offers strong evidence that cleaner-burning gasoline had a 
positive effect on ozone concentrations that helps validate its 
expected air quality benefits.
                               __________
                             ATTACHMENT III
        MTBE Compatibility with Underground Storage Tank Systems
                     prepared by james m. davidson
                       alpine environmental, inc.
                         fort collins, co 80526
                              october 1997
Findings
    <bullet>  Report is an initial compilation of MTBE compatibility 
knowledge obtained from published scientific studies, and from 
discussions with numerous UST experts. Much has been done to reduce and 
minimize releases of gasoline from underground storage tanks.
    <bullet>  In California, even though MTBE use has increased in 
recent years (especially since June 1996 when reformulated, MTBE-
enhanced gasoline was implemented year-round across the State), there 
has been a steady decline in the number of new UST releases reported.
    <bullet>  Several tests found MTBE-blended gasoline did not impact 
steel tanks, steel piping or other metal components in gasoline 
distribution systems. Of the common gasoline additives, MTBE was found 
to be the least aggressive to steel and other metals. One study 
indicated that MTBE in gasoline increased the weight loss from 10-20 
steel.
    <bullet>  All information indicates that MTBE is compatible with 
underground storage tanks and piping made from fiberglass.
    <bullet>  All available testing of numerous seals indicated they 
were compatible with the maximum MTBE concentrations allowed by law in 
gasoline [i.e. 15 percent MTBE volume/volume). However, additional 
investigation would be beneficial.
    <bullet>  No scientific basis could be found to support claims that 
MTBE may be causing UST teaks due to incompatibility with gives used in 
fiberglass UST systems, or due to incompatibility with vapor recovery 
systems.
    <bullet>  This initial data compilation did not discover any known. 
or suspected MTBE incompatibility issues with UST systems. However, 
additional investigations of these compatibility issues and more 
research on select topics (en: seal compatibility and vapor phase MTBE 
losses, would improve the knowledge base.
        mtbe compatibility with underground storage tank systems
    The purpose of this report is to review the available knowledge 
regarding the compatibility of the gasoline additive methyl tertiary 
butyl ether (MTBE) with underground Storage tank (UST) systems. This 
report is an initial compilation of MTBE compatibility knowledge 
obtained from published scientific studies and from discussions with 
numerous UST experts.
                               Background
Underaround Storage Tank Systems
    Underground storage tanks (USTs) are commonly used to store 
petroleum fuels like gasoline. While there were about 2 million USTs in 
1986, there are about 1.1 million in 1997. A gasoline UST system is 
typically comprised of an underground tank, product and vapor recovery 
piping systems, a fuel pump, and fuel dispensers with hoses and 
nozzles. UST systems can also be equipped with a variety of spill 
protection and leak detection devices including. automatic tank gauges, 
line leak detectors, spill boxes, and overfill protection.
    At numerous points in a UST system, the fuel dispensing components 
are connected to one another. Steel tanks and pipes are typically 
attached by threaded con-

nections while fiberglass tanks and pipes are usually bonded (i.e. 
glued) together. Seals made of various materials are used throughout 
the fuel dispensing systems. Most materials and components used in UST 
systems are evaluated and listed prior to use by Underwriters 
Laboratories (a prominent materials testing laboratory).
MTBE Use and Subsurface Occurrence
    Methyl tertiary butyl ether (MTBE) was first used commercially in 
the USA as a gasoline additive in 1979. Its use increased gradually 
through the 1980's as an octane enhancer (typically 1-8 percent volume/
volume). Its usage increased more quickly in the 1990's as higher 
levels of MTBE were added to gasoline (11-15 percent vol/vol) to 
increase oxygen levels (as per regulatory requirements), and thereby 
reduce air pollution. If a UST or pipeline has an accidental release of 
gasoline, and that gasoline contains MTBE, then MTBE will escape into 
the subsurface along with many other gasoline components. Several 
published references provide a thorough summary of subsurface MTBE 
contamination issues (Davidson. 1995; Squillace et al., 1995).
        mtbe compatibility with underground storage tank systems
    When considering how gasoline can be accidentally released from 
USTs and pipelines, one factor to consider is how compatible \1\ the 
gasoline and gasoline additives are with the tank and piping systems. 
Concern over MTBE releases to the subsurface has raised questions 
specifically about MTBE compatibility with UST system components. 
Detailed below are answers to some common questions about MTBE 
compatibility with UST components. In general, as summarized in a 
report by API ( 1990). ``Ethers (like MTBE) are generally compatible 
with the same materials as straight gasoline''.
---------------------------------------------------------------------------
    \1\ Compatibility is the ability of a material to retain its 
physical properties when exposed to another substances (IC-
Incorporated, 1997). With regards to underground storage tanks, if a 
stored liquid impacts, degrades, or corrodes the tank (or pipe) 
material, then that liquid is considered aggressive to that material, 
and would be considered incompatible with that tank material.
---------------------------------------------------------------------------
             answers to some common compatibility questions
What has Been Done to Reduce Product Releases From Uses?
    UST systems have been substantially improved over the last 20 years 
through a variety of technology improvements including:

    <bullet>  fiberglass materials
    <bullet>  cathodic protection
    <bullet>  coated tank and line materials
    <bullet>  double wailed tanks and lines
    <bullet>  automatic tank gauging
    <bullet>  improved inventory control
    <bullet>  spill boxes
    <bullet>  overfill protection
    <bullet>  leak detectors
    <bullet>  dispenser drip pans
    <bullet>  interstitial monitoring
    <bullet>  improved integrity testing

    In addition, nearly half the tanks that existed nationwide in 1986 
have been removed. Many other tanks have been upgraded or replaced with 
more modern tanks. These improvements have worked together to reduce 
the number, duration, and the size of releases. This is demonstrated by 
UST release data compiled the State of California's State Water 
Resources Control Board (SWRCB). In California, the number of new UST 
leak incidents has declined steadily since 1988 when the Federal UST 
regulations became effective. California had over 4,000 new reports of 
releases in 1988, while there were approximately 1,000 in 1996 (the 
last year with complete data) (SWRCB, 1997).
    As discussed above, substantial improvements have been made to UST 
systems for preventing and detecting fuel releases. However, gasoline 
releases can never be completely prevented because the operation of UST 
systems involves mechanical devices and potential human error. Some 
subsurface releases of gasoline will inevitably occur in spite of 
extensive efforts to prevent, minimize, detect and mitigate those 
releases.
How Does MTBE Get into the Subsurface?
    MTBE typically migrates to the subsurface as part of a release for 
releases) of MTBE-blended gasoline. This MTBE-blended gasoline may 
reach the subsurface due to:

    <bullet>  a spin of MTBE-blended gasoline that occurred prior to 
the upgrading of the UST system to meet the 1998 UST compliance 
standards.
    <bullet>  a spill of MTBE-blended gasoline that occurred after the 
upgrading of the UST system (even though the UST may meet 1998 
compliance standards gasoline leaks may still occur due to human error 
ot mechanical failures)
    <bullet>  minor spillage of MTBE-blended gasoline (ex: spillage 
from vehicle drive-offs, consumers overfilling cars, overfilled spill 
boxes during delivery, nozzle drips, etc )
    <bullet>  a non-UST point source (ex: pipelines, surface spill of 
gasoline, etc.)
    <bullet>  a non-point source (ex:, storm water runoff, motorized 
vehicle use in surface water bodies, etc.)

    It is important to note that no UST cases are known where only MTBE 
has escaped from the UST and impacted the environment. Such a scenario 
might suggest preferential loss of MTBE, but no such case has been 
reported. Instead, environmental scientists are typically finding MTBE 
along with all the other gasoline components, indicating a release of 
MTBE-blended gasoline.
Is MTBE Compatible with Metal Tanks and Piping?
    Tanks can be made of bare carbon steel, coated steel, cathodically 
protected steel, fiberglass reinforced plastic (commonly called 
fiberglass), concrete, or composite materials like steel with 
fiberglass coatings (Schwendeman and Wilcox, 19871. Produc. piping used 
in underground storage systems is typically made of galvanized steel, 
cathodically protected steel, or fiberglass (Schwendeman and Wilcox, 
1987). On rare occasions, other metals such as copper have been used 
for product piping.
    Concern has been raised regarding the potential that the extra 
oxygen present in MTBE may enhance the oxidation and corrosion of 
metals (Sun, 1988). Therefore, seven gasoline blends (some with MTBE up 
to 15 percent, some with no MTBE) were used in immersion tests of 
metallic coupons (i.e. pieces) (Sun, 1988). These immersion test were 
conducted with equilibrated tank bottom waters present. Nine different 
metals commonly used in automotive fuel systems and gasoline 
distribution systems were tested. During hese six to seven month long 
tests, the metal coupons showed small weight chances in all the fuels. 
Weight loss (i.e. corrosion) or the 10/20 steel coupons over 6 months 
of immersion increased from a 2.95 percent weight loss to a 10.75 
percent weight loss when MTBE was added to a base gasoline (Sun, 1988).
    Lang and Palmer (1989) reported on a compatibility study that used 
standard reference gasolines combined with four possible gasoline 
additives: methanol, ethanol. tert butyl alcohol (TBA) and MTBE. 
Through a variety of immersion tests, gasoline mixtures of ail these 
additives were tested for tendency to corrode metals commonly used in 
automobiles, including brass, aluminum, zinc and mild steel. It was 
found that MTBE was the least aggressive of the additives tested.
    Another report considered oxygenate compatibility with the 
materials used at vapor recovery units (VRU) at petroleum bulk plants 
(API, 1990). That study reported plain carbon steel and stainless steel 
are compatible with oxygenate vapors. The report also concluded that 
MTBE was the least aggressive additive to these metals (API, 1990).
    Conclusion: Several tests found MTBE-blended gasoline did not 
impact steel tanks, steel piping or other metal components in gasoline 
distribution systems. Of the common gasoline additives, MTBE was found 
to be the least aggressive to steel and other metals. However, one 
study indicated that MTBE in gasoline increased the weight loss from 
10/20 steel.
Is MTBE Compatible with Fiberglass Tanks and Piping?
    Many modern USTs and product pipes (including many double walled 
systems) are made from fiberglass (Underwriters laboratories, Inc., 
11383). A March 1988 report ISun, 1988) describes fiberglass 
compatibility testing performed on six test fuels (two base gasolines 
with no MTBE and four fuel blends with MTBE at 7.5 to to 15 percent). A 
sample fiberglass tank was tested by immersing a coupon of Xerxes 
fiberglass tank material in the six test fuels for 7 months at 68-70--
F. Essentially no volume changes were measured for any of the 
fiberglass tank coupons. The volumetric swell range far the coupons 
immersed in the four MTBE gasolines was very small (from +0.26 percent 
[swelling] to -0.74 [shrinkage] (Sun, 1988). These volumetric changes 
are much less than most other components and materials tested (Sun, 
1988).
    Similar immersion testing was done on Ciba-Gieigy Fiberglass piping 
for 7 months (Sun, 1988). from these piping samples the volumetric 
change for piping sections in MTBE-blended gasolines ranged from +2.26 
percent [swelling] to -1.32 percent [shrinkage] (Sun, 1988). Again, 
these volumetric changes are much less than most other components and 
materials tested (Sun, 1988).
    There have been two major fiberglass UST manufacturers: Fluid 
Containment Formerly Owens Corning) and Xerxes. In a letter to their 
customers, 0wens-Corning/Fluid Containment said they had extensively 
tested fuels containing up to 20 percent MTBE, and there was very 
little effect on the laminate (Owens-Corning, 1995); Therefore, storage 
of these ether blends would not void the manufacturers warranty for 
USTs made since 1964. Thus, Fluid Containment has warrantied their 
tanks against internal corrosion for thirty (30) years for the storage 
of up to 20 percent MTBE for any of their tanks made since 1964.
    Xerxes first listed MTBE-blended gasolines (up to 20 percent MTBE) 
on its April 2, 1988 warranty, where it warrantied their fiberglass 
tanks for 30 years. Prior to April 2. 1988. MTBE was not mentioned in 
the Xerxes warranty, although other, more aggressive, alcohols were 
previously addressed and covered by warranty.
    Based on conversations with numerous fiberglass manufacturing 
experts, extremely similar materials and resins were used prior to 1988 
as are used today to make fiberglass tanks and pipes. Therefore, it is 
unlikely that MTBE compatibility problems existed for pre-1988 
fiberglass tanks. However, no pre-1988 data on fiberglass comparibility 
testing could be found at the publication time of this report.
    Ether additives used in gasoline were also found to be compatible 
with most fuel systems and vapor recovery units at bulk plants (API, 
1990). This study (API, 199O) found MTBE was compatible with materials 
in gasoline transportation, storage and blending systems, except for 
some Viton elastomers (discussed in next sections.
    One study Smith Fiberglass Products Inc., 1996) investigated 
gasoline rmeability through fiberglass pipe by utilizing standard 
permeability testing methods. This study showed essentially no liquid 
gasoline lass through the fiberglass piping after 31 days while using 
90 percent gasoline and 1095 ethanol. This long-term test demonstrates 
the extremely low permeability of fiberglass piping to liquid gasoline 
components. MTBE-blended gasoline was not tested. However, because of 
its larger molecule size! MTElE in liquid gasoline would be less likely 
to permeate through material pores than should smaller molecular 
compounds like methanol or toluene (Curran, 1997).
    While many product piping systems are made from fiberglass 
reinforced plastic, the use of flexible piping systems made from 
polyethylene has increased greatly in recent years (ICF Incorporated, 
1997). Seven of the eight flexible piping manufacturers have tested and 
approved their piping systems far use with MTBE, including using 
flexible piping as the primary piping system (ICF Incorporated, 1997). 
The eighth manufacturer did not report whether or not MTBE had been 
tested yet (ICF Incorporated, 1997).
    It should be noted that not all gasoline oxygenating additives are 
compatible with ail UST materials. Specifically, some stronger blends 
of methanol-enriched gasoline are not compatible with certain types of 
fiberglass tanks (Schwendeman and Wilcox. 1987). However, this issue 
was recognized in the early 198Os and several formulations of 
fiberglass tanks were made with resins resistant to alcohols. A 
comprehensive list of alcohol compatibility with other UST materials is 
available (API, 1990).
    Conclusion: All information indicates that MTBE is compatible with 
fiberglass tanks and pipes.
How Compatible is MTBE with Seals and Gaskets?
    When stored in Tanks or shipped via pipelines, pure (or neat) 
oxygenates can adversely affect some elastomeric materials like seals 
and gaskets (AIexander en al., 1994). Deterioration from exposure to 
pure oxygenates usually comes in the form of swelling and softening 
(API, 1990). A study of neat MTBE compatibility with six types of seals 
commonly used in product pipelines found that neat MTBE apparently did 
not affect three types of seal materials. While the neat MTBE did 
aggressively swell three grades of Viton seals, these data are not 
pertinent as USTs are not used to store neat MTBE.
    When considering MTBE as a gasoline component. this same study used 
MTBE at 20 percent volume/volume (which is higher than commercial 
gasolines) for the irnmersian tests on the six seal materials. They 
found that 20 percent MTBE in gasoline did ``not significantly swell 
any of the elastomeric seals tested'' (Alexander et al., 1994). Of the 
three Viton formulations tested, one had a minor swelling reaction and 
the other two Viton formulations had no noted reaction to 20 percent 
MTBE in gasoline. In conclusion, all six seals were deemed appropriate 
for use when MTBE concentrations were less than 20 percent of the 
gasoline. This conclu-

sion is applicable to all MTBE-enhanced commercial gasolines 
encountered in UST systems.
    Similarly, Lang and Palmer (1989) conducted immersion tests to 
determine fuel additive compatibility with five common commercial mixes 
of rubbers (elastomers) used in vehicle fuel systems. Using standard 
reference gasolines containing either methanol, ethanol, TBA or MTBE, 
it was determined that MTBE was the least aggressive additive towards 
rubbers.
    A variety of plastic and elastomeric parts commonly used in 
automobiles and gasoline distribution systems were tested in seven-
month long immersion tests (Sun, 1988). Fifteen materials and 
automotive components were immersed in six test fuels for 7 months at 
68-70 F. Results showed that some materials had about the same swell in 
15 percent MTBE gasoline as in non-MTBE gasoline, while other materials 
swelled less. Only Vlton seals had significantly more swell with MTBE 
(up to 7 percent), though the degree of swelling was not considered 
significant by the authors (Sun, 1988).
    A detailed investigation of oxygenate compatibility with bulk plant 
VRUs showed that ``in no specific instance could the use of oxygenated 
fuels be directly linked to failures of components or degraded 
performance'' (API, 1990). The study reported that seals and gaskets 
made from fluorocarbons, fluorosilicones and Teflon were compatible 
with oxygenates. This study also mentioned potential adverse effects on 
some Viton seals. but it was noted that as of 1990, manufacturers were 
developing certain formulations of Viton which were compatible with 
oxygenates (API, 1990). A survey of bulk plant terminals in 1994 (API, 
1994) showed that since the introduction of oxygenated fuels, some 
terminals had changed the types of elastomers and polymers used for 
seals, gaskets and hoses.
    Sun (1988) tested the evaporative losses of six gasoline blends 
from several types of vehicle fuel line and gasoline dispenser hoses. 
The six month evaporative loss rests showed that ``there were no large 
differences between the samples containing base fuel and samples with 
base fuels and 150 percent MTBE'' (Sun, 1988).
    No pre-1988 data on seal or gasket compatibility fessing could be 
found at the time of this report's publication. As a result, no 
conclusions can be reached regarding MTBE gasoline compatibility with 
pre-1988 seals or gaskets. However, based on conversations with 
industry experts, no compatibility problems have been noted or 
suspected. More investigation would be beneficial.
    Conclusion: All available testing of numerous seals indicated they 
were compatible with he maximum MTBE concentrations allowed by law in 
gasoline (i.e 15 percent MTBE volume/volume). However, additional 
investigation would be beneficial.
What About Claims Regarding MTBE Possibly Dissolving Glues Used with 
        Fiberglass Systems?
    While these stories are often repeated, neither a thorough 
literature search, nor discussions with knowledgeable UST experts could 
establish any cases where MTBE had dissolved gives. These glues are 
used to bond fiberglass components together, such as piping sections. 
No specific references related to MTBE compatibility with glues was 
found.
    The only related information was found in two publications (API 
1985i; API 1986) where it was noted that some alcohol-based pipe thread 
dopes were not recommended for use with methanol or ethanol if the pipe 
dope had been recently applied. This may be the source of that 
incompatibility claim. However, this information only applies to 
alcohol additives, not to MTBE.
What About Claims that MTBE May Be Escaping the Vapor Recovery Systems 
        or Secondary Containment Lines?
    As discussed earlier, all studies indicate that MTBE in gasoline is 
compatible with fiberglass lines, including secondary containment 
piping and vapor recovery piping. No studies were found that addressed 
possible vapor-phase losses of gasoline or MTBE from UST fuel systems 
and/or vapor recovery systems.
    A source far the claim regarding incompatibility with vapor 
recovery systems pining might be an unpublished paper by Mittermaier 
(1995). Tilis paper reported an incident in Wisconsin where MTBE 
reacted with a nylon coating on the inside of a vapor recovery hose. 
The resulting white powder quickly clogged the fine mesh screens in the 
vapor return line which made the recovery system ineffective. No 
gasoline release was reported from this incident. Apparently the cause 
was MTBE reacting with a nylon stabilizer used to protect the line from 
UV light and high temperatures ( > 200 degrees F). Since this 
protection was not needed underground, the solution was to use nylon 
hose without this stabilizer. This may be the source of that 
incompatibility claim.
    Vapor-phase MTBE entering the subsurface may be noteworthy. MTBE's 
high vapor pressure (roughly three times that of benzene) could cause 
the vapors in a UST system to be more enriched with MTSE than the 
liquid gasoline from which the vapors originally evaporated, As such, 
any gasoline vapors lor liquid gasoline condensate from those vaporsl 
that escape from a vapor recovery system could contain high percentages 
of MTBE.
                              conclusions
    This report is an initial compilation of MTBE compatibility 
knowledge obtained from published scientific studies, and from 
discussions with numerous UST experts.
    Much has been done to reduce and minimize releases of gasoline from 
underground storage tanks.
    In California, there has been a steady decline in the number of new 
UST releases reported since 1988.
    Several tests found MTBE-blended gasoline did not impact steel 
tanks, steel piping or other metal components in gasoline distribution 
systems. Of the common gasoline additives, MTBE was found to be the 
least aggressive to steel and other metals. One study indicated that 
MTBE in gasoline increased the weight loss from 10/20 steel.
    All information indicates that MTBE is compatible with underground 
storage tanks and piping made from fiberglass.
    All available testing of numerous seals indicated they were 
compatible with the maximum MTBE concentrations allowed by law in 
gasoline (i.e. 15 percent MTBE volume/volume!. However, additional 
investigation would be beneficial.
    No scientific basis could be found to support claims that MTBE may 
be causing UST leaks due to incompatibility with glues used in 
fiberglass UST systems, or due to incompatibility with vapor recovery 
systems.
    * This initial data compilation did not discover any known, or 
suspected MTEE incompatibility issues with USA systems. However, 
additional investigations of these compatibility issues and more 
research on select topics (ex: seal compatibility and vapor-phase MTBE 
losses) would improve the knowledge base.
                           information source
    This document is based on the available literature listed in the 
References section, as well as upon extensive contact with UST design 
engineers and regulatory personnel. It was prepared by James Davidson, 
a hydrogeologist and the President of Alpine Environmental, Inc. (Fort 
Collins, CO). James Davidson has extensive experience investigating and 
remediating petroleum releases and has been involved with hundreds Of 
UST release projects across the USA and internationally since 1985. 
Also, Mr. Davidson has extensively researched and published on MTBE 
impacts to ground water and drinking water.
    CONTACT: James M. Davidson Airline Environmental, Inc. 2278 
Clydesdale Drive Fore Collins, Cc) 8t)526
                               references
    Alexander, James E., Edward P. Ferber, and William M. Stahi.1994. 
Avoid Leaks from Reformulated fuels. Fuel reformulation, page 42-6.
    American Petroleum Institute, 1985. Storing and Handling Ethanol 
and Gasoline-Ethanol Blends at Distribution Terminals and Service 
Stations, API Publication 1626, American Petroleum Institute, 
Washington, DC, April 1985, 6 pages.
    American Petroleum Institute, 1986. Storing and Handling Methanol 
and Gasoline-Mlethanol Blends at Distribution Terminals and Service 
Stations, API Publication 1627, American Petroleum Institute. 
Washington DC. August 1986, 6 pages.
    American Petroleum Institute, 1990. An Engineering Analysis of the 
Effects of Oxygenated Fuels on Marketing Vapor Recovery equipment, 
Final Report. American Petroleum Institute, Washington, DC. September 
1990, 38 pages.
    American Petroleum Institute, 1994. E1tects of Oxygenated Fuels and 
Reformulated Diesel Fuels on Elastomers and Polymer, in Pipeline/
Terninal Components, API Publication 1132. American Petroleum 
Institute. Washington, DC, July 1994, 29 pages.
    Curran, Sullivan D., 1997 Permeability of Synthetic Membranes for 
the Containment of Petroleum Products. fiberglass Tank and Pipe 
Institute, Houston. Texas, March 1997, 5 pages.
    Davidson, James M., 1995. Fate and Transport of MTBE--The Latest 
Data. In Proceedings of the Petroleum Hydrocarbons and Organic 
Chemicals in Ground water: Prevention, Oetection and Median, National 
Groundwater Association, Dublin, Ohio. pages 285-301.
    ICF Incorporated. 1997. Survey of Flexible Piping Systems, Fairfax, 
VA, March 1997 15 pages.
    Lang. G.J and F.H. Palmer, 1989. Use of Oxygenates in Motor 
Gasoline In Gasoline and Oiesei fuel Additives Critical Deports in Apo/
;ed Chemistry, K. Owen (editor) . Vol. 25. John Wiley & Sons. London. 
UK.
    Mittermaier, Armin E. 1995. Effect of Gasoline Formula Changes on 
Eiecuonic Monitoring Systems. Submersible Pumps and Fuel Dispensers. In 
API Materials Compatibility Roundtable: An Industry Discussion. 
unpublished, American Petroleum Institute, Washington, DC, September 
28, 1995, 6 pages.
    Owens-Corning. 1995. Open Letter to Owens-Corning Tank Customers, 
April 14, 1995, from Owens-Cornng World Headquarters, Toledo. Ohio, 2 
pages.
    Schwendeman, Todd G. and H. Kendall Wilcox, 1987 Underground 
Storage Systems. Lewis Publishers. Inn., Chelsea. Michigan, 2t3 pages.
    Smith Fiberglass Products Inc., 1996. Just The Facts. Smith 
Fiberglass Products, Inc. Uttle Rock. Arkansas, 4 pages.
    State Water Resources Control Board. 1997. Releases reported data, 
personal communication between James M. Davidson and Alan Patton (State 
Water Resources Control Board-Sacramento, California, May 1997.
    Squillace, Paul J., John S. Zogorski. William G. Wilber, and Curtis 
V, Price, 1998. A Preliminary, Assessment of the Occurrence and 
Possible Sources of MTBE in Ground Water of the United States. 1993-94, 
Open file Report 95-456, U.S. Geological Survey, Rapid City, SD, 46 
pages.
    Sun Refining and Marketing Company, 1988. 15 percent MTBE Waiver 
Request, submitted to Lee 1991. Thomas. USEPA. Washington, D.C. March 
14. 1988.
    Underwriters Laboratories, Inc., 1983. Standard for Glass-Fiber-
Reintorced Plastic Underground Storage Tanks. UL 1316, Underwriters 
Laboratories, Inc., Northbraok, IL, July 1983.
                               __________
                             ATTACHMENT IV
                     RFG in FRP--Fueling the Future
                    fiberglass tank & pipe institute
    This paper was written by Sullivan D. Curran, Executive Director of 
the Fiberglass Tank & Pipe Institute. The paper discusses the 
compatibility of gasolines gasoline-alcohol blends and 100 percent 
alcohol (e.g. methanol) with Fiberglass Reinforced Plastic (``FRP'') 
storage tanks and piping systems manufactured by Cardinal Fiberglass 
Industries, Fluid Containment, Inc., Xerses Corporation, Ameron, 
Fiberglass Pipe Group and Smith Fiberglass Products Inc. The paper does 
not address other Few manufacturers or FRP products manufactured by 
others.
    Reformulated gasoline (``RFG'') has generated almost as much media 
attention about gasoline as the oil embargoes of the 1970's. Expected 
higher pump prices, possible shortages in some areas, logistics 
problems, concerns about additives and future changes to the 
formulation of RFG have made headlines. Now it's time to address the 
question of whether the current tanks, pipes and dispensing units in 
use at service stations all over the U.S. are adequate for the new 
fuel.
    While debate continues among advocates of various alternative 
fuels, one constant remains: fiberglass tanks and pipe installations 
continue to provide a cost-effective and environmentally secure means 
to store RFG. However, storage is just one phase of the complete fuel 
refining and delivery system.
Why RFG, and why now?
    Beginning January 1, 1995, the Clean Air Act required RFG in the 
eight areas of the country with the worst ozone pollution. States are 
permitted under the Act to ``opt-in'' additional ozone nonattainment 
areas into the RFG program, and 13 States have done so. As a result, 
RFG is expected to account for about 30 percent of the gasoline sold in 
the U.S. Conventional gasolines (``CG'') sold after December 31, 1994, 
must also contain additives approved by the EPA.
    The EPA recently ruled that a portion of the oxygen content of 
RFG--15 percent in 1995 and 30 percent thereafter--must be comprised of 
renewable oxygenates, such as ethanol.
    Methyl Tertiary Butyl Ether (``MTBE''), Ethyl Tertiary Butyl Ether 
(``ETBE''), Tertiary Amly Methyl Ether (``TAME'') are not renewable 
oxygenates. As issued, the renewable oxygenates rule would 
significantly increase the amount of ethanol blended with gasoline, but 
not above the current maximum blend rates of 10 percent by volume.
    The American Petroleum Institute ('`API'') and the National 
Petroleum Refiners Association filed suit to halt implementation of the 
renewable oxygenates rule, and a Federal court issued a stay which 
prohibits EPA from enforcing the rule. Arguments on the suit have been 
presented.
    If the renewable oxygenates rule is upheld by the court, refiners 
will have to move ethanol blending stocks to the terminals in separate 
shipments from conventional and reformulated gasoline. Because of its 
affinity for water, ethanol cannot be moved through the existing 
pipeline systems, but must be shipped on barges, in trucks or by rail. 
Complete pipeline dehydration would be required for multiple shipper-
multiple product systems to avoid dissolved water contamination of 
other products such as aviation turbine fuels.
What is the Typical Composition of RFG
    An average gallon of RFG, between 1995 and 1997, will have the 
following characteristics:

------------------------------------------------------------------------
                                    Southern Areas      Northern Areas
------------------------------------------------------------------------
RVP (psi).......................  7.2 Max. Summer...  8.1 Max. Summer
Oxygen ( percent wt.)...........  2.1 Min...........  Same
   (vol. percent)                 5.8 percent Min.    Same
                                   10 percent Max.
Benzene (vol. percent)..........  1.0 Max...........  Same
Toxic ( percent reduction)......  15.0..............  Same
------------------------------------------------------------------------

    Concern about the effects of the alcohol-based fuels on equipment 
rubber and other elastomer components extends beyond the service 
station to refinery equipment, pipelines, pumping stations, terminals, 
trucks and marine vessels carving the fuels.
    Valves and pump seals made of elastomers comprise many facets of 
fuel storage and delivery systems.
    Whether these components, tank linings and membranes (e. g., tank 
jackets) will be able to stand up to the higher corrosive nature of the 
fixture fuels has yet to be experienced.
    The API Recommended Practice 1626, ``Storing and Handling Ethanol 
and Gasoline-Ethanol Blends at Distribution Terminals and Service 
Stations,'' addresses some of these issues.
    API states that most materials used for storing, blending and 
transporting gasoline are also suitable for use with ethanol and 
ethanol blends. ``However. engineering judgment is required when 
selecting materials for use with ethanol and ethanol blends to ensure 
the safety of facilities that handle these liquids,'' the document 
states.
    API recommends inspecting the system and making modifications as 
needed, and checking all materials within the system for suitability 
for use with the ethanol fuels and replacing unsuitable materials as 
required.
Gasohols and FRP
    Fiberglass reinforced plastic tanks and piping have been tested for 
fuel compatibility since before 1965, and testing has continued to meet 
the dynamics of the changing composition of fuels for these past 30 
years. For underground storage tank and piping systems manufactured 
since gasohol came into the market, manufacturers have recommended the 
use of fiberglass tanks and piping for the maximum legal alcohol blend 
limits, i.e. 10 percent ethanol, 5 percent methanol or 15 percent MTBE.
    Since 1978, waivers from ethanol or methanol legal blend limits 
have been requested by fuel and additive manufacturers in petitions to 
the EPA, i. e. under Section 211(f) of the Clean Air Act. However, to 
date the EPA has not Wanted waivers that would exceed the maximum 
alcohol blend limits. Further, to date EPA has not granted a waiver for 
any blend of a listed hazardous substance., such as methanol, to be 
stored or handled as a ``gasoline.'' As a result, methanol blends above 
5 percent must be stored in secondarily contained (e.g., DW or Double 
Wall) tanks and piping.
    In 1983, Underwriters Laboratories, Inc. (``UL'') updated their 
material compatibility testing protocol to recognize gasohol fuels in 
the marketplace. In addition, certain manufacturers of DW fiberglass 
tanks, primary piping and containment systems UL List products for 
alcohol-based filers and 100 percent ethanol or methanol. No comparable 
standard exists for steel or lined steel tanks or piping.
MTBE and FRP
    While alcohols and alcohol blends have been used as fuels in the 
marketplace since the late 1970's, RFG is a new motor fuel beginning 
with its introduction on January 1, 1995. As shown previously, the 
legal limit for its major additive, MTBE is 15 percent. However, MTBE 
is not a new gasoline additive. Under EPA rules concerning allowable 
limits for oxygenates in unleaded gasoline, large gasoline refiners 
were granted MTBE waivers as early as 1979. Since that time and well 
before the introduction of RFG, MTBE has been stored and dispensed at 
the 15 percent levels in FRP tanks and piping throughout the United 
States.
    --The introduction of MTBE, ETBE and TAME has not been of concern 
to FRP tanks and piping systems manufacturers who recommend their 
products for the legal limits of alcohol blends. Alcohols are 
hydrocarbon compounds that contain smaller hydrocarbon molecules than 
those found in MTBE, ETBE or TAME. As a result, ether-based gasoline 
additives are held to be less aggressive than their alcohol 
counterparts . . . thus, they will be readily contained.
RFG at the Service Station
    Putting politics aside, consider the reality of RFG. The storage 
tank and piping systems are just one component of the fuel dispensing 
system at a service station. Each storage tank may have its own pumping 
unit and system of pipes leading to dispensing units on the service 
islands. These dispensers may have their own pumping unit and have 
meters, hoses and nozzles. These systems are often equipped with a 
vapor recovery system to prevent gasoline fumes from escaping into the 
atmosphere.
    As the fuel compositions change to include more methanol, ethanol 
or other oxygenates, how will critical fuel delivery systems be 
affected, and which puts of the system are most sensitive?
    Current retail dispensing equipment is designed to handle a maximum 
gasohol blend of 10 percent ethanol or 5 percent methanol. (By the way, 
automobile manufacturers generally state that their products are 
capable of handling up to 10 percent ethanol blends.)
    Fuel system components must not craze, leak, or become permeable to 
fuel. They must retain flexibility, strength, and optimum hardness to 
provide required sealing. Service station operators should begin 
routine checks of the fuel delivery system and be alert to wear or 
corrosion in the following areas:
    --Packing and seals on the pumps and meters
    --Hoses, O-rings and other sensitive components in the nozzles
    --Filters may need to be installed in the final dispensing system 
to ensure delivery of clean product. Meters may need to be replaced or 
recalibrated.
    --API recommends consideration of the following dispensing system 
components when converting a retail service station to handle gasoline-
alcohol blends:
    --Meter replacement or recalibration
    --Pumps and line leak detectors
    --Dispensers and filters
    --Alcohol-resistant materials--hoses, seals, nozzles
    --Protection from water contamination--dryers on vent lines and 
pressure vacuum vents, fill cap O-rings
    --Storage tank clearung and drying
    --Storage tank and piping compatibility
    --Application of special signs and decals
Conclusion
    The increased oxygen content of RFG, and the possibility that even 
more oxygenates may be added to fuel in the future, require diligent 
efforts to ensure the safer of all components of existing fuel 
distribution systems. Thorough inspections should be conducted on a 
regular basis, manufacturers should be consulted as to the suitability 
of their products to handle the new fuels, and care must be taken to 
comply with known safety measures to protect equipment and distribution 
systems.
    Owners and operators must also recognize the need to upgrade older 
systems to ensure the safe handling of oxygenated fuels.
    As fuel compositions have changed over the years, fiberglass tank 
and piping manufacturers have continued testing their products to 
ensure compatibility with the new fuels. Rigorous compatibility testing 
and UL standards provide a high level of confidence that Fiberglass 
reinforced plastic systems will continue to be the preferred 
underground fuel storage and handling method despite chances in fuel 
composition.
                               __________
                             ATTACHMENT VI
                 methyl tertiary-ether (mtbe) in water
                        discussion of key issues
   statement prepared by dr. michael c. kavanaugh, ph.d., pk., vice 
                    president, malcolm pirnie, inc.
                           december 31, 1997
    I have this statement at the request of the Oxygenated Fuels 
Association to address questions that have been raised regarding the 
fate, transport, and treatment of MTBE in water. At the recent hearings 
in Sacramento, California organized by Senator Barbara Boxer on issues 
related to MTBE use in California, several speakers raised concerns 
over the actual or potential impacts of MTBE on the quality of water in 
the State's major water supply sources. These concerns included the 
following:
    <bullet>  Aquatic toxicity of MTBE in the event of spills
    <bullet>  Persistence and possible accumulation of Mobil? in 
surface sources used for drinking water
    <bullet>  Significant current impacts on public water systems in 
California
    <bullet>  Possible wide-spread future impacts of MTBE on aquifers 
used as drinking water supplies in California
    <bullet>  Costs and efficiency of MTBE removal from water
    The statements presented to Senator Boxer raise serious concerns 
regarding the safety of the drinking water supplies due to the use of 
MTBE in California, and were used by Senator Boxer to support a call 
for a phase out of MTBE in California. However a review of the facts 
regarding the current impacts and potential threat of MTBE to water 
supplies in California clearly show that the current concerns are 
exaggerated. These facts, which I have presented below, support instead 
a policy of continued monitoring, and a careful assessment of the risks 
and benefits of using oxygenates in gasoline, an assessment that will 
be carried out by the University of California over the next year.
Aquatic Toxicity of MTBE
    Compared to many of the chemical constituents in gasoline, MTBE is 
considerably less toxic to aquatic organisms. For example, the 
concentration of benzene that will kill 50 percent of fathead minnows 
in fresh water (the LC-50) is 33 <greek-m>g/L, compared to an LC-50 for 
MTBE of 980 <greek-m>g/L. The concentrations of MTBE that are toxic to 
organisms in either fresh water or marine environments exceed the 
reported MTBE concentrations in lakes and rivers by factors of 5000 to 
25,000. For example, the highest concentration of MTBE reported in 
California lakes has been about 50 ppb (.05 <greek-m>g/L). The MTBE LC-
50 for Rainbow trout is 1,237 <greek-m>g/L. Thus, current releases of 
gasoline containing MTBE to surface waters in California pose a lower 
risk to aquatic organisms than other constituents in gasoline.
Persistence in Surface Waters
    MTBE in pure form has a vapor pressure higher than other 
constituents in gasoline including benzene. When a gasoline spill 
containing MTBE occurs, MTBE will volatilize more quickly to the 
atmosphere compared to benzene and other constituents in gasoline. MTBE 
is more soluble in water than benzene, and has a lower Henry's 
constant, which indicates a slower rate of volatilization when the MTBE 
is dissolved in water.
    MTBE has been detected in several lakes in California at levels up 
to about 50 ppb. The primary source of MTBE in these lakes is releases 
from recreational boating vehicles particularly those with two-stroke 
engines. In all lakes sampled in California, including Lake Tahoe, 
Donner Lake, Lake Perris, Lake Havisu, and San Pablo Reservoir, the 
concentrations of MTBE have decreased rapidly following cessation of 
recreational boating. Concentrations have generally decreased below 5 
parts per billion (ppb) 20 to 40 days following the end of the boating 
season. Some critics of MTBE use have also reported that MTBE has been 
detected in Lake Merced in San Francisco where no recreational boating 
occurs. However, concentrations of MTBE have been below 1 ppb and are 
non-detectable in most samples.
    These data indicate that in surface water bodies, MTB will likely 
volatize to the atmosphere in a relatively short period of time 
following cessation of the release of MTBE to the water body. This 
holds true for lakes, reservoirs, surface impoundments, rivers and 
creeks. Accumulation of MTBE in these surface water bodies is highly 
unlikely.
Current Impacts of MTBE on Drinking water Sources
    The California Department of Health Services has required 
monitoring of public drinking water systems for MTBE since February 
1997. As of December 1997, 33 drinking water sources have shown 
positive detections of MTBE. Nineteen of the samples are from 
groundwater sources, and 14 are from surface water sources. 
Approximately 25 percent of all water sources in the State have been 
sampled, and these sources supply water to over 70 percent of the 
State's population. Only four groundwater sources contained MTBE 
concentrations greater than 35 ppb which is the current State action 
level. Three of these samples came from the City of Santa Monica, and 
one from the City of Marysville. Recent sampling of the City of 
Marysville shows the MTBE levels in the impacted well have decreased 
below 2 ppb. Thus, the State survey shows that only one major public 
water system has been directly and adversely impacted by ROBE releases 
to the groundwater.
    The City of South Lake Tahoe is also concerned about the potential 
impact of MTBE to their drinking water system and have shut down two 
wells because of fear of contamination. The only over major impact 
reported in California has occurred in the City of Glenville, where 
private wells have been contaminated due to releases of gasoline from a 
nearby underground storage tank. In all of these cases, the groundwater 
systems are highly vulnerable to groundwater contamination from surface 
sources due to shallow ground water extraction systems, or to known 
pathways of vertical migration of contaminants via abandoned water 
supply wells. However, these systems are not representative of public 
groundwater systems in California. Groundwater used for potable 
purposes in California is typically extracted from deeper aquifer 
zones, and the potential impact to these aquifers from releases of 
chemicals at the ground surface is for less than for shallow aquifer 
systems.
    In summary, the most recent MTBE monitoring data from public water 
systems in California show that only one system has been directly 
impacted (City of Santa Monica). The potential for impacts on other 
groundwater systems exists, but the degree of vulnerability has not 
been established. Most aquifers in California draw water from deeper 
formations, which are generally less susceptible to contamination from 
releases of petroleum hydrocarbons, including MTBE and other 
oxygenates.
Magnitude of future threats of MTBE impact to Groundwater Systems
    A significant concern raised by presenters at the Senator Boxer's 
hearing was the future threat of MTBE to drinking water sources. MTBE 
moves approximately at the same speed as groundwater and appears to 
degrade slowly, if at all, in the groundwater due to biological 
degradation. Recent evidence indicates that MTBE is likely to degrade 
in the subsurface. However, the rate is likely to be slow relative to 
degradation of benzene and other aromatic constituents in gasoline. 
While the presence of MTBE or other oxygenates in gasoline represents a 
continuing threat to water quality due to leaking underground fuel 
tanks, spills, and leaks from pipelines, the impacts on water quality 
are expected to be far less then has been suggested. MTBE is less dense 
than water and will not sink vertically through an aquifer. Vertical 
mixing of the MTBE to deeper aquifer zones is unlikely without 
significant vertical conduits such as improperly abandoned water supply 
wells.
    A recent study completed by the Lawrence Livermore National 
Laboratory indicates that over 80 percent of the MTBE plumes emanating 
from leaking underground fuel tanks have not moved more than 300 feet 
from the original point of release. While these plumes may not be 
stable their rate of movement is slow in most cases, and the potential 
for plume stability once the plume has migrated past benzene, is high.
    In summary, although some drinking water aquifers in California are 
clearly vulnerable to impacts from releases of gasoline at leaking 
ground storage tanks, the number of such basins a. significant risk is 
likely to be limited. An estimate of the magnitude of this threat is 
one of the points to be addressed by the current study being conducted 
by the University of California as required by the Mountjoy bill.
    The future threat of MTBE is also likely to be less if it is shown 
that MTBE will degrade biologically in groundwater under appropriate 
geochemical conditions. Evidence is accumulating that MTBE does in fact 
degrade in groundwater, however, data consuming natural biodegradation 
in groundwater is limited and further studies are needed.
MTBE Treatment and Removal from Water
    In contrast to concerns raised by critics of MTBE, existing water 
treatment technologies are capable of removing MTBE from water. For 
example, air stripping in a packed tower is capable of removing MTBE to 
levels acceptable for potable use. Capital and O&M costs for 
groundwater treatment depend significantly on the volume of water being 
treated and the removal requirements. Malcolm Pirnie has com-

pleted an assessment of these costs, and this analysis shows that for 
systems ranging in size from 600 to 6,000 gallons per minute, costs for 
air stripping range from 20 to 80 cents per 1,000 gallons of treated 
water, which is equivalent to approximately to $65 to $260 per acre-
foot. This can be compared to the incremental cost for a new surface 
water supply in California which currently ranges from $400 to $800 per 
acre-foot and the costs for desalination plants which range firm $1,000 
to $2,000 per acre-foot. Thus, treatment costs for removal of MTBE are 
significantly lower than the costs required for development of new 
water sources.
    Other technologies are also available for removal of MTBE, 
including the use of advanced oxidation techniques. Costs of these 
technologies are highly site-specific, but they can be cost competitive 
with air stripping if off-gas treatment of the air stripper is required
    Removal of MTBE from surface water sources is more problematic 
because of the type of treatment processes used. However, given the 
lack of persistence of MTBE in surface water sources the likelihood of 
significant impacts on surface water treatment plants is low.
Summary
    In summary, a reviewer of the facts regarding the fate, transport, 
and treatment of MTBE in water shows that the threats to water quality 
in California's drinking water sources have been exaggerated. Although 
the threat to water quality is a legitimate concern, the Current 
monitoring data and on-going evaluations of the fate and transport of 
MTBE in the environment support a strategy of continued monitoring of 
drinking water sources and a careful review of the relative risks and 
benefits of MTBE and other oxygenates in gasoline compared to the use 
of other gasoline mixtures. Such studies are under way in California 
and should provide a rational basis for future management strategies to 
achieve both clean air and maintain clean water in the State.
                               __________
                             ATTACHMENT VII
MTBE Concerns in California
    In October 1997, the Tosco Corporation sent a letter to the 
California Air Resources Board (CARB) expressing their concerns over 
the extensive use of MTBE to blend reformulated gasolines in California 
(Newsletter #599, 11/6197). On December 1, 1997, the Chevron 
Corporation issued a press release expressing similar thoughts.
    The Chevron press release appeals to Congress and California 
regulators to allow cleaner-burning gasolines to be manufactured in 
California without requiring oxygenates such as MTBE. The company has 
concluded that it may be possible to make a cleaner-burning gasoline 
without oxygenates, and still reduce emissions to the same extent 
achieved with current standards, which have been very effective in 
reducing vehicle emissions.
    ``We don't have all the answers yet,'' said Dave O'Reilly, 
President of Chevron Products Company, ``but with regulatory 
flexibility, we believe solutions can be found. We're asking Congress 
to eliminate a mandate for oxygenates. We are also asking CARE to 
create the regulatory flexibility to allow oxygenate-free gasoline to 
be sold statewide.''
    Federal law mandates that oxygenates (2 wt percent oxygen) be in 
California's cleaner-burning gasoline in ozone non-attainment areas 
(Sacramento, San Joaquin Valley, Los Angeles and San Diego). Chevron 
supports legislation to remove that mandate and also urges the industry 
to work cooperatively with California regulators to explore options for 
reducing or eliminating MTBE altogether.
    Both the Tosco letter to CARB and the Chevron press release express 
concerns over groundwater contamination. The Tosco letter states, ``Our 
call to action is based on growing evidence of the potential for 
extensive MTBE contamination that could occur and the resulting 
liability to the State, and ultimately our citizens, could face to 
restore California drinking water supplies.'' In the Chevron press 
release, Mr. O'Reilly said ``Chevron continues to assess its facilities 
and procedures for handling gasoline in order to reduce the possibility 
of spills. We are committed to preventing the release of gasoline--
whether or not it contains oxygenates--into groundwater.''
    The fact that both the letter and press release allude to the 
potential contamination of groundwater demonstrates an industry concern 
over spillage and leaks of gasoline during transportation and storage. 
If these situations were corrected and prevented, there would be no 
potential for contamination of groundwater by oxygenates or the other, 
more toxic components found in gasoline.
    In the Chevron press release, Mr. O'Reilly said, ``While Chevron 
believes MTBE is not a public health threat and is safe if handled 
properly, the company recognizes the growing public concern. We want to 
supply Chevron's customers with products that meet or exceed all clean-
air standards.''
    DeWitt & Company disagrees with the Chevron claim that Oxygenates 
in gasoline do little to reduce smog,'' MTBE, when added to gasoline, 
contributes not only oxygen, but a substantial octane boost with no 
olefins or aromatics added to the gasoline pool. There are no 
available, non-aromatic blend stocks which can approach MTBE's 110 
octane. The reduction in both aromatics and olefins, coupled with 
MTBE's positive contribution to the Driveability Index are essential 
ingredients in the success of CARB gasoline. There is no reason to 
believe that the dean-air requirements of both Federal RFG and CARB 
gasolines can be met unless the overall oxygenate content is close to 
the present levels. Flexibility may permit successful, limited 
reductions in some cases, but cannot, we believe, lead to dramatic 
reductions in oxygenate use.
    As the following table shows, the number of basin-days with ozone 
exceedances for the California South Coast Air Basin (Los Angeles area) 
has declined dramatically in recent years.

                    California South Coast Air Basin
               Number of Basin-Days with Ozone Exceedance
------------------------------------------------------------------------
                                   Federal   Health    Stage 1   Stage 2
              Year                Standard  Advisory   Episode   Episode
                                   (0.120)   (0.150)   (0.200)   (0.350)
------------------------------------------------------------------------
1988............................       178       144        77         1
1989............................       157       120        54         0
1990............................       130       107        41         0
1991............................       130       100        47         0
1992............................       143       109        41         0
1993............................       124        92        24         0
1994............................       118        96        23         0
1995............................        98        59        14         O
1996............................        83        50         7         0
------------------------------------------------------------------------
*1996 data through September Source: California Air Resources Board

    The steady decline in the number of ozone exceedances over the last 
10 years can be attributed to many environmental improvements (i.e., 
lead phase-out, catalytic converters, more fuel efficient automobiles, 
reformulated gasolines, etc.). Certainly, the removal of older, less 
efficient automobiles from the active driving fleet has contributed to 
the air quality improvements in the South Coast Air Basin. We believe 
As do other authorities) that the significant reduction in ozone 
exceedances over the last 3 years can be attributed more to 
reformulated gasolines (Federal RFG in 1995 and CARB Phase II in 1996) 
than any of the other environmental improvements mentioned above.
     According to a recent CARB publication, the South Coast Air 
Basin's maximum one-hour ozone concentration recorded is 0.24 ppm for 
1996, a 59 percent improvement from 1965. The area exceeds Stage 1 Smog 
Alerts; (0.20 ppm ozone) on only 7 days for the entire year 1996. The 
is an improvement of 107 days, or a 94 percent reduction as compared to 
1975. The implementation of CARB Phase II gasoline in 1996 reduces 
lung-damaging ozone and ozone precursors by 300 tons/day, as well as 
reducing airborne toxic chemicals like benzene that can cause cancer. 
This is equivalent to taking 3.5 million cars off the road (total 
registered vehicles in CA. exceeds 26 million).
     Both the Tosco letter and the Chevron press release indicate that 
they support legislation to eliminate the Federal requirements 
(specifically the 2.0 who oxygen requirement for Federal RFG which must 
be supplied in the ozone non attainment areas) in the specifications 
for CARB Phase II gasoline. Rep. Brian Bilbray (R-CA) and Sen. Dianne 
Feinstein (D-CA) have introduced bills in their respective houses of 
the Federal legislature. These bills would give California flexibility 
to maintain its stringent fuel emissions standards without having to 
meet the Federal regulations requiring oxygenates in gasoline. 'It (the 
Senate bill) would only give this discretion to California, where MTBE 
has been found in some drinking water supplies, said Feinstein.
     We feel sure that the main thrust behind the Tosco and Chevron 
proposals is the flexibility that would be created by the bills in 
Congress. It concerns us that the most apparent emphasis in their 
letter and press release are groundwater contami-

nation and limited improvement of smog conditions in California. 
Expression of these worries provides fodder for Oxy-Busters and some 
primary ethanol promoters. We cannot ignore the benefits that 
oxygenates have provided in reformulated gasolines. Air quality in 
California and other ozone non-attainment areas is very important. 
Gasoline in California that contains oxygenates (MTBE, TAME, ethanol, 
etc.) can be produced and distributed without harm to the environment. 
The banning of MTBE would surely result in the abandonment of the Clean 
Air Act improvements to date.
     US Market Activity
     Despite a significant drop in crude oil stocks (minus 5 million 
barrels), prices remain bearish. Crude oil futures prices have been 
under $19/barrel for more than a week. There has been limited price 
movement during this time and on Wednesday, crude reached an 18 month 
low closing price of $18.14/bbl. Gasoline prices have been bearish also 
despite a drop in inventories ( -1.6 million barrels). The market (fuel 
oil) that you would expect an inventory drop this time of the year 
actually had an increase of 484,000 barrels. Refinery operating rates 
were down 94.8 percent. Spot market activity for MTBE in the US 
continues to be very quiet. Prices have softened considerably. A trade 
on Monday netted 79 cpg, FOB Houston. On Tuesday, a refiner sold to the 
trade at 77.75 cpg. Two trades in NYH this week were done on USGC 
postings plus 4 cpg. On Tuesday, another trade was done in NYH at a 
fixed price of 81.75 cpg for lifting 12/15-25. Bid-offers are currently 
at 80-81 cpg.
    West Europe Market Activity
    December Brent Crude price has fallen below $18 per barrel. 
Gasoline prices continue to decline as well. The price spread between 
regular and premium grades of gasoline has fallen to a slim margin of 
only $3/ton. This puts price pressure on octane blend stocks in this 
market.
    The price ratio of spot MTBE to premium unleaded gasoline has 
fallen to less than 1.5. Refiners are looking for ratios of 1.35 or 
lower to incorporate MTBE in their blending operations.
    Most of the trade is not interested in buying at current spot 
prices for movement to North America. They will opt to buy on the USGC 
at 77 cpg or less for shipment to the Northeast. It is reported, 
though, that one trader has purchased 12-15K tonnes for export based on 
price postings at the time of lifting. Therefore, he has quite a vested 
interest to see lower price postings.
    Spot prices have fallen considerably this week. The market is 
reacting to the scenarios reported above. Nominal price has fallen from 
$280/ton last week to about $260-265/ton as of Wednesday. The ratio 
still leaves room for lower prices on MTBE.
    Asia/Pacific Market Activity
    It is reported that both of the Ibn Zahr plants in Saudi Arabia are 
having operations difficulties. It appears that both plants will 
experience some down time and that product shipments will be affected.
    Gasoline prices have fallen considerably in Singapore during the 
past week Unleaded 92 RON has reached a low of 50 cpg. The octane value 
for MTBE has fallen with gasoline prices.
    We report a drop in the nominal price for MTBE in Singapore to 
$265-270/ton.
                               __________
                                     F.W. ``Bill'' Russell,
                                                   December 8, 1997
United States Senator Barbara Boxer,
California State Capitol hearing Room 4203,
C/O State Senator Richard Mountjoy.
Dear Senator Boxer: It can be concluded from E.P.A., California Air 
Resource Board and U.S.G.S papers that M.T.B.E. was introduced before 
adequate health and water studies were started. completed or accepted.
    Accumulating levels of M.T.B.E. constitute far greater long-term 
hazards to California's health, agriculture and water supplies than are 
warranted by the questionable gain of ``cleaner air'' through annually 
burning of millions of tons of this substance in gasoline.
    I join with the Oil Companies, water suppliers of California and 
others, in urging that the Federal mandate for oxygenates be removed . 
. .  and further urge, that the National water suppliers not be left 
with the inevitable cost of cleaning water that will attend on-going 
contamination or purchase of alternate supplies, as long as such may 
exist.
M.T.B.E. IN LAKE TAHOE
    Finally, special funding is needed which will permit continuation 
of Lake Tahoe Water Studies THIS WINTER? Time is of essence in that 
M.T.B.E. has been detected to a depth of 100 feet at this National 
Treasure.
    Winter tracking and determination of the affect of varying 
temperatures on the life and spread of this contaminant in Lake Tahoe 
is important and will have continuing value with reference lakes and 
reservoirs in general.
    Inclusion of these remarks in the committee's study materials will 
be appreciated.
            Very cordially yours,
                                              F.W. Russell.
                               __________
      Impact of MTBE in Gasoline on Public Health in Philadelphia
                  by professor peter m. joseph, ph.d.
             university of pennsylvania school of medicine
1.0 Summary
    MTBE is being added to gasoline because the Clean Air Act 
Amendments of 1990 require that an oxygenate chemical be used in 
Reformulated Gasoline. However, experience in Alaska and Montana in 
1992 indicated that many people experienced adverse health effects from 
this additive. Previous scientific reviews of this question were flawed 
because they assumed that MTBE itself rather than some byproduct was 
causing the problems. I argue that existing data and experience imply 
that public health is being harmed by combustion byproducts of MTBE. 
Statistical health data from Philadelphia strongly support the 
association of huge increases in asthma, bronchitis, and other ailments 
with this gasoline additive. This data supports the complaints of 
thousands of citizens who believe that their health has been damaged by 
this gasoline additive.
            Included Appendices
    A. ``Changes in Disease Rates in Philadelphia following the 
Introduction of Oxygenated Gasoline''. Invited paper by Peter M. Joseph 
delivered to the annual meeting of the Air and Waste Management 
Association in Toronto, June, 1997.
    B. Two graphs showing recently acquired data from the Hospital of 
the University of Pennsylvania; data on emergency room admissions for 
wheezing and hospital admissions for bronchitis.
    C. Four letters (selected from several dozen) from people whose 
health has been diminished by MTBE in gasoline.

2.0 Purpose of MTBE
    The addition of MTBE, like that of any oxygenate, to gasoline is 
intended to improve air quality by reducing the amount of toxic 
substances emitted in gasoline exhaust fumes. There are three 
categories of such fumes, namely: carbon monoxide (CO), oxides of 
nitrogen (NO<INF>X</INF>), and other toxic chemicals. The effect of 
adding MTBE to gasoline has been extensively studied by an Auto/Oil 
industry group. Their results show that the effectiveness of adding 
MTBE depends drastically on the kind of car being used. All changes, 
both positive and negative, are less with modern cars which have 
extensive pollution control devices built in. The U.S. E.P.A. has also 
studied these effects. These results can be summarized as follows:
    2.1 Effect on Carbon Monoxide (CO). Adding oxygen to gasoline does 
reduce CO. However, a thorough study of 150 cities by the EPA(1) showed 
reductions of CO to be less than 10 percent less than had been 
predicted. It must be emphasized that such a small reduction is of no 
medical consequence, even for people with serious cardio-vascular 
diseases. A similar study of CO in Denver found that using either MTBE 
or ethanol in oxygenated gasoline gave no detectable reduction in CO at 
all(2).
    2.2 Effect on Ozone. This is complex because there are two distinct 
changes made in reformulated gasoline (RFG) that aim to decrease ozone. 
Ozone is created by the interaction of two different kinds of 
chemicals; reactive hydrocarbons and oxides of nitrogen 
(NO<INF>X</INF>). First, the chemical composition of the gasoline is 
altered to include fewer of those especially reactive hydrocarbons that 
contribute to ozone. Second, when MTBE is added to gasoline, the effect 
is to increase NO<INF>X</INF>, thus tending to worsen ozone. The A/
OAQIRP final report(3) says:
  ``Adding oxygenates to gasoline . . . in 1989 and earlier models . . 
    . raised NO<INF>X</INF> . . . The 1993 and later model vehicles did 
    not show any emission changes. Neither the aromatic nor the MTBE 
    content of gasoline had a significant effect on predicted ozone.'' 
    (page 4).
    In addition, the National Research Council report on Toxicological 
and Performance Aspects of Oxygenated Motor Vehicle Fuels (June 1996) 
says:
    ``The enleanment effect of Oxygenated fuels presents the potential 
for increased NO<INF>X</INF> emissions from motor vehicles. 
Furthermore, much of the available data suggests that such an increase 
does occur. Any increase in NO<INF>X</INF> would be detrimental in 
ozone nonattainment areas where exceedances have occurred during the 
period of the oxygenated fuels program''. (page 50)
    It is difficult to determine precisely the effect of gasoline 
changes on actual urban ozone levels. First, gasoline is definitely not 
the sole source of emissions that create ozone. The A/OAQIRP report #20 
indicates (page 9) that approximately 80-90 percent of urban ozone is 
due to sources of pollution other than automobiles; the exact amount 
depends on the city. This percentage is projected as decreasing in the 
future, mainly due to improved pollution control technology in cars. 
The California Air Resources Board is claiming that RFG has reduced 
ozone by roughly 10-18 percent; however, this conclusion has been 
criticized because some of the reduction could be due to changing 
weather conditions((4)). My analysis of official air quality data in 
Philadelphia shows no evidence for any reduction in ozone at all (5); 
see Appendix A. An article in the August 26, 1997 issue of the 
Philadelphia Inquirer headlined ``Northeast is enduring one of its 
smoggier summers in recent years'' (6). These results from the east 
coast obviously support the tentative conclusions expressed in the 
National Research Council Report, and certainly contradict the grossly 
exaggerated claims of MTBE proponents that its use is dramatically 
``cleaning the air''.
    The most recent evaluation of the effect of MTBE on ozone is Report 
#21 of the A/OAQIRP, which specifically compares the effect on air 
quality of the existing California RFG with the same gasoline without 
MTBE. Graphs on pages 14,15, and 16 show increases in NO<INF>X</INF> 
when MTBE is present, as expected. This effect is combined with the 
small reduction in reactive hydrocarbons in the exhaust, which tends to 
reduce ozone. The net result is a very slight decrease in ozone from 
using the MTBE-gasoline. This decrease, shown on page 25, is 
approximately 0.1 percent of the peak ozone, and is stated to be 
without statistical significance. It is utterly absurd to think that 
our current theoretical understanding of atmospheric and automotive 
chemistry is so precise that this minuscule effect is significant. It 
is certainly at least two orders of magnitude less than what could be 
significant medically, assuming it were true.
    In conclusion, existing scientific data does not indicate that 
adding MTBE to gasoline will substantially reduce ozone, and there is 
considerable evidence to the contrary.
    2.3 Effect on Air Toxics. It is often claimed that adding MTBE to 
gasoline reduces the emission of toxic combustion products. It is easy 
to see that such a statement is literally meaningless. Some air tonics, 
such as benzene, are decreased, while others, such as formaldehyde, are 
increased. Apparently what is meant is the total mass of the so-called 
air tonics, assuming all are equally toxic. The ``toxicity'' apparently 
takes into consideration only carcinogenesis, and not respiratory or 
neurological irritation. Furthermore, the statement applies to only a 
very limited list of four toxic chemicals. It is especially important 
that formic acid, which is considerably more irritating than 
formaldehyde or benzene, is not measured at all! Formic acid is 
expected to be a combustion product of MTBE. This statement is 
especially important in light of statistics showing a huge increase in 
respiratory disease in Philadelphia following the introduction of MTBE-
RFG.
    2.4 Effect on sulfuric acid. Scientists at the University of 
Utah(7) have discovered that when MTBE was used in winter oxygenated 
gasoline in Utah, the amount of sulfuric acid in the air doubled. This 
effect, which needs more study to be fully understood, implies that use 
of MTBE will increase acid rain and air pollution, especially when used 
in the vicinity of steel or power production plants. The acid thus 
produced will of course travel to other communities downwind.
3. History of Health Effects from MTBE
    From the earliest application of MTBE in high quantities in 
gasoline people have complained of health effects. When MTBE was 
mandated at 15 percent in Alaska gasoline in 1992, hundreds of people 
in Fairbanks complained of various symptoms including, neurological 
(headache, nausea), respiratory (cough, stuffy nose) as well as eye 
irritation. The problem was investigated on an emergency basis by both 
the Alaska Department of Health and the CDC. Studies showed that 
people's symptoms were as great while riding on the highways as when 
pumping gasoline; this alone suggests that the problem is an exhaust 
product rather than from gasoline directly. Some say that these 
problems where psycho-social, rather than medical, and claim that there 
was ``mass hysteria'' invoked by publicity. However, there was no such 
publicity or mass hysteria in Anchorage, where the Department of Health 
found symptom rates at least as large as in Fairbanks. Prompted by the 
complaints, the governor canceled the program in December of 1992. 
Follow up studies in February 1993 showed that the number of symptoms 
complaints dropped to almost zero. Direct measurements of MTBE in 
peoples's blood in December, and its absence in February, disprove the 
claim by some proponents of MTBE that MTBE was not removed from 
Fairbanks immediately.
    A similar, if less dramatic, story unfolded simultaneously in 
Missoula, Montana, where again hundreds of citizens complained of the 
same symptoms as in Alaska. In addition, the local department of health 
surveyed local physicians, 66` of whom said that their asthmatic 
patients had gotten worse. Due to public pressure and public hearings, 
it was decided to use only ethanol in the next winter's oxygenated fuel 
season, and this greatly reduced the number of health complaints.
    Similar public complaints emerged in January 1995 in Milwaukee, WI 
which resulted in the state Department of Health conducting a telephone 
survey. That study, which concluded that MTBE had no effect on public 
health, is in my opinion seriously flawed. First, they again assumed 
that any effects were due directly to gasoline rather than to an 
exhaust product. Also, the study was conducted after only two months of 
exposure to MTBE-RFG, which is not enough time to develop the full 
effects that I believe exist.
    Similar public complaints have been registered in Colorado, Maine, 
Connecticut, New Jersey, Pennsylvania, Texas, and (most recently) in 
California. In most cases no serious effort has been made to 
investigate these complaints. In Maine, the Department of Health looked 
at statistics on hospital admissions for asthma, but only up to June 
1995. That represents only six months of exposure to MTBE-RFG. My data 
in Philadelphia clearly show a progressive worsening of asthma and 
other diseases over a three year period.
    In some cases individuals have written detailed descriptions of 
their problems, and why they believe they are related to MTBE in 
gasoline; see Appendix C. A key fact is that many of these people find 
that they become completely asymptomatic upon travel to areas without 
MTBE-RFG, or to non urban areas without air pollution problems. The EPA 
and other proponents of MTBE dismiss these complaints as ``anecdotal''. 
I would describe such testimony as ``circumstantial'' rather than 
``anecdotal''. What these people are saying is that they become ill 
consistently under certain conditions, and better in other conditions, 
and that MTBE in gasoline is the important factor. In a few cases 
individuals (or entire families) have actually moved their place of 
residence soled to escape MTBE. (See Appendix C.) What is desperately 
needed is a research study to expose those people to exhaust fumes from 
actual automobile engines, comparing the effect of MTBE and non-MTBE 
gasoline.
4. Health Data from Philadelphia
    In the past few years, there have been numerous reports of 
skyrocketing asthma rates in the Philadelphia region. Many school 
nurses and athletic coaches believe that they are seeing more now than 
ever before. However, collecting objective statistical data on this 
growth has not been easy, partly because many school administrators 
resist such data collection. Recent research shows that the school 
nurses know about only 1/3 to 1/10 of the asthmatic students in their 
school. Other problems are that the data is usually in the form of 
paper files in the offices of the school nurses, so tabulation of the 
numbers is a labor intensive activity and is beyond the duties of the 
nurses. Nevertheless, I have been given data on the historical growth 
of asthma in three schools, two in Pennsauken, NJ and one in 
Downingtown, PA. These data are included as graphs in the paper I 
presented to the annual meeting of the Air and Waste Management 
Association; this paper is included as Appendix A. These data show an 
astonishing Growth of asthma following the introduction of oxygenated 
Gasoline in November 1992.
    The Philadelphia Department of Health believes that asthma has 
recently become a major public health problem in that city and has 
formed a group of experts called the Philadelphia Asthma Task Force. As 
a member of that task force, I have acquired statistical data on the 
office visits for asthma and other diseases since March, 1993. That 
data is shown in the AWMA paper in Appendix A. Note that not only 
asthma have increased, but also several other diseases including 
chronic sinusitis, and winter allergies. The number of visits 
classified as chronic bronchitis did not increase; I believe this may 
be due to bronchitis patients who go on to develop asthma and have 
their diagnosis changed. I know of some anecdotal reports of such 
changes.
    Other data recently acquired is from the Hospital of the University 
of Pennsylvania. Graphs for the number of emergency room admissions for 
``wheezing'' as well as for hospitalizations for chronic bronchitis for 
the period 1990 to 1996 are shown in Appendix B. Note the substantial 
increases that appear following the introduction of oxygenated 
gasoline. The increase in wheezing is approximately 4-fold and the 
increase in bronchitis is approximately 10-fold! Furthermore, these 
increases appeared to start soon after oxygenated gasoline with MTBE 
was introduced. Keep in mind that my theory predicts that there the 
increases will not necessarily begin immediately upon usage of the 
MTBE, but there may be a delay of 1-2 years before large numbers of 
people develop sensitivity to the toxic byproducts of MTBE.
    Besides this data presented here, I am working on collecting other 
data of a similar nature. I am not prepared to release this data at 
this time, either because more analysis is needed or because it is 
being developed in collaboration with other scientists. However, I can 
emphatically say that it supports the conclusions presented here, that 
in the period following the introduction of gasoline oxygenated with 
MTBE the Philadelphia area has experienced huge, unexplained, increases 
in asthma and certain other diseases.
5. Personal Testimonies
    Literally thousands of citizens have observed that their health has 
diminished since MTBE was mandatory in gasoline, and have associated 
certain symptoms with its use. Some of these people, driven by 
desperation to bring the problem to the attention of governmental 
authorities, have written letters and statements of their personal 
experiences. A few of these are enclosed in Appendix C.
6. References
    1. R. Cook, P. Enns, M.S. Sklar, ``Regression analysis of ambient 
CO data from oxyfuel and nonoxyfuel areas.Paper 97-RP139.02,'' Air and 
Waste Management Assoc., Pittsburgh, PA, 1997 pp. 1-14.
    2. L.G. Anderson, J.A. Lanning, E. Wilkes, ``Effects of using 
oxygenated fuels on carbon monoxide, formaldehyde, and acetaldehyde 
concentrations in Denver. Paper 97-RP139.05,'' Air and Waste Management 
Assoc., Pittsburgh, PA, 1997 pp. 1-13.
    3. A. Unknown, ``Auto/Oil Air Quality Improvement Research Program. 
Final Report,'' Coordinating Research Council, Atlanta, GA, 1997 pp. 1-
15.
    4. R. Salladay, ``Clean air ad campaign called a stinker'', San 
Francisco Examiner, Nov. 30, 1997 page A4, San Francisco
    5. P.M. Joseph, ``Changes in disease rates in Philadelphia 
following the introduction of oxygenated gasoline. Paper 97-TA34.02,'' 
Air and Waste Management Assoc., Pittsburgh, PA, 1997 pp. 1-15.
    6. J. Down, ``Northeast is enduring one of its smoggier summers in 
recent years'', Philadelphia Inquirer, Aug. 28, 1997 page A13, 
Philadelphia
    7. Y. Du, Y. Ren, N.F. Mangelson, D.J. Eatough, ``Enhanced 
formation of sulfate and nitrate associated with the use of oxygenated 
fuels. Paper 97-WP68B.05,'' Air and Waste Management Assoc., 
Pittsburgh, PA, 1997 pp. 1-14.
                               __________
                               97-ta34.02
   For Presentation at the Air & Waste Management Association's 90th 
 Annual Meeting & Exhibition, June 8-13, 1997, Toronto, Ontario, Canada
        97-TA34.02 Please note addendum at the end of the paper

Changes in Disease Rates in Philadelphia Following the Introduction of 
                          Oxygenated Gasoline

                            peter m. joseph
department of radiology, university of pennsylvania, philadelphia, pa, 
                                 19104.
Introduction
    Methyl Tertiary Butyl Ether (MTBE) has been used as an octane 
enhancer in the United States since it was approved in 1979. Statistics 
on its production(1) since 1981 show a remarkable rate of increase 
averaging 25 percent per year. It is by far the most rapidly growing 
chemical produced now in the U. S., with 1995 production estimated to 
be 17 billion pounds per year. Information on the exact concentration 
of MTBE used as an octane enhancer in gasoline is not easily 
obtainable, however, it seems that 3-5 percent is sufficient to raise 
the octane for most high-test grades of gasoline. Since 1992, it has 
been used in some regions as an oxygenate for the purpose of reducing 
pollution from automobile emissions. There were two government mandated 
programs that required oxygenated gasoline, the so-called winter 
oxygenated gasoline (WOO) and summer time reformulated gasoline (RFG). 
In regions with WOO it was required that all gasoline contain 2.7 
percent oxygen by weight, and RFG requires 2.0 percent in most regions. 
This translates into 15 per-

cent and 11 percent MTBE by volume, respectively, and represents a 
enormous increase in the exposure of the public to MTBE and its exhaust 
products. There are no firm figures for this increase, but it can be 
estimated to be roughly 300 percent to 600 percent.
    Because of its long history of use in the U. S., as well as its use 
in various foreign countries, some have concluded that MTBE must be 
safe for use in gasoline. I, however, suspect that an irritating 
byproduct, probably tertiary butyl formate (TBF), has been causing 
major public health problems in the past that have not been recognized. 
Asthma is increasing in many foreign countries. In the U.S. asthma 
mortality, which had been steadily declining prior to 1979, abruptly 
reversed direction in 1980 and has been climbing ever since.(2,3) See 
figure 1. No one has ever satisfactorily explained this reversal.(4) 
Clearly the question of adverse health effects from MTBE must be 
reexamined, with a focus on possible increases in disease in the 
general community, and not just in people occupationally exposed to 
gasoline fumes. This point was raised in a previous publication.(5)
    Since 1992 there have been increasing public protests from citizens 
who believe that the use of MTBE in gasoline is harming their health. 
Protests have been documented in Alaska, Montana, Colorado, Wisconsin, 
Maine, Connecticut, New Jersey, Pennsylvania, Texas, and California. In 
New Jersey, a citizen's group called ``Oxybusters'' presented 
approximately 15,000 petition signatures to the governor in a public 
ceremony on July 13, 1995.(6) According to the petition, many of these 
people experience unpleasant symptoms while riding in cars, and 
attribute them to MTBE in the fuel. The issue is still controversial 
despite two reviews that concluded that adverse health effects are 
unlikely. In June 1996 the National Academy of Sciences released a 
report(7) analyzing the existing literature, and concluded that the 
data available do not rule out the possibility that adverse health 
effects exist.
    It is possible that previous reviews of this problem(8) have 
arrived at incorrect conclusions because they misidentified the nature 
of the problem and therefore made several assumptions that are false.
    The most important such assumption was that MTBE itself is the 
active toxin, rather than some atmospheric or automotive byproduct. For 
example, because studies in Alaska(9) indicated that people tended to 
have more symptoms while riding in cars than at gas stations, it was 
concluded that MTBE can not be the cause of the problem. This is 
because the concentrations of MTBE are far higher in gas stations than 
on roadways distant from gas stations.(10) However, if the active toxin 
is produced in automobile exhaust, such a pattern is exactly what one 
would expect. Furthermore, one would not expect to find a very strong 
correlation of symptoms with blood concentrations of MTBE, although 
such a correlation was found by a CDC study in Stamford, CT in 
1993(11). This association was found among people occupationally 
exposed to gasoline, and could have come from MTBE itself or from some 
unsuspected contaminant in the gasoline.
    It is important to note that some of the symptoms found in Alaska 
and Connecticut, namely, eye irritation, burning in the nose or throat, 
and cough, are typically produced by respiratory irritant chemicals. 
Such chemicals are widely acknowledged as inducers or exacerbators of 
asthma. Thus, the fact that asthma was not identified specifically as a 
concern in those preliminary studies does not imply that it is not 
affected by MTBE in gasoline.
    A second assumption made in previous work was that the respiratory 
and irritant effects are short term. However, it is very well known 
that some chemicals, such as toluene di-isocyanate (TDI) can induce 
asthma in people exposed to very low concentrations (in the ppb range) 
over a period of several years.(12) This implies that the study of 
symptoms carried out by the Wisconsin Department of Health(10) in 
February and March 1995, comparing Milwaukee, Chicago, and rural 
Wisconsin was done too soon (two months after RFG) to pick up this 
effect. A similar criticism applies to the study done by Mohr et 
al.(13) of garage workers in New Jersey in 1993; that was done after 
only 7 months of exposure. Furthermore, the data of Mohr et al. do 
indicate a statistically significant increase in the symptom rate in 
the WOG region for symptoms experienced prior to arrival at work.
    There are various other assumptions made by previous studies that 
could be challenged, but rejecting the two previous assumptions is 
sufficient to refute the argument that previous studies rule out any 
possible adverse effect of MTBE on community health.
Data
    Because my own symptoms(5) were strongly correlated with the use of 
WOG and RFG, I have invested considerable energy in learning how many 
other people in the Philadelphia region have similar problems.
    Based on casual conversation with strangers, I find that many have 
symptoms that I interpret as possibly attributable to some air toxin 
derived from MTBE.Since I do not know what this toxin is, I shall refer 
to it as the MTBE derived toxin (MDT). Many of these people report that 
they become asymptomatic upon travel to other regions in which WOG or 
RFG are not required.
    There are widespread reports in the Philadelphia area of a dramatic 
increase in asthma over the last few years. This opinion is often found 
in school nurses and athletic coaches, and the situation has been 
reported in local newspapers(14). National statistics indicate that 
asthma prevalence, as of 1990, was about 5 percent nationwide.(4) 
However, since asthma is not a reportable disease there is no easy way 
to accurately establish the prevalence rate in any given area. In 
principle, the medical records of school nurses should provide an 
estimate at least for children of school age. For one school in 
Downingtown, Chester County, Pennsylvania, Mrs. Kathleen Brehm, the 
nurse for the Lionville School of approximately 500 students, was so 
concerned about what she perceived to be an alarming increase in asthma 
that she provided statistics from her office records from 1990 to 1996. 
Her classification of asthmatic children is based strictly on a 
physician's diagnosis as determined from a health questionnaire that 
she sends to each student's family in the fall of each year. These 
data, graphed in figure 2, show a remarkable increase of roughly 100 
percent between October 1992 and October 1993. WOG was mandated in that 
area in November 1992 and again in November 1993. Mrs. Brehm reports 
that an unusually large number of 1995 sixth grade students had asthma, 
and the graduation of those students in June 1995 probably explains the 
decrease seen in 1996. The students in this school are predominantly of 
the Caucasian race.
    An asthma survey form was sent to the principals of 50 elementary 
schools in southern New Jersey, focusing on communities close to the 
Delaware River and within the Philadelphia suburban region. The 
surveyed region did not include Camden, a city with a large minority 
population. Twenty of those forms were returned. Most of the returned 
forms stated the current number of asthmatic students known to the 
nurses, but gave no historical information. The nurses were asked to 
indicate whether, ``over the last few years'', they thought the asthma 
rate had increased, deceased, or stayed the same. Of those expressing 
an opinion, 12 indicated no change, 8 indicated an increase, and none 
indicated a decrease. The average prevalence rate for those schools in 
which the nurses perceived an increase was 6.8 percent, with three 
schools over 10 percent. The average prevalence rate for those schools 
where the nurses did not perceive an increase was 5.6 percent, with the 
largest being 8.8 percent. Only four schools provided data on the 
historical growth of asthma. Summing those results showed the number of 
identified asthmatics increased from 77 in 1992-93 to 98 in 1996-97. 
This represents an increase of 27 percent and is of marginal 
statistical significance.
    However, Mrs. Meg Snyder, a school nurse in Pennsauken, NJ called 
to complain that her school had not been included in the sample. She 
said that her asthma case load has been growing ``exponentially'' and 
requested to be included. She and a colleague returned forms that 
indicated a very substantial growth in asthma cases, shown in figure 3. 
The average prevalence rate for the two schools in 1996 was 62/586=10.6 
percent. Pennsauken has been described as a ``blue collar'' community 
and is very close to the Delaware river across from Philadelphia, 
adjacent to Camden.
    The Philadelphia Department of Health operates eight public health 
clinics. These clinics have a computerized data base, including 
diagnoses, for each patient seen since March 1993. For each visit the 
physicians fill out a reporting sheet on which they are required to 
check at least one diagnosis box based on the common ICD-9 diagnostic 
coding system. The clinic operations are divided into adult and 
pediatric sections, with the latter accepting patients under the age of 
18. There were no changes in the diagnosis reporting forms for adults 
since 1993. However, at the end of 1993 there was a change in the forms 
used for pediatric patients. Some of the diagnostic terminology changed 
in the new forms, so for this reason most of the pediatric data was 
rejected. However, the diagnostic category ``asthma'' did not change. 
For this reason, asthma data were taken for both the adult and 
pediatric populations, whereas only adult data were used for the other 
diagnoses studied. Data were obtained for the number of visits in which 
a diagnosis code included one of seven diseases thought to be 
influenced by possible irritation from MDT. The diagnoses of interest 
were asthma, chronic sinusitis, chronic bronchitis, allergic rhinitis, 
conjunctivitis, otitis, and ``dyspnea''. The latter condition is not a 
recognized disease but simply expresses the symptomatic problem of 
difficult breathing; ``pure dyspnea'' was defined as visits in which 
dyspnea was the only diagnosis box checked. Inflammatory conditions 
that were diagnosed as acute (such as acute rhinitis or acute 
sinusitis) were not included because they are most likely to have an 
infectious etiology.
    These data are presented in table 1. Each year in that table is 
defined as starting in March and ending in February of the following 
year. In addition to the seven target diagnoses, also shown are the 
total number of visits as well as numbers for two diagnoses 
(hypertension and diabetes) that are not thought to be influenced by 
air pollution. The percentage increase numbers are calculated from the 
raw numbers of visits. With one exception, the increases seen have a 
high degree of statistical significance. Only chronic bronchitis did 
not significantly increase.
    Prior to the collection of any of the data presented in this paper, 
in 1995 officials in the Philadelphia Department of Health perceived a 
growing asthma problem in the city. This lead to the establishment of 
the Philadelphia Asthma Task Force, a committee consisting of experts 
in medicine, pharmacy, nursing, environment, education. and data 
management, drawn from various institutions in the city and region. 
This Task Force meets monthly to discuss ways to gather data to analyze 
the situation? and is also planning various programs to improve 
delivery of medical services to asthmatics.
    Further evidence of an alarming increase in asthma in Philadelphia 
comes from increases in the numbers of cats treated for asthma at the 
University of Pennsylvania. Dr. Jeffrey Wortman, Associate Dean at the 
University of Pennsylvania School of Veterinary Medicine, has provided 
statistics (figure 4) that show a dramatic increase in the number of 
visits for cats treated with asthma. The vertical error bars in the 
plot represent one standard deviation. A chi-squared analysis of the 
null hypothesis, that there is no increase, gave a value of chi-squared 
= 24.5 for 5 degrees of freedom; the corresponding P < 0.001, so the 
increase is highly significant statistically. The timing of the 
increase is consistent with the introduction of WOG in the fall of 
1992. Dr. Wortman is attempting to collect similar data from other 
veterinary hospitals. Unfortunately, most such institutions are located 
in rural areas without the air quality problems from NIDT that are 
present in major cities such as Philadelphia.
Other Studies
    In addition to my attempts to chart the growth of asthma, several 
other medical researchers are engaged in studies to determine the 
current prevalence of this disease.
    Mangione et al. (15) have studied two different middle schools in 
Philadelphia, using a technique in which students are asked to fill out 
a symptom questionnaire after having seen a video tape presentation of 
the symptoms of asthma. Their results suggest a prevalence of at least 
28.8 percent by the most rigorous criterion, namely, symptoms at least 
once per month. They also found that only 30 percent of the asthmatic 
students were registered as such with the school nurses. This suggests 
that asthma is underdiagnosed in these populations, which were 
predominately African-American or Hispanic. It also suggests that other 
surveys based on the school nurse records. such as mine may be greatly 
underestimating the severity of the current asthma problem.
    The pulmonology group at Temple University Hospital, under Dr. 
Gilbert D'Alonzo,(16) are studying the prevalence and severity of 
exercise induced bronchospasm in high school athletes in several 
schools, both within the city of Philadelphia and in several suburban 
communities. They test students who are actively engaged in playing on 
the school's sports teams, so the population is undoubtedly biased 
toward the strongest and healthiest students. The volunteers run one 
mile, after which their pulmonary function is evaluated by measuring 
peak flow. The percentage of athletes showing significant reduction in 
pulmonary function in this test is again surprisingly high, reaching 24 
percent for the African American students in Philadelphia and 12 
percent for the Caucasian students in the suburbs. All of the suburban 
schools studied so far are within the five counties required to have 
either WOG or RFG, most of it with MTBE.
    Dr. Andrew McBride, director of public health for the city of 
Stamford, CT has been conducting surveys of asthma prevalence in the 
schools in that city(17, 18). Preliminary analysis of the data 
collected in the fall of 1996 indicate that 15 percent of the 
kindergarten children have been diagnosed with asthma by their 
physicians, and another 9 percent appear to have symptoms of asthma but 
have not been so diagnosed. This again indicates a prevalence 
approaching 25 percent under current conditions. An earlier smaller 
study conducted in the 1992-93 school year indicated asthma prevalence 
rates of about 7-8 percent, which were considered to be unusually high 
at that time. Stamford is not far from New York City and has always 
been on the same schedule for gasoline oxygenation, with longer periods 
of WOO than Philadelphia during the first two years. It is noteworthy 
that the Stamford Advocate, in addition to covering the growth of 
asthma in that community, has also pub-

lished an article in which several residents complain of multiple 
experiences of chest pain or dyspnea while traveling on local 
highways.(19)
Other air quality factors
    One should ask if there may be other air quality factors other than 
MDT that could explain the observed increases. In this regard, I have 
considered ozone.
    Data from the Philadelphia Bureau of Air Quality Management give 
temperature and ozone concentrations measured in Philadelphia. This 
data was analyzed by computing the average of the maximal ozone 
concentrations for each day in July and August for the years 1993 
through 1996. Only ozone maxima which occurred between 10 AM and 5 PM 
each day were included. Also computed were the averages of the daily 
maximal temperatures. The results are shown in figure 5, together with 
the line of linear regression. As expected, we see a clear correlation 
between the average summer temperatures and average ozone maxima. The 
standard error (S.E.) on the ozone values is approximately 3 ppb; the 
error bars shown are 1 S.E. The summer of 1995 was exceptionally hot in 
Philadelphia, while that of 1996 was exceptionally cool. This analysis 
does not show any evidence for any reduction in ozone during the RFG 
years ( 1995 and 1996) as compared with the previous years ( 1993 and 
1994); however, a change of 5 percent in either direction can not be 
ruled out. This lack of improvement is despite the well known long term 
downward trend in ozone, which is generally attributed to successful 
programs to reduce ozone, including better pollution control technology 
on automobiles. The decline in ozone is evident in the decrease in the 
number of exceedences of the ozone standard (120 ppb). Exceedence data 
obtained from the Pennsylvania Department of Environmental Protection 
are shown in figure 6. Note that some exceedences did occur during the 
summer of 1996, which was exceptionally cool, even though RFG was 
mandatory in the five county region.
Discussion
    The data presented support the assertion that, since 1993, the 
Philadelphia area has experienced a significant increase in asthma and 
certain other diseases thought to be responsive to air pollution. With 
the exception of chronic bronchitis, all of the increases have a high 
degree of statistical significance. However, it is not possible to 
conclusively argue that these increases are due to gasoline oxygenated 
with MTBE. At the least, to justify such a conclusion it would be 
necessary to show comparable data from other nearby regions that were 
not included in the WOG or RFG programs. It would also be desirable to 
have data on disease rates extending back in time at least to 1990. To 
date I have not succeeded obtaining such data.
    The lack of increase in chronic bronchitis (CB) may indicate that 
it is not responsive to the MDT in the air, or it may be a statistical 
artifact. For example, if significant numbers of CB patients went on to 
develop asthma during this three year period, their diagnoses may have 
been changed from bronchitis to asthma. The physicians making these 
diagnoses are mostly not specialists in pulmonary disease, and 
misdiagnosis of these two diseases is not uncommon outside of the 
hospital environment. CB is most commonly seen in smokers, and there is 
no reason to assume that the number of smokers in Philadelphia has 
changed significantly in recent years.
    Similarly, it has been suggested that asthma may be overdiagnosed, 
and that many such diagnoses are incorrect. If that is true it is 
irrelevant for the purposes of this paper. What these data show is that 
there is an increase in what appears to be asthma based on the judgment 
of the clinic physicians. If the asthma diagnosis is incorrect is some 
cases, the data still show that respiratory diseases of some kind 
(perhaps unknown) are increasing.
    The diagnosis ``pure dyspnea'' is especially interesting because it 
is not a recognized disease, but merely a statement that the patient 
has trouble breathing. One would expect that physicians would be 
reluctant to indicate that as the only diagnosis, since they would be 
admitting that the actual underlying disease is unknown. Based on 
interviews with several dozen people, I believe there may indeed be a 
condition due to MDT which leads to temporary trouble breathing. 
Several individuals I know of have gone to emergency rooms with this 
problem, only to be told that they do not have asthma, and with no 
other diagnosis suggested. In many cases, these attacks of dyspnea come 
while riding in cars(19). Such a pattern to the symptoms would be 
practically impossible to diagnose in a traditional clinical situation, 
which assumes that the patient's condition is the same while being 
examined in the clinic as it is while riding in the car!
    There are some interesting features of the monthly variation in the 
office visit data, but in the interests of brevity these will be 
discussed in a later paper. One important point is that the increase in 
allergic rhinitis in winter could not be due to either pollen or ozone 
pollution.
    The progressive nature of the increases seen could be interpreted 
to mean that it is due to some pollutant that is increasing slowly. 
However, I argue it is more likely due to the slow increase in the 
number of people who have developed sensitivity to the MDT. In other 
words, even in regions which have been using RFG with a constant volume 
fraction of MTBE, one would expect to see a slowly increasing 
prevalence of such sensitized individuals over a period of years. This 
is exactly the pattern that is known to exist for at least one other 
chemical irritant, TDI(12). This concept would suggest that eventually 
the number of sensitized individuals would level out, but the time 
constant for achieving this equilibrium is obviously unknown. I 
personally know of many individuals who have developed symptoms that 
have the MDT pattern after two or three years of exposure. It is also 
possible that as people age they become more likely to develop the 
sensitivity.
    One lesson learned from this work is the unreliable nature of data 
collected from school nurses. Many school nurses see their job as 
responding to emergency situations, and not to chronicle the general 
health of the student body. Most nurses rely on data given to them 
voluntarily by the parents, and few take a pro-active approach and 
request medical information from the families on a regular basis. Mrs. 
Brehm of Downingtown was one of the few who actively demanded medical 
information from the parents of her charges. For this reason, I think 
that the increase that her data show from 1992 to 1993 is significant, 
because there were no changes in her polling techniques over that time, 
and presumably no changes in the diagnostic abilities of the 
community's physicians. The excellent work of Drs. Mangione, D'Alonzo, 
and McBride clearly show that asthma is often grossly underreported to 
the school nurses.
    An important concept in my theory is that the MDT is produced 
primarily as a combustion product in the automobile engine, rather than 
from MTBE itself. TBF is a very likely candidate for the MDT because it 
can be produced by simple partial oxidation:
             mtbe + o<INF>2</INF> --> tbf + h<INF>2</INF>o.
    That is, one needs one atom of oxygen to oxidize the methyl moiety 
of the MTBE while leaving the t-butyl group unchanged. TBF is known to 
be the predominant product of atmospheric transformation of MTBE by 
hydroxyl radicals in the air(20,21). It is also the predominant 
byproduct of the use of ozone to treat water contaminated with 
MTBE.(22) This suggests that at least under ambient temperature 
conditions the t-butyl group is more resistant to oxidation than is the 
methyl group. It has been argued that two factors would work against 
the production of TBF in automotive combustion. One argument says that 
the temperatures in the internal combustion engine are so high that the 
t-butyl group would not survive. Another says that any TBF produced 
would beoxidized to water and CO<INF>2</INF> in the catalytic converter 
in the automobile's exhaust stream. Both of these arguments may be 
partially correct, but they can not be totally correct, since the 
existence of a very rich array of complex hydrocarbons, including MTBE, 
in the exhaust clearly shows that at least some complex molecules do in 
fact survive. The relatively cool layers of gas very near the surfaces 
of the engine's cylinders could provide the conditions in which partial 
oxidation would be expected to operate. Furthermore, it is known that 
some free radicals are produced in the combustion process, and it is 
exactly such radicals that are known to convert MTBE into TBF(21). In 
none of the exhaust speciation studies published to date has any 
attempt been made to identify TBF in the exhaust gases. The products 
listed include a few percent called ``unidentified 
hydrocarbons''.(23,24). In summary, there is no reason to doubt that 
TBF is being produced, and the main question is how much. Research on 
this question is urgently needed.
    A well known example of the production of formate in automobile 
exhaust is the production of formic acid (FA) from methanol(25). This 
is closely analogous to the production of TBF from MTBE since both 
involve the partial oxidation of the methyl moiety. It is also possible 
that FA is produced from MTBE fuel. FA is known to be extremely 
irritating to the respiratory system. There may well be other 
byproducts of MTBE combustion that are functioning as the MDT. Examples 
that come to mind are t-butyl alcohol and t-butyl nitrite.
    Among the possible combustion products of MTBE, TBF is a prime 
suspect because, as an ester of formic acid, it must be assumed to be 
extremely irritating to the respiratory system and could cause the 
increase in respiratory diagnoses reported here. The only toxicological 
information publicly available to date is the MSDS published by the 
Fluka Chemie Company of Buchs, Switzerland. The acute effects claimed 
in that document indicate that TBF is ``extremely destructive to tissue 
of the mucous membranes and upper respiratory tract, eyes, and skin. 
Inhala-

tion may be fatal as a result of spasm, inflammation and edema of the 
larynx and bronchi, chemical pneumonitis and pulmonary edema. Symptoms 
of exposure may include burning sensation, coughing wheezing, 
laryngitis shortness of breath . . . ''. Even if these dangers are 
exaggerated for legal purposes, one can not justify ignoring the 
warning they provide and the possibility of serious public health 
effects. Obviously, more serious research into the toxicology of TBF is 
needed.
    It is possible that the putative effects of MTBE on public health 
are not due solely to MDT, but could be the result of synergistic 
interaction with other factors. For example, anything that tends to 
cause chronic mucosal inflammation in sensitive individuals may enhance 
the sensitivity to MDT. Such factors could be other irritating 
pollutants, or biological allergens such as dust or cockroaches. 
Further research on such synergistic interactions is needed.
    While these data do not conclusively prove that MTBE in gasoline is 
harming public health, they raise the serious possibility that this is 
happening. In view of this, it would appear that all plans to expand 
the use of MTBE-RFG to other areas on the assumption that it will 
produce health benefits are seriously ill advised. An immediate 
moratorium on such expansions is urgently needed. Similar concerns 
would apply to other methyl ethers, such as tertiary amyl methyl ether 
(TAME), since they also can produce esters of formic acid by partial 
oxidation.
Conclusions
    Data collected from various sources in the Philadelphia area 
indicate an increase in asthma and certain other diseases during the 
period from 1993 through 1995. The most statistically significant data 
came from computer records of public health clinics, and unfortunately 
those records begin only in 1993. It is argued that the most likely 
explanation for these increases is the generation of some unsuspected 
toxic substance produced by the combustion of MTBE in gasoline. The 
institution of the oxygenated gasoline program in the fall of 1992 
means that the amount of such pollution greatly increased at that time. 
Three time-history sets of data support such a time association, 
including an abrupt increase in asthma prevalence in one suburban 
school, and a similar increase in the number of cats treated for asthma 
at a city veterinary hospital. In addition to the work reported here, 
results being obtained by researchers in Philadelphia and Stamford, 
Connecticut, also indicate extraordinary prevalence rates for asthma 
among urban children in those cities.
    It is argued that the most likely explanation for the observed 
effects is the production of TBF from the combustion of MTBE. It is 
noted that asthma mortality began to rise in 1980 immediately after 
MTBE was approved for use in gasoline. It is argued that previous 
studies that rejected an association between MTBE in gasoline and 
health problems were flawed because of several false assumptions, in 
particular, that MTBE rather than some combustion product was 
responsible. Several avenues for future research on the problem are 
suggested.
Acknowledgments
    Obviously, this paper consists primarily of data provided by other 
people, and I am indebted to many individuals for help. The 
Philadelphia Department of Health, especially Dr. Lawrence Robinson and 
Mr. Warner Tillack, provided the statistical data on clinic visits. The 
Philadelphia Bureau of Air Management, under Mr. Robert Ostrowski, 
provided air quality data. Dr. Jeffrey Wortman provided his data on 
asthma in cats, even though the project is not yet finished. Drs. 
Mangione and D'Alonzo provided abstracts of their work prior to their 
being accepted for publication. Dr. McBride sent me his asthma survey 
results. Barry Doryman and Linda Maietti provided help in the survey of 
the New Jersey schools. And of course, Kathleen Brehm, Meg Snyder, and 
other nurses gathered invaluable data on asthma from their past 
records, work that was certainly beyond the call of duty.

                               REFERENCES

    1. Unknown, A. Chemical & Engineering News. 1996, 74, 40-44.
    2. Sly, R.M. Ann. Allergy. 1994, 73, 259-268.
    3. Rachelefsky, G.S. Hospital Practice. 1995, Nov. 15, 51-64.
    4. Weiss, K.B.; Gergen, P.J.; Wagener, D.K. Ann. Rev. Publ. Health. 
1993, 14, 491-513.
    5. Joseph, P.M. Arch. Env. Health. 1995, 50, 395-396.
    6. Bates, T.B. Fueling a Controversy; Asbury Park Press July 21: 
Asbury Park, NJ, 1995; pp. 1-2.
    7. Committee, A. Toxicological and Performance Aspects of 
Oxygenated Motor Vehicle Fuels; National Academy Press: Washington, DC, 
1996; pp. 75-115.
    8. Committee, A. The Potential Health Effects of Oxygenates added 
to Gasoline; Health Effects Institute: Cambridge, MA, 1996; pp. 1-118.
    9. Belier, M.; Schloss, M.; Middaugh, J. State of Alaska Bulletin. 
1992, 26, 1-1.
    10. Anderson, H.A.; Hanrahan, L.; Goldring, J.; Delaney, B. An 
Investigation of Health Concerns Attributed to Reformulated Gasoline 
Use in Southeastern Wisconsin; Wisconsin Dept. Health: Madison, WI, 
1995; pp. 20-22.
    11. White, M.C.; Johnson, C.A.; Ashley, D.L.; Buchta, T.M.; 
Pelletier, D.J. Arch. En v. Health. 1995, 50, 183-189.
    12. Nielsen, G.D. Crit. Revs. Toxicology. 1991, 21, 183-208.
    13. Mohr, S.N.; Fiedler, N.; Weisel, C.; KellyMcNeil, K. Inhalation 
Tox. 1994, 6, 553-562.
    14. Fitzgerald, S. Asthma's grip baffles the experts; Philadelphia 
Inquirer June 11: Philadelphia, 1995; pp. 1-6.
    15. Mangione, S.; Papastamelos, C.; Elia, J.; McHugh, C.; Thomas, 
J.C.; Gracely, E. Asthma Prevalence and Absenteeism among Inner-city 
School Children: A Survey of Two Philadelphia Middle Schools; Am. J. 
Resp. Crit. Care Med. 1997 (April), 155, pages unknown.
    16. Kukafka, D.S.; Porter, S.; Ciccolella, D.; Lang, D.; D'Alonzo, 
G. Peak Expiratory Flow (PEF) Response to a Free Running Test in 
Varsity Football Players. Am. J. Resp. Crit. Care Med. 1997 (April), 
155, pages unknown.
    17. McBride, A.D. Outcome of Asthma Survey of Kindergartners 
entering the Public School System in 1996; Stamford Dept. Health: 
Stamford, CT, 1996; pp. 1-1.
    18. Carella, A. Pollution a Target as Childhood Asthma Levels Rise; 
The Advocate Dec. 9: Stamford, CT, 1996; pp. 1-7.
    19. Carella, A. Research Fuels Debate. Suffers swayed by reports 
dismissing dangers of gas additive; The Advocate Nov. 22: Stamford, CT, 
1996; pp. 1-8.
    20. Japar, S.M.; Wallington, T.J.; Richert, J.F.O.; Ball, J.C. Int. 
J. Chem. Kin. 1990, 22, 1257-1269.
    21. Tuazon, E.C.; Carter, W.P.L., Aschmann, S.M.; Atkinson, R. Int. 
J. Chem. Kin. 1991, 23, 1003-1015.
    22. Leitner, N.K.V.; Papaihou, A.L.; Croue, J.P.; Peyrot, J.; Dore, 
M. Ozone Sci. and Eng. 1994, 16, 41-54.
    23. Kirchstetter, T.W.; Singer, B.C.; Harley, R.A.; Kendall, G.R.; 
Chan, W. Environ. Sci. Technology. 1996, 30, 661-670.
    24. Hoekman, S.K. Environ. Sci. Technology. 1992, 26, 1206-1216.
    25. Naegeli, D.W. SAL Technical Paper Series. 1989, 891614, 1-10.

    [GRAPHIC] [TIFF OMITTED] T7218.008
    
    [GRAPHIC] [TIFF OMITTED] T7218.009
    
    [GRAPHIC] [TIFF OMITTED] T7218.010
    
    [GRAPHIC] [TIFF OMITTED] T7218.011
    
    [GRAPHIC] [TIFF OMITTED] T7218.012
    
    [GRAPHIC] [TIFF OMITTED] T7218.013
    
    [GRAPHIC] [TIFF OMITTED] T7218.014
    
     Addendum to paper 97-TA34.02 by Peter M. Joseph, June 8, 1997

    After completing the manuscript for this paper in March, I learned 
of work performed by T. E. Kleindienst and EPA scientists in Research 
Triangle Park, NC. Their paper, No. 97-RP139.04, found no detectable 
levels of TBF in engine exhaust greater than 50 ppt. The paper does not 
say if a catalytic convertor was present in the experimental system. If 
subsequent studies confirm the absence of TBF in exhaust from MTBE 
fuels, it obviously rules out the hypothesis that TBF is the unknown 
MDT discussed in my paper.
    However, it is known that TBF will rapidly pyrolyze into formic 
acid (FA) and isobutylene (ISB) (Gordon et al., J. Chem . Soc. 1957, 
281315). The process is highly temperature dependent, and the rate 
constant increases rapidly with increasing temperature. At 500 deg.K, 
the lifetime is about 10,000 seconds, while at 681G6+K it is about 1 
second. Since temperatures in the combustion chamber are obviously much 
higher, it is predicted that any TBF formed by partial oxidation of 
MTBE would rapidly decompose into FA and ISB. Furthermore, the work of 
Kleindienst et al does show a very large increase in ISB production 
comparing reference gasoline to RFG with MTBE. This increase is also 
temperature dependent, becoming larger at lower ambient temperatures. 
For example, the increase is 143 percent at 75 deg.F, and rises to 555 
percent at -20 deg.F. Thus, this increase is consistent with the 
production of TBF by partial oxidation in the combustion process. The 
obvious implication is that FA is being produced in similar quantities. 
FA was explicitly mentioned in my paper as a possible candidate for the 
MDT.
    In my oral presentation, I showed data obtained in 1960 by Amdur on 
the effect of FA on the airway resistance in unsensitized guinea pigs 
(Amdur, Int. J. Air Pollution, 1960;3:201-220). Amdur's data show a 
very significant increase in airway resistance from an acute exposure 
of the animals to 340 ppb of FA. By comparison, in another experiment 
conducted using exactly the same experimental setup, Amdur found no 
increase in airway resistance in the guinea pigs from exposure to 800 
ppb of ozone. (Amdur, Am. Indust. Hygiene Ass. J. 1978: 39:958-961) Of 
course, it is true that ozone has deleterious effects at lower 
concentrations than 800 ppb, mainly in sensitized animals or in 
combination with other pollutants. However, since relatively little 
information on the respiratory effects of FA is available, this 
comparison of effects on airway resistance is the most straightforward 
comparison of FA and ozone available at this time. It obviously implies 
that FA is at least as toxic for the respiratory system as ozone.
    There have been several measurements of FA in ambient air in recent 
years, but I could find none done in cities with MTBE-RFG. FA was 
measured in Philadelphia in the summer of 1992; the peak value found 
was 23 ppb.(Lawrence and Koutrakis, J. Geophys. Res. 1996;1O1:9171-
9183) The highest concentrations reported to date were in the western 
Sierra Nevada mountains in California, where 40 ppb of FA was found in 
1990. (Harrington et al, Atmos. Envir. 1993;27A:1843-1849) Obviously, 
new measurements of FA in urban areas using MTBE-RFG are desperately 
needed.
                                 ______
                                 
                                                       May 5, 1997.
Dr. Peter Joseph
Hospital of University of Pennsylvania Department of Radiology
3400 Spruce Street
Philadelphia, PA 19104
                           sb 521 (mountjoy)
    As an unwilling victim of the chemical additive MTBE that now 
comprises 15 percent by volume of our reformulated gasolines, I had the 
opportunity to testify on April 15th at the Transportation Committee's 
hearing on this measure. The onset of my asthma about 10 years ago, 
started out as allergic reactions, then evolved to asthma. This 
coincides with the introduction of MTBE, initially in small quantities, 
and during only part of the year. Starting in March 1996, my asthma 
condition worsened, at the time MTBE was increased to 15 percent. My 
lung capacity was reduced by 80 percent, such that I was enrolled in a 
pulmonary rehabilitation program in a local hospital, at a cost of 
$3250. The reason I feel so positive about this is this: when I am out 
of state, where MTBE is not used, I feel immediate relief! Since March 
1996, I have been up to the Seattle area three times to visit my son 
and his family. I was able to walk a mile there early last month, 
whereas here, I am in distress if I have to walk a few blocks!
    I appeal to your sense of fairness and decency to support this bill 
and remove this known carcinogen from our gasolines until California 
can assure its citizens that this gasoline additive is safe and not 
harmful, to the air we breathe, or the water we drink. As you may know, 
some wells have already been shut down because of MTBE contamination 
(Santa Monica area).
    I thought you might want to hear a personal account as you 
deliberate this most important measure.
            Sincerely,
                                              Kathy Simpson
                                                    897 Dolphin Ct.
                                                Danville, CA 94526.
                               __________
                                                      May 15, 1997.
    I've lived in Pleasanton, CA since March of 94. Prior to that I 
lived in Castro Valley, CA. Several years ago, I noticed when Autumn 
arrived, I started having frequent headaches and a tremendous problem 
with tinitis. Stomach cramps and diarrhea would accompany these 
symptoms along with a general loss of energy. Where I once upon a time 
would go to bed with a headache and wake up feeling good, I was now 
going to bed feeling tired and waking up with a headache. These 
headaches always seemed to reside around my sinuses and would sometimes 
become migraine-like.
    Last year, the symptoms grew tremendously worse. I thought I was 
losing my mind as the sickness got worse and I was having trouble 
remembering things. My older daughter suffered as I did, when I did. It 
was remarkable how I would come home from work and find here suffering 
exactly as I was. I do not believe in ESP, so this was really baffling 
to me. I've worked in management for years and was really beginning to 
feel inept. My reviews were showing it also. In my field, I am sought 
after and well respected. Finally, my job performance and general 
outlook on life suffered to the degree that a move from job and 
geographically seemed the only answer.
    I landed a job in the Sierras near the Nevada border. No cars to 
speak of in the Church Camp where I am now employed. I took a 70 
percent cut in pay. But here is the payoff. I feel so much better.
    We are still in the process of moving up here from Pleasanton 
(Pleasant-not). On the weekends, we go down for business and to move 
more of our belongings up here. We drove down to Pleasanton last Sunday 
morning. By Sunday Noon, my ears were ringing like crazy. I awoke 
Monday morning with the worst of headaches which finally subsided 
around 2 PM after the strong ocean winds had been blowing a while. The 
cramps and diarrhea came right along with it. We drove back up to the 
mountains Monday evening and by Tuesday AM, we all felt better again. I 
have to go back on Saturday for a concert my daughters are in. We are 
all dreading it as all of us notice the MTBE more and more (plus I tend 
to get really irritable). Up until a couple of months ago, my wife and 
youngest daughter did not seem to be so adversely affected. They are 
suffering more an more as time goes on.
    I cannot believe this stuff was ever allowed to begin with. I 
understand there are other states considering using this garbage. Have 
the oil companies no scruples? In Iowa, they use ethanol. I never have 
a problem when I'm back there. Politicians and oil money. What else can 
it be?
    Thank you again for your perserverance.
                                              Dexter Koontz
                                                   Cold Springs, CA
    A charter member of Oxy-busters. Our whole family helped organize 
Jody Water's first meeting.
                                          30 Brooklyn Ave.,
                                  San Jose, CA, 95128, May 2, 1997.

To Whom It May Concern: My name is James Biebesheimer and I am 34 years 
old. For the most part of my life I have been a very active and 
somewhat athletic person with little or no serious health conditions. I 
am writing to explain to the world how MTBE in gasoline is really 
ruining my health and the quality of my life.
    In July 1991 I moved from San Jose, California to Penrose, 
Colorado. At this time I was unemployed so I began working with the 
local farmers in a county where MTBE was not in use at that time. In 
the winter of 1992 I had found employment in Colorado Springs, and this 
is where I recall my problems first began. They were using gasoline 
oxygenated with MTBE at that time there. I would get rashes, breathing 
problems, headaches, and other conditions. But when I would return to 
Penrose where I lived my symptoms would seem to lessen. It seemed to me 
that when I would pump gas in Colorado Springs these effects would 
worsen, but when I would pump gas in Penrose where MTBE was not used I 
would have no problems. After the winter of 1992 I felt I could no 
longer work in Colorado Springs. I had decided that my illness was job 
related, so I decided to try another line of work (roofing). However, 
since most of the work was in the Colorado Springs area I again found 
myself feeling ill. As soon as I would return to Canon City I would 
feel better. Because of this I became a free lance landscaper in Canon 
City and I finished my stay in Colorado with no more complications. 
Looking back on this now it seems obvious that my problems occurred in 
those areas where MTBE was required to be in gasoline and they 
disappeared when I was in cities where it was not required. However, at 
the time I had no suspicion that MTBE in gasoline had anything to do 
with my health problems.
    In June of 1995 I returned to California where, after six months of 
no problems, I again started to feel ill like I had a lingering cold. 
This corresponds pretty well to the introduction of MTBE-RFG in 
November 1995. This was when I would get rashes, lightheadedness, 
difficulty breathing, chest pains, and headaches. I still had no idea 
that MTBE was causing my illness so I assumed it had something to do 
with my new place of employment, which was an electronics company.
    In April of 1997 I went to see my physician Dr. Talbert. She told 
me to quit smoking which I did. However, my condition just seemed to 
get worse every day. Furthermore, I couldn't understand why my 
condition would get worse in the evening. I was given inhalers to 
counteract the breathing difficulties. These did work for a short 
period of time but I still suffered from dizziness and my other 
symptoms. In the evenings I would drive to work in rush hour traffic 
and by the time I got to work I would be in pretty bad shape.
    At this point I took a suggestion from a person who has asthma. He 
suggested driving with the air recirculation on in my car. This did 
seem to help some. However, as soon as I would get out of the car and 
go into work, the problems would return. So at this time I started to 
experiment and tried driving with the windows down. This made me feel 
almost like I was drunk or high on something. So now I knew that what 
was bothering me was something in the air that I was breathing as I 
drove to work.
    The next thing I tried was to go for a walk during high traffic 
hours. I can say that almost killed me! My eyes would water, and I 
couldn't breath, I got dizzy, lightheaded, tired, etc. Then I walked 
the same route late at night when traffic was very light. The symptoms 
from this were definitely reduced, but still present. At this point I 
was beginning to suspect some problem from gasoline so I asked my wife 
to pump our gas for one week. This somewhat reduced the symptoms, but 
nevertheless when I needed to drive my complications continued.
    Finally in April 1997 I came across some information from Dr. 
Joseph about MTBE. On first reading his writings I thought his theory 
was impossible. However, I did talk to him and tried one of his 
suggestions. He said to go to the countryside to get away from the gas 
exhaust fumes. So I stayed at San Luis Reservoir for a whole weekend. 
That area has a forbay near the ocean so the air is very clean. During 
this stay I did not need my inhalers even once! However, after 
returning to San Jose, by Tuesday I was at the Emergency Room in Kaiser 
Permanente for breathing complications and chest pains.
    Dr. Joseph told me that people's symptoms often get worse on cloudy 
and muggy days. I can say that is definitely the case for me. I guess 
it means that the air pollution gets worse on those days.
    So, it is my conclusion that MTBE is either killing me or 
destroying my ability to live a normal and healthy life! If anyone 
wants more details about my problem, feel free to call me at 510353-
7650 after 3:30 PM California time.
    I freely give permission for this letter to be made public, 
including published, photocopied, or transcribed for transmission on 
the Internet. My hope is that my case will help to convince the 
government to ban the MTBE that is causing me and others so much misery 
and illness.
            Sincerely,
                                      James E. Biebesheimer
                               __________
                                                      May 29, 1997.
Dr. Peter Joseph
University of Pennsylvania Medical School
Philadelphia, PA

Dear Dr. Joseph: My story is far less dramatic than others that I have 
read regarding health effects that have occurred following the 
introduction of reformulated gas. However, they were severe enough to 
prompt me to move out of the congested area in which I lived in Los 
Angeles.
    Very simply, although I had suffered from allergies and from chest 
infections over my entire fife, I had never suffered from sinus 
infections, nor from constant running in my right eye unfit the winter 
of 1993-1994. At that time, I began having to take antibiotics to 
overcome sinus infections. I noticed during that winter, when I 
traveled to see any sister on Mercer Island outside Seattle, that I had 
a considerably easier time breathing.
    In the fall of 1994, I went to Hawaii. Within two days the chronic 
running in my eye had ceased and I could also breathe without 
constantly talking antihistimines. When I returned to Los Angeles, I 
became very ill with sinus infection right before Christmas and was on 
diffeecnt antibiotics off and on for four months. It was at that time, 
that I decided it was the ``air'' in Los Angeles, and that I had to 
move.
    It took me several years of looking around California before I 
decided to move to Marin County. While this may not be my final move 
(although the housing is less expensive than Los Angeles, everything 
else is drastically more!), my eye no longer runs and I have not had a 
sinus infection since before Christmas, the first time I have gone 
through January, February, March, andApril off antibiotics in four 
years.
    Where I lived in Los Angeles was in a condonunium building on a 
four lane boulevard, which had become heavily trafficked at rush hour 
in the past four or five years, as a short cut to the ``regular'' route 
into Beverly Ells and the Culver City Studios. Even today, when I go 
into Berkeley or Oakland, I notice that my eye starts to run if I am on 
a heavily trafficked street and that I begin to have ``stuffiness'' in 
my nose--these symptoms occur within a half hour of being around heavy 
traffic.
    While this is anecdotal, it is so pronounced a difference that I am 
extremely careful to stay out of heavily trafficked situations if at 
all possible because the quality of my life is greatly improved without 
my being in densely travelled situations.
    I am hoping that the Coalition for Clean Air will follow up on its 
pressure to have an investigation into the Health Effects of 
Reformulated Gas. The attitudes are so in favor of the ``greatly 
cleaned air'' as a result of said gas, that it is an uphill fight.
    With best wishes and many thanks for your hard work,
                                                  Juliette Anthony.
                               __________
                                    Robert W. Gross, Ph.D.,
                         Santa Clara Valley Water District,
     5750 Almaden Expressway, San Jose, CA 95118, December 4, 1997.

Senate Environment and Public Works Committee
Senate Hart Office Building
Washington, DC 20510

Personal Opinion and Statement
Methyl Tertiary Butyl Ether (MTBE)
Honorable Chair and committee members: California should not compromise 
its water quality in the name of air quality by using a gasoline 
additive known as MTBE. It is my personal opinion, that MTBE should be 
prohibited immediately; and, should be unacceptable in California 
regardless of the levels of exposure to the drinking water supplies, 
the environment or humans.
    The Santa Clara Valley Water District provides flood control and 
wholesale water supply for the 1.7 million residents of Santa Clara 
County. The District responsibilities include managing of the 
groundwater management program, we provide regulatory oversight for 
leaking underground storage tank (UST) investigation and cleanup. Over 
the last year and half, we have requested testing for methyl butyl 
ether (MINE) at UST sites where groundwater has been contaminated. MTBE 
has been detected at nearly 300 sites in the county, at concentrations 
as high as 430,000 <greek-m>g/L. MTBE has not yet been detected in a 
water supply well as of this date. However, to protect the quality of 
our water supply, we have implemented an aggressive action plan. The 
impact of MTBE on the District include the use of significant staff 
resources, expenditure for public outreach and testing, and a loss of 
customer confidence in the water supply.
    Santa Clara Valley Water District (SCVWD) manages 10 local 
reservoirs and the county's groundwater subbasins. It imports water; 
engages in programs aimed at protecting the quality of its' water 
sources; designs and builds water conveyance facilities; and operates 
three water treatment plants. The District sells both treated water and 
groundwater to 13 water retail agencies which service communities 
within the county with their own distribution systems.
    Santa Clara County is better known throughout the world as Silicon 
Valley--headquarters to 4,895 high-tech companies and many thousand 
more industries and businesses. The valley is, in fact, a global 
economic engine, and this economy is currently generating about 850,000 
jobs. It leads the entire San Francisco Bay Area in population size, 
building activity, retail sales and effective buying income.
    At the same time, farming continues in the southern portion of 
Santa Clara County; in 1995, total crop value was estimated at $160 
million. A greenbelt policy has preserved much of the valley's 
surrounding hillsides, and though greatly diminished by decades of 
urban growth, the riparian habitat and wetlands along the county's 700 
miles of creeks and rivers remain and essential habitat for birds, fish 
and wildlife.
    It is within this vibrant context that the SCVWD provides services 
essential to the area's well-being: water supply and flood protection. 
Serving as a water resource management agency, the District encompasses 
all of the county's 1,300 square miles and counts the area's 1.7 
million residents as its' customers.
    SCVWD is known nationally for its' groundwater clean up programs, 
public education, and the continual research which is required for the 
health and safety of its' water. It is the responsibility of the 
District to take every precaution needed in the protection of this 
valuable resource. Santa Clara County has been exposed to too many 
pollutants and to be exposed to one which has a questionable safety 
science is unacceptable in my opinion.
    It is not my position to challenge the volumes of research which 
have been compiled on MTBE. However, it seems inconceivable that 
certain members of the legislative branch in Sacramento, health 
departments, and water district officials are failing to note the 
serious problem this chemical posses to the State's waters and 
environment. State and Federal officials have given safe health risk 
levels for MTBE in parts per billion (ppb) and are set very low--35 ppb 
and 70 ppb, respectively. However, if the average person can detect 
concentration levels between 15 to 40 ppb, this should tell the reader 
something is wrong. Let those scientist which publish and state to the 
public that low dosages of MTBE is not harmful to humans--ask a simple 
question, ``why should the citizens of California be exposed to any 
pollutant, regardless of the level?''
    California is struggling with environmental restrictions in the 
Delta. Every drop of water becomes more critical in the survival to the 
State's economy. Water cannot and should not be compromised with other 
resources; for nature has a delicate balance and individually--they 
must be protected with jealousy. If, we as elected leaders act contrary 
to this principal, it is criminal in my opinion.
    Water districts today are being challenged over the issue of water 
quality (which includes taste, color and odor). To introduce another 
element into drinking waters may cause lack of public confidence in our 
treated water supplies. National water drinking regulations require 
escalating costs to treat the existing sources; if, an additional toxin 
is to be removed from our waters, ``are those which support MTBE, 
willing to underwrite the expense in removing this chemical from the 
State's waters, or will it be a burden of the rate payer?''
    Your support of California Senator Mountjoy's position is needed. 
It is the personal opinion of myself, MTBE should be removed from all 
gasoline products immediately in California until an independent group 
of scientific researchers establish there are no health risks related 
to this chemical.
    Remember, ``water is life, life is water, don't gamble with it!''
                                          Peter Gross Ph.D.

[GRAPHIC] [TIFF OMITTED] T7218.015

[GRAPHIC] [TIFF OMITTED] T7218.016

[GRAPHIC] [TIFF OMITTED] T7218.017

[GRAPHIC] [TIFF OMITTED] T7218.018

[GRAPHIC] [TIFF OMITTED] T7218.019

[GRAPHIC] [TIFF OMITTED] T7218.020

[GRAPHIC] [TIFF OMITTED] T7218.021

[GRAPHIC] [TIFF OMITTED] T7218.022

[GRAPHIC] [TIFF OMITTED] T7218.023

                               __________
                   the uc davis tahoe research group
Sources, Transport and Persistence of MTBE in a Sierra Nevada Multiple 
                                Use Lake
Results
    Discovery of the gasoline additive methyl tert-butyl ether (MTBE) 
in groundwater, and lakes and reservoirs used for drinking water has 
raised considerable concern among public health officials and water 
suppliers in California. The U. S. Environmental Protection Agency has 
classified MTBE as a possible human carcinogen and has a draft health 
advisory for drinking water of 20 to 200 <greek-m>g/L or parts per 
billion (ppb). California state action levels have been established at 
35 ppb. Possible sources of MTBE in shallow groundwater include direct 
contamination from leaking storage tanks and indirect contamination 
from stormwater flow and precipitation which washes through the urban 
atmosphere. Because of MTBE's possible health affects and the fact that 
it is highly soluble in water and difficult to biodegrade, its 
potential persistence in surface water supplies has recently raised 
public and legislative concerns as well as numerous questions which 
require additional research. Studies on fate and transport in drinking 
water lakes are negligible.
    Since March 26, 1997 lake water quality scientists from the Tahoe 
Research Group (TRG) at the University of California, Davis have been 
studying sources, transport and fate of MTBE in Donner Lake. Donner 
Lake is located at the summit of Interstate 80 as it passes through the 
Sierra Nevada in California and is 12 miles northwest of the renown 
Lake Tahoe. Donner Lake lies at an elevation of 5,936 feet above sea 
level with a surface area of 1.5 square miles. It's volume is 
approximately 102,000 acre-feet with a maximum depth of 230 feet and an 
average depth of 109 feet. Among its designated beneficial uses Donner 
Lake is a source of drinking water, contact and non-contact water 
recreation, sportfishing, freshwater and spawning habitat for coldwater 
fish, and downstream its water support habitat nec-

essary for the survival and maintenance of fish species listed under 
law as threatened and/or endangered.
    The UCD-TRG scientific team of John E. Reuter, Brant Allen, Bob 
Richards and Charles R. Goldman, and Scott Seyfried a senior scientist 
with the firm of Levine-Fricke-Recon (Roseville, CAL, sampled the lake 
on 13 dates between March and October 1997. In total, nearly 500 
individual lake water samples have been analyzed for MTBE. In 
cooperation with Dr. Roger Scholl, Laboratory Director for Alpha 
Analytical, Inc. a commercial water quality laboratory in Sparks, NV, 
high sensitivity detection limits of 0.1 ppb were achieved specifically 
for this research effort. This represents one of the most extensive 
field studies of MTBE in lakes in the nation. The sampling effort was 
designed in a systematic manner in order to answer a number of 
important questions including: the relative contribution of 
recreational water craft as a source of MTBE, the extent of MTBE 
transport from surface waters into deeper portions of the lake, the 
loss rate of MTBE from the water column, persistence of MTBE during the 
fall and winter, and influence of meteorological factors such as air 
and water temperature and wind velocity on MTBE.
Results
    <bullet>  MTBE concentrations in the 490 samples ranged from 0.09 
to 12.1 ppb.
    <bullet>  Concentrations of MTBE were regularly distributed 
throughout the entire surface area of the lake.
    <bullet>  Residual concentrations carried over from 1996 to 1997 
were in the range of 0.15-0.30 ppb.
    <bullet>  Approximately 30 days after the Summit Creek fuel spill, 
MTBE in Donner Lake was only 0.3-0.4 ppb suggesting no significant 
impact.
    <bullet>  Beginning in early May, and coincident with the onset of 
the summer boating season, MTBE concentrations in the surface waters 
increased from a low value of 0.1 ppb on April 24 to approximately 2 
ppb just prior to the Fourth of July weekend.
    <bullet>  Sampling on July 7 showed a dramatic 6-fold increase of 
MTBE in surface water from 2 to 12 ppb. This increase is most likely 
the result of increased fuel exhaust into Donner Lake from recreational 
watercraft since rainfall and urban runoff was negligible at this time, 
and since stream flow was nearing its seasonal minimum.
    <bullet>  Boat use data obtained from the Truckee Donner Park and 
Recreation ramp was highly correlated with the seasonal MTBE budget. A 
statistically significant and linear relationship was found between 
boat use and MTBE. Indeed. nearly 90 percent of the observed variation 
in whole-lake MTBE content could be explained by changes in seasonal 
and weekly boat use.
    <bullet>  MTBE in the upper and warmer portion of the lake (0-35 
feet deep) was uniformly high as the result of natural wind mixing of 
these waters. Below approximately 50 feet in the colder uncirculated 
waters MTBE was always less than 0.5 ppb. This distinct distribution 
results from the formation of a stable density boundary (thermocline) 
in the lake which prevents mixing between the surface and bottom 
waters.
    <bullet>  During March and April, before boating activity increased 
on the lake, it was calculated that Donner Lake contained 45-65 pounds 
of MTBE. By July 1 this had increased to 250 pounds with a sharp 
increase to the maximum of 815 pounds shortly after the July 4 holiday. 
Over the September 1 Labor Day weekend MTBE also increased but much 
less dramatically (i.e. approximately a 100 pound increase).
    <bullet>  During the summer period July 7 to September 3, 269 
pounds of MTBE was lost from the lake as a result of volatilization. 
However, in a dramatic fashion, in the 27 days between 3-30 September a 
disappearance of 492 pounds was measured.
    <bullet>  In that period only 37 pounds left the lake via water 
release through the outflow weir. The remaining 455 pounds appears to 
have been volatilized. This occurred prior to lake mixing.
    <bullet>  This translates into a loss rate of 16-17 pounds per day 
or a half-life of approximately 28 days. This is supported by 
theoretical calculations which calculates that under the conditions for 
wind, temperature, current velocity and depth (mean depth of 6 meters) 
found at Donner Lake, the expected MTBE half-life would be 15-25 days.
Conclusions
    1. Recreational boating in Donner Lake is clearly the most 
important source of MTBE in that lake. Since there are no fueling pumps 
on the lake, it would appear that engine exhaust and not spills during 
fueling is the major factor. Neither urban runoff nor precipitation 
contributed significantly to MTBE in Donner Lake.
    2. The major loss of MTBE appeared to be by volatilization at the 
air-water interface. During the summer when boating occurs the net loss 
rate of MTBE from Donner Lake was 2-3 pounds per day. When boating is 
curtailed and new sources decline, the calculated volatilization rate 
increased significantly to 16-17 pounds per day.
    3. Concentrations are expected to reach baseline before complete 
mixing.
    4. Since MTBE did not move though the thermocline into deeper 
waters during the summer and since concentrations have declined before 
lake mixing, accumulation of MTBE in the bottom waters is not expected. 
Data collected prior to the 1997 boating season confirm this 
conclusion.
    5. Research at Donner Lake has broad applicability and 
transferability to other lakes both within California and nationally. 
The importance of the type of research to policy decisions is 
significant. We hope to be able to combine our field research with our 
ongoing modeling efforts to more fully understand the impact of MTBE in 
freshwaters.
                               __________
                                  OXY-BUSTERS OF NEW JERSEY
                                          SOUTHERN DIVISION
                                             158 Great Road
                            Maple Shade, NJ 08052, December 7, 1997

U.S. Senate
Committee on Environment and Public Works
Senate Hart Office Building
Washington, DC 20510

Re: Hearing on MTBE sponsored by Senator Barbara Boxer, 12/9/97

    On behalf of Oxy-Busters of NJ, a grassroots organization, I would 
like to comment on the issue of the use of gasoline oxygenates such as 
MTBE. Please include this letter as a formal part of the record for the 
above hearing.
    Thousands of people in NJ began experiencing severe health 
reactions to high levels of MTBE in November of 1992, when the 
wintertime oxygenated fuel program started. Symptoms included chest 
pains, breathing difficulties, headaches, nose bleeds, eye pain and 
sinus problems. In addition, people felt tired and lethargic. For 
myself and many others, the connection between these symptoms and 
oxygenated gasoline was quite clear. While I was driving my car, 
filling it with gas, or just walking down a traffic filled street, my 
symptoms were severe. When I was in my house, the symptoms were less 
severe, but they persisted, as if caused by some pollutant in the air. 
Most of us noticed that the symptoms were worse on cloudy days. We felt 
sick all winter long, until conventional gas returned in the spring. 
When oxygenated fuel started again the next November, the symptoms were 
back.
    Our group formed in 1993, in anticipation of another winter of 
oxygenated fuel. Over 15,000 people signed a petition to ban oxygenated 
fuel, which was presented to Governor Whitman in 1995. Over 1,000 NJ 
residents have called the Oxy-Buster hotline complaining about health 
problems they attribute to this new gasoline. For the most part, they 
all have the same symptoms described above.
    People are still getting sick in NJ from reformulated gasoline 
(RFG) which is used all year long and contains at least 11 percent 
MTBE. In addition, MTBE has begun to contaminate our water, which the 
U.S.G.S. can attest to.
    Although the EPA claims that MTBE has been widely tested, the 
combustible byproducts of MTBE mixed with gasoline have never been 
tested. What is clear is that asthma rates have been steadily 
increasing in this country since 1979, when MTBE was first introduced 
into gasoline. In recent years, asthma rates seem to be dramatically 
increasing almost in tandem with the increased use of MTBE.
    The recent announcements by Tosco and Chevron, that oxygenates do 
little to reduce ozone, support what we have been saying for over two 
years. We based this contention on the Auto/Oil industry studies, a 
Chevron Technical Bulletin of November 1994, the National Research 
Council report on MTBE of June 1996, and our own study of ozone levels 
in Philadelphia from 1993 to 1996. All these sources indicated that 
oxygenates did little or nothing to reduce ozone. Our own report showed 
virtually no change in ozone levels relative to temperature after the 
introduction of RFG in Philadelphia in 1995.
    Our-group is dedicated to the elimination of oxygenates from 
gasoline, and we will continue to protest their use until this goal has 
been accomplished.
            ncerely,
                                             Barry Dorfman,
                                      Director of Special Projects.
                               __________
                                                 December 31, 1997.

The Honorable John H. Chafee
United States Senate
Washington, DC. 20510
Dear Senator Chafee: Attached are Kern Oil & Refining Co.'s comments to 
the recent issue of MTBE in gasoline being considered by the U.S. 
Senate Environmental and Public Works Committee and the subject of 
Senator Boxer's December 9, 1997 hearing in Sacramento. These comments 
were submitted to Senator Boxer's office via fax and regular mail on 
December 23, 1997. Thank you for the opportunity to present comments to 
your committee.
            Respectfully,
                         Thomas L. Eveland, Vice President,
                       Governmental Affairs Kern Oil & Refining Co.
                                 ______
                                 
                                  Kern Oil and Refining Co.
                                      7724 East Panama Lane
                      Bakersfield, CA 93307-9210, December 23, 1997

The Honorable Barbara Boxer
United States Senate
Washington, DC 20510-0505

RE: MTBE Hearing in Sacramento

Dear Senator Boxer: Kern Oil & Refining Co. (Kern) is pleased to submit 
comments for your consideration and that of the Senate Committee on the 
Environment and Public Works, regarding the environmental issues 
related to the use of methyl tertiary butyl ether (MTBE) in gasoline, 
which was the subject of your December 9, 1997, hearing in Sacramento.
    Kern is a small independent petroleum refiner in Bakersfield, 
California. In fact, Kern is the only small refiner in California that 
has made the substantial investments and operational changes necessary 
to produce the cleaner burning gasoline now required in California. 
Kern has spent multiple millions of dollars upgrading its refinery to 
produce cleaner burning gasoline.
    Kern's investments in refinery modifications to make cleaner 
burning gasoline were based on the use of MTBE as a blending component 
due to its projected availability and superior blending 
characteristics. Unlike Chevron, Tosco, and the other large refiners in 
California who have broad operating flexibility with multiple 
processing units, Kern has only one viable gasoline processing 
scenario. That scenario requires MTBE or other oxygenates in volumes 
sufficient to supply the needed octane quality and distillation 
characteristics and to minimize the benzene and aromatic hydrocarbon 
content of Kern's gasoline, in addition to providing the currently 
mandated oxygen content. In other words, Kern's gasoline production is 
quite complex, requiring MTBE or a substance with similar blending 
characteristics to meet state requirements whether or not Kern's 
gasoline were required to contain oxygen. Kern simply does not have the 
flexibility in its refinery nor the financial resources and capability 
necessary to make the technological investments to produce oxygen-free 
cleaner burning gasoline. And since Kern derives over one-third of its 
revenues from gasoline, it would be unable to survive if it were 
precluded from producing gasoline. This would seriously impact not only 
gasoline supplies in the southern San Joaquin Valley but also diesel 
fuel supplies in this strong agricultural region of the state.
    Senator, it is important to note that Kern has made numerous 
inquiries to potential oxygenate suppliers to determine whether any 
oxygenate other than MTBE could be made available. Our exhaustive 
search (as well as that of others, we understand) has yielded no 
current supplies and no prospect of future supplies.
    Ethanol is a separate issue from the other potential oxygenates. In 
addition to being in approximate supply-demand balance nationwide 
already with little or no available surplus to meet a huge potential 
California demand, it has serious environmental, water contamination, 
and economic problems as a gasoline blending component. Ethanol, unlike 
MTBE and other ethers, causes a one or two psi increase in the vapor 
pressure of the base gasoline with which it is blended. This in turn 
increases the evaporative emissions from the fuel, making it 
incompatible with summer season (April through October in our area) 
volatility limits. In addition, ethanol is very susceptible to water 
contamination. This is the reason common carrier pipelines prohibit 
ethanol-blended gasoline. While water contamination is a concern with 
regard to MTBE, Kern is concerned about the much greater potential for 
water contamination with ethanol-blended gasoline. Also, ethanol 
requires large government subsidies to be economically viable as a 
gasoline blending component. California does not provide ethanol-
blending subsidies, making blending of ethanol into gasoline 
uneconomical in California. Ethanol is not blended into gasoline in 
California and is not likely to be in the near future because of all 
the above negative factors associated with ethanol as a blending 
component. Conversion of ethanol to ETBE overcomes some but not all of 
ethanol's shortcomings as a gasoline blending component however, the 
major problems of availability and cost are not obviated by the 
conversion of ethanol to ETBE which has occurred only to a very limited 
extent nationwide.
    We would like to point out that the health and environmental 
impacts of MTBE have been the subject of many extensive studies. MTBE 
is only an environmental problem if it leaks into ground water from 
storage tanks or pipelines. Legislation is already in place with regard 
to storage tank and pipeline leak prevention. Although there are 
detectable concentrations of MTBE in urban air, airborne MTBE is not a 
health threat because of the extremely low concentrations. MTBE also 
has been detected near the surface of lakes that have gasoline engine-
powered watercraft, but here again, it has not been found in levels 
that could cause a threat to human health.
    The obvious solution to the potential (and in at least two 
California communities, real) threat of MTBE ground water contamination 
is to prevent it from getting into the ground water. Indeed, no 
components of gasoline should be allowed to contaminate ground water. 
This will require replacement of all leaking tanks and pipelines, 
effective monitoring of all tanks and pipelines for future leaks, and 
remediation of contaminated soils that threaten drinking mater 
resources. Again, as previously stated legislation has been passed with 
regard to these issues.
    Testimony at your December 9 hearing from the Santa Monica Director 
of Environment and Public Works Management would lead one to suspect 
that MTBE can pass through ``new'' properly designed underground tanks 
to contaminate ground water. That witness was not competent to make 
such a statement, and the statement of course was patently inaccurate. 
We have seven or eight years of experience in storing MTBE and MTBE-
gasoline blends. Our tanks have extremely sensitive (part per billion 
level) leak detection devices, and we can competently testify that MTBE 
is no more corrosive to steel tanks than other gasoline components.
    Senator Boxer, Kern sincerely appreciates your taking a personal 
interest in devising a means to protect the health and well-being of 
all Californians. We ask, however, that you and all government 
officials ``look before you leap'' and be sure that in attempting to 
solve one problem you don't create a larger one. The problem is not 
MTBE, but underground tanks and pipelines that leak MTBE, benzene, and 
other gasoline components into the soil and ground water. Only tough 
leak detection and tank integrity standards rigorously enforced will 
prevent drinking water contamination from MTBE and other components of 
gasoline. Again, MTBE as a gasoline component is not the problem...it 
is a safe and viable necessity.
            Respectfully submitted,
                                          Thomas L. Eveland
                                 Vice President, Government Affairs
                               __________
Simpson Associates, M.B.A., C.P.A. Real Instate Consultants
                                         897 Dolphin Court,
                               Danville, CA 94526, 12 December 1997

Senate Committee on Environment and Public Works
Washington, DC 20510

Senator Boxer: This year I have testified numerous times at the State 
Capitol in support of SB 521 (Mountjoy) regarding MTBE and its toxic 
effects on my health.
    My airways have shut down by 80 percent since the Spring of 1996, 
when MTBE was increased to 11 percent by volume in gasolines. I was so 
disabled that my physician enrolled me in a pulmonary rehabilitation 
program where I learned I could die from an asthma attack during the 
night if my inhalers weren't on my night table. I had no asthma as a 
child or young adult. I now must use 4 inhalers numerous times during 
the day to keep my airways open. I cannot walk more than 2 blocks 
without becoming symptomatic and having to use an inhaler.
    I offer this simple proof that MTBE is the culprit . . . I've just 
returned from 2 weeks in suburban Seattle, where there is no MTBE and, 
presto . . . I can breathe easily again and walk for a mile without 
wheezing or stopping to use an inhaler. Each time I leave California 
for an MTBE-free state (sic, Washington), I experience a dramatic 
reduction of asthmatic symptoms.
    Methyl Tertiary Butyl Ether (MTBE) has polluted the air and now 
threatens our drinking water in various parts of the state. It must be 
banned!
            Sincerely,
                                             Kathy Simpson.

                                  <all>

</pre></body></html>
